<html>
<title> - NOMINATION OF MICHAEL O. LEAVITT</title>
<body><pre>[Senate Hearing 108-363]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-363
 
                    NOMINATION OF MICHAEL O. LEAVITT
=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                                   on

     THE NOMINATION OF GOVERNOR MICHAEL O. LEAVITT, OF UTAH, TO BE 
          ADMINISTRATOR, U.S. ENVIRONMENTAL PROTECTION AGENCY

                               __________

                           SEPTEMBER 23, 2003

                               __________

 Printed for the use of the Senate Committee on Environment and Public 
                                 Works






                   U.S. GOVERNMENT PRINTING OFFICE
92-385                       WASHINGTON : 2004
_______________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800, 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: stop SSOP, Washington, 
DC 20402-0001












               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                      one hundred eighth congress
                             first session

                  JAMES M. INHOFE, Oklahoma, Chairman
JOHN W. WARNER, Virginia             JAMES M. JEFFORDS, Vermont
CHRISTOPHER S. BOND, Missouri        MAX BAUCUS, Montana
GEORGE V. VOINOVICH, Ohio            HARRY REID, Nevada
MICHAEL D. CRAPO, Idaho              BOB GRAHAM, Florida
LINCOLN CHAFEE, Rhode Island         JOSEPH I. LIEBERMAN, Connecticut
JOHN CORNYN, Texaa                   BARBARA BOXER, California
LISA MURKOWSKI, Alaska               RON WYDEN, Oregon
CRAIG THOMAS, Wyoming                THOMAS R. CARPER, Delaware
WAYNE ALLARD, Colorado               HILLARY RODHAM CLINTON, New York

                Andrew Wheeler, Majority Staff Director
                 Ken Connolly, Minority Staff Director

                                  (ii)














                            C O N T E N T S

                              ----------                              
                                                                   Page

                           SEPTEMBER 23, 2003
                           OPENING STATEMENTS

Allard, Hon. Wayne, U.S. Senator from the State of Colorado......    32
    Letter, Utah Attorney General Shurtleff......................    64
Baucus, Hon. Max, U.S. Senator from the State of Montana.........    30
Boxer, Hon. Barbara, U.S. Senator from the State of California...    34
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..    51
Clinton, Hon. Hillary Rodham, U.S. Senator from the State of New 
  York...........................................................    26
Cornyn, Hon. John, U.S. Senator from the State of Texas..........    43
Crapo, Hon. Michael D., U.S. Senator from the State of Idaho.....    29
Graham, Hon. Bob, U.S. Senator from the State of Florida.........    77
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     1
Jeffords, Hon. James M., U.S. Senator from the State of Vermont..    17
Lieberman, Hon. Joseph I., U.S. Senator from the State of 
  Connecticut....................................................    17
Murkowski, Hon. Lisa, U.S. Senator from the State of Alaska......    24
Reid, Hon. Harry, U.S. Senator from the State of Nevada..........    23
Thomas, Hon. Craig, U.S. Senator from the State of Wyoming.......    22
Voinovich, Hon. George V., U.S. Senator from the State of Ohio...    19
Warner, Hon. John W., U.S. Senator from the Commonwealth of 
  Virginia.......................................................    19
Wyden, Hon. Ron, U.S. Senator from the State of Oregon...........    21

                               WITNESSES

Bennett, Hon. Robert F., U.S.Senator from the State of Utah......     9
Leavitt, Hon. Michael O., Nominated by the President to be 
  Administrator, U.S. Environmental Protection Agency............    35
    Committee questionnaire......................................    81
    Prepared statement...........................................    78
    Responses to additional questions from:
        Senator Baucus...........................................   110
        Senator Boxer............................................   132
        Senator Carper...........................................   143
        Senator Chafee...........................................    93
        Senator Clinton..........................................   146
        Senator Graham.........................................112, 117
        Senator Inhofe...........................................    91
        Senator Jeffords........................................95, 108
            On behalf of:
                Center for Progressive Regulation................   104
                Congressman Bart Stupak..........................   104
                PETA.............................................   101
                Senator Jon S. Corzine...........................   101
                Senator Debbie Stabenow..........................   102
        Senator Lieberman......................................117, 122
        Senator Murkowski........................................    94
        Senator Voinovich........................................    92
        Senator Wyden..........................................141, 143
Hatch, Hon. Orrin G., U.S. Senator from the State of Utah........     5
    Prepared statement...........................................     8

                          ADDITIONAL MATERIAL

Article, Right Choice for the EPA, Washington Post...............    13
Letters:
    Governor Bill Richardson.....................................    15
    Senator Benjamin Nelson......................................    14
    Sundry organizations.........................................    12
Reports:
    EPA's Response to the World Trade Center Collapse, Office of 
      Inspector General.........................................154-309
    Latest Findings on National Air Quality, 2002 Status and 
      Trends....................................................310-343
Statements:
    EPA's Labor Unions...........................................   152
    Skull Valley Band of Goshute Indians.........................   343
  















                    NOMINATION OF MICHAEL O. LEAVITT

                              ----------                              


                      TUESDAY, SEPTEMBER 23, 2003

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9 o'clock a.m. in 
room 406, Senate Dirksen Building, Hon. James M. Inhofe 
[chairman of the committee] presiding.
    Present: Senators Inhofe, Jeffords, Voinovich, Wyden, 
Thomas, Clinton, Baucus, Reid, Murkowski, Cornyn, Warner, 
Allard, Boxer, Crapo, Chafee, and Bond.

 OPENING STATEMENT OF HON. JAMES M. INHOFE, U.S. SENATOR FROM 
                     THE STATE OF OKLAHOMA

    Senator Inhofe. I would like to make one comment before 
moving on to Governor Leavitt and whomever else would come 
forward, Senator Bennett, I think Senator Hatch is here for 
introductory purposes. While you are being seated, let me 
comment briefly on some criticism directed at the Governor 
concerning the nomination protocol.
    Last week, Senator Lieberman issued a press release 
announcing his intention to place a hold on Governor Leavitt's 
nomination citing his refusal to answer pre-hearing questions. 
As I stated in my response last week, Governor Leavitt never 
officially received questions from the EPW committee. In fact, 
it is unprecedented for this committee to subject a nominee for 
the EPA Administrator to pre-hearing questions. It has never 
happened before. Our standard practice is for all members to 
have the opportunity to meet with the nominee privately prior 
to the hearing and to ask formal questions during the hearing 
and written questions after the hearing.
    I know that Senator Lieberman was offered this meeting and 
he rejected it. He wasn't able to work it into his schedule and 
I think it is a shame he is not here today. I certainly he 
would not have a hold for this purpose because he is in 
California at some fundraisers right now and I believe this is 
more important.
    With that, we will move on to the opening statements. We 
are going to have a full house today and we will have to stop 
by noon. My intention would be for us to limit our opening 
statements. Senator Jeffords and I will limit ours to 5 
minutes. We would ask the members to limit theirs to 3 minutes. 
Then we will have 5-minute rounds, as many rounds as you want 
to have. Senator Wyden, we talked about this and you will 
certainly get ample opportunity to do that. We will start with 
my opening statement.
    The EPW committee convenes this morning to consider the 
nomination of Governor Michael Leavitt to be the next 
Administrator of the Environmental Protection Agency. It is my 
honor to welcome Governor Leavitt to the committee. I apologize 
for the fact that you were inconvenienced and your wife was 
inconvenienced even more last week when we had to change it at 
the last minute from Thursday to Tuesday. We had one of our 
members who objected to that time.
    I also want to thank you for your commitment to address the 
Tar Creek situation. The members of this committee have heard 
me talk about this now since last January as the most 
devastating Superfund site in America. I know we will be able 
to work out a solution to that during your tenure.
    Let me be clear from the outset, this may come as news to 
some of you but this hearing is about Governor Mike Leavitt, 
about his qualifications to serve as the Nation's top 
environmental official. It is not about the Administration, it 
is not about that environmental policy. Governor Leavitt is 
currently the longest serving Governor in the Nation, having 
ably served the people of Utah for 11 years. Five times during 
his administration, independent public policy analysts have 
ranked Utah the Nation's best managed State.
    He is a former chairman of the National Governors' 
Association where he served as Governor with two of our 
members, Senator Voinovich and Senator Carper, who I understand 
will be here very shortly. He has also chaired the Western 
Governors' Association as well as the Council of States.
    Consider the Governor's accomplishments on air quality, the 
State of Utah meets all Federal air quality requirements. His 
State under his leadership meets all Federal air quality 
requirements. During 11 years as Governor, Mike Leavitt has 
made great strides in improving Utah's water. The facts speak 
for themselves as the State's watersheds are among the cleanest 
in the Nation.
    Governor Leavitt has also implemented initiatives similar 
to legislation sponsored by Senator Chafee which this committee 
and the full Senate passed unanimously. In Utah, nearly 5,000 
underground storage tanks have been cleaned up and upgraded 
preventing toxic substances from entering the State's water 
supply. Also, the EPA has adopted Utah's concentrated animal 
feeding operations which reduced the impact of farming and 
ranching on water quality as a national model. Governor 
Leavitt, I congratulate you.
    As I noted earlier, much of this hearing will be focused on 
something else, President Bush's environmental record. I am 
confident we will hear the drum beat of denunciations that 
begin with the day President Bush took office. The litany goes 
something like this. The air is dirtier; kids are suffering 
from asthma attacks and respiratory diseases; precious lakes, 
rivers, streams and forests are more polluted and big oil's 
campaign contributions are corrupting national environmental 
policy. None of this has a basis in fact.
    What are the facts? Last Monday the EPA released its 2003 
Air Quality Report. The findings might shock some in this room. 
Today the air is cleaner than the day President Bush took 
office. Under SO2 emissions from powerplants, we are 9 percent 
lower than we were in 2000. NOX emissions from powerplants also 
show a 13 percent reduction from the year 2000. There is 
certainly more work to be done and that is why the President 
has initiated his Clear Skies Initiative which is the most far-
reaching and aggressive reduction in emissions of any President 
in history, some 70 percent reductions in emissions of SOX, NOX 
and mercury.
    Even environmental groups couldn't ignore it when in April 
of this year President Bush announced a 90 percent reduction in 
off road diesel fuel emissions. The EPA estimated by 2030, new 
regulations will prevent 9,600 premature deaths a year, along 
with 8,300 hospitalizations, 16,000 heart attacks and 5,700 
children's asthma related emergency room visits. Even the NRDC 
called it a bold proposal that will be the biggest public 
health step since lead was removed from gasoline more than two 
decades ago. Just after he took office, President Bush proposed 
landmark brownfields legislation. It passed unanimously in this 
committee, sailed through both Houses of Congress and will help 
cleanup 500,000 brownfield sites all across the Nation.
    We are going to hear a lot today about President Bush's 
proposal on New Source Review, Superfund and healthy forests. 
You are going to hear that New Source Review reform amounts to 
the biggest clean air rollback in history. It is absolutely 
false. New source review reform does not permit any pollution 
increase but merely allows companies to modernize their 
facilities to make them more efficient and more pollution free.
    You are going to hear that under Superfund, President Bush 
is letting polluters off the hook. That is absolutely false. He 
has a polluters pay policy which is in effect today and 
polluters are in fact paying.
    You are going to hear that the President's healthy forest 
imitative is a gift to the timber industry to destroy forests. 
You just ask anyone in New Mexico or Arizona and nothing could 
be further from the truth.
    I guarantee you this. President Bush and Mike Leavitt will 
further the progress we have made in the last 30 years and 
President Bush and Mike Leavitt will lead us into a new era of 
environmental protection.
    [The prepared statement of Senator Inhofe follows:]
   Statement of Hon. James M. Inhofe, U.S. Senator from the State of 
                                Oklahoma
    Good morning. The Committee on Environment and Public Works 
convenes this morning to consider the nomination of Governor Michael 
Leavitt to be the next Administrator of the Environmental Protection 
Agency. It is my honor to welcome Governor Leavitt to the committee and 
I look forward to his testimony. Governor, I apologize to you and your 
wife for the last-minute cancellation. I hope you weren't too 
inconvenienced. It's good to have you here.
    I also want to thank you for your commitment to addressing the Tar 
Creek Superfund site in Oklahoma. As you know, this is a top priority 
for me and I appreciate discussions we have already had on this 
subject. I look forward to working with you and to our upcoming tour of 
the area after you are confirmed.
    Let me be very clear from the outset: this may be news to some, but 
this hearing is about Governor Mike Leavitt, about his qualifications 
to serve as the nation's top environmental official. Some environmental 
groups view this hearing as a proxy fight over President Bush's 
environmental record. These attacks cannot go unanswered, but for now I 
want to talk about a nominee with an impeccable record of service to 
our country.
    Where to begin? There is a lot to talk about. Governor Leavitt's 
resume is marked by extensive experience in government and the private 
sector, and a long list of stellar accomplishments.
    I don't think anyone has any doubt--on either side of the aisle--
that Mike Leavitt is supremely qualified to be the next Administrator 
of the Environmental Protection Agency. And I would also say that no 
member disagrees that Mike Leavitt has the proper moderation, balance 
and temperament to handle the challenges that come with the job.
    Governor Leavitt is currently the longest serving Governor in the 
Nation, having ably served the people of Utah for 11 years. Five times 
during his administration, independent public policy analysts have 
ranked Utah the nation's best-managed State.
    He is a former chairman of the National Governors' Association, 
where he worked closely with two former Governors on this committee: 
Sen. Voinovich and Sen. Carper. He also chaired the Western Governors' 
Association, the Republican Governors' Association, and the Council of 
the States. Before being elected Governor of Utah in 1992, he served as 
an outside director of two large public corporations and was a member 
of the Utah State Board of Regents, overseeing the State's nine 
colleges and universities.
    Some environmental groups have airily dismissed these 
accomplishments. True to form, they have maligned the Governor's 
record. The Sierra Club, for example, called Governor Leavitt a 
``disappointing choice,'' but never offered compelling proof to justify 
its opinion. The reason is simple: the facts show that Governor 
Leavitt's environmental record is one of the best in the Nation.
    Just consider the Governor's accomplishments on air quality: the 
State of Utah meets all Federal air quality requirements. Let me repeat 
that: the State of Utah meets all Federal air quality requirements. 
This was not the case before Governor Leavitt took office.
    Visibility in the West has improved dramatically, largely as a 
result of Governor Leavitt's service as co-chair of the Western 
Regional Air Partnership and vice-chair of the Grand Canyon Visibility 
Transport Commission. The commission made over 70 recommendations 
improving visibility in 16 national parks and wilderness areas on the 
Colorado Plateau.
    Along with air quality, the American people view water quality as 
one of their top environmental priorities. So does Governor Leavitt. 
During his 11-year tenure, Governor Leavitt made great strides in 
improving Utah's water. The facts speak for themselves: the State's 
watersheds are now among the cleanest in the Nation. Seventy-three 
percent of Utah's streams currently meet Federal water quality 
standards, compared to 59 percent 10 years ago, a 24 percent 
improvement since Governor Leavitt took office. Currently, 60 percent 
of the nation's streams meet this standard.
    Governor Leavitt also implemented initiatives similar to 
legislation sponsored by Sen. Chafee, and which this committee, and the 
full Senate, approved unanimously. In Utah, nearly 5,000 underground 
gas storage tanks have been cleaned up and upgraded, preventing toxic 
substances from entering the State's water supply. Also, the 
Environmental Protection Agency has adopted Utah's Concentrated Animal 
Feeding Operations, which reduce the impact of farming and ranching on 
water quality, as a national model.
    As his record attests, Governor Mike Leavitt is an excellent 
nominee and highly qualified to head EPA. Unfortunately, as I noted 
earlier, much of this hearing will be focused on something else: 
President Bush's environmental record.
    I'm confident we'll hear the drumbeat of denunciations that began 
the day President Bush took office. The litany goes something like 
this: the air is dirtier, more kids are suffering from asthma attacks 
and respiratory disease, precious lakes, rivers, streams, and forests 
are more polluted, and Big Oil's campaign contributions are corrupting 
national environmental policy.
    This kind of apocalyptic environmental rhetoric isn't new. We heard 
it during the presidency of George H.W. Bush. In 1992, the Sierra Club 
said, ``We've learned the hard way that President Bush cannot be 
trusted.'' President Bush, of course, signed the 1990 Clean Air Act, 
including the highly successfully Acid Rain program, into law. And 
today air quality by any measure has improved dramatically.
    This kind of invective is an effective fundraising tool for some 
groups-and one, I might add, that brings in a lot of money. But none of 
this has any basis in fact.
    So what are the facts? On Monday, EPA released its 2003 air quality 
report. The findings might shock some in this room. Today the air is 
cleaner than the day President Bush took office. SO2 emissions from 
power plants were 10.2 million tons in 2002, 9 percent lower than in 
2000. NOx emissions from power plants also continued a downward trend, 
measuring 4.5 million tons in 2002, a 13 percent reduction from 2000.
    There's certainly more work to be done, and that's why President 
Bush proposed his Clear Skies Initiative. Clear Skies is the most 
aggressive Presidential initiative in American history to reduce power 
plant emissions. It will reduce emissions quicker and at lower cost 
than existing law and it is based on the 1990 Acid Rain Program, which 
has reduced SO2 emissions 50 percent, and achieved nearly 99 percent 
compliance.
    In April of this year, President Bush announced a 90 percent 
reduction in off-road diesel fuel emissions. EPA estimated that by 2030 
the new regulations will prevent 9,600 premature deaths a year, along 
with 8,300 hospitalizations, 16,000 heart attacks, and 5,700 children's 
asthma-related emergency room visits.
    Even environmental groups-who can't stand to offer the President a 
hint of praise-couldn't ignore it. NRDC called it a ``bold proposal'' 
that will be ``the biggest public health step since lead was removed 
from gasoline more than two decades ago.''
    Just after he took office, President Bush proposed landmark 
Brownfields legislation. It passed unanimously in this committee, 
sailed through both houses of Congress by overwhelming margins, and 
will help cleanup 500,000 brownfield sites all across the Nation. In 
July, EPA provided $73.1 million in grants to 37 States for this 
purpose. I say without hyperbole that this legislation was one of the 
most significant and successful bipartisan environmental 
accomplishments in a generation.
    President Bush also took a stand on an important international 
environmental issue: the Treaty on Persistent Organic Pollutants, or 
POPS Treaty. President Bush signed the treaty during a Rose Garden 
ceremony, and then urged this committee to pass implementing 
legislation sponsored by Sen. Chafee and Sen. Jeffords.
    Now we're going to hear a lot today about President Bush's 
proposals on New Source Review, Superfund, and Healthy Forests. I want 
to comment briefly on each of them.

    <bullet>  You're going to hear that New Source Review reform 
amounts to the biggest clean air rollback in history. Absolutely false. 
NSR reform does not permit ANY pollution increases but merely allows 
companies to modernize their facilities and make them more efficient.
    <bullet>  You're going to hear that under Superfund President Bush 
is letting polluters off the hook. Absolutely false. Whenever there is 
an identifiable, viable party responsible for a Superfund site, they 
pay. And they are paying now.
    <bullet>  You're going to hear that the President's Healthy Forests 
Initiative is a gift to the timber industry to destroy our forests. 
Absolutely false. This initiative is designed to PREVENT forest fires 
that have so ravaged the livelihoods of families and businesses in the 
West.

    I will say this: if our economy continues to grow and prosper-
something President Bush is actively encouraging-our environment will 
continue to improve well into the future. And President Bush's policies 
will have a lot to do with it.
    I guarantee you this: President Bush and Governor Mike Leavitt will 
further the progress we've made over the last 30 years. History will 
show that key environmental indicators will improve faster, more 
aggressively, and at lower cost to the public. As with the last 2 
years, there will be no rollbacks, no setbacks, no pollution increases, 
and no deterioration from our present condition. President Bush and 
Mike Leavitt will lead us into a new era of environmental protection.
    Senator Inhofe. Before we go on with further opening 
statements, I would like to recognize Senator Bennett or 
Senator Hatch, whoever wishes to go first. Senator Hatch, you 
have seniority. Do you have any comments you want to make about 
our nominee today?

STATEMENT OF HON. ORRIN G. HATCH, A UNITED STATES SENATOR FROM 
                       THE STATE OF UTAH

    Senator Hatch. Thank you, Mr. Chairman, Senator Jeffords 
and members of this distinguished committee.
    I thank you for holding today's hearing for Governor 
Leavitt's nomination to head the Environmental Protection 
Agency. I can personally think of no better candidate for the 
job. Let me tell you about Mike Leavitt. I think this is 
important.
    I have known Mike Leavitt for almost 30 years. He is 
bright, he is imminently capable and nobody works harder. Mike 
Leavitt listens before he acts, he consults before he commits, 
and above all, he is fair and honest and everybody knows it. In 
short, he is the perfect candidate for one of the toughest jobs 
in government today, perhaps the toughest job in government 
today.
    So Mr. Chairman, it is with particular pleasure that I 
introduce Mike and Jackie Leavitt to you this morning. I look 
forward to welcoming my friends to Washington for their more 
permanent stay after the Senate confirms Michael Leavitt as the 
Administrator of the EPA.
    Let me state for the record that Michael Leavitt is one of 
our Nation's most able public figures. Is it any wonder that 
after serving longer than any other sitting Governor, he has 
maintained one of the strongest approval ratings ever enjoyed 
by a public official at his level. The Governor has worked 
tirelessly for the good of Utah, yet he has found time to serve 
as the chair of the Council of State Governors, the Republican 
Governors' Association, the Western Governors' Association and 
the National Governors' Association.
    The committee will hear many critics of the President's 
environmental policies who I hope will be fair and will not use 
the nomination of Governor Leavitt as a soapbox to castigate 
our Chief Executive.
    I don't think Governor Leavitt's stellar legacy and his 
careful stewardship of Utah's natural resources should be 
sacrificed at the ardor of Presidential politics. With 
confidence, I would hold up Utah's environmental record to that 
of any other State in the Union. While it is appropriate that 
Senators engage in a reasonable debate about the current 
Administration's environmental policies, I would caution my 
colleagues to consider the environmental challenges faced by 
their own States before anybody slings any unfair comments at a 
State which under Governor Leavitt has become a model for 
beauty and good management.
    Mr. Chairman, I have also seen news articles and press 
releases highlighting some of the environmental challenges 
faced by Utahans. None of these challenges began during 
Governor Leavitt's Administration and a number of them have no 
relationship at all to the responsibilities of running the EPA. 
All States have environmental challenges, so rather than create 
a laundry list of Utah's problems, we should focus on how 
Governor Leavitt has responded to Utah's challenges.
    It is a simple matter for a policymaker to give lip service 
to the environmental protection. Governor Leavitt has been a 
consistent and public supporter for protecting Utah's 
environment, but actions speak louder than words. No actions 
speaks louder than the willingness to allocate resources to an 
area of concern.
    In his 10 years as Governor, Michael Leavitt has brought 
about a 41 percent increase in spending on environmental 
protection and that is after adjusting for inflation. According 
to the Environmental Council of States, the average per capita 
spending on the environment is $51.80. Under Michael Leavitt, 
however, Utah has surpassed that average spending $62.31 per 
capita on the environment. This is all the more impressive 
considering Utah has fewer taxpayers per capita because our 
families are larger than average throughout the country.
    When it comes to putting his money where his mouth is, 
Governor Leavitt also has shown his priorities on the total 
budget spent on the environment. The average State spends about 
1.4 percent of its budget on the environment. Utah shines under 
Governor Leavitt's leadership by spending 2 percent of its 
spending on the environment.
    Mr. Chairman, the greatest indicator of an Administration's 
priorities is reflected in how money is spent. However, the 
next question should be how effectively that money was spent. I 
recall that before Governor Leavitt's first term of office, 
Utah routinely failed to meet national clean air standards. 
This was due in large part to the fact that the vast majority 
of Utahans live in a valley floor surrounded on all sides with 
mountains. These mountains are beautiful, as we all know, but 
under certain weather conditions, they can serve to trap 
emissions in the Salt Lake Valley.
    Governor Leavitt has helped our State overcome this 
obstacle to bring our State into constant and consistent 
compliance with the EPA's air quality standards. He has also 
lead initiatives in our State to preserve open space, improve 
our fisheries and upgrade our municipal companies and systems. 
Governor Leavitt has also been a leader in finding solutions to 
regional air problems by helping to promote the Grand Canyon 
Visibility Transport Commission and the Western Regional Air 
Partnership.
    When Governor Leavitt took office about 60 percent of 
Utah's streams met Federal water quality standards which is the 
current national average for States. Under Mike Leavitt's 
leadership, 73 percent of Utah's streams now meet the Federal 
standards, a very significant improvement well above the 
national average.
    Mr. Chairman, I hope we can keep in mind that these were 
not the actions of a man who sought the nomination to head the 
EPA. These were actions of a man who loves the environment and 
who loves his State, my State, Senator Bennett's State and 2.2 
million people's State.
    Governor Leavitt is a man who recognizes that a healthy 
environment is as important as a healthy economy. However else 
his detractors may try to spin it, the numbers prove this to be 
the case. The numbers also show Governor Leavitt is one heck of 
a manager. In five of his 10 years as Utah's chief executive, 
Utah has been ranked the best managed State, five of the 10 
years Utah has been ranked the best managed State.
    USA Today recently concurred calling Utah the best fiscally 
managed State in the country. Even after the extremely tough 
financial times faced by our States in recent years, under 
Governor Leavitt, Utah has maintained its AAA bond rating.
    Mr. Chairman, President Bush has done the Nation a real 
service with this nomination and I look forward to the positive 
impact that Governor Leavitt will have on this important 
agency. Utahans know that Governor Leavitt took a clean, 
beautiful and strong State and made it cleaner, more beautiful 
and stronger. What more could we ask for in the nominee to head 
the Environmental Protection Agency.
    I know Mike Leavitt. He is an honorable, decent, good human 
being with exceptional qualities and exceptional intelligence 
who knows how to get along with everybody and who can make the 
tough decisions that have to be made. He is precisely what is 
needed at EPA and I think everybody on this committee will be 
proud of him when he concludes his service at the EPA.
    I am talking to my fellow colleagues. I hope that you will 
treat him fairly. He deserves it. I think all of his leadership 
of the Governors throughout this country is more than ample 
evidence that he deserves it and I hope you will approve his 
appointment as quickly as possible.
    Again, I thank you, Mr. Chairman, for holding this hearing. 
I know that you and the rest of our colleagues will be 
impressed with Michael Leavitt as a person and as a proven 
administrator. I just want you to know that I strongly support 
him and I hope all of you will also.
    [The prepared statement of Senator Hatch follows:]
   Statement of Hon. Orrin Hatch, U.S. Senator from the State of Utah
    Mr. Chairman and members of the committee, thank you for today's 
hearing on Governor Mike Leavitt's nomination to head the Environmental 
Protection Agency. I can think of no better candidate for this 
important job.
    Let me tell you about the Mike Leavitt I have known for almost 30 
years. He is bright. He is eminently capable. And nobody works harder. 
Mike Leavitt listens before he acts. He consults before he commits. And 
above all, he is fair and honest.
    In short, he is the perfect candidate for one of the toughest jobs 
in government. (And perhaps, the toughest job in government.)
    And so, Mr. Chairman, it is with particular pleasure that I 
introduce Mike and Jackie Leavitt to you this morning, and I look 
forward to welcoming my friends to Washington for their more permanent 
stay after the Senate confirms Michael Leavitt as the Administrator of 
the EPA.
    Mr. Chairman, let me state for the record that Michael Leavitt is 
one of our nation's most able public figures. Is it any wonder that 
after serving longer than any other sitting Governor, he has maintained 
one of the strongest approval ratings ever by enjoyed a public official 
at his level? The Governor has worked tirelessly tirelessly for the 
good of Utah. Yet, has found the time to serve as the chair of the 
Council of State Governors, the Republican Governors' Association, the 
Western Governor's Association, and the National Governor's 
Association.
    The committee will hear many critics of the President's 
environmental policies who I hope will be fair and will not use the 
nomination of Governor Leavitt as a soapbox to castigate our Chief 
Executive.
    I don't think Governor Leavitt's stellar legacy and his careful 
stewardship of Utah's natural resources should be sacrificed on the 
altar of Presidential politics.
    With confidence, I would hold up Utah's environmental record to 
that of any other state in the Union.
    While it is appropriate that senators engage in a reasonable debate 
about the current Administration's environmental policies, I would 
caution my colleagues to consider the environmental challenges faced by 
their own States before slinging mud at a State which under Governor 
Leavitt has become a model for beauty and for good management.
    Mr. Chairman, I have already seen news articles and press releases 
highlighting some of the environmental challenges faced by Utahns. None 
of these challenges began during Governor Leavitt's administration and 
a number of them have no relationship at all to the responsibilities of 
running the EPA. All States have environmental challenges, so rather 
than create a laundry list of Utah's problems, we should focus on how 
Governor Leavitt has responded to Utah's challenges.
    It is a simple matter for a policymaker to give lip service to 
environmental protection, and Governor Leavitt has been a consistent 
and public supporter for protecting Utah's environment. But actions 
speak louder than words. And, no action speaks louder than a 
willingness to allocate resources to an area of concern.
    In Is 10 years as Governor, Michael Leavitt has brought about a 41 
percent increase in spending on environmental protection, and that's 
after adjusting for inflation. According to the Environmental Council 
of States, the average per capita spending on the environment is 
$51.80. Under Michael Leavitt, however, Utah has surpassed that 
average, spending $62.31 per capita on the environment. This is all the 
more impressive considering Utah has fewer taxpayers per capita because 
our families are larger than average.
    When it comes to putting his money where his mouth is, Governor 
Leavitt also has shown his priorities on the total budget spent on the 
environment. The average State spends about 1.4 percent of its budget 
on the environment. Utah shines under Governor Leavitt's leadership by 
spending 2 percent of its budget on the environment.
    Mr. Chairman, the greatest indicator of an administration's 
priorities is reflected in how money is
    spent. However the next question should be how effectively that 
money was spent.
    I recall that before Governor Leavitt's first term of office, Utah 
routinely failed to meet national clean air standards. This was due in 
large part to the fact that the vast of Utahns live on a valley floor 
surrounded on all sides with mountains. These mountains are beautiful, 
but under certain weather conditions they can serve to trap emissions 
in the Salt Lake Valley. Governor Leavitt has helped our State overcome 
this obstacle to bring our State into consistent compliance with the 
EPA's air quality standards. He has also led initiatives in our State 
to preserve open space, improve our fisheries, and upgrade our 
municipal sewer systems.
    Governor Leavitt also has been a leader in finding solutions to 
regional air problems by helping to promote the Grand Canyon Visibility 
Transport Commission and the Western Regional Air Partnership. When 
Governor Leavitt took office, about 60 percent of Utah's streams met 
Federal water quality standards, which is the current national average 
for States. Under his leadership, though, 73 percent of Utah's streams 
now meet the Federal standards--a very significant improvement and well 
above the national average.
    Mr. Chairman, I hope we can keep in mind that these were not the 
actions of a man who sought a nomination to head the EPA.
    These were the actions of a man who loves the environment and who 
loves his State.
    Governor Leavitt is a man who recognizes that a healthy environment 
is as important as a healthy economy. However else his detractors may 
try to spin, the numbers prove this to be the case.
    The numbers also show Governor Leavitt is one heck of a manager. In 
five of his 10 years as Utah's chief executive, Utah has been ranked 
the best-managed State. USA Today recently concurred, calling Utah the 
best fiscally managed State in the country. Even after the extremely 
tough financial times faced by our States in recent years, under 
Governor Leavitt, Utah has maintained its Triple A bond rating.
    Mr. Chairman, President Bush has done the Nation a real service 
with this nomination, and I look forward to the positive impact that 
Governor Leavitt will have on this important Agency.
    Utahns know that Governor Leavitt took a clean, beautiful, and 
strong State and made it cleaner, more beautiful, and stronger. What 
more could we ask for in a nominee to head the Environmental Protection 
Agency?
    Again, I thank you, Mr. Chairman, for holding this hearing. I know 
that you and the rest of my colleagues will be impressed with Michael 
Leavitt as a person and as a proven Administrator. Thank you.
    Senator Inhofe. Senator Hatch, thank you for that very good 
statement. We appreciate that.
    We will now recognize Senator Bennett.

 STATEMENT OF HON. ROBERT F. BENNETT, A UNITED STATES SENATOR 
                     FROM THE STATE OF UTAH

    Senator Bennett. Thank you very much, Mr. Chairman.
    I enjoyed my time as a member of this committee and if I 
were a member still, I would vote enthusiastically to confirm 
Mike Leavitt for this assignment.
    Senator Hatch has laid out the public record. You, Mr. 
Chairman, have laid out many aspects of the public record of 
Mike Leavitt, so if I might, without being redundant, I would 
like to talk just a bit about the personal man that I know and 
share that with the committee in the hope that it will provide 
you some insight to this gentleman.
    I first met Mike Leavitt when we were serving together on a 
planning commission to deal with Utah's schools. I had been 
appointed chairman of a strategic planning group for the Utah 
State School Board and he was a member of the Board of Regents 
of the university system and we were gathered together in a ski 
resort, that is what we do in Utah during the summertime 
because there is nobody else at the ski resorts, we were 
gathered there for a retreat to discuss Utah's schools.
    We spent a very intensive weekend. I first wanted to know 
who was this very good looking young guy who seemed to have 
such deep thoughts about education and the challenges facing 
it. Someone said, well, that is Dixie Leavitt's son, Mike. 
Dixie Leavitt was a well know and very successful State Senator 
in our State.
    On that occasion, I discovered the first attribute of Mike 
Leavitt that impressed me and that is he is a visionary. He is 
willing to take the long view, he is willing to look at the big 
picture, he doesn't get bogged down in the leaves and the 
trees. He can step back and look at the forest as a whole and 
have a visionary view.
    Impressed with that, I thought this is a young man with a 
future but I went on about my business, he went on about his 
and the next time I met him, he had called for an appointment 
and came to see me in my office. As he sat down, he told me he 
was planning to run for Governor and he wanted my support. I 
told him I wasn't going to be able to give him my support 
because I was planning to run for Senator and it isn't a good 
idea to get involved in any campaigns other than your own. We 
talked on that occasion about our political careers and how 
they might go forward together in 1992.
    Utah has a convention and primary system. We share the 
honor of both finishing second in the convention. We happen to 
share that with Senator Hatch who finished second in his 
convention as well but second is good enough to get into the 
primary in Utah. The primary is limited to only two and in that 
fight, I discovered the second thing about Mike Leavitt to go 
along with his being a visionary. I discovered how tenacious he 
was. He finished second in the convention but he finished first 
in the primary. He simply outworked his opponent in every way 
and came out on top in the primary. I happened to do the same 
thing in my primary. We shared the ticket together and won 
election in 1992. So I found out how tenacious this visionary 
young man was.
    We have worked together since our common elections in 1992, 
he as Governor and I as Senator, and I found a third 
characteristic of his. He is innovative. He is willing to try 
new things. He is willing to think new thoughts. He is not tied 
down to the way things have been done in the past. I have been 
impressed with that and found it refreshing to be able to pick 
up the phone and call the Governor and say, let us have one of 
our breakfasts at Marie Callander's, which is a restaurant that 
happens to be between his home and mine, and we would gather 
there for breakfast and sit there and he would tell me the new 
things he was thinking of and we would talk about innovative 
ways to deal with the problems of our State.
    So I offer you a man who is a visionary, who is 
tremendously tenacious and who is innovative but who has a 
fourth attribute I would like to share with you that I think is 
perhaps the most important one in this assignment the President 
has given him.
    Throughout these 11 years we have worked together, I have 
come to know that Mike Leavitt is one who seeks solutions 
rather than exploitation of issues. There are always in the 
political arena those on both sides of the aisle of the 
ideological spectrum if you will who are more interested in 
preserving an issue, keeping it alive and gaining some 
political advantage from it than in finding a solution to the 
problem.
    In Utah, the temptation to do that can be very, very high, 
particularly for a Governor of the party that seems to be at 
the moment the predominant party. I am old enough to remember 
when the Democrats were the predominant party in Utah and I 
know there are some who are hoping those times will come again 
but they are not here at the moment and the temptation to 
demagogue an issue on behalf of the majority can be very, very 
strong when you are the Governor in that kind of a situation.
    Mike Leavitt has offended some of the members of his 
political base by reaching out to those who are not part of 
that base and saying to them, let us see if we can't find a 
solution. One of the first persons I called when I found the 
President had convinced Mike to take this position, and it was 
not the first time the President asked and Mike said yes, it 
was about the seventh or eighth, I think, one of the first 
people I called when I found the President had made this 
decision was Bruce Babbitt. Secretary Babbitt was a man who was 
booed, picketed, attacked very often when he appeared in the 
West. I hope we were a little more polite than that when he 
came to Utah but I know many times when he came to Utah there 
were plenty of people just ready to get out the magic markers, 
create the placards and hit the streets.
    Mike Leavitt could have taken advantage of that politically 
and turned Bruce Babbitt into something of a political cartoon 
character in Utah's atmosphere. He did not. I remember being at 
the signing ceremonies with Bruce Babbitt and Mike Leavitt as 
problems that could be solved were solved and I remember 
listening to the grumbling on the part of some of Mike 
Leavitt's political base who said, what is he doing dealing 
with that guy. What he was doing is what he will do as 
Administrator of EPA. He was reaching out to find a solution to 
a problem rather than an exploitation of an issue.
    There will be some who will appear before you who come from 
Utah to whom he reached out but never quite connected. That is 
always the case. You can never satisfy everyone. While I 
respect the right of those Utahans to come before you and make 
their case against Mike Leavitt, I remind you that 
overwhelmingly the people of Utah, both parties and 
independents, have given this man not only two overwhelming 
reelections, one initial election, but a consistently high 
approval rating which Orrin and I can only envy.
    He comes to you as a visionary, a man who is very 
tenacious, very innovative and most importantly, one who will 
reach out and establish his record as a seeker of solutions. I 
can think of no better set of attributes for any Federal 
appointee to have. I urge the committee to report him to the 
Senate with full enthusiasm and I look forward to the 
opportunity to vote for his confirmation on the floor.
    Senator Inhofe. Thank you for that excellent statement, 
Senator Bennett.
    At this time, we would ask if you would like to be excused, 
you may.
    At this point in the record, I would like to enter four 
documents of a similar nature to these introductions. One would 
be a letter supporting the Governor from a dozen organizations. 
I would also like to enter in the record an editorial written 
by the former Democratic Governor of Maryland, Parris 
Glendening, praising Governor Leavitt. I also expect to have a 
letter in support of Governor Leavitt entered in the record 
written by the NBA superstar Carl Malone on behalf of the 
African American Environmentalist Association and last that of 
your former colleague, former Governor Ben Nelson from 
Nebraska. Without objection, they will be entered in the record 
at this time.
                                                September 19, 2003.

Hon. James Inhofe,
Senate Russell Building,
Washington, DC. 20510.

Hon. James M. Jeffords
Senate Dirksen Building
Washington, DC. 20510

Dear Senator Inhofe and Senator Jeffords: The Senate Environment and 
Public Works Committee will soon be considering Utah Governor Mike 
Leavitt for appointment to the Environmental Protection Agency. The 12 
organizations listed below represent over 250,000 dedicated wildlife 
conservationists. We commend your efforts to protect the future of 
America's natural resources and we support the confirmation of Mike 
Leavitt as Administrator of the Environmental Protection Agency.
    Mike Leavitt has shown a strong commitment to wildlife conservation 
in Utah, increasing funding by nearly $100 million during his tenure as 
Utah's Governor. He has appointed wildlife commissioners with a strong 
commitment to wildlife and quality wildlife programs. He has shown 
leadership in the development of conservation easements and land 
acquisitions for critical deer and elk winter ranges. He has supported 
major efforts on wetlands restoration.
    Under Governor Leavitts' administration, Utah was recognized as a 
national leader for wild turkey transplants and restoration. Mike 
Leavitt was awarded the 2000 Outstanding Statesman Award by the 
Foundation for North American Wild Sheep for Utah's wild sheep 
restoration effort. He also instituted a Blue Ribbon Fishery program to 
enhance Utah's already famous trout fisheries.
    Mike Leavitt supports America's wildlife and we support Mike 
Leavitt.
            Respectfully,
        Archery Trade Association, Boone and Crockett Club,
                          Bowhunting Preservation Alliance,
                      Buckmasters American Deer Foundation,
                                        Dallas Safari Club,
                  Foundation for North American Wild Sheep,
                             Rocky Mountain Elk Foundation,
                                        Shikar-Safari Club,
                           Sportsmen for Fish and Wildlife,
                                     Sportsmen for Habitat,
                                Texas Wildlife Association,
                                  U.S. Sportsman's Alliance
                               __________
             [From the Washington Post, September 20, 2003]
                      The Right Choice for The EPA
                         (By Parris Glendening)
    Think of a key environmental issue--global warming, air pollution, 
storm water runoff, habitat destruction--and chances are its causes can 
be traced to haphazard urban growth.
    When cities and States fail to plan well for their development, 
roads and sewers become overburdened and send emissions and effluent 
into our air and water. Ecologically critical lands disappear before we 
can protect them. Our people's health and quality of life degrade.
    For these reasons, it is essential that the next administrator of 
the Environmental Protection Agency understand the connections between 
urban sprawl and the environment. Fortunately, Utah Gov. Mike Leavitt, 
the president's nominee for the post, is one who does.
    I learned this firsthand in working with the Governor at the 
National Governors Association (NGA) over the past few years. In our 
respective stints as NGA chairman, Leavitt and I collaborated on an 
effort to raise the profile of growth issues while developing tools 
States can use to tame sprawl and build healthy cities and towns. In 
Governors-only sessions, he lobbied hard, and successfully, for NGA to 
produce its first-ever land use principles.
    Leavitt's passion in this arena grew out of his experience in Utah. 
While his home State is largely rural, the vast majority of its 
population--and most of the projected future growth--is concentrated in 
an environmentally sensitive corridor along the Wasatch Mountains, 
stretching 100 miles to the north and south of Salt Lake City. The 
population of this sliver of Utah is expected to swell from 1.6 million 
in 2000 to 5 million by 2050.
    Leavitt recognized that it was the State's responsibility to make 
sure that this growth didn't become an unlivable mess. At the same 
time, he believed that citizens and local governments should have a 
strong say in developing a vision for their future.
    With those principles in mind, he created a commission to 
administer a special fund for protecting open space in developing 
areas. He secured funding to preserve 175 miles of railroad right-of-
way for commuter rail. And, most impressively, he served as honorary 
co-chairman of Envision Utah, lending unequivocal support to a public-
private planning effort that has become a national model. Led by a 
coalition of business, civic and government leaders, Envision Utah 
began by listening to people, thousands of them. Citizens were invited 
to more than 150 public workshops, where, through use of innovative 
planning tools, they were able show how they wanted to shape future 
land use, transportation and open space preservation.
    Mike Leavitt participated in the workshops just like any other 
citizen, sitting for hours with fellow Utahns at one of the many 
workshop tables. When Envision Utah asked every household in the region 
to complete a survey on the region's future, he sat down with his 
family to do just that. And he recorded a television ad urging his 
constituents to do the same.
    In the end, citizens said they wanted more investment in public 
transit and affordable housing, more reliance on cycling and walking, 
more preservation of open spaces and more town-like development along 
key transportation spines. The chosen Quality Growth Strategy departs 
dramatically from current trends, conserving 171 square miles of land; 
offering expanded choices in housing and neighborhood types; reducing 
vehicle emissions and traffic congestion; and saving $4.5 billion in 
transportation, water, sewer and utility infrastructure, which would 
have subsidized sprawl.
    I'll leave it to environmentalist colleagues to scrutinize other 
aspects of the Governor's record. No doubt they will press him to 
explain how his support of the controversial Legacy Highway squares 
with his quality-growth principles, as they should.
    As Leavitt well knows, the EPA has become an important partner in 
developing citizen-friendly, market-oriented approaches to managing 
urban growth along the lines of Envision Utah, which the EPA helped to 
fund. Far from dictating how places should grow, the agency has 
supported innovation, served as a clearinghouse for best practices and 
showed admirable flexibility on redeveloping industrial brownfields and 
managing urban runoff.
    Grappling with sprawl and creating great communities have nothing 
to do with partisanship. Governors from both parties have been leaders 
in these arenas.
    As Senators debate Leavitt's confirmation as EPA chief they would 
do well to recognize his bipartisan leadership in bringing issues of 
growth and quality of life to the fore.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Senator Inhofe. I have already had my 5-minute opening 
statement and I would recognize Senator Jeffords. I would 
admonish all the members of the committee after Senator 
Jeffords, to confine your statements to 3 minutes. We are going 
to have many, many opportunities for you to participate in 5-
minute rounds. We want to have some discipline here so everyone 
will have an equal chance.
    Senator Jeffords?

OPENING STATEMENT OF HON. JAMES M. JEFFORDS, U.S. SENATOR FROM 
                     THE STATE OF OKLAHOMA

    Senator Jeffords. Thank you, Mr. Chairman and Governor, it 
is a pleasure to be with you. I have enjoyed working with you 
over the years, especially in education. I admire what you have 
done in your State and in that area. I would like to talk with 
you a little bit about where we are going here.
    I also shared the same enthusiasm with your predecessor, 
Governor Whitman, who I had worked with over the years and felt 
very strongly about her capacity and her abilities. Then I 
anguished with her as she struggled with the problems in the 
environmental area and with this Administration.
    I would like to say as I anguished with her and she finally 
left, I start with the same optimism for you, that hopefully we 
will be able to find consensus on many of these environmental 
issues which are so troublesome.
    As a background to that, I would like to give you some idea 
where we feel things are at this time. Last week, we were 
troubled by Hurricane Isabel's approach on Washington but we 
escaped much of the natural disaster. Governor Leavitt, I am 
troubled by the other disaster that has hit Washington. It is 
the environmental policies of this Administration. It is 
hitting the entire country and will harm generations to come.
    Today, we are literally in the eye of that storm. Governor, 
the record of the Environmental Protection Agency under the 
President is abysmal. We have watched the Administration roll 
back environmental laws and regulations day after day, week 
after week, month after month. They have been dismantling our 
environmental laws and the protections that our citizens have 
come to expect and I believe deserve by their government.
    Allowing the sale of properties contaminated with PCBs and 
exposing our citizens to highly toxic chemicals troubles me. 
Limiting State decisions for allowing offshore oil drilling on 
their own coastlines troubles me. Allowing the fund that pays 
for cleaning up abandoned toxic Superfund sites across the 
country to go bankrupt troubles me. Omitting an entire section 
on climate change with a White House report of the State of the 
Nation's environment despite convincing science on the contrary 
troubles me.
    Deciding not to classify carbon dioxide as a pollutant 
troubles me. Forcing EPA to assume reassuring statements and 
delete cautionary ones related to the air quality standards 
surrounding the ground zero site following the September 11 
attacks troubles me. Proposing rules that would narrow the 
waters protected over the last 30 years under the Clean Water 
Act troubles me. Allowing the major polluters to avoid 
installing modern, controlled equipment of the New Source 
Review rule devastates the years of progress under the Clean 
Air Act and deeply troubles me.
    Governor, many of these decisions have been made with 
little input from the people who will be most affected by them 
and must implement them. This troubles me. As head of the 
agency charged with upholding the laws that protect our people 
and their environment, you will be responsible but we, the 
members of this committee, the Senate and the Congress, are 
responsible for overseeing your agency and the decisions made. 
Yet, I do not believe we can carry out that responsibility 
without the cooperation of the Administration in the ones on 
which we would like to receive cooperation.
    I have made repeated requests of the EPA to provide 
information and have not received it. For example, I have asked 
for the analysis of the effects the New Source Review rule 
would have on the environment and public health. I have not 
received it. The lack of transparency in this Administration's 
decisionmaking and the lack of cooperation with the Congress 
troubles me. Governor, this Administration's disregard for 
environmental law is bigger than one agency and one 
Administration.
    I don't know if you as the head of EPA can bring the needed 
responsible environmental leadership to this Administration. 
This is a difficult but necessary process. I commend you for 
your willingness to serve. I understand the difficulties that 
you will have trying to reconcile what I have said about the 
policies and hopefully we can work closely together because I 
want to work closely with you to see if we can make some 
progress.
    Thank you very much.
    [The prepared statement of Senator Jeffords follows:]
  Statement of Hon. James M. Jeffords, U.S. Senator from the State of 
                                Vermont
    Thank you Senator Inhofe, and I'd like to join you in welcoming 
Governor Leavitt and thank him for adjusting his schedule so he could 
be here today.
    Last week we were troubled by Hurricane Isabel's approach on 
Washington, but we escaped much of that natural disaster. But, Governor 
Leavitt, I am troubled by the other disaster that has hit Washington. 
It is the environmental policies of this Bush Administration, and it is 
hitting the entire country and will harm generations to come. Today, we 
are literally in the eye of the storm.
    Governor, the record of the Environmental Protection Agency under 
this President is abysmal. We have watched this Administration roll 
back environmental laws and regulations day after day, week after week, 
month after month. They have been dismantling our environmental laws 
and the protections that our citizens have come to expect, and I 
believe, deserve from their government.
    Allowing the sale of properties contaminated with PCBs and exposing 
our citizens to highly toxic chemicals troubles me;
    Limiting a State's decisions for allowing offshore oil drilling on 
their own coastline troubles me;
    Allowing the Fund that pays for cleaning up abandoned toxic 
Superfund sites across the country to go bankrupt troubles me;
    Omitting an entire section on climate change from a White House 
report on the State of the nation's environment, despite convincing 
science to the contrary, troubles me;
    Deciding not to classify carbon dioxide as a pollutant troubles me;
    Forcing EPA to ``add reassuring statements and delete cautionary 
ones'' relating to the air quality standards surrounding the ground 
zero site following the September 11th attacks troubles me;
    Proposing rules that would narrow the waters protected over the 
last 30 years under the Clean Water Act troubles me;
    And allowing major polluters to avoid installing modern control 
equipment in the New Source Review Rule devastates the years of 
progress under the Clean Air Act--and deeply troubles me.
    Governor, many of these decisions have been made with little input 
from the people who will be most affected by them and must implement 
them, and this troubles me.
    As head of the Agency charged with upholding the laws that protect 
our people and their environment, you will be responsible.
    But we, the members of this committee, the Senate, and the 
Congress, are responsible for overseeing your Agency and the decisions 
made. Yet I do not believe we can carry out that responsibility without 
the cooperation of the Administration, and I, for one, have not 
received that cooperation.
    I have made repeated requests of the EPA to provide information, 
and have not received it. For example, I have asked for the analysis of 
the effects that the New Source Review Rule would have on the 
environment and public health. I have not received it.
    The lack of transparency in this Administration's decisionmaking, 
and the lack of cooperation with the Congress troubles me.
    Governor, this Administration's disregard for environmental laws is 
bigger than one Agency and one Administrator. I don't know if you, as 
head of EPA, can bring the needed responsible environmental leadership 
to this Administration. This is a difficult but necessary process, but 
I commend you for your willingness to serve.
    Senator Inhofe. Thank you, Senator Jeffords.
    I would like to ask unanimous consent that Senator Warner 
be recognized for one minute. He has to chair the nomination 
hearing of the Secretary of the Navy. Is there objection? 
Hearing none.

OPENING STATEMENT OF HON. JOHN W. WARNER, U.S. SENATOR FROM THE 
                    COMMONWEALTH OF VIRGINIA

    Senator Warner. Thank you, colleagues.
    Contrary to my friend and colleague, Senator Jeffords, I am 
confident, having met you and studied your impressive career, 
that you can bring that leadership to this department. I intend 
to give you the strongest possible support all along the way.
    Thank you, Mr. Chairman. I just wanted to make that very 
clear. I congratulate him on the manner in which you did your 
consultative process with the members of this committee prior 
to this hearing certainly on my part and other colleagues said 
it was very thorough.
    Mr. Chairman, I would also say I am ready to go to work 
with my staff on the highway bill tomorrow. We can't wait 4 or 
5 months, so let us pitch in and get that done.
    Senator Inhofe. Thank you, Senator Warner.
    Senator Voinovich?

  OPENING STATEMENT OF HON. GEORGE V. VOINOVICH, U.S. SENATOR 
                     FROM THE STATE OF OHIO

    Senator Voinovich. Mr. Chairman, thank you for holding this 
hearing.
    As my colleagues on this committee know, I have a strong 
interest in the Federal work force and fitting the right people 
with the right knowledge and skills at the right place and at 
the right time. I think Governor Leavitt is the right person 
with the right knowledge and skills at the right place at the 
right time.
    For a Republican, probably the most difficult job in the 
Federal Government is the Administrator of the EPA. No matter 
what you do it is not good enough and it is always attacked by 
some environmental groups. Christine Todd Whitman, our fellow 
Governor, did the very best she could but I am sure she was 
relieved and glad to leave the battle.
    I am grateful the President has asked Mike to serve and 
that he is willing to accept and use his extraordinary 
management and interpersonal skills to serve his country. I 
think Senator Hatch did an outstanding job of enunciating his 
outstanding leadership in the environment and his record.
    I appreciate his willingness to serve and I thank his wife, 
Jacalyn, and her five children for their sacrifice and being 
willing to allow him to serve in this very, very difficult 
position in the Federal Government.
    I first met Mike when we were both Governors. I was 
chairman of the Republican Governors' Association. I needed a 
good vice chairman and he was the young man who came along and 
I asked him to do that job. He did an outstanding job. I 
watched him move through the National Governors' Association to 
being vice chairman and then chairman of that association.
    He has established a very strong reputation as a straight 
shooting consensus builder with proven ability to work on a 
bipartisan basis. On many issues, Mike was willing to take on 
tough issues and work with both Republican and Democratic 
Governors to form consensus and move the ball down the field. I 
am glad there is a statement from Senator Nelson and from 
Governor Glendening and I know that Senator Carper is also a 
strong advocate of your being here.
    When the States were confronted with losing revenue from 
interstate sales, he took up the cause. No one thought the 
States could come together and come up with a system and 
because of this man's leadership, 25 States are participating 
in a streamlined sales tax system that provides States with a 
road map to create simplified sales tax collection programs.
    During his three terms as Governor, Mike as demonstrated an 
outstanding ability to efficiently and effectively manage the 
State of Utah's provision of public goods and services. It has 
already been mentioned that he has been named outstanding 
manager. He is the public official of the year. He has the gear 
to take on the management responsibilities of an agency that 
has 18,000 people, 10 regional offices and a half dozen 
research labs throughout the country.
    Being head of the EPA is a management job and this man has 
proven he is a darned good manager.
    I would like to say, Mr. Chairman, we are fortunate that 
this man is interested to take this job at this time. I can 
assure my colleagues on the other side of the aisle, if you 
want a straight shooter, if you want someone that is honest and 
willing to work and willing to listen, you will find it in Mike 
Leavitt.
    [The prepared statement of Senator Voinovich follows:]
 Statement of Hon. George V. Voinovich, U.S. Senator from the State of 
                                  Ohio
    Mr. Chairman, I want to thank you for holding this hearing on 
Governor Leavitt's nomination.
    As my colleagues here on the committee know, I have more than a 
passing interest in the people who run our Government. It seems like we 
can never find the right people to manage all of the Departments and 
Agencies in the Federal Government, which inevitably leads to problems 
down the road. The process is even more difficult when trying to find 
people to nominate for controversial appointments like Federal 
judgeships or high-profile cabinet officers.
    For a Republican, probably the most difficult job in the Federal 
Government is the Administrator of EPA. No matter what you do--it is 
not good enough and is always attacked by environmental groups. Christy 
Todd Whitman did the best she could, but I am sure she was glad to 
leave the battle.
    I am grateful that President Bush has asked Mike to serve and that 
he is willing to accept and use his extraordinary management and 
interpersonal skills to serve his country. I appreciate his willingness 
to serve and want to thank his wife Jacalyn and five children for the 
sacrifice they are willing to make for him to serve.
    I first met Mike while we were both Governors and were active 
together in the Republican Governors' Association and National 
Governors' Association. Mike served as NGA vice-chairman under then-
Governor Tom Carper, NGA chairman, RGA vice-chairman while I was 
chairman and as RGA chairman.
    He has established a very strong reputation as a straight-shooting 
consensus builder with the proven ability to work on a bipartisan 
basis. On many issues, Mike was willing to take on tough issues and 
worked with both Republican and Democrat Governors to form consensus 
and move the ball down the field. When the States were confronted with 
losing revenue from internet sales, he took up the cause. No one 
thought that we could do it, but under Mike's leadership, we now have 
over 25 States participating in a streamlined sales tax system that 
provides States with a roadmap to create simplified State sales tax 
collection programs.
    During his three terms as Governor, Mike has demonstrated an 
outstanding ability to efficiently and effectively manage the State of 
Utah's provision of public goods and services. Time after time, 
Governor Leavitt has set an agenda in Utah, and each time he has rolled 
up his sleeves, pulled together broad coalitions, reached consensus and 
gotten results.
    Under Mike's watch, Utah has hosted the Winter Olympics, reduced 
crime, decreased reliance on welfare, reduced unemployment, and 
improved education funding and performance--all while the State's 
sales, income, and property taxes have been reduced. In fact, During 
Mike's tenure as Governor, Utah has been named the best-managed State 
five times. No wonder he was recently named ``Public Official of the 
Year'' by Governing magazine.
    I cannot think of anyone who is better suited to lead the EPA. 
Governor Leavitt has continuously demonstrated the tremendous 
interpersonal skills and management experience necessary to run an 
agency with 18,000 people, 10 Regional Offices and half-a-dozen labs. 
He cares deeply about the environment and will pull people together to 
get things done.
    Mike's proven ability to facilitate the creation of positive 
solutions to multiple problems and interests is exactly what is needed 
at the EPA's top post. He has established an impressive track record of 
producing results; one that I believe will continue should he be 
confirmed as Administrator of the Environmental Protection Agency.
    Senator Inhofe. Thank you, Senator.
    Senator Wyden?

  OPENING STATEMENT OF HON. RON WYDEN, U.S. SENATOR FROM THE 
                        STATE OF OREGON

    Senator Wyden. Thank you, Mr. Chairman.
    Mr. Chairman and colleagues, I believe it is 
extraordinarily important that our country have an independent, 
tough voice to guide environmental policy at the Environmental 
Protection Agency. The reason I feel that way is that I believe 
now too many of our country's environmental policies are being 
cooked by political chefs in the White House kitchen. It seems 
to me that they brew the science, they season the regulations 
and then serve up policies that cater to a lot of the powerful 
anti-environmental interests.
    What we have today is a situation where into this political 
cauldron comes a good man, somebody that I have known to be 
straightforward and decent and bipartisan. I have been thinking 
about this hearing a lot and went back in particular to look at 
your work and the work of the Western Governors' Association. 
What I am concerned about today and what I will be asking about 
is the very large gap that exists between the bipartisan 
policies the Western Governors' Association has supported and 
what we see at the Administration. I want to be specific.
    The Western Governors' Association has stressed enforcement 
of the environmental laws. Just a few days ago, the EPA Office 
of Enforcement said that during the past 24 years, only 24 
percent of the facilities that were in major noncompliance with 
respect to the Clean Water Act faced enforcement actions. So 
the EPA's own office says on major water violations, there 
hasn't been enforcement.
    Gap No. 2, the Western Governors' Association has always 
stressed consultation with all the parties and involving the 
States. Two examples where the Administration isn't doing that 
are on the question of these closed door negotiations with 
industrial livestock firms, behind closed doors they are 
talking about amnesty from the Clean Air Act and the Superfund 
sites.
    With respect to consulting the States on the proposed rule 
to limit the scope of the Clean Water Act, 39 States objected 
and said they weren't party to that discussion. So no the 
question of consultation involving States, there is a big gap 
between the Western Governors and this Administration.
    Finally, throughout the Western Governors' Association 
material on the environment is a commitment to following the 
law and certainly that hasn't been done with the Clean Air Act. 
I was on the conference committee in 1990 and I can tell you 
there was absolutely no question that it was the intent of 
Congress that powerplants, oil refineries and industrial 
facilities be required to install pollution controls. So we see 
again not the commitment to follow the law.
    My time is up but I would wrap up this way. I would note, 
Mr. Chairman, that Senator Hatch had close to 20 minutes in 
terms of his opening statement.
    Senator Inhofe. Sir, that was not an opening statement. 
That was an introduction of our witness.
    Senator Wyden. You have always been so fair and I want to 
take note of that but I am not convinced we are going to get 
done here by noon. I would just like to say that I think given 
the import of this nomination for the country, we have a good 
man here but I have outlined a number of examples where the 
bipartisan work he has been part of in the past hasn't been 
followed. I would like us to take the time today to be 
thorough, stick to the record as I have, but make sure we 
examine these issues.
    Senator Inhofe. Thank you, Senator Wyden.
    Senator Thomas?

 OPENING STATEMENT OF HON. CRAIG THOMAS, U.S. SENATOR FROM THE 
                        STATE OF WYOMING

    Senator Thomas. Thank you, Mr. Chairman.
    Welcome, Governor. We are delighted to have you here. 
Certainly a westerner is welcome for me. You clearly understand 
the unique differences that do occur in the areas and I am sure 
recognize those.
    Your background, significant experience and dedication 
speak well and make you a well qualified candidate. Your 
record, I think, speaks for itself. Your work as co-chair of 
the Western Regional Air Partnership and vice chair of the 
Grand Canyon Visibility Transport Commission should be 
highlighted.
    Though several members I understand have holds on this 
nominee, we are just now holding a hearing. That doesn't seem 
to be quite right.
    At any rate, I think we can move forward. I am surprised a 
little to hear some of the criticism of the Administration that 
has gone on. I think they have moved in an environmental 
direction of trying to include States, trying to include and 
cooperate with people on the ground rather than doing all the 
pronouncements and announcements from here. The fact is, as the 
chairman pointed out, the progress has continued under 
President Bush's leadership. The facts are unequivocal.
    Today's environment is cleaner and healthier than it was 
when the President took office. According to the most recent 
report, SO2 emissions from powerplants were 10.2 million tons 
in 2002, 9 percent lower than 2000, 41 percent lower than in 
1980. NOX emissions from powerplants also continued a downward 
trend. So we are making some progress and I hope we don't try 
to make a political issue out of this and stick a little bit to 
the facts as to where we are. The facts are quite different 
than some of the things we have heard.
    We are delighted to have you here, Governor, and I hope we 
can move forward quickly and work together to continue the 
progress that is being made.
    Senator Inhofe. Thank you, Senator Thomas.
    Senator Reid?

  OPENING STATEMENT OF HON. HARRY REID, U.S. SENATOR FROM THE 
                        STATE OF NEVADA

    Senator Reid. Thank you very much, Mr. Chairman.
    I have a longstanding relationship with the Leavitt family. 
Myron Leavitt, who is a member of the Supreme Court, is a first 
cousin of Dixie Leavitt, the Governor's father. I would like to 
tell a brief story here.
    When I thought I was an athlete, I went to school at a 
college in southern Utah, that is where his father was an 
insurance salesman. When my wife and I decided we were going to 
get married between my sophomore and junior year in college, I 
went to Mr. Leavitt and I said I would like to buy an insurance 
policy and I want to make sure it covers maternity in case we 
have a baby. A couple of years later we had a baby and the 
insurance policy didn't cover maternity. By then I had moved to 
a different school hundreds of miles away, so I called his 
father and said, do you remember selling this insurance policy 
to me and he said yes. I am not sure he remembered, but I said 
I bought it because I wanted maternity and it doesn't have any. 
He said, did I do that? I said, yes. He said, well send me the 
bill. I sent him the bill and he paid them. I don't think that 
happens very often, so I have always had a great affection for 
the Leavitt family as a result of that.
    Let me say I have talked with the Governor, as I indicated 
here we have had a relationship over the years and I have great 
respect for him. I said to him, why in the world would you want 
this job. I said, I will do anything that I can to help you 
personally but I think the record of this Administration 
environmentally is awful.
    I go into detail as to the awfulness of the environmental 
record of this Administration.
    I would also say it is so unfair what the Administration 
has done to me personally and the State of Nevada. Senator 
Daschle put forward a person by the name of Greg Jasko to be a 
member of the Nuclear Regulatory Commission and they have 
rejected this. Senator Daschle has not withdrawn it. Dr. Jasko 
has a Ph.D. in Physics, he has worked as a policy advisor in my 
office, he has been a professor at Georgetown, a man eminently 
qualified to be a member of the Commission, but because he 
works for me and I assume because he gave me advice on the 
nuclear waste issue, they have rejected him.
    I want everyone here to know as much as I care about this 
man and as much as I think of his family, before I back off 
this, they will have to make some decision on Dr. Jasko or give 
me some reason why he is morally unfit to be a member of the 
Nuclear Regulatory Commission.
    Again, Governor, you have a lot of guts taking this job 
because you are in a big hole to start. I am not sure you have 
the ability or anyone has the ability to override the anti-
environmental policy this Administration has set. I hope I am 
wrong but I personally wish you the best of luck. The fact you 
have decided to take this job in no way is impugning your 
intelligence.
    [Laughter.]
    Senator Inhofe. Thank you, Senator Reid.
    Senator Murkowski?

OPENING STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR FROM THE 
                        STATE OF ALASKA

    Senator Murkowski. Thank you, Mr. Chairman.
    Governor Leavitt, again, welcome. It is nice to see you 
this morning.
    It is quite apparent from the comments this morning that 
there are many questioning why you would want to take on what 
appears to be a thankless task but I appreciate your 
willingness to do so and your public service, your continuation 
of public service.
    My State, like many in the West, has often struggled with 
the environmental restrictions sought by, imposed by and 
maintained with interest, often with very little knowledge of 
the conditions with which we live. I would argue with some of 
my colleagues about the environmental record under this 
Administration. I believe as a country we have made great 
strides toward improving our environment and every day we learn 
better ways to care for our environment, we have better 
technology, better research and I think we are doing a better 
job.
    If we honestly look at where we need to make improvements, 
we have to conclude that regulatory reform is badly needed. I 
commend the Administration for its willingness to look at new 
approaches to building a better environment rather than just 
pounding the same tired nails.
    Your record on the environmental issues has been stated 
earlier and what you have done in Utah is exemplary. There are 
those who will find areas to complain about but I think it is 
important that we look to the record and what you have 
demonstrated through your administration.
    I am confident that there will be areas where should you be 
confirmed as the Administrator of EPA, which I hope you will, 
that you will have issues. My State of Alaska has issues with 
the EPA now and I am hopeful that what we will get from you is 
a fair hearing and a recognition and understanding of those 
issues and a willingness to work with us on those. That is what 
I ask of you.
    I do intend to offer you my strong support. I think you 
have demonstrated your abilities and I have confidence you will 
be able to continue with those at this level for the country. I 
again wish you the best through this process.
    Mr. Chairman, I do have additional comments that I would 
ask unanimous consent be included for the record.
    Senator Inhofe. Without objection.
    [The prepared statement of Senator Murkowski follows:]
  Statement of Hon. Lisa A. Murkowski, U.S. Senator from the State of 
                                 Alaska
    Thank you Mr. Chairman--and thank you, Governor Leavitt, for being 
willing to continue your public service by taking on this difficult and 
often thankless task. I'm sure you know that no matter how well you do, 
you will seldom make anyone completely happy, and will never make 
everyone happy at once.
    Mr. Chairman, my State, like many others in the West, has often 
struggled with environmental restrictions sought by, imposed by, and 
maintained by interests with very little knowledge of the conditions we 
live with.
    We take our environmental responsibilities very seriously. We care 
about our environment, and we try very hard to address serious issues 
with clarity and common sense. All too often, common sense is lacking 
when one-size-fits-all solutions are imposed from outside, and based 
more on fanciful gloom-and doom predictions than on facts.
    The truth is this country has made mammoth strides in improving our 
environment, and every day we learn new ways to apply research and 
technology toward doing an even better job.
    This Administration is providing a breath of fresh air--and I mean 
that both literally and figuratively--when it comes to environmental 
issues. While improvements can certainly be forced--at great cost--by 
the threat of heavy-handed government enforcement, they come far more 
rapidly when they are to the participants' economic advantage. There is 
all the difference in the world between making money and not losing 
money.
    If we look honestly at what works and what doesn't, we have to 
conclude that reform of the regulatory process is badly needed. I 
commend the Administration for being willing to look at new approaches 
to building a better environment, rather than continuing to hammer at 
the same old nails.
    Governor Leavitt's record on the environmental issues faced by the 
State of Utah is exemplary, despite the inevitable complaints by those 
who have not gotten everything they wanted. His approach to negotiating 
complex issues has demonstrated that it is possible to achieve 
balance--and a reasonable outcome for those involved.
    In many respects, we in the West are not alone in seeking that same 
balance between our nation's laws and our regional needs--between our 
responsibility for our own choices and those who wish to make choices 
for us.
    I am confident that I will not always agree with the positions that 
Governor Leavitt may take if he becomes the EPA Administrator. Alaska 
has a number of outstanding issues with the EPA.
    We have long wished for administrative action to establish Alaska 
as a separate EPA region; attempting to administer such a vast area 
with so few people who have even seen the issues first-hand is an 
impossible task.
    We would like to move forward on a determination that better 
defines the extent of Clean Water Act authority over Alaska's wetlands. 
We have over 174 million acres of land classified as wetlands, more 
than all the other States combined. Much of it is neither used for 
navigation nor connected in any substantive way with other water 
bodies, or exists solely because it is underlain by permafrost.
    We would like to receive active assistance from the EPA in 
evaluating the long-term health effects of our reliance on small, 
diesel-powered utilities.
    We would like to receive recognition that temperature inversions 
due to our climate are the primary reason some of our cities have 
difficulty attaining compliance with carbon monoxide rules.
    We would like the Agency to work with us on developing a mechanism 
that will more effectively deliver grants to Alaska's many rural Native 
communities.
    There are many other issues between us--far too many to list them 
all.
     What I ask for, and what I believe Governor Leavitt will offer, is 
comprehensive, impartial and thoughtful consideration.
    I plan to offer Governor Leavitt my strong support in this 
committee, and look forward to hearing from him on specific issues.
    Thank you Mr. Chairman.
    Senator Inhofe. Senator Clinton?

OPENING STATEMENT OF HON. HILLARY RODHAM CLINTON, U.S. SENATOR 
                   FROM THE STATE OF NEW YORK

    Senator Clinton. Thank you, Mr. Chairman.
    I want to welcome the Governor and Jackie Leavitt. I am 
delighted that they are here. I think as the Governor has 
already determined from his consultative process and certainly 
the comments already made today, many of us are a little 
concerned about the Administration you are attempting to join 
and the policies that it has taken toward the environment. Of 
course you would be responsible for carrying out those 
policies.
    It is not just the policy choices, it is also the way the 
Administration has gone about them. The litany of requests for 
information, some of which Senator Jeffords referred to that 
were basically ignored and rejected, are lengthy and troubling. 
So there are a lot of topics to cover about specific issues but 
I want to focus in my brief remarks on the recent EPA Inspector 
General report about EPA's response to the World Trade Center 
attacks. It is an issue that illustrates how much Americans 
rely on the EPA for information about the air they breathe and 
how this Administration has undermined EPA's credibility.
    In the last 12 days we marked the 2 year anniversary of the 
attacks on the World Trade Center and the Pentagon. It brought 
back a lot of memories for many of us. It certainly did for me 
and I remember very well being there the day after those 
attacks and seeing the firefighters and the police officers and 
others emerging from that hellish site covered with dust and 
debris.
    I also know how concerned I was starting at that moment 
about the health of the people who were working and living in 
the area and we turned to our Government for advice and 
guidance. I was asked, I asked the EPA, I asked other 
Government officials, is the air safe. The EPA told us it was. 
In successive press releases, Governor Whitman, then 
Administrator, sought to reassure the people of New York and 
America that their air was safe to breathe.
    Based on the EPA's statements, parents sent their children 
to school, elderly residents returned to their apartments and 
unfortunately now we learn from the EPA Inspector General that 
the statements were ``not supported by the data available at 
the time.''
    I recognize and I have said this to Governor Leavitt and I 
have said it publicly, that the EPA and everyone else involved 
was operating under extraordinarily difficult and unprecedented 
circumstances but I just cannot accept that there seems to have 
been a deliberate effort at the direction of the White House to 
provide unwarranted reassurances to New Yorkers about whether 
their air was safe to breathe.
    According to the Inspector General, ``EPA's early statement 
that the air was safe to breathe was incomplete in that it 
lacked necessary qualifications and thus was not supported by 
the data available at the time. CEQ, the Council on 
Environmental Quality, and the White House influenced the final 
message in the EPA's air quality statements.''
    Mr. Chairman, I will ask unanimous consent for two more 
minutes.
    Senator Inhofe. It would be deducted from your next 5-
minute round if that is acceptable.
    Senator Clinton. That is acceptable.
    The Inspector General went on to say, ``Based on the 
documentation we reviewed and our discussions with numerous 
environmental experts both within and outside of EPA, we do not 
agree that the agency's statement on September 18, 2001 that 
the air was safe to breathe reflected the agency's best 
professional advice. In contrast, based on the circumstances, 
it appeared that EPA's best professional advice was overruled 
when relaying information to the public in the weeks 
immediately following the disaster. The White House Council on 
Environmental Quality influenced through the collaboration 
process the information that EPA communicated to the public 
through its early press releases when it convinced EPA to add 
reassuring statements and to delete cautionary ones.''
    Mr. Chairman, these revelations are outrageous but they are 
part of a pattern. If this were the only example, it could 
perhaps be looked at as unfortunate but understandable but it 
cannot be isolated. Time and time again, when we ask for 
information and we do not get it or when we get information 
which experts clearly say and even lay people understand is not 
accurate, that undermines the credibility that we should be 
able to have in our Government, particularly about such 
important matters.
    I would ask that my full statement be submitted to the 
record. I would also ask that a statement by EPA workers who 
perform health and environmental protection duties in 
expressing their anger and dismay over the White House's 
improper actions also be included in the record.
    Senator Inhofe. Without objection, so ordered.
    [The prepared statement of Senator Clinton follows:]
 Statement of Hon. Hillary Rodham Clinton, U.S. Senator from the State 
                              of New York
    Thank you, Mr. Chairman. I want to join my colleagues in welcoming 
Governor Leavitt, his wife and his family to the committee.
    I also want to welcome a New York constituent who is especially 
concerned about the environment and air quality issues. Catherine McVay 
Hughes is a NYC downtown resident, who lives with her two young boys 
and husband one block east of the World Trade Center. I thank her for 
her work on these issues, and for being here today.
    This is an extremely important hearing on the President's nominee 
to head the Environmental Protection Agency. In that capacity, Governor 
Leavitt would be responsible for carrying out the EPA's mission to 
protect human health and safeguard the natural environment air, water 
and land-upon which life depends.
    There are many issues I am concerned about, and that I would like 
to discuss this morning. I am dismayed by the environmental policy 
choices that this Administration has made, and their impacts on the 
health of New Yorkers and its special places, from the Great Lakes to 
the Adirondacks to the Long Island Sound. Just to give one example, the 
Administration's recent decision to eviscerate the Clean Air Act New 
Source Review provisions will mean more acid rain in the Adirondacks 
and more asthma in New York City.
    And it's not just the decisions the Administration has made, it's 
the way that they have made them. The Administration has not played it 
straight in pursuing its environmental policies. I won't repeat the 
litany of outstanding information requests from members of this 
committee, as Senator Jeffords has already discussed this matter in 
detail. But the fact is that the Administration has stonewalled 
Congress and the public time and time again by refusing to provide full 
and complete information.
    So there are a lot of topics to cover, Mr. Chairman. And I regret 
the fact that I cannot cover them here today with Governor Leavitt. But 
questions raised by a recent EPA Inspector General report about EPA's 
response to the World Trade Center attacks compel me to focus on that 
issue. It's an issue that illustrates how much Americans rely on the 
EPA for information about the air they breathe and how this 
Administration has undermined EPA's credibility in that regard.
    Just 12 days ago, we marked the 2 year anniversary of the horrific 
terrorist attacks on the World Trade Center and the Pentagon. It 
brought back memories and emotions for the victim's families, for New 
Yorkers, and I think for all Americans. I know it did for me.
    I remember so well being there the day after the attacks, and 
seeing the firefighters emerging from the haze that hung over the site, 
covered in dust and debris; the rescue workers, whom all of us saw, and 
many of whom I have met, who guided people to safety without a mask or 
a bit of concern about their own long-term health. I am sure that 
Americans remember--and New Yorkers have lived with--the apartment 
buildings, the business buildings that were covered in gray dust.
    When we turned to our Government in Washington for guidance in the 
hours, days, and weeks after that tragedy, one of the questions I was 
asked and the EPA was asked, the White House was asked, and the city 
and the State were asked was: Is the air safe?
    What did the EPA tell us? The EPA said: Yes, it is safe. Go back to 
work, get back to your daily lives. Based on the EPA's statements, 
parents sent their children to school in the area and elderly residents 
returned to their apartments. But, unfortunately, the EPA Inspector 
General now tells us that EPA's statements were, quote, ``not supported 
by the data available at the time.''
    Now, I recognize that EPA and everyone else involved were operating 
under unprecedented and extremely difficult circumstances. But I simply 
cannot accept what appears to have been a deliberate effort to provide 
unwarranted reassurances-apparently at the direction of the White 
House-to New Yorkers about whether their air was safe to breathe. And 
that's precisely what is stated in the August 26 Inspector General 
Report entitled ``EPA's Response to the World Trade Center Collapse.''
    According to the EPA Inspector General, quote:
    ``EPA's early statement that the air was safe to breathe was 
incomplete in that it lacked necessary qualifications and thus was not 
supported by the data available at the time. CEQ influenced the final 
message in EPA's air quality statements. ``
    The IG went on to say that,

  ``Based on the documentation we reviewed and our discussions with 
    numerous environmental experts, both within and outside of EPA, we 
    do not agree that the Agency's statement on September 18, 2001 that 
    the air was safe to breathe reflected the Agency's best 
    professional advice. In contrast, based on the circumstances 
    outlined in Chapter 2 of the report, it appeared that EPA's best 
    professional advice was overruled when relaying information to the 
    public in the weeks immediately following the disaster.''

    Mr. Chairman these revelations are outrageous. After reviewing the 
report carefully, I immediately wrote to President Bush, along with 
Senator Lieberman. In our letter, we asked for an explanation of White 
House interference in EPA's public statements about air quality in 
lower Manhattan. In addition, we asked the President to implement 
several of the IG's recommendations for ensuring that indoor air 
quality concerns have been properly addressed.
    I would have thought that the White House would be outraged by 
these findings as well, and would want to get to the bottom of this and 
respond quickly. But that hasn't happened. We received a written 
response, not from the White House, but from Marianne Horinko, the 
Acting Administrator of the EPA. Unfortunately, Ms. Horinko's letter 
did not address our concerns. So Senator Lieberman and I sent a letter 
to the President reiterating our requests. We are still waiting for a 
reply.
    The only response from the White House so far has been to suggest 
that national security interests justified their interference in EPA's 
statements. This is a canard. To say that national security somehow 
justifies telling people the air is safe when it is not is to 
essentially will engender distrust such that when people need their 
government most, they will trust them least.
    This issue clouds the EPA's integrity. My constituents want and 
deserve a straight answer as to how and why they were misinformed, and 
until they get an answer, they and others will distrust the EPA's 
announcements. And with the White House's lack of an interest in simply 
providing answers, who can blame them?
    That is why I decided to delay full Senate action on Governor 
Leavitt's nomination until the White House adequately responds to my 
concerns.
    Mr. Chairman, I want to be clear that this does not reflect any 
judgment about Governor Leavitt's fitness to be EPA Administrator, as I 
expressed to him in our private meeting. I will evaluate Governor 
Leavitt's nomination based on his record and the responses that he 
provides to the questions that I ask him today and submit for his 
written response. But given the importance of this issue to my 
constituents, and the Administration's reluctance to be forthcoming to 
date, I feel that I have no choice but to hold Governor Leavitt's 
nomination until this issue is resolved.
    Senator Inhofe. Senator Crapo?

 OPENING STATEMENT OF HON. MICHAEL D. CRAPO, U.S. SENATOR FROM 
                       THE STATE OF IDAHO

    Senator Crapo. Thank you, Mr. Chairman.
    Governor Leavitt, we welcome you here today.
    I want to join with my colleagues who thank you for having 
the courage to step forward and take on this important 
responsibility. When it was first announced that you would be 
the President's nominee, one of the reporters in the country 
asked me if I thought your nomination or your confirmation 
hearings would be contentious. I said, well there is certainly 
nothing in Governor Leavitt's background or record that would 
lead to any justification for a contentious nomination hearing 
but I suspect that there may be some effort to try to use these 
hearings as a forum in which to attack the President and his 
environmental policies. I think we are seeing that come forward 
today.
    You are to be thanked for your courage in stepping into 
this arena. Although there will be differences between us about 
how the President has done on the environment and those 
differences will be aired in this hearing and in other forums, 
the fact is that the one bottom line we all share is we all 
seek to advance the best interests of the environment and we 
seek to make certain that we do what America leads this world 
in, that is facing up to environmental issues and dealing with 
them.
    There are differences of opinion about how we should deal 
with the environment. One of the strengths I believe you bring 
to this office is the fact that you are so committed to the 
collaborative process. You not only have shown the leadership 
but you have shown the creativity to come forward and bring 
people with competing ideas together. One of the great 
strengths of our society is the fact that our system of 
government allows for the conflict of ideas. As those ideas 
come into conflict and as people debate them, true leaders help 
resolve good public policy through a collaborative process that 
helps bring forward the kind of decisionmaking that everyone 
can buy into, that we can get out of the partisanship with and 
get on with good public policy. That is what I believe is the 
strongest thing you bring to this Administration and to this 
issue.
    Because of that, again I want to thank you for your courage 
in stepping forward at a time when you knew we were moving into 
a Presidential election cycle, you knew the issues into which 
you were stepping were issues with which you had no part in 
creating but with which you were going to have to deal. You are 
seeing the beginning of that today.
    Again, I thank you for stepping forward to take part in 
this process and to use your leadership and your skills to help 
us address these issues for our Nation. I thank you for the 
courage you have shown in helping us to find another great 
leader who will step forward and help bring people together at 
a time when there is so much that would tend to divide us.
    Thank you.
    Senator Inhofe. Thank you, Senator Crapo.
    Senator Baucus?

  OPENING STATEMENT OF HON. MAX BAUCUS, U.S. SENATOR FROM THE 
                        STATE OF MONTANA

    Senator Baucus. Thank you, Mr. Chairman.
    Welcome, Governor. Good luck.
    It is interesting to hear how many members of this 
committee asked you the same question I asked, namely why in 
the world do you want this job which must say something. You 
have a real tough job ahead of you.
    I very much appreciate your willingness to take this on. I 
appreciate you as a westerner and that you understand western 
issues which is so important to so many of us but, again, you 
have a tough job. You will be I think the ninth Administrator 
since 1970. William Ruckleshaus began in December 1970, Russell 
Train, Doug Cousel, Ann Gorsuch, Bill Ruckleshaus came back 
again, Lee Thomas, Bill Riley, Carol Browner, Christine Whitman 
and you. On that list are some great people who when you think 
of them know that they stood up for good, solid and proper 
balanced protection of the environment. I can't say the same 
for everyone on that list but I certainly can for some.
    One of the challenges you face is to be one of the great 
ones and that is going to be so difficult as I know you know 
because working in Washington, DC. as an EPA Administrator is 
not the same as being Governor of Utah. I have seen many 
Governors come to Washington, DC. and think they can ``run this 
town the same way they ran their States.'' You can't do it. It 
is a whole different ball game. The dynamics are so totally 
different. There are so many longer knives in Washington, DC. 
compared with your capital city in your home State. It is just 
different and not in the best sense of the term in a lot of 
cases.
    It is also different because you are no longer in charge, 
you are working for somebody. You are no longer the top person, 
you are kind of someplace else in the pecking order in the 
Administration. That is a huge challenge because I agree with 
all the statements made about you, your collaborative nature, 
you work together, your salt and so forth but that works for 
somebody who is in charge. It is a little harder for somebody 
who is not in charge. You may be in charge of managing the EPA 
but you are not in charge of policy, somebody else is. You have 
influence but you are not going to be in charge.
    That means you have to fight like the dickens internally 
within the Administration to get what you think is right for 
the environment. Then you can be working with people, 
environmental side and the business side to try to iron out the 
cracked implementation of that policy.
    There is a reason why Christine Todd Whitman left. She was 
not in charge, she was told what to do, she very graciously 
left but we all know why she left.
    Senator Inhofe. Senator, I am going to ask you if you would 
please dispense with your remarks at this time.
    Senator Baucus. Mr. Chairman, I have one more minute and I 
think it is only fair.
    Senator Inhofe. To be deducted from your time.
    Senator Baucus. You can deduct it. I think it is only fair.
    Senator Inhofe. You are recognized.
    Senator Baucus. Thank you.
    Another issue I want to talk about as we did privately is 
Libby, Montana. I have a long statement here about Libby, I 
talked with you privately about Libby. Only 10 percent of the 
cleanup has been accomplished so far in Libby. Carol Browner 
and Christine Whitman both were great about coming to Libby. We 
had a wonderful person there named Paul Peranaud, EPA's man on 
the spot who had the utmost confidence of the people in Libby.
    There is a great sense now in Libby, Montana, the community 
is infected with asbestos related diseases on account of W.R. 
Grace's asbestos contamination, that the momentum of the 
cleanup is losing steam. So I ask you to dedicate your efforts 
if you could please and focus on Libby because those people in 
Libby need it so much.
    I also mentioned in your conversation that Milltown, 
Montana needs a lot of help.
    Thank you.
    [The prepared statement of Senator Baucus follows:]
  Statement of Hon. Max Baucus, U.S. Senator from the State of Montana
    Mr. Chairman, Senator Jeffords, thank-you for calling this hearing 
today to consider the nomination of Michael Leavitt to be Administrator 
of the Environmental Protection Agency.
    This is an important nomination, to an Agency that should set the 
gold standard for protecting the public's health and their environment. 
Lately, the EPA has struggled to set that standard, reaching a low 
point when former Administrator Christie Whitman stepped down early 
this summer. I believe Ms. Whitman tried hard to be faithful to the 
mission of the EPA; she certainly always responded well to requests I 
made of her for my constituents in Montana.
    But, I don't think that Ms. Whitman received the support she needed 
and deserved from the Administration. I admire and respect her decision 
to step down.
    Which is why I've told Mr. Leavitt that I'm not quite sure why he 
wants this job. But, I take him at his word that he will stand firm and 
honor the commitments he makes on behalf of the EPA, to me, to this 
committee or to the American people. The EPA needs someone to restore 
trust and accountability to the Agency.
    The Chairman has asked us to keep our remarks brief, so I will turn 
to the issue that means the most to me, and that is protecting the 
people of Libby, Montana.
    Mr. Chairman, Governor Leavitt--people are dying in Libby. Hundreds 
have already died. In fact, more than 300 people are buried in Libby 
alone, their deaths all related to asbestos exposure that resulted from 
the vermiculite mining activities of WR Grace.
    The EPA finally came to Libby about 3 years ago. Since that time, a 
tremendous amount of Federal resources have poured into Libby, to start 
cleaning up WR Grace's mess and to screen residents for asbestos-
related disease.
    The results of these efforts have been staggering--asbestos was and 
still is everywhere in Libby, in homes, gardens, driveways, even in the 
high school track. Additionally, the Agency for Toxic Substances and 
Disease Registry has found that people from Libby suffer from asbestos 
related disease at a rate that is 40-60 times the national average. 
They suffer from a rare asbestos-caused cancer, mesothelioma (MEE-SO-
THEE-LEE-OMA), at a rate 100 times the national average.
    Even though we are 3 years into EPA's clean-up of Libby, only 10 
percent of the total amount of clean-up work has been completed.
    Last year, Marianne Horinko testified before this committee and 
promised me EPA would clean-up the town of Libby in 2 years, in 2004. 
Now, EPA tells me it will be closer to 5 years, maybe by 2008.
    This greatly concerns me. This town is sitting on a pile of 
asbestos. The residents of this town were exposed to high levels of 
asbestos for years. Many of them, as I have already pointed out, are 
dead. Libby must remain a top, top priority for EPA, for funding, for 
staff, for resources.
    The Libby project should be a prime example that EPA can point to 
on how Superfund protects Americans.
    The investment of millions of Federal dollars in Libby, Montana--
nearly $90 million to date--merits careful follow-up and focus. This 
project was started well; it deserves to be finished well. We can't 
lose focus now.
    Ever since Whitman stepped down, and the onsite coordinator, Paul 
Peronard, was transferred out of Libby, folks in Libby tell my staff 
that EPA's attitude has shifted. EPA staff appear over-worked, and 
tired, lacking adequate support from Region 8 and headquarters. We have 
heard of dozens of examples of EPA staff acting in a less than 
professional manner with Libby residents. Libby, and the EPA, deserve 
better.
    Mr. Leavitt--I ask for your commitment today to make a Libby a top 
priority for EPA and for you personally if you are confirmed as 
Administrator. That means maintaining momentum and focus on the clean-
up work until the town has a clean bill of health sooner rather than 
later.
    I also ask you to come to Montana, and to commit to meeting with 
EPA folks on the ground and with members of the Libby community to 
better understand what is needed in Libby to get the job done.
    The people of Libby have suffered enough. It's our responsibility 
to take that town off the National Priorities List as soon as possible.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Baucus.
    May I just remind my fellow Senators the reason we are 
having time restrictions is to respect the time of the other 
members and we are trying to do that. You will have ample time 
to make any remarks you want as this hearing progresses.
    Senator Allard?

 OPENING STATEMENT OF HON. WAYNE ALLARD, U.S. SENATOR FROM THE 
                       STATE OF COLORADO

    Senator Allard. Mr. Chairman, thank you, and I appreciate 
your recognizing that some of us have rights too as far as free 
speech is concerned.
    I just want to compliment you, Governor, because you are 
stepping forward at a time that is going to be very difficult. 
Obviously the issues before the EPA are difficult but this is 
an election year. There are obviously members on this committee 
and members in the Congress who will try and say that the 
environment is a partisan issue. In reality, the environment is 
not a partisan issue. I can point to sites in the State of 
Colorado where their cleanup was opposed by a Democratic 
Administration, right in the middle of Denver. I can also point 
to sites in Colorado that are being cleaned up ahead of 
schedule and under budget because of this Administration. So I 
don't think that the environment should be a partisan issue. We 
can point to instances on both sides with both Administrations.
    I think you are the kind of leader that we need in this 
position and I admire you for your courage and willingness to 
step forward. I think you recognize that local interests can 
also have the best solution for the environment and that all 
the decisions shouldn't be driven out of Washington.
    I think you also recognize that there is a balance between 
private property rights and that is not a radical idea. Private 
property is protected in the Constitution. There are some 
issues that are specific to the western part of the United 
States and they have to be dealt with in a different way in 
order to protect the environment than on the East Coast. I 
think you understand that delicate balance from our 
conversation. No two ecosystems are the same. Ecosystems have 
to be managed differently in order to protect the environment 
within those ecosystems. I also think you understand how 
important it is that we apply good science as we are dealing 
with the environment.
    Again, I want to thank you for being willing to take on 
this job and it is going to be difficult but I hope we can 
avoid some of the partisan efforts that seem to be happening to 
make this a Republican versus Democrat issue. We are all 
concerned about the environment.
    Mr. Chairman, I ask unanimous consent that my full 
statement be made a part of the record.
    Senator Inhofe. Without objection, so ordered.
    [The prepared statement of Senator Allard follows:]
Statement of Hon. Wayne Allard, U.S. Senator from the State of Colorado
    Thank you, Mr. Chairman, for convening this hearing in a timely 
manner. The confirmation of the President's nomination must be a top 
priority for this committee and the Senate. As we begin this hearing, I 
challenge my colleagues to focus on the results and achievements of our 
national environmental policy and not on penalties and politics. Our 
national environmental regulatory structure, abundant environmental 
mandates and administrative and judicial rulings, work together to 
protect our most precious resources, and have helped spur environmental 
recovery in many areas. But these same layers of laws have also created 
tremendous burdens for municipalities, businesses and the ongoing 
development and maintenance of our public infrastructure. We cannot 
simply wipe the slate clean and sweep away basic environmental rules; 
but we can--we must--develop an environmental agenda that protects 
private property rights while balancing environmental achievement with 
the need for continued economic progress.
    Governor Leavitt hails from the western United States. No other 
geographic region in the country has felt the heavy hand of regulation 
more than the public land States of the west--be it in the form of 
forthcoming EPA mercury standards or the Department of the Interior's 
Endangered Species Act. Governor Leavitt understands the complicated 
web of environmental rules and the impact that they have on health and 
property. As a Governor, he has worked hard to increase the well-being 
of the people in his State, and he has worked diligently to improve the 
State of the environment. Governor Leavitt understands the fundamental 
need to protect the environment from irresponsible actors. Just as 
important, though, he understands the need to protect the environment 
through policies and programs that generate results and that create 
incentives to improve land, water and air quality. He also knows that 
heavy handed action is not nearly as important as the results that can 
be achieved through cooperation and collaboration. The development of 
such Enlibra principles have received a bipartisan endorsement from the 
National Governor's Association and deserve a great deal of attention.
    As we begin deliberations on the nomination today, we do so in an 
environment that has improved greatly over the past several decades. In 
the last 30 years water quality has improved and emissions of the six 
principle air pollutants have been cut 48 percent. This progress comes 
even as the country has experienced a 164 percent increase in gross 
domestic product, a 42 percent increase in energy consumption and a 155 
percent increase in vehicle miles traveled. This improvement has 
occurred over the course of thirty-four years, 22 of which came under 
the leadership of Republican Administrations. Echoing the other members 
of the committee, our nation lives today in a cleaner, healthier 
environment, far more clean than it was when President Bush first took 
office. As mentioned, the most recent EPA data shows that, SO2 
emissions from power plants were 10.2 million tons in 2002, 9 percent 
lower than in 2000 and 41 percent lower than 1980. NOx emissions from 
power plants are also lower, measuring 4.5 million tons in 2002. This 
is a 13 percent reduction from 2000 and a 33 percent decline from 1990 
emissions levels. The Bush Administration's environmental success will 
continue under Leavitt. Under his leadership, Utah now meets all 
Federal air quality standards. Seventy-three percent of Utah's streams 
currently meet Federal water quality standards, compared to 59 percent 
10 years ago. This is a remarkable improvement since Governor Leavitt 
took office. In Colorado, the Bush Administration's efforts to clean-up 
the Shattuck and Vasquez Boulevard sites deserve many thanks. The 
Administration continues to prove its commitment to the people of 
Colorado through responsible stewardship and active protection.
    The evolution of environmental rules and regulations that control 
so many aspects of life must be realistic goals that are established 
through a course of open deliberation and sound science. The impact EPA 
has on individual lives is real, not fictitious. New laws and 
enforcement decisions cannot be taken lightly. I am pleased that 
President Bush's approach has been one of reform--changing command-and-
control mandates to innovative, market-based approaches that utilize 
cutting edge technology to bolster environmental benefits. I hope this 
type of strong, principled leadership will continue into the future, 
and challenge the new nominee to further these efforts.
    Governor Leavitt carries all the necessary credentials to oversee 
our nation's environment. He has not backed away from major issues and 
has been a proactive leader on many issues. Not only is he the nation's 
longest serving Governor, he has experience as chair of the National 
Governor's Association, the Western Governor's Association--where he 
oversaw the Western Regional Air Partnership--and the Republican 
Governor's Association.
    Yet despite all these accomplishments, there is still room for 
progress. Senator Crapo and I have introduced legislation that would 
establish an independent office of the EPA ombudsman. This important 
position was critical to the successful removal of waste from the 
Shattuck Superfund site in Colorado. The legislation has already passed 
the Senate and I look forward to working with members of the House and 
the Administration on its enactment into law. I also believe that the 
President's Clear Skies Initiative sets a strong tone for positive 
results. According to EPA figures, the proposal will reduce SO2 
emissions by an additional 70 percent by 2018. I want to caution, 
though, that the Clear Skies proposal must be formulated in a way that 
does not bring about arbitrary change at the expense of western States' 
interests.
    The commitment President Bush has made to improving the environment 
is strong, clear and unquestionable. I look forward to working with 
members of this committee and the Administration as we work toward 
confirmation of this nominee.
    Senator Inhofe. Senator Boxer?

OPENING STATEMENT OF HON. BARBARA BOXER, U.S. SENATOR FROM THE 
                      STATE OF CALIFORNIA

    Senator Boxer. Thank you very much, Mr. Chairman.
    I want the record to show that I think taking time away 
from colleagues if they go over for a minute, colleagues who 
have served here for many years, I don't think it serves the 
public interest. It is just my opinion and obviously you are 
the chair and you can choose to do that.
    I just want to say I had a very good meeting with the 
Governor. We spoke for about 45 minutes and he knows how 
concerned I am about the direction of this Administration. We 
didn't pull any punches with each other and I so appreciated 
his candor at that meeting.
    Clearly objective voices will decide if this Administration 
is moving forward on the environment or is taking us back. 
Clearly today we have two distinct views. Republicans feel we 
are moving forward, we are doing great and the Democrats don't 
seem to share that.
    As for me, I am not going to make a statement full of 
hyperbole, I am going to go in my questions with the exact 
rollbacks. I have 50 rollbacks, Governor, that this 
Administration has undertaken and their relatively short time. 
Overall, there have been 300 rollbacks of environmental 
protection. I guess you are fortunate it is only 50 in your 
EPA, but it is very, very serious.
    For me, it is critical that the EPA Administrator, whether 
she or he is sitting in a Republican Administration or a 
Democratic Administration and I mentioned this to you, will go 
to that Cabinet meeting and will sit in that chair and as 
Senator Baucus says, will fight for the environment. We are not 
going to go over those now but will wait for the questions.
    When you sit around that table, I would hope you would see 
your role not as a Governor or a Senator. We have to balance a 
lot of different issues. You are there to fight for the 
environment. It is the Environmental Protection Agency. It is 
not the Environmental Pollution Agency, it is the Environmental 
Protection Agency. So to me that is the most important thing I 
want to hear from you today, is that sitting around that table 
you will be an environmental advocate, because I believe that 
is exactly what your job is. The President, he is going to take 
everybody's views. You are going to have OMB objecting, you are 
going to have other people objecting, you might have Commerce 
objecting, but I want to know how you view your role, and I 
will ask you about that. I am also going to, as I told you when 
I met, in addition to those things, ask you about your own 
record in Utah, which I see as being pluses and minuses.
    But there were three things that concerned me, and I want 
to explore them with you when I get a chance. One is there are 
newspapers articles that staff was retaliated against after 
they made recommended changes in endangered species protection. 
So I want to get your side of that. I will tell you the reason. 
I am very concerned in this EPA. I have a lot of whistle-
blowers calling my office. They are told not to talk to 
anybody, not to talk to the press. I don't think that is good 
for the Country. So I want to ask you about that. Also, lacks 
clean water enforcement. A recent EPA report on clean water 
enforcement you were tied for last place with Ohio and 
Tennessee. I want to ask you about that. And, last, allowing 
Utah's power plants to increase their emissions of nitrogen 
oxide. Between 1995 and 2002, the rest of the Country reduced 
by 21 percent, and your emissions went up. So I will ask you 
about the rollbacks, the record there, and, in general, your 
feeling about the job.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Boxer.
    Well, Governor Leavitt, at this time we will recognize you 
for your opening statement. We would like to have you know that 
we will submit your entire statement for the record, but ask 
you to try to confine your remarks to 5 minutes.

    STATEMENT OF HON. MICHAEL O. LEAVITT, NOMINATED BY THE 
 PRESIDENT TO BE ADMINISTRATOR, U.S. ENVIRONMENTAL PROTECTION 
                             AGENCY

    Governor Leavitt. Senator, thank you, and thank you all for 
the graciousness with which I have been received over the 
course of the last weeks. In keeping with the spirit and letter 
of the chairman's request, I will ask that my full statement be 
submitted, and I will simply make five points.
    First, I have in fact answered the President's call, and he 
has asked that I be the Administrator of the Environmental 
Protection Agency, and today I begin a road of seeking the 
confirmation of this Senate. Many of you have asked why. The 
answer to that is simple. I do so because I passionately 
believe that this Nation deserves to have a clean and safe and 
a healthy environment. And I also believe that the United 
States can increase the velocity of our environmental progress, 
and that we can do it without compromising our competitive 
position economically in the world.
    The second point I would make, Mr. Chairman, is that for 11 
years I have served as Governor of Utah. I have not had the 
luxury of being able to do so in isolation. As Senator Jeffords 
pointed out, one of my responsibilities has been to ensure a 
proper education for the children of our state. Another has 
been to nurture those who have been in need. Still another has 
been to provide economic leadership, helping to ensure that 
there is quality jobs for state residents. And, while I 
recognize that if I am confirmed as the Administrator, I will 
have the luxury of working full-time to protect the 
environment, I also recognize that I still won't be able to do 
it in isolation.
    The third point is that I view myself as a problem-solver 
by nature. That is where I find satisfaction, and over time I 
have had substantial experience in dealing with large, complex 
environmental issues, and I have found with experience that the 
solutions to those problems are found in the productive middle; 
rarely are they found at the extremes. That experience of 
working through those problems has caused me to form and have 
nurtured in me, or at least crystallized in me a very clear 
environmental philosophy. Former Governor Kitzhaber, a 
Democratic colleague from the State of Oregon, and I shared 
many thoughts about this. We ultimately concluded that we 
needed to give that philosophy a name. We coined the phrase 
``en libra.'' It is a Latin word, two syllables: ``en,'' to 
move toward; and ``libra,'' balance; to move toward balance. 
You will see that reflected today in our interactions.
    Last, while this committee hearing is about my fitness to 
serve as the Administrator of the Environmental Protection 
Agency, it is clear to me that there are disagreements that 
will play out in our conversation, and I want to be as 
forthcoming as I can, and want to contribute in every way I can 
to that conversation. Obviously, there will be limits when we 
start reflecting on things that have happened in the past and 
things that could happen in the future. But I do believe one 
thing that would be most helpful would be for me to give you a 
clear view how I see my relationship with the President. 
Perhaps I can best do it by reflecting on my own experience as 
Governor.
    For the last 11 years I have served with an able cabinet, 
and with each one of those members of the cabinet I have had a 
conversation. I want you to know that the President of the 
United States has my full respect, and he has my complete 
loyalty. None of you would expect less of me than that. When I 
met with my cabinet members, I told them that this is the way I 
defined loyalty. First, I expect them to run the department 
over which they have been appointed. Ninety-nine percent of the 
things that come through that department I, as Governor, will 
never see. And I expect them to keep the law, and I expect them 
to do all they can to manage the department according to the 
policies that I have laid out. Second, I expect them to be wise 
enough to know when a matter needs to be elevated, when it 
begins to reflect on other parts of society other than the 
jurisdiction that they immediately have. Third, when those are 
elevated, I expect them to tell me exactly the way they feel; 
sometimes publicly, other times privately. And, last, I expect 
them to understand that I am the one who was elected as 
Governor, and there are times when those decisions have to be 
made by me. And I expect that is precisely the same 
relationship I will have with the President of the United 
States; I will run the Department, he will know where I stand, 
and I will give this all I have.
    Senator Inhofe. Thank you, Governor Leavitt.
    We will start our series of 5-minutes questions. I 
apologize to some who have arrived late. We are trying to stay 
on schedule and you will have time to make your statement 
during question time.
    There are two required questions I would like to ask you at 
this time. Are you willing to appear at the request of any duly 
constituted committee of Congress as a witness?
    Governor Leavitt. Mr. Chairman, I am.
    Senator Inhofe. Do you know of any matters which you may or 
may not have thus far disclosed that might place you in any 
conflict of interest if you are confirmed to this position?
    Governor Leavitt. I know of none.
    Senator Inhofe. Thank you very much.
    I would like, since I cut you off there, you can use any of 
my 5 minutes to conclude your opening statement, if you weren't 
quite through.
    Governor Leavitt. Well, Senator, I would only add this. I 
recognize that the first obligation I would have, if confirmed 
by the Senate, would be to gain the trust and the confidence of 
the nearly 18,000 people who work at the Environmental 
Protection Agency. By my experience, these are dedicated, able 
people. And I would tell this committee, the full Senate, the 
American people, and those at the Environmental Protection 
Agency that I would give this my full energy.
    Senator Inhofe. I have no doubt to that.
    Governor Leavitt, I would just ask one question, then we 
will go on to the other Senators. When I became chairman of 
this committee, I said that we wanted to do three things. The 
first one was to use good, sound, objective science. Quite 
often, Governor, there are competing sciences, and there are 
certainly some that are recognized higher above others, 
National Academy of Sciences and so forth. I would like to know 
how you are going to address the science, as these decisions 
come along, in carrying out the duties to this office.
    Governor Leavitt. Senator, I reflected earlier that many 
years of dealing with complex, large-scale environmental 
problems has crystallized in me a philosophy. One of the tenets 
of that philosophy is science for facts, process for 
priorities. What I mean by that is that very early in my time 
working with environmental problems people would say to me, but 
the science says this, and I realized over time that there are, 
at moments, competing science. And as I began to dig deeper in 
the science, I became knowledgeable that many times there were 
human assumptions made in the creation of science, and that it 
was my obligation as a policymaker to understand what was 
behind the science and to understand the human judgments that 
had been made. I absolutely believe that the best science, the 
best science ought to be utilized. But we have to have 
disciplined process, then, to understand what is behind the 
science and what the policy implications are so we know which 
science is best and what the implications are.
    Senator Inhofe. Thank you, Governor.
    I will recognize the Senators in the order using the same 
early bird order. I would observe, however, in my opening 
statement I mentioned that most of the discussion in opening 
statements really had nothing to do with Governor Leavitt. And 
if we will confine our questions to Governor Leavitt and his 
positions, and things that you want to inquire about him, I am 
sure that we will have ample time to do it. I would second say 
that we are going to have a vote at 10:45. It is the decision 
of this chair to go ahead and continue the questions throughout 
that vote. I will start out by voting, coming back; perhaps, 
Senator Voinovich, you can chair when I am gone. We will vote 
in shifts, if that is all right.
    Senator Jeffords, you are recognized for your 5 minutes.
    Senator Jeffords. Thank you, Mr. Chairman. These are most 
important matters, and members on both side deserve ample time 
to make their remarks and ask questions, and I laid the whole 
afternoon before me for that purpose, so I would hope that we 
do give that opportunity to the members. Also, some members 
couldn't be here. Senator Lieberman also would have submitted 
questions to be answered, and I assume those will be answered.
    Senator Inhofe. I am sure they will. We announce at the 
very first, questions for the record from those who were not 
able to attend would be fine.
    Senator Jeffords. Chairman, I ask unanimous consent the 
prehearing questions that are received and provided, rather, to 
Governor Leavitt on September 5th, 2003, be inserted into 
hearing record and that the record be held open, as is our 
usual course of business, until these questions are answered.
    Senator Inhofe. Is there objection? Hearing none, so 
ordered.
    Senator Jeffords. I would like my colleagues to understand 
the importance of these questions, as well as the importance of 
the full exchange of information with Governor Leavitt. I 
intend to obtain and review these answers prior to the markup 
of Governor Leavitt's nomination in the committee.
    Governor, the Bush Administration does not have a good 
record of sharing information with this committee, not during 
my chairmanship and not while I have been Ranking Minority 
Member. Last week I provided you with a substantial list of 
outstanding unanswered or inadequately answered requests that I 
and members of the committee have made over the last 2 years. 
It is a long list, and that is a long time. Do I have your 
commitment to endeavor to provide this information to me prior 
to your confirmation? And if you could give me some guidance on 
how much time that might take, if you know, I would appreciate 
it. And I would look more favorably on your confirmation if 
these questions are answered.
    Governor Leavitt. Senator, as you can appreciate, I don't 
have access to any of the information that you talked about in 
the past. I would like to reflect that it would be my desire to 
have a very straightforward, candid, and open relationship with 
you, as we talked during our private meeting. I fully also 
acknowledge that there are historic tensions that exist between 
administrations and the Congress, and I don't fully understand 
all of the dynamics of this, but I want you to know that I will 
do all I can to make certain that I am responsive to you. With 
respect to your questions, I am anxious to answer those and 
make certain that they are responded to in a way that will 
provide you with what information you need to know what goes 
inside my head and also my heart.
    Senator Jeffords. I appreciate that answer. Governor, the 
White House recently rushed to issue a second final rule to 
eliminate the New Source Review program. Taken together, these 
new rules will allow at least 7,000, if not all, major sources 
of pollution to increase harmful emissions above today's levels 
without requiring modern controls. This last rule, done just 
before Labor Day, allows 120 or so of the oldest, least 
efficient, and dirtiest power plants to avoid modern controls 
forever. According to EPA and Abbott Associates, that means at 
least 20,000 people will continue dying prematurely each year. 
Your State and your director in Utah and the Bipartisan Group 
of Northeastern Governors had said these rules make NSR worse, 
and EPA hasn't shown the benefits for polluters justify the 
cost to public health, as they must under the major rules.
    No. 1, Acting Administrator Renko has said that the latest 
NSR rule will increase reliability without affecting emissions, 
and Assistant Holmes has stated that emissions at some 
facilities will increase. If you become Administrator, will you 
agree to collect information on these rules to find out who is 
telling the truth and share it with the committee?
    Governor Leavitt. Mr. Chairman, my objective, if I am 
confirmed, is to have the air cleaner when I am finished than 
when I start. I have watched this New Source Review issue 
unfold, and I have done my best to understand the dynamics of 
it. I have spoken extensively with State regulators who use the 
phrase the puzzle book; it is the five three-ring binders that 
contain the regulations necessary to decide if a plant is 
subject to New Source Review. On the other hand, I have heard 
others speak of the problem with these legacy plants and the 
need to find the way to do it. Now, my own air director, as you 
indicated, was asked for input and provided them with input, 
which I am happy to say, for the most part, in fact, entirely 
was adopted as part of those conclusions. My objective is to 
make certain that we are upgrading wherever possible. We will 
administer the rule, I will do everything I can to clean the 
air, and look forward to cooperating with you in whatever way I 
can to make that happen.
    Senator Jeffords. I appreciate that answer, because I can't 
tell you how frustrated I am. We continuously ask for answers 
and we get nothing.
    Senator Inhofe. We will have several other rounds, but your 
time has expired.
    Senator Voinovich?
    Senator Voinovich. I have often stated that we need to 
harmonize our environmental policy and our energy policy. In 
fact, I believe these two issues are merely two sides of the 
same coin. We cannot have a healthy sustained economy without a 
healthy environment, and we cannot afford to invest in new 
environmentally friendly technologies in an unhealthy economy. 
And I was interested that you believe that you can move forward 
and clean the air and do a much better to our environment, but 
at the same time take into consideration the impact that it has 
on our competitive position in the global marketplace.
    President Bush has set out an aggressive plan to reduce 
emissions of harmful pollutants into the atmosphere in a way 
that will not put American jobs in jeopardy. The agenda calls 
for reduced emissions from diesel vehicles through new emission 
limits on diesel truck engines and new roles that will require 
reduced emissions from off-road vehicles like heavy 
construction equipment; passage of the Clear Skies Act to 
reduce power plant emissions by 70 percent, of which I am a co-
sponsor with Senator Inhofe; and reform the New Source Review 
program to allow electric generators to put new modern 
equipment into their power plants, and Senator Jeffords has 
referenced that.
    If you are confirmed by the Senate, you will be a person 
who has to implement President Bush's plan. As I mentioned in 
my opening remarks, I believe you are perfectly qualified for 
this position because of your ability to bring everyone to the 
table and find consensus. But I don't know that you have ever 
faced a situation like we have here. Senator Jeffords and I 
have been dealing with this now for about 2 years. The two 
sides of this debate seem so polarized that finding any sort of 
compromise or consensus will be a huge undertaking. How do you 
plan to accomplish this and implement the President's clean air 
agenda?
    Governor Leavitt. Senator, during the western electricity 
crisis, we in the west had to reassess our position with 
respect to energy, but at the same time wanting very much to do 
nothing that would compromise the environment. In my own State 
we wrote a new energy policy that called for us to move forward 
with the development of a nearly 5,000 megawatt each year, 
actually, and also to continue to reduce air pollution, and we 
have been able to do that in the last 2 years. We have done so 
by following a balanced policy. Now, I will tell you that I 
believe fundamental to being able to increase the Nation's 
supply of energy, and to do it without sacrificing our 
environment or our competitive position, the President's Clear 
Skies initiative is a prerequisite to being able to accomplish 
that. And I look forward to working with the committee and the 
President to be able to find a way in which that can be 
implemented so that we can move forward with both.
    Senator Voinovich. New science. The National Science 
Foundation, a couple of years ago, said that there should be an 
assistant over there in the Department that elevates the 
scientific capacity of the Environmental Protection Agency. 
Initially Senator Carper and I introduced legislation, and the 
reaction from the Administrator was that we don't need a new 
position in the Environmental Protection Agency. I intend to 
reintroduce that legislation with Senator Carper. And you 
mentioned that you would take all of the information that you 
have, and I would like a commitment from you that you would 
reevaluate the position of the Environmental Protection Agency 
in regard to this. And, once done, I would hope that if you 
find that the National Science Foundation was correct, that you 
could become an advocate in the Administration, and perhaps 
even get them to support this legislation, which we feel is 
crucial to your agency.
    Governor Leavitt. Senator, if I am confirmed, you have my 
commitment to learn more about that, and I look forward to 
working with you on this matter, as we have on so many in years 
past.
    Senator Inhofe. Senator Wyden?
    Senator Wyden. Thank you.
    Governor, welcome, and appreciate all your candor. I would 
like to begin by having your reaction as to whether you would 
ramp up enforcement of the Country's environmental laws. I 
think there is a widespread feeling in the Country that this is 
something of a polluter's holiday; that you look at the clean 
water record, for example, the clean water record found that 
only 24 percent of the facilities in significant noncompliance, 
major violations, faced enforcement actions. The amount of 
penalties recovered from polluters dropped 50 percent in 2002 
compared to prior years.
    My first question is are you prepared to ramp up 
enforcement of the environmental laws? And particularly after 
the collaborative approach that you have advocated, that I 
support, after it fails, are you willing to bring in strong 
enforcement stick and fight for the Country's environmental 
statutes?
    Governor Leavitt. Senator, I would like to give you a 
straightforward understanding of my enforcement philosophy. 
First, the goal is compliance, to find ways to move people to 
compliance; and there are times when strong enforcement is the 
only tool available to have that happen. If there are those who 
avoid or those who evade the law, the full weight of the 
Environmental Protection Agency and the law will be brought to 
assure their compliance.
    Senator Wyden. Well, that is not being done today, and so 
my question, we will be back to it today, is something needs to 
be done to ramp up enforcement. When you look at those numbers 
coming out of EPA, they are sending a very strong message that 
polluters can pretty much enjoy this holiday, and it needs to 
be changed.
    My second question involves what you would do to restore 
the independence of the Environmental Protection Agency. You 
have got people like Russell Train. We are talking about being 
bipartisan here. He served both in the Nixon and Ford 
administrations. He is talking about unprecedented intrusion by 
the White House into environmental policy. What would you do to 
restore the independence? And perhaps you might want to tell us 
what did the White House tell you about how you do your job? 
You talked, and I know it to be the case, about how you treated 
your people fairly, but you didn't talk about what the White 
House said to you about how you would be able to carry out your 
duties. What can you tell us today about how you would restore 
the independence and the credibility of this agency that it has 
enjoyed in the past?
    Governor Leavitt. In my conversations with the President, I 
made clear to him and he made clear to me that our mutual goal 
was cleaner air, purer water, better cared for land, and a 
healthy environment, and I agreed, Senator, to offer myself for 
this position with that in mind. It was his commitment that 
attracted me to this role. Now, I recognize there are 
disagreements with respect to the policy, but I would like you 
to know this: the President will always know where I stand. He 
will hear it many times publicly and sometimes privately. I 
recognize in the role that he has and the role that I have, 
that what he needs from me is loyalty expressed in the context 
of he will know what I believe to be the facts, and he will 
also know what the best science is and what the people of the 
Environmental Protection Agency believe.
    Senator Wyden. How would you have handled the situation 
such as the Cheney task force? Christine Todd Whitman was part 
of it, which was put in place in secret, continues to be secret 
despite the fact that three Federal courts have ordered the 
information released? What would be your reaction if someone 
asked you, as EPA Administrator, to participate in something 
with that level of secrecy?
    Governor Leavitt. Senator, I know very little, really, 
about the incident you are referring to. I will tell you that I 
intend to be a straightforward voice that will lay out the 
facts and call them as I see them, and I will be a passionate 
advocate for my view and what I believe to be the view of the 
Environmental Protection Agency.
    Senator Wyden. Would you open up, for example, the 
discussions that are now going on with industrial livestock 
farms? There are discussions going on behind closed doors. 
People want to know what is going on with respect to the Clean 
Air Act and the Superfund laws there. They are being done in 
secret. Would you open those up?
    Governor Leavitt. Again, I know nothing about those 
discussions. I would like to tell you about the way we handled 
those discussions in my State. We anticipated the need for 
these combined animal feeding operations to find some means of 
improvement. We began working in a very collaboratively way, 
bringing together the agricultural organizations with those who 
would ultimately have to make decisions. We brought the EPA 
from the region over and told them we wanted to find a way in 
which we could work together to inspect these organizations 
quickly and bring them into a sense of compliance. Over the 
course of a very short period of time we were able to develop a 
program where all 3,000 potential combined feeding operations 
in our State were inspected, and that all of the larger ones, 
387 of them, have now been permitted. We have done so because 
we wanted the water to be cleaner, and it has worked. That is 
the way I would intend to work, and those are the kinds of 
conversations that I want to participate in.
    Senator Wyden. I think what troubles me, and I touched on 
it, is the way you have conducted some of these discussions and 
the Western Governors' Association have conducted a number of 
these bipartisan policies indicates there is a big gap between 
that approach and what we have seen, and I will be discussing 
that some more in the next round.
    Senator Inhofe. Thank you, Senator Wyden.
    Senator Cornyn.

 OPENING STATEMENT OF HON. JOHN CORNYN, U.S. SENATOR FROM THE 
                         STATE OF TEXAS

    Senator Cornyn. Thank you, Mr. Chairman.
    Thank you, Governor Leavitt, for being here today.
    Senator Inhofe. Let me interrupt for just a moment. The 
scheduled vote that was going to be at 10:45 looks like it will 
be at 11:15 now.
    Go ahead.
    Senator Cornyn. As we have heard, this hearing is really 
not so much about your qualifications, unfortunately, from my 
standpoint, but an opportunity for people to make and repeat, 
in many instances, unfounded and outlandish claims against the 
current Administration in terms of its environmental record. I 
am not asking you to comment on that, that is my opinion, and I 
think shared by many.
    Obviously, delay in your confirmation as head of the EPA is 
hardly a pro environment move, and so I hope this committee 
will expeditiously vote out your nomination and we will confirm 
you by the vote of the entire Senate quickly. There is no 
reason not to, and the only reason for delay is for scoring 
political points, which I hope we would avoid and show some 
restraint attempting to do that.
    Just listening here so far to this hearing, you would think 
that pollution is continuing and running rampant in our 
Country, when in fact the EPA, just last week, in its latest 
findings on national air quality, reflects that at thousands of 
monitoring stations across the Country we have seen tremendous 
improvement over the past 20 years for all six principal 
pollutants. Since 1970, aggregate emissions for the six 
principal pollutants have been cut by 48 percent. Now, to be 
entirely bipartisan about that, that has occurred both during 
Democratic administration and Republican administrations. But 
in the face of those facts, I find it very hard to swallow some 
of what I hear when I hear unfounded criticism of this 
President's commitment to environmental protection. Indeed, 
under his administration, we have seen the reduction of 
pollutants, we have seen cleaner air and safer water for all of 
us, which is our collective goal, be we Republican, Democrat, 
Independent, or whatever.
    I share Senator Voinovich's concerns about the polarization 
of the debate, because it seems like, for some, environmental 
protection is a zero sum game; you are either for the 
environment or you are for people, and there could be no sort 
of middle ground. And I delighted to hear you express your 
desire to try to achieve some middle ground in what seems like 
a zero sum game in the eyes of some.
    Now, I just would have really one question in this round, 
and it relates to New Source Review, and let me just tell you 
my concerns. New Source Review has been a lawyer's best friend. 
Because of the unpredictability of this regulation, because of 
lack of clarity, lack of predictability on how it would be 
applied, rather than a cleaner environment, we have seen 
protracted litigation; and that is why I say the New Source 
Review has been the lawyer's best friend.
    Do you view that, whatever the rules may be, that clarity, 
common sense, and balance ought to be our goal, rather than 
rules that are perhaps vague, ambiguous, those that will 
basically invite litigation and thus delay an implementation of 
those rules? Could you respond?
    Governor Leavitt. Senator, I acknowledge that there has 
been some disagreement on the prudence of that rule, but I will 
tell you this. I find no disagreement on the fact that the rule 
needed to be clarified. When I speak with State regulators in 
particular, I referred to this earlier, they called them the 
puzzle book, and not only because there is a picture of a 
puzzle on the binders, but there are five three-ring binders 
that contain regulations through which a State regulator has to 
filter every decision to determine if in fact it applies or it 
does not apply; and there was unanimity, from what I knew, that 
there was a need to simplify it. Now, there was disagreement as 
to how it should be done, but the decisions has now been made, 
and it would be my objective, if confirmed, to do that in the 
most efficient way possible to make certain that we are moving 
toward cleaner air, fundamentally cleaner air.
    Senator Cornyn. And would you view clarity and eliminating 
ambiguity in what the rules are so that there can be, where 
necessary, strict enforcement of a clear rule, the goal?
    Governor Leavitt. Senator, I have always found that in 
rulemaking clarity and straightforwardness is the first step of 
compliance. Generally speaking, most people want to keep the 
rule, most people are willing, but they have to know what the 
rules are and how to apply them.
    Senator Cornyn. Thank you, Governor.
    Mr. Chairman, I would like to ask that the latest EPA 
trends report released last week, entitled ``Latest Findings on 
National Air Quality'' be made a part of the record.
    Senator Inhofe. Without objection, so ordered. Thank you, 
Senator Cornyn.
    [The referenced document appears in the appendix to this 
hearing record:]
    Senator Clinton?
    Senator Clinton. Thank you, Mr. Chairman.
    Governor, I have a number of questions on a range of issues 
that I will most likely not get to during this hearing unless 
the chairman has a change of mind and we are able to lengthen 
it so that we can get all of our questions in. So I will be 
submitting a number of questions to you in writing. There are 
lots of issues that are of concern to New Yorkers, and I would 
like to get your answers as we move through this process.
    But I want to ask you about the continuing concerns that I 
have expressed about the Inspector General's report, and I want 
to speak about indoor air quality. And before I ask a specific 
question, I want to thank a representative of the Downtown 
Residents from Lower Manhattan, Katherine McVeigh Hughes, who 
has just arrived, because I think Mrs. Hughes demonstrates 
clearly why I am so concerned about this. She is the mother of 
two young boys. Along with her husband, she lives one block 
east of the World Trade Center, on Broadway, between John and 
Maiden Lane, and she has lived through the confusion, the 
disinformation, the unsubstantiated reassurance. And I know 
that in addition to your many other attributes, you and your 
wife have a lovely family, and I think that putting yourself 
into the position of someone like Mrs. Hughes perhaps can 
clarify the concerns that we have and why this is not just a 
question about the past, it is a question about what you will 
do as the Administrator.
    Because when we began the process of cleanup, it took quite 
some time, but the EPA finally announced a testing and cleanup 
program in May of 2002, and they tested and cleaned thousands 
of residences; and I applauded that effort at the time, but I 
continued to raise questions about its adequacy. Since reading 
the Inspector General's report carefully, I have even greater 
concerns, because the Inspector General makes a compelling case 
that further testing and cleanup are required. Specifically, 
the IG recommended three additional testing and cleanup 
actions. I wrote to the President, asking that these be 
implemented. It seems to me that given the problems in the 
cleanup and the testing, given the IG's findings, that when we 
went back and retested some of the cleaned up areas, we found 
residue of contaminants that were troubling.
    I want to ask you a simple yes or no question at the 
outset. If you are confirmed, would you seek to implement the 
recommendations about indoor air testing and cleanup referred 
to in the Inspector General's report and in my letter to the 
President?
    Governor Leavitt. Senator, I understand that there are 
conversations going on currently between your office and the 
White House with respect to this and the EPA. I have not been 
party to those, and therefore I am not able to give you a 
simple yes or no. I would like to reflect, if I could, however, 
thoughts I have had since our conversation about this matter. I 
listened carefully to your concerns, and while I have no new 
insight to add to what has occurred, because I have no 
firsthand information about it, I have tried to ascertain what 
I could learn from this, and it is my clear sense that there is 
an importance for people to have information, and that when 
people have information, they are able to act. And I would like 
you to know that in a circumstance where I found myself, I 
would do my best to assure that information was available and 
that we could serve the best interest of the people in crisis.
    Senator Clinton. I thank you, Governor, and I know that 
this is not yet your responsibility, but as we move forward in 
this process, I will continue to ask about an EPA commitment. 
You know, as part of whatever resolution, and I hope there is a 
resolution to this matter, you would be responsible, of course, 
for implementing it. Because if one looks carefully at the IG's 
assessment of the cleanup and the retesting, the scope of that 
program has not been adequate. You know, we just didn't get 
enough places cleaned and, unfortunately, as the IG report 
found, 82 percent of the residential units were recleaned, and 
they had to be recleaned because the sampling filters were too 
clogged with dust to be analyzed. And even after that second 
recleaning the units were still too dusty to pass the clearance 
tests over 80 percent of the time. So that is evidence that 
even though there was a cleaning process, the cleaning process 
was often not successful.
    And, again, I am really trying to get to this en libra 
point, Governor, because it does seem to me that, first, when 
you say you are going to have a cleaning process, then the 
cleaning process should be adequate with the results that 
people can point to and say we are successful. And I think that 
is the EPA's responsibility, so it will be my continuing point 
that we should do whatever it takes to reassure people that 
they have been given both accurate information and that the 
cleaning of their residences and workplaces have removed the 
contaminants that could possibly endanger the health of 
themselves and their children.
    This IG report I think is very instructive.
    Senator Inhofe. Senator, your time has expired. You have 
gone 3 minutes over, and I am awfully sorry, we have to get to 
the other Senators.
    Senator Clinton. Thank you, Mr. Chairman. Mr. Chairman, 
will we do another round?
    Senator Inhofe. Of course.
    Senator Clinton. Good. Thank you, Mr. Chairman.
    Senator Inhofe. Let us go ahead and go to Senator Chafee 
now, since he didn't have an opportunity for opening 
statements, if that is all right.
    Senator Chafee. Thank you, Mr. Chairman.
    Senator Inhofe. Senator Chafee, 5 minutes.
    Senator Chafee. Thank you, Mr. Chairman.
    Welcome, Governor. It was a pleasure to meet with you in 
the office and hear about your past growing up in the southwest 
corner of Utah, and your town grew, I think you said, fivefold 
in the last number of years, and so you are familiar with rapid 
growth and some of the issues associated with that, and I am 
sure that you will bring that experience to your new position, 
should you be confirmed. And now you are going to be working 
for President Bush, as everybody has talked about, and during 
the campaign he talked about brownfields legislation and was 
successful at implementing that legislation and funding it, 
very importantly. On the other hand, he talked about regulating 
carbon dioxide, and I would like to see more of the same 
emphasis put into that campaign pledge as put into the 
brownfields, which has been enormously successful.
    I would like to ask a separate question, though. You are 
going to be overseeing 10 regional administrators. What kind of 
flexibility and autonomy will you give to these 10 different 
regional administrators? Each of these regions are going to be 
so different, so what kind of flexibility do you foresee giving 
these administrators?
    Governor Leavitt. Senator, having served as Governor for 
nearly 11 years, I have dealt with the regional administrators 
of the Environmental Protection Agency on many, many occasions, 
and recognize that much of the great work that happens, and 
many of the decisions that are reached happen at the regions. I 
would be happy to meet, pre-confirmation, with the regional 
administrators to begin to delve into the organizational 
structure, where changes might be made or where the strengths 
of the organization would be found. If I am confirmed by the 
Senate, I would most certainly begin that discussion and do 
what I can at that point to make any improvements necessary.
    Senator Chafee. Thank you. On a lighter note, since your 
relationship with the President is so important, people have 
talked about it, and you are both former Governors, what has 
been your relationship in the previous years, in meeting at 
conferences or the like?
    Governor Leavitt. Well, since T is very close to U in the 
alphabet, we have spent a considerable amount of time sitting 
with one another. He is a person who, as I indicated earlier, 
has my full trust, and he has my full loyalty. He knows, I 
believe, based on the nature of our relationship, that he will 
have my best efforts and that he will also have my full and 
complete opinion; that I won't pull punches with him; that I 
will tell him directly, sometimes in private how I feel; and I 
like to believe that that may be one of the reasons that he has 
called on me for what is clearly a challenging assignment.
    Senator Chafee. Thank you, Governor. Good luck.
    Senator Inhofe. Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    Governor, I would like to switch over to some Alaska-
related issues.
    Senator Boxer. Can we go back and forth?
    Senator Inhofe. No, not until each one has had a second 
round. That has always been the custom of this committee, and 
all committees that I am aware of.
    Senator Clinton. She hasn't had a round.
    Senator Boxer. I haven't had a second round.
    Senator Murkowski. I have not had a second round either.
    Senator Inhofe. Oh, that is correct. I do apologize to you, 
Senator Boxer, you didn't have that first round. I apologize.
    Senator Boxer. Thank you so very much.
    Senator Inhofe. You are recognized.
    Senator Boxer. Thank you so very much.
    Senator Inhofe. In fact, take 6 minutes, just because of my 
mistake.
    Senator Boxer. Oh. You have won my heart.
    I just wanted to say to Senator Cornyn, who has kind of 
said that many of us were putting forward unfounded claims 
regarding this Administration's environmental record. I 
couldn't disagree with you more. I have full respect for your 
opinion, but I think that, again, history will show us. I mean, 
try to tell that to the people of New York, who can't get 
straight answers on their equality. Try to tell that to my 
people, who are sitting there with perchlorate, you know, not 
even having a standard at this point, with Superfund sites who 
are yet to be cleaned. So I just think, again, I don't think 
any of us should impugn each other, and let history judge where 
we are.
    Governor, the EPA has, to date, been defending against the 
hard rock industry's attempt to weaken the public's right to 
know. This has to do with toxic releases. As you know, Federal 
law requires that facilities that emit toxics to tell the 
community what toxics are being released. Now, you sponsored a 
Western Governors' Association policy resolution, siding with 
the industry, to push for the weakening of the TRI program. 
That is the toxic release inventory program that I talk about. 
As EPA Administrator, would you support giving the hard rock 
mining industry a special break, or continue to assure that the 
public's right to know about toxic releases is upheld?
    Governor Leavitt. Senator, the report I think you are 
referring to is the toxic release inventory that is regularly 
offered, and there was a resolution put forward by the Western 
Governors' Association that made a very simple point, and that 
was that the public does have a right to know, but we should 
also make certain that there is context given to that report. 
Those that are regularly listed at the top of the report are 
generally from western interior States, for the reason that you 
pointed out, and that is because of mining.
    Senator Boxer. Governor, I just have so little time. I 
really think this is a yes or no deal. If you emit, you report 
it, period.
    Governor Leavitt. I don't disagree with that, Senator.
    Senator Boxer. So do you support the public's right to know 
if a polluter, be it a hard rock mining or any other industry, 
emits toxics, that they have to tell the community what is 
being emitted, yes or no?
    Governor Leavitt. That is important information. The answer 
is yes. But I also think it is important that we give context 
to those reports.
    Senator Boxer. OK. Well, I am going to watch this 
carefully, because I don't know what you mean give context. 
This is what we are trying to get at here, it is either facts 
or it is not. If you emit it, you tell it. Now, if you say now 
you have to give context, I worry. So if you could maybe 
amplify.
    Governor Leavitt. I would be happy to.
    Senator Boxer. Because I am concerned, because right now 
this is one thing the EPA is doing right, so I don't want to 
see us go back on that.
    Now, according to an investigative report by the Sacramento 
Bee, several EPA enforcement officials say they have been 
pressured by management to pad their enforcement statistics and 
make it look like they are pursuing more violations of 
environmental laws than they really are. The statements by EPA 
officials and the information they provide appear to suggest an 
orchestrated effort to disguise the fact that EPA is actually 
pursuing fewer investigations than in the past. For instance, 
this investigative report in the Bee said that EPA has lumped 
190 counter-terrorism-related investigations into its annual 
performance report to Congress, identifying them as EPA-
initiated ``criminal investigations.'' One senior EPA agent 
said, ``I called the FBI and said if you need us, call us.'' 
That warranted a criminal case number. There was no 
investigation.
    Now, you have nothing to do with what this report talks 
about. What I want to know is will you commit to us to 
investigate this matter and assure us that EPA will be 
completely forthcoming and transparent when reporting to 
Congress and the public on its investigations?
    Governor Leavitt. Senator, no question that enforcement is 
a very important part of a compliance program, and I would like 
to just repeat that compliance, in my judgment, needs to be the 
objective. And there are times when people evade and when they 
avoid, and when they do, the full force of the agency's 
responsibilities should be brought to bear.
    Senator Boxer. No, no, no, that is not my question. My 
question is within the EPA, that they said they were 
investigating when in fact the Bee said they were making these 
numbers up. Will you investigate this matter?
    Governor Leavitt. It is not currently. I will assure that 
there is some reference or some responsibility if I am 
concerned.
    Senator Boxer. Some reference?
    Governor Leavitt. I would be pleased to follow your 
suggestion if I am confirmed.
    Senator Boxer. Thank you.
    Governor Leavitt. And there is not something currently 
there.
    Senator Boxer. Thank you very much.
    There are so many things and so little time. Do you believe 
the EPA should inform the public and its representatives of a 
decision to dramatically ease land reuse of parcels 
contaminated with PCBs, one of the most dangerous and 
persistent chemicals known to man, and a decision which 
overturns a 25-year understanding of statutory language, or 
should the EPA have made such a decision with no public 
participation, no announcement, and no data? It was only the 
press that revealed this.
    Governor Leavitt. Senator, obviously the problem of PCBs is 
a significant one. I am not able to respond to the specifics of 
that situation, but I would tell you I am aware of the general 
area and the need for clarity.
    Senator Boxer. OK. So will you look into this and report 
back to us, should you be confirmed, on how this was handled 
within the agency and why it took the U.S. Today to have a 
front-page headline ``Government Changes The Laws Regarding The 
Transfer of Land With PCBs'' without one hearing about it or 
anything else? Would you also look into that and let us know 
what you find?
    Governor Leavitt. If confirmed, I will, Senator.
    Senator Boxer. If confirmed. Thank you.
    On perchlorate, do you believe it is EPA's responsibility 
to regulate contaminants in drinking water that threaten the 
public health and the environment?
    Governor Leavitt. Obviously, that is one of EPA's most 
important positions, and on perchlorate in specific. I am aware 
of the growing number of States where that has become of 
concern. My State is among them. We have a particular site 
where rocket emissions were used, and we are in the process of 
working to clean that up on a voluntary basis.
    Senator Inhofe. Senator Boxer, your time has expired.
    Senator Boxer. OK, thank you.
    Just to conclude, could you please let us know your opinion 
on when we should have a Federal standard for perchlorate?
    Governor Leavitt. I would be happy to respond to that in 
questions.
    Senator Boxer. If confirmed. Thank you.
    Senator Inhofe. Thank you, Senator Boxer.
    Senator Murkowski.
    And, by the way, the vote now is not until 11:25, so who 
knows what is going to happen.
    Senator Murkowski. Thank you, Mr. Chairman.
    I would like to turn briefly to some Alaska-related issues. 
First is regional haze. Your record indicates that you have 
been quite involved with this, particularly as it pertains to 
the Grand Canyon and other important sites in Utah. In Alaska, 
the EPA has failed to commit funding to a regional haze 
monitoring program, and we have some reason to believe that 
there are overseas sources which are the major contributors, 
but we don't know. Without this positive data, it is difficult 
to make a determination as to what we need to do; are we 
unnecessarily imposing restrictions without any resulting 
benefit. Can you comment on the process that you feel should be 
adopted to ensure that the proscribed treatments really treat 
the problem?
    Governor Leavitt. Senator, this is at the heart of one of 
my most fundamental beliefs, that we ought to be managing for 
results and not simply process, and that while we absolutely 
have to have broad and very specific national standards, we 
need to have the ability for neighborhood solutions; and 
Alaska's circumstance would clearly be unique. You referenced 
the fact that I have done some work with regional haze and with 
regional issues. One of the lessons that I learned in doing so 
is that oftentimes the source of pollution may be across a 
border. In the Grand Canyon Visibility Transport Commission, 
for example, it became clear that there were many contributors 
to the brown haze that went across the Grand Canyon; one of 
them was pollution that came from Mexico across our border.
    It is clear to me that the Environmental Protection Agency 
ought to use its reach as a convener, to be a leader among 
nations, to find those areas where there are agreements 
necessary between nations to be able to solve regional 
problems. Problems of this sort clearly go across boundaries; 
they clearly go across political boundaries.
    Senator Murkowski. I would like to work with you to find 
some of the solutions there.
    Now, when we spoke in my office, I mentioned the issues of 
wetlands in Alaska. Forty percent of the State is wetlands, and 
yet they are not wetlands as most people back here on the east 
coast would define them; they are very isolated, they are not 
navigable. And we really have not seen any resolve in terms of 
how we define the jurisdictional status of these wetlands, and 
this is despite this Northern Cook County case. Can you give me 
your views on the appropriate role of EPA in resolving this 
issue?
    Governor Leavitt. Senator, it will be of no surprise to 
you. as a Governor over the course of the last 11 years, I have 
worked on many different occasions on issues related to 
wetlands; and wetlands are a very important part of a natural 
heritage that we want to protect. I am also aware that the 
Illinois Supreme Court case that you reference has caused some 
question on this matter, and that it is a matter that is 
currently before the EPA and that a likely comment on my part 
would not be particularly productive at this moment. But I 
would like to tell you I am fully conscious, fully conscious of 
the difficulty, fully conscious of how important it is to a 
State like Alaska.
    Senator Murkowski. We do want to work with you on that.
    Another area that I would specifically ask for some 
assistance, we have health respiratory issues in the State as 
they relate to dust. It is uncontrolled out in our rural areas. 
But we also have a very unique problem in that so much of rural 
Alaska is still powered by diesel generators. We are not on a 
power grid, so when you have a blackout out here, it doesn't 
affect us; the only thing that affects us is the price of the 
diesel. But we have questions and concerns as to the health 
effects, the long-term health effects of diesel use in these 
smaller communities. We are looking for assistance, we want 
some sound scientific information to help us resolve this 
issue. Can you give me some comment as far as how EPA could 
take some kind of a leadership role with Alaska in resolving or 
at least assessing the long-term health risks that are posed by 
diesel use in our rural communities?
    Governor Leavitt. Senator, the goal we all share is cleaner 
air, whether it is in Alaska or Delaware, and my philosophy is 
we have to have national standards, we need neighborhood 
solutions, we need the capacity to work within the unique 
circumstances in every State to achieve that national standard. 
And if I am confirmed by the Senate, you can be certain that I 
will be willing to work with you and the citizens of Alaska to 
find the neighborhood solution.
    Governor Murkowski. Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator.
    We have been joined by Senator Carper.
    And in my opening remarks I shared with them some of the 
complimentary things you said about your fellow Governor during 
the years you were Governor.
    Senator Carper. Is it my turn?
    Senator Inhofe. Yes, sir.

 OPENING STATEMENT OF HON. THOMAS R. CARPER, U.S. SENATOR FROM 
                     THE STATE OF DELAWARE

    Senator Carper. Well, let me clear the record up, then.
    It is great to see Jackie Leavitt, and we thank you for 
coming and for your willingness to share your husband; not just 
with the people of Utah, but with the people of our Country.
    To my colleagues, Governor Voinovich and I have had the 
pleasure of serving with Governor Leavitt for a number of years 
in our old jobs, and I think it is safe to say that of all the 
people that I have had a chance to serve with when I was 
Governor, I respected none of them more than I did Governor 
Leavitt. He is thoughtful; he is just a decent, good person. I 
think his environmental record is probably mixed to good. 
People in Delaware probably describe mine the same. He is very 
good at getting people to gather around consensus and create 
consensus where it is sometimes difficult to find. In fact, of 
all the people I have served with, there is probably no one 
that I liked any more than Mike Leavitt when I was Governor, 
except maybe Christine Whitman. And Christine Whitman went on 
to become head of EPA; she sat right there where you sit, my 
friend. And I said almost as nice things about her as the time, 
and she went on to lead EPA during a tough time, and for an 
Administration that I think, being charitable, has not compiled 
an enviable environmental record. And she can speak for herself 
as to how difficult or easy that job was, but it is a tough 
job.
    One of the issues that Governor Bush campaigned on was the 
issue of global warming, greenhouse gases, and he indicated as 
a candidate in the 2000 campaign that it was something he 
wanted to address, and so did Governor Whitman. But as Governor 
Bush becomes President Bush and decides that he wants to take a 
different course, and so did Governor Whitman.
    In the meeting that you and I had, we talked about good 
science; we talked about our need to be able to rely on EPA for 
thoughtful analysis, and when they have good scientific 
analysis, to share it with all of us. Senator Jeffords here and 
myself, along with Senator Lamar Alexander, Lincoln Chafee, 
Judd Gregg have joined me in sponsoring clean air legislation 
that seeks to reduce CO2 emissions. We have been trying for 
months to get EPA to share with us the analysis that they did 
on our bill, comparative analysis of our bill, the health 
effects of our legislation, that it indeed provided better 
protection for Americans than President's initiative, and 
frankly not at a whole lot more cost, and we never got the 
disclosure, that kind of analysis.
    And I just want to ask you to say for the record what can 
we expect from an EPA with your leadership that might be 
different, less frustrating for us and, frankly, less unfair to 
the people of this Country? It is one thing to deny us the 
information that EPA has, but we rely on that information; we 
need good scientific data to be able to make the right kind of 
decisions. How will it be different once you are confirmed, and 
I believe you will be?
    Governor Leavitt. Senator, may I say that it would be my 
pleasure again to work with my friend from the State of 
Delaware in whatever way, whatever capacity. It would be my 
intention to work with you in the same open spirit of 
transparency that we always have. I am also aware that there 
are dynamics that historically have always existed between 
administrations and Congress as to data and when it is provided 
and when it is not. I don't know much about that. What I do 
know is that it would be my purpose to work with you directly, 
straightforwardly, and in a way that would supply us both with 
the information to meet our common goal, which is clean air.
    Senator Carper. There is an interesting piece you have to 
read in today's Wall Street Journal. It is a comparative 
analysis of Senator Jeffords' bill, the President's Clear Skies 
initiative, and what we believe, the four of us that I 
mentioned earlier, to be a good compromise between sort of 
bridging the differences between the two legislations, and it 
is pretty much described as such, and I would invite your 
attention to it in the kind of spirit where we for years worked 
to develop compromises and consensus among Governors from all 
over the Country, different political parties, and I would 
invite us to try to do the same thing here. It may be the time 
for man's hope over experience, but I think we ought to give it 
a shot.
    The other thing I want to mention just briefly relates to 
the Motiva Refinery on the Delaware River, one of the largest, 
maybe the largest producer of sulfur dioxide of any refinery on 
the east coast, maybe in the Country. In the 2001 EPA, along 
with Delaware, along with Motiva entered into a consent order 
to reduce dramatically, beginning in 2004, sulfur emissions 
from that plant. Since that time we have entered into a new 
consent agreement, effective in 2006, to reduce dramatically 
sulfur dioxide emissions from the plant; not to put them into 
the air, not to put them into the Delaware River. And when 
Governor Whitman left her post, she had assured me that she 
would use her good offices to make sure that whatever was 
agreed to was abided by, and I wanted to discuss this issue 
privately, and I just wanted to raise it again here and ask for 
your comments and really for a similar commitment today.
    Governor Leavitt. Senator, you were very straightforward 
with me when we had our private meeting, indicating the 
priority that it was to the people of Delaware. I indicated to 
you, as I will now, that it is not a circumstance that I am 
fully aware of or knowledgeable of. I look forward and commit 
to you that I will learn more and that, as we do, that 
commitments that have been made can be kept.
    Senator Carper. Fair enough.
    Senator Inhofe. Thank you, Senator Carper.
    Senator Carper. Thank you, Mr. Chairman.
    [The prepared statement of Senator Carper follows:]
  Statement of Hon. Thomas R. Carper, U.S. Senator from the State of 
                                Delaware
    Mr. Chairman, Senator Jeffords, and Governor Leavitt. Good morning.
    I am pleased to have Governor Leavitt with us this morning and to 
consider his appointment as Administrator of the Environmental 
Protection Agency.
    As a Governor of Delaware for 8 years, I had a chance to work 
closely with Governor Leavitt when I served as chair and vice-chair of 
the National Governors' Association. Although we are from different 
political parties, we nevertheless were able to find consensus on many 
issues important to the States and the Nation. Governor Leavitt 
consistently demonstrated a willingness to work closely with Governors 
from both parties to solve a problem, and I am hopeful he will continue 
to do so once he is confirmed to his new position. I look forward to 
continuing our friendship during his tenure as EPA Administrator.
    I had similarly positive things to say about Governor Whitman two 
and a half years ago during her confirmation hearings. She did an 
admirable job of leading the Agency, but I often wondered if others in 
the Administration influenced decisions made by the EPA in ways that 
were not helpful. I hope we can work with you, Governor Leavitt, to 
address these concerns in the future.
    From my own perspective, the EPA was less than forthcoming earlier 
this year about its own analysis of clean air legislation I have 
introduced, the Clean Air Planning Act. This analysis showed that the 
bill would produce substantially greater health benefits than the 
Administration's competing air pollutant bill but would cost virtually 
the same to implement. I specifically requested that the EPA release 
this analysis to me and the bill's cosponsors. But the EPA refused to 
do so, presumably for political reasons.
    Refusing to cooperate, however, damages the EPA's reputation as a 
credible, scientific body, and it hurts the EPA's relationship with 
Congress. This committee, for instance, is currently considering 
several complex environmental proposals--ranging from water quality 
standards, ozone standards, chemical plant security, and of course 
clean air and climate change. These are complicated, scientifically 
rigorous matters. We look to the EPA for help understanding the impact 
of legislative proposals on these topics. Regardless of how a 
particular member may ultimately vote on an issue, members of this 
committee are entitled to make their own assessments of complex 
legislation based on the most accurate and unbiased information 
available. Given the crucial nature of the issues at stake, I hope that 
EPA, under your leadership, has a change of heart and decides to be 
more forthcoming with analyses and information on the matters before 
this committee.
    In a letter to the New York Times on June 21st of this year, 
Russell Train, who served as EPA Administrator under both Presidents 
Nixon and Ford, expressed his concern that the independent status of 
the EPA is being eroded. When you are confirmed, Governor Leavitt, I 
hope you will make it a goal to stop that erosion and return a sense of 
independence to the Agency. As we look forward to working with you at 
the EPA, I join my colleagues in asking you to focus on improving the 
flow of information from the EPA to the Senate, and I urge you to do 
all that you can to see that the EPA continues to fulfill its primary 
mission of protecting the nation's environment.
    I also want to take a minute today and ask you to focus on two 
important questions, one local and one global.
    In Delaware, on the Delaware River, in the town of Delaware City is 
the Motiva oil refinery. While this refinery has been an important 
contributor to the State's economy and the nation's supply of gasoline 
and petroleum products for decades, it has also been a significant 
source of air pollution. In 2001, 1.5 million tons of pollutants were 
released, much of that to the air. In March of 2001, the EPA, the 
Delaware Department of Natural Resources and Environmental Control and 
Motiva signed a consent decree wherein Motiva agreed to substantially 
reduce emissions of sulfur dioxide by installing modern controls on the 
two major sources of air pollution by the end next year, 2004.
    Earlier this year, we learned that parties to the agreement were 
considering changes to the decree which would have allowed some of the 
sulfur removed from the air to be discharged into the Delaware River, 
along with additional toxic byproducts. I was very concerned with this 
news and asked your predecessor, Governor Whitman, to become involved. 
She did and was working with me and the people of Delaware before her 
departure to help achieve a workable solution. Since then, the parties 
have developed a revised consent decree which seems to protect the 
water but also delays compliance until 2006. Delawareans, myself 
included, expect the EPA to uphold the Clean Air Act and not allow 
diversion of pollutants from one source to another. I urge you to be 
proactive in seeing that whatever agreement is ultimately reached is 
fair to the environment and that any delay in installing the proper 
equipment occurs only if absolutely necessary.
    I am also particularly interested in your views on the issue of 
global warming and humanity's role in altering the earth's climate. 
When you visited with me earlier this month, you mentioned that you 
were reading a National Academy of Sciences report on climate change. I 
am interested in your latest views on the topic. In my view, the 
evidence and the science point to the conclusion that global warming is 
occurring, and I am also convinced that human-caused emissions of 
greenhouse gases are increasing the rate at which the earth is warming. 
As a result, I think we in Congress should be talking about how we 
might best start to address such changes. Instead, we are still 
debating whether the changes are even occurring or if they are linked 
to human activity. People of Utah may not be too concerned with beach 
erosion as sea level rises, but the people of Delaware are. People of 
Utah may not be too concerned with the loss of sugar maple trees as New 
England warms, but the people of New Hampshire and Vermont are. People 
of Utah may not be too concerned with the melting of glaciers and the 
warming of the permafrost, but the people of Alaska are.
    As Administrator of the United States EPA, I expect you to be open 
to examining the issue and working with us to develop the best strategy 
moving forward. As I mentioned earlier, I have introduced legislation 
that takes a significant step forward in addressing CO2 emissions from 
one contributor--the electricity producers. I suggest you take a look 
at its provisions, particularly regarding CO2 controls. It represents a 
sensible proposal for how to get started on this problem.
    I would also like to point out an article from this morning's Wall 
Street Journal, written by Tom Hamburger, entitled ``Clear Skies Hits 
Storm Front, Polarized Political Climate Threatens Bush Environmental 
Plan''. Mr. Chairman, if there is no objection I would like to have a 
copy of this article included in the hearing record after my statement, 
and I would urge Governor Leavitt, as well as the members of this 
committee, to read it. I am interested in your thoughts, in light of 
the points raised in this article, of how we should best proceed on a 
clean air agenda.
    In closing, I look forward to joining with you, Mr. Chairman, my 
colleagues on this committee, and the Administration to strengthen our 
nation's commitment to clean air, clean water, and to preserving a rich 
environmental legacy for our children. While we have made important 
strides in the past three decades, we have an obligation to try harder, 
to do better. Whatever the challenge, whether it is global warming, 
nuclear waste, polluted coastal waters or urban sprawl, we should work 
together to do what is right.
    I know members of the committee have questions for Governor Leavitt 
and I don't know if we will have time to ask all of them in person 
today. If we have to submit questions for response after the hearing, I 
hope that you will allow sufficient time for the nominee to respond and 
for members to review his answers before scheduling a vote on his 
nomination.
    Mr. Chairman, I look forward to hearing from Governor Leavitt 
today, and to the opportunity to work with him during the coming years.
    Senator Inhofe. We are going to Senator Allard, and then as 
soon as you are through, Senator Allard, I would take my first 
round of questions and then go vote; we can do it kind of in 
shifts, and perhaps if you can stay and preside until I get 
back, that would work out. Senator Allard.
    Senator Allard. Thank you, Mr. Chairman.
    Governor, you come from a beautiful State; it is a 
bountiful State and also pretty diverse. And I am your neighbor 
to the east, and I think I come from a State that has many of 
the same attributes. I would like to have you talk a little bit 
about why or why not, at the Federal level, we should have an 
appropriate administration of the programs, yet enough 
flexibility there where the States can respond to the need 
within the State, and I wonder if you would respond, please.
    Governor Leavitt. Senator, I believe I can best answer that 
question by reflecting on my experience with the Grand Canyon 
Visibility Transport Commission. This was a Commission 
established under the clean air amendments in 1991 and it, in 
essence, empaneled a group, of which I was a co-chairman, to 
bring all of the States together in a region, all of the Indian 
tribal nations, all of the Federal agencies, all of the 
environmental groups of interest, the industries, ranging from 
timber to tourism, to come up with a plan to clean up the view 
over that national treasure. There was and continues to be in 
the Clean Air Act a national standard that needed to be met, 
but it was clear, as we began to work through this, that there 
were individual circumstances in every State that made their 
need for a neighborhood solution unique and important; and we 
were able to, in essence, invent a way in which, 
collaboratively, each State could meet the individual demands 
of their State and then, by using a market trading mechanism as 
a backstop, assure that there was certainty to the solution. 
Now, that has grown since into the Western Regional Air 
Partnership, which is part of the President's Clear Skies 
initiative and one of the reasons that I so strongly believe 
that bill needs to pass if we are to meet the objective that I 
think we all have, which is more environmental progress in a 
way that will not compromise our competitive position.
    Senator Allard. That is a good example, Governor, and I 
want to compliment you on your leadership in that. We all hear 
horror stories from State officials trying to work with Federal 
Government officials in the Environmental Protection Agency. 
Did you have any similar experience in your time serving in 
Utah? I don't know that you need to list specifically names or 
anything like that; questions you have with similar experience. 
And then to go a little bit further with that, please discuss 
how you will work to ensure that EPA does not fit the 
description perhaps of your experience and some of these other 
horror stories that we sometimes get and, under your 
leadership, how you will work with the individuals and not 
necessarily through press releases.
    Governor Leavitt. Senator, there are 18,000 people in the 
EPA. Ironically, that is about the number of employees in the 
State of Utah. We have held ourselves to a high standard in the 
State of Utah, wanting to respond to those who had need for 
services from government in an efficient and hopefully friendly 
way. To the extent we have met that, I am proud; to the extent 
we haven't, I wish we could do better. My guess is that there 
have been times, I know there have been times, when I have 
dealt with the EPA, like any other large organization, when I 
have been dealt with in ways I wish I hadn't. But, there have 
been many times where I have observed dedicated people prepared 
to do what they can to clean up the air, to purify the water, 
and to better care for the land. I have a basic tenet of my own 
philosophy, and that is that if you change a heart, you change 
a Nation; and I think that is true of agencies, and it will be 
my objective to, first of all, set an example myself, if I am 
confirmed, to be as responsive to you and to the people of this 
Country as possible, hoping that others in the agency will 
follow suit.
    Senator Allard. As you are aware, Governor, the Superfund 
program is one that is important to many States. It is 
imperative that problem sites be identified and cleaned up to 
minimize the risk to those who live around them. I would like 
to commend the EPA on a job that they have done in handling the 
Shadduck Superfund site here in Denver, Colorado, under a 
Republican administration, I might add. This site, right in the 
middle of a heavily populated neighborhood, is currently being 
cleaned and cleared so that the residents of the Shadduck 
neighborhood can breathe a little more easily. Would you care 
to share some of the experience you have had with the Superfund 
program during your term as Governor of Colorado? And I also 
hope that you will help us keep an eye on the Shadduck site to 
make sure we stay up on cleanup on that.
    Governor Leavitt. Senator, we currently have 22 Superfund 
sites in our State. Superfund is a very important part of our 
effort as a Nation to clean up the environment and to make 
right some of the things that have happened in the environment 
we wish hadn't. I will tell you that some of the most positive 
experiences I have had, however, have come when we as a State 
have stepped up and voluntarily found ways to solve problems. 
So I am very supportive of the Superfund project, but I am also 
supportive of the ability for States to be able to find ways to 
clean up sites. One of the sites that I am the most proud of 
was the Kennecott water reclamationsite. This is one of the 
largest copper mines in the world, an open pit copper mine, and 
I will tell you about it later.
    Senator Inhofe. All right.
    Senator Allard. I will give you an opportunity later.
    Governor Leavitt. Thank you.
    Senator Inhofe. Thank you very much. We will now start our 
second round of questions. And while we are waiting for others 
to get back, Senator Jeffords and I will have our questions, 
and then Senator Voinovich will be back to chair the meeting.
    Governor, I know there are two approaches as to measuring 
the performance of the EPA. Many people believe that it should 
be measured by the number of criminal prosecutions or fines, or 
this type of action taken by the EPA. I don't believe that, 
but, nonetheless, if anything, I could probably be a little 
critical of this Administration because they have a very 
impressive record, if you call it impressive, of enforcement 
actions. In 2002, the EPA reported a 40 percent increase over 
2001 in the number of criminal cases initiated, more than 
17,600 compliance inspections conducted across the Nation, and 
144 million in administrative, criminal, and civil judicial 
penalties. I would like to know just what your feeling is in 
terms of how you can measure the performance of the EPA.
    Governor Leavitt. Senator, I believe fundamentally that we 
should manage for results. Results in the case of the EPA is 
compliance. Progress is measured when people come into 
compliance. When we measure only enforcement, we miss, I think, 
some of the best work done by the EPA or any State 
Environmental Protection Agency. When a representative of the 
Utah Department of Environmental Quality is able to meet with 
someone who is currently not in compliance and find a way to 
get them there, that is a success in my mind.
    Now, there are times when people avoid or they evade, and 
that is the point at which we have to have strong laws and the 
capacity to enforce, and that is when we should. And one of the 
things that I am most optimistic about is that in 1996 the EPA 
began to negotiate agreements with States that allowed a 
partnership approach where we could measure not just 
enforcement, but actual improvement and results. And while I 
will commit to you and the members of this committee that we 
will be willing to move forward with the full enforcement 
authority of the agency, we will also work to achieve 
compliance, because progress is in compliance.
    Senator Inhofe. Well, I appreciate that, Governor, and I 
only bring this up because there has been some criticism of 
this Administration not being as strong as they should be on 
enforcement, when in fact the record is probably stronger than 
any previous administration.
    You have got a problem in Utah in this growth, you have a 
very heavy growth in population. I would like to have you tell 
us a little bit about the Envision Utah and how the State can 
deal with its growth issues. Would you do that?
    Governor Leavitt. I would be pleased to. That is a source 
of some satisfaction to many in my State. Utah is a State that 
is growing rapidly; it took 113 years for us to get our first 
million people, only 30 years to get the second million. The 
third million will come in about 17 years and the fourth 
million about 16 years after that. So it will double in size at 
a very rapid time, and we are, like any State with that kind of 
growth, facing pressure on our infrastructure, pressure on our 
open space, pressure on water, and we needed to take a long 
view, so we engaged in a process we called Envision Utah, where 
we literally laid out with broad community participation four 
selective scenarios and then asked the people of our State 
through broad outreach to tell us what they wanted the State to 
look like 50 years from now.
    The four scenarios had responses from literally tens of 
thousands of people. We held town meetings in 150 or more 
areas. We had, at various times, full blackout of television 
while we had these environmental discussions with the broad 
communities. Over time we have settled on a vision of what we 
want the State to look like, and we are now training through 
Envision Utah all of the city councils and the county 
commissioners and the planning commissions, and all of those 
who will have some effect on what that vision will come. The 
foremost principle is that we use light, not heat. We are using 
the persuasion of what the broad vision is to allow many 
different coordinated organizations to come to that vision, and 
it is working. In the last few years we have been able to 
instigate light rail, for example, in our State; we have been 
able to rebuild our highways; and we have been able to do it 
all in a way that is environmentally consistent with our 
objective of having a clean, safe, and healthy place to live.
    Senator Inhofe. Well, I applaud you for that; it is a very 
difficult thing. I was mayor of a major city, and you have to 
respect property rights, but you can use your persuasion as you 
have done in Utah, and I think it is a great model for the 
Nation.
    Senator Jeffords, let me comment that Senator Wyden and I 
talked, and we are going to go ahead and do this until 12:30, 
since this vote has kind of interrupted things, so if you will 
go ahead and take your time, we will go vote and then others 
will be coming back. Senator Jeffords.
    Senator Wyden. Mr. Chairman, just in the interest of time, 
I think I would be next. Would it be all right if I proceeded 
after Senator Jeffords?
    Senator Inhofe. Yes, that would be fine.
    Senator Wyden. Thank you.
    Senator Inhofe. Well, unless a Republican comes back, 
because you are supposed to go back and forth.
    Senator Wyden. Fine.
    Senator Inhofe. Let us see what happens.
    Senator Jeffords. If a National Academy of Sciences studies 
determines that emissions will or are likely to increase above 
today's levels due to the NSR rules, will you revoke them, or 
what would you do?
    Governor Leavitt. Senator, I am not sure how I would 
respond to that question. It is clear to me what the goal is, 
and that is cleaner air. It is also clear to me that the New 
Source Review rules, as they were previously constituted, were 
so complex that there wasn't a State regulator who knew how to 
apply them; and there is, I think, broad, at least substantial 
support that I have ascertained among State regulators in 
having the clarity that has come. I recognize the differences 
of opinion that exist here, but, from my own experience, having 
clarity is going to be quite valuable not just in the context 
of clean air, but in the very difficult and rather thorny 
issues involved in how we pay for the creation of not just 
production, but also transmission. These are thorny issues in 
terms of rate basis and public service commissions, and I have 
seen the complications, as I know you have, in various roles.
    Senator Jeffords. Well, if emissions go up, would you 
consider revoking the NSR rules?
    Governor Leavitt. It would not be in our interest to have 
those go up. One of the reasons I support the President's Clear 
Skies initiative is that I believe that through a market-based 
trading, and the backstop and the certainty that that will 
bring, we will see all of the pollutants subject to regulation 
begin to reduce. I have seen this work, I have seen it in our 
Western Regional Air Partnership, and I have high confidence 
that we can make it work and that it can be part of the 
solution as to how we can increase the amount of progress we 
get while at the same time not compromising our competitive 
position as a Nation. So, Senator, I have optimism that we can 
find ways to achieve both of those.
    Senator Jeffords. You may be surprised to learn that the 
Clear Skies proposal weakens current law substantially by 
immediately eliminating or downgrading important standards and 
authorities in exchange for weak caps required in the future, 
which we don't know about. For instance, New Source performance 
standards are set well below standards now being required at 
new power plants in the west. Power plants could be sited 32 
miles from a national park or other Class I areas without 
having to analyze the impact on air quality or visibility in 
those areas. And EPA would be permanently prevented from 
controlling mercury emissions from utilities, even if their 
unacceptable high risk remained after the Clean Skies were met. 
In 2010, even if Clean Skies were to pass, approximately 80 
counties with about 45 million people will still be in the non-
attainment or the free fine particle standard.
    First, would these provisions be good for Utah? If Utah has 
performed an analysis of the costs and benefits of the Clean 
Skies proposal, could you share that with this committee?
    Governor Leavitt. Senator, you mentioned in the course of 
that question the beauty of our national parks and the 
difficulty of being able to balance the emissions that come 
from power plants. That is precisely at the point that we were 
pursuing very aggressively on the Grand Canyon Visibility 
Transport Commission, and doing it by focusing on action and 
results instead of the endless arguments that sometimes I think 
we get into as a result of the implementation of some of the 
statutes.
    When President Bush announced my nomination, I described an 
experience I had at the Grand Canyon at age eight. My family 
arrived at the south rim at twilight, just in time to see a 
giant shadow creep across the canyon. I saw the Grand Canyon in 
all its splendor.
    Thirty-six years later, I returned as Governor, with 
responsibility to co-lead a commission to clean up what was now 
a brown haze across the sky in the Grand Canyon, and much of it 
was coming from various sources that ranged from pollution from 
cars, from forest fire burns, to pollution coming from Mexico. 
Everyone was contributing to that problem.
    We had to find a way in which we could craft a solution 
that would meet the individual needs in every State, and we did 
so using a market trading device with each State being able to 
come with their own plan.
    Senator it is working, and it is not just working. We now 
have a plan on sulfur. We are moving on one on NOX. We have 
been able to work with one on diesel, and I feel some optimism 
that Clear Skies, in fact, can deploy that kind of tool, and 
that we, in fact, can achieve the level of air progress that 
the President envisions.
    Senator Voinovich. I have the list. I am next, and then I 
think Senator Wyden, you are next.
    Senator Wyden. Fine.
    Senator Voinovich. Governor Leavitt, I have been concerned 
about the Great Lakes. I want to get a little provincial right 
now.
    The Senator from Ohio, someone said, had a lot to do with 
Lake Erie. When I came to the legislature, Lake Erie was the 
poster child for a dying lake. At that time, I made a 
commitment as a State legislator to do everything I possibly 
could to stop the deterioration of the lake, and I referred to 
it as waging the second battle of Lake Erie. You remember Lake 
Erie won the War of 1812 with Admiral Perry. I think we started 
the second battle of Lake Erie.
    At the time, I worked very closely with the first head of 
the Environmental Protection Agency, Bill Ruckleshaus. The 
world was focusing on the Great Lakes. The United States was 
focusing on the Great Lakes.
    The ecology has come a long way since the 1960's. But the 
fact is, there still needs to be a great deal done. I was very 
much involved in the comprehensive restoration plan for the 
Everglades. In fact, I was the chief Republican sponsor of that 
bill that came out of the WRDA bill.
    I said to myself, we are doing this for the Florida 
Everglades. Why are we not doing this for the Great Lakes? I 
think that I do not need to remind you of this, but it is the 
water for 40 million people. It contributes about $4 billion in 
terms of a fishery. One-fifth of the total manufacturing 
activity takes place in that region.
    The GAO recently came out and said that where there were 
many State and local programs, restoration of the Great Lakes 
is being hindered because there is little coordination and no 
unified strategy for these activities; and the Environmental 
Protection Agency, Region 5, is responsible for the 
coordination.
    I have held two hearings on the matter, and I wrote to the 
Governors of the various States, and we have put together a 
restoration bill for the Great Lakes.
    I would like to know, are you aware of how important the 
Great Lakes are? I am interesting in knowing what kind of 
leadership you possibly could give to working with us to go 
forward with a comprehensive plan, and also to engage our 
friends from Canada in that effort?
    Governor Leavitt. Senator, I must confess that some of the 
lessors of the War of 1812 that you alluded to, I had missed. 
But I did not miss your great enthusiasm for the Great Lakes 
initiative, and I must confess that your enthusiasm has 
affected me with some interest and you have caught my 
imagination, as well.
    I look forward to learning more about this. It seems to me 
that this is the kind of regional collaboration that, in fact, 
has great promise. I have had some experience in regional 
collaborations, and I am hopeful that I can bring some of that 
to add to your enthusiasm and that great progress could be made 
there.
    Senator Voinovich. Well, as you recall, when I was chairman 
of the Governors, we created that task force with the Governors 
to work with Canada. It seems to me that we are going to have a 
new Prime Minister of Canada taking Gratien's place. It would 
be wonderful, I think, if our President and the new Prime 
Minister could make the comprehensive restoration of the Great 
Lakes something that both of our countries devote themselves 
to. I think I have a couple more minutes.
    Governor Leavitt. Could I just mention one thing; not to 
impose on your 2 minutes? But in my role as a Governor, at 
least once and often twice a year, we meet with the Premiers of 
the Provinces of Canada that border the United States and 
discuss these kinds of issues.
    I think this is the kind of regional issue that not only 
could use the participation of the National Government of 
Canada and the United States in the form of the Environmental 
Protection Agency and others, but also the provincial 
governments there.
    Senator Voinovich. Thank you; I would just like to say that 
you are going to have a real problem in this committee and in 
this Senate with the whole issue of burning of coal. I would 
like to make very clear to you, as the Governor of the State of 
Ohio, that I was very concerned about it. There, in my opinion, 
have been environmental groups and other well-meaning people 
that want to shut down the burning of coal.
    I want you to understand that from my perspective, if you 
shut down burning of coal and force our utilities to go to 
natural gas, you have killed manufacturing in this country.
    We are in dire, dire shape today, as a result of the fact 
that we have not harmonized our environmental and our energy 
needs in this country. We are having businesses leave the State 
and go out of business, and we have lost about 2,300,000 
manufacturing jobs in this country.
    I would hope that you will have the courage to raise the 
issue of many of these environmental policies and how they 
impact on the economy of the United States of America, because 
we are in trouble right now.
    Governor Leavitt. I acknowledge your comments, Senator. I 
mentioned earlier that in my State we have an energy policy 
that calls for the balanced use of various fuels, recognizing 
precisely what you have suggested.
    Senator Voinovich. Senator Wyden?
    Senator Wyden. Thank you, Mr. Chairman; let me go back to 
the New Source Review rules, Governor. Because I am struck by 
the fact that your man in Utah, your head of the department, he 
creamed these rules. I mean, he said, and I will just quote 
here, ``The proposal makes it worse. It creates more 
bureaucracy, cost, and uncertainty, with no proven 
environmental benefit.''
    Now this is not some stark raving, wild-eyed 
environmentalist. This is your man saying that these proposals 
are a turkey.
    Why not just freeze those rules so as to address the 
concerns that went out on your letterhead, and the kind of 
concerns that other States are giving around the country? Why 
not freeze those rules, and I would like to know, if you would 
this morning, say you are willing to consider freezing these 
hugely important environmental protection rules so as to 
address the concerns that your State, my State, and others have 
made?
    Governor Leavitt. Senator, Mr. Sprott, who is the head of 
air quality in Utah, made thoughtful comments in a very 
colorful way.
    Senator Wyden. That is for sure.
    Governor Leavitt. I will tell you that they were made in 
March, as a request of the Administration, I understand. In 
going back to look, all of his recommendations were 
incorporated.
    Senator Wyden. You are saying that he now supports the 
Administration's proposal?
    Governor Leavitt. Yes.
    Senator Wyden. And other States do? Because that is 
certainly not my understanding.
    Governor Leavitt. Senator, I did have a chance to do two 
things, obviously recognizing that we might have a chance to 
talk about this.
    Senator Wyden. The majority of States are opposed.
    Governor Leavitt. Well, I cannot speak for the States. I am 
just telling you about my experience with Mr. Sprott, who I 
have high regard for. He was asked for recommendations and made 
them. In going back and looking at the rule, after the comment 
period, I am told that they were incorporated.
    Senator Wyden. Well, a majority of States remain opposed to 
the Administration's position. I think the other aspect of this 
is the General Accounting Office said that the judgments were 
made essentially on the basis of anecdotes. I am curious 
whether you think that is a way to bring about the best science 
approach that you have been talking about this morning.
    That is, again, not the judgment of wild-eyed 
environmentalists. That is the General Accounting Office. It 
issued a report that said that the New Source rules came about 
through anecdotes. Is that your notion of best science?
    Governor Leavitt. Senator, best science is clearly our 
objective. I am not familiar with that report, other than to 
say this. My objective is to bring about clean air and I know 
that is yours.
    In my observation and conversations with many State 
regulators I mentioned, and I think you may have been out, that 
they refer to the manuals as the puzzle book, because they have 
been so complicated.
    The first and foremost thing that Mr. Sprott indicated in 
his letter was how much the rule needed to be remodeled in a 
fashion that was more ascertainable as to what should apply and 
what should not. Not only was the rule put into place, but it 
was my understanding that his recommendations were 
incorporated.
    Senator Wyden. The States are very unhappy with respect to 
the consultative process with the Environmental Protection 
Agency. You look, for example, at the Wetlands Rule. Something 
like 39 States said that they oppose the Administration's 
approach with respect to rulemaking on wetlands. What would you 
do differently to give the States a bigger role in making sure 
they are heard on environmental policy?
    Governor Leavitt. Senator, I, of course, come to this, 
having led a State for 11 years. I recognize that my 
perspective will have to be somewhat different, now that I 
would have a National role. But my roots will not change in the 
sense that I believe that we need National standards, but you 
have to have neighborhood solutions.
    The whole idea of managing for results, taking each 
jurisdiction one at a time, I think that kind of sensitivity 
will clearly appeal to States, because they want clean water. 
They want clean air. They want to protect the land. They want 
to do it in a way that makes sense and meets the standards.
    It is my firm belief that by negotiating partnerships, by 
clearly stating our objectives, by working together in a 
collaborative way, we will be able to achieve that.
    I have worked enough collaborations to know that 
collaboration does not eliminate disagreement. It does not 
eliminate litigation. It mitigates it, but it does not take 
away the hard decisions. It sometimes makes them better 
accepted, but we will still have to work together in a 
collaborative way, recognizing and realizing the respective 
roles that we have in this system of government.
    Senator Wyden. Well, what we are seeing in terms of the 
collaborative process again is not what the Western Governors 
have done in the past, and it is certainly not my understanding 
of the Leavitt record.
    As you know, I am very concerned about what is happening in 
Portland. We are concerned about the sewer overflow situation, 
where they are doing somersaults to try to work an enforcement 
agreement with the State and with all of you. It is being 
honored more in the breach than in the observance.
    Are you willing to take a fresh look at that, so I can tell 
my constituents that perhaps the collaborative process, as you 
and Governor Kitsobera talked about over the years. might 
actually take place on your watch?
    Governor Leavitt. Well, Senator, you were almost as 
colorful as Mr. Sprott in your admonitions to deal with the 
Portland matter. I hear you loud and clear, and look forward to 
an opportunity where I can be better acquainted with it.
    I realize that it is currently an enforcement matter, and 
not something I should comment on; and frankly, not something I 
have had much briefing on.
    Senator Wyden. How about making clean water a higher 
priority in the Bush Administration? The Administration, if I 
could just finish this question, Mr. Chairman, has requested 
$3.7 billion for water and sewer funding for Iraq. That is $1.5 
billion more than is in EPA's budget for all of the water and 
sewer projects in the country.
    Do you think this would be a priority on your watch, to 
elevate the importance of Clean Water; and particularly make it 
possible for those of us who face folks in town hall meetings 
to say it is at least as important as those projects are in 
Iraq?
    Governor Leavitt. Every American deserves to have clean 
water, Senator. Particularly in some States, the water 
infrastructure may be old and needing re-engineering because 
they have combined them. I recognize the importance of the 
revolving loan funds. As Governor, I have not only seen that 
demand, but know the competition for it and know how valuable 
those funds have been.
    Senator Inhofe. Thank you, Senator.
    Senator Allard?
    Senator Allard. Mr. Chairman, I would like to follow-up a 
little bit on my colleague from Oregon's comments on clean air 
and what you have been doing in Utah in your administration.
    I have a letter here from Mark Sherbut. He is Attorney 
General there. I assume that the Attorney General in Utah is an 
elected official in Utah. He is not necessarily a part of your 
administration. He has his own separate constituency out here. 
Is that correct?
    Governor Leavitt. Well, we have spent a lot of time talking 
about that.
    Senator Allard. Well, I do have a letter here where he 
encourages the New Source Air Program reform because of some 
uncertainty and lack of specificity, and it creates confusion 
to States. Mr. Chairman, I would like to make this letter a 
part of the record, if I might.
    In this letter, he encourages EPA to expeditiously move 
ahead with a substantive administrative reform to the Clean Air 
Act New Source Review Program.
    Senator Inhofe. Without objection.
    [The referenced document follows:]


    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Senator Allard. Also, Governor, I would like to give you an 
opportunity to finish my question. Remember, we were talking 
about the Superfund sites and your experiences in Utah.
    You were talking the Kennecott mine, and then our time ran 
out. I wondered, you said that there is more that you wanted to 
say about that. I want to give you an opportunity to talk more 
about this.
    Governor Leavitt. Well, Senator, this is one of the largest 
open pit copper minds in the world. They have been mining it 
for over 100 years. As a result of mining practices at the turn 
of the century, there were two very dangerous plumes of 
pollution that were moving toward the water supply in the 
largest population center in our State.
    The Department of Environmental Quality, in partnership 
with the EPA, the current owner of the mine, and the water 
conservancy district in that area were beginning to move toward 
a very serious set of litigation and, in fact, we are in 
litigation. In 1995, we concluded we should move toward finding 
a solution.
    The owner stepped up and wanted to come up with a plan. We 
not only found ways in which to block that plume of pollution 
from going toward the water, but began to clear it up, to the 
point now that not only have we cleaned it up, but we have 
turned it to the point that there are now 8,000 acre feet of 
water a year that can be converted to the municipal systems of 
our State and meet all Clean Water standards.
    Here is the point, Senator, we did it without a dime of 
Superfund money, and in a fraction of the time, because of a 
successful collaboration. There is a good example of how a 
collaborative circumstance did result in the best possible 
outcome, and we did it in a way that did not impede our 
economic competitiveness as a State.
    Senator Allard. Thank you for that good story.
    I would like to follow up on the ombudsman program. We 
found the ombudsman to be helpful, particularly in cleaning up 
the Shadduck waste site in Denver. There are other members on 
this committee, I know, that agree that we need to continue 
that ombudsman as an independent office in the EPA.
    Because of its critical role in the clean-up there at the 
Shadduck Superfund site in Denver, I assume that you are 
familiar with the success of the clean-up effort. Do believe 
that there is a way that what we have done there could be a 
model for other clean-ups?
    Governor Leavitt. Senator, you have spoken with some 
passion and persuasion about that site. I have not known much 
about it until I had these conversations with you, but I look 
forward to learning more about it. It seems to me that must be 
a good example of how it can be done well.
    Senator Allard. Well, it is a site that did not start out 
very well. Because of the ombudsman program, he helped us when 
we had a recalcitrant Regional Director there that did not want 
to do anything toward the removal of the site, and was able to 
help the residents move forward with this issue.
    The bottom line today is that there is clean-up happening 
and material is beginning to move off the site. The 
Environmental Protection Agency has agreed that it is 
inappropriate to leave that kind of a waste site, Superfund 
site right next to the river, and that it should be cleaned 
out.
    So that is happening. Right now, it is moving forward. If 
we run into glitches, we will be contacting your office for 
some help. We have not been bashful about that.
    I see that my time is starting to run out. So before it 
does, it does not appear as though I am going to be able to get 
back to ask you any further questions here on the committee, 
because I have another meeting that is coming up. But I wish 
you well, and wish you and your family both well.
    Governor Leavitt. Thanks for the graciousness that you have 
offered me.
    Senator Inhofe. Thank you.
    Senator Clinton?
    Senator Clinton. Thank you, Mr. Chairman.
    Governor, on the continuing series of questions that I have 
about the clean-up of lower Manhattan, I will submit those in 
writing to you, as well, with the back-up data, because it is 
hard in the time we have to cover that much ground.
    But I want to focus on the issue of the EPA's integrity 
that this set of circumstances raises. You know, when you look 
at the Inspector General's findings and, to me, they are 
conclusive; I know the EPA was concerned that it put the EPA in 
a bad light. I, frankly, think it put the White House in a bad 
light, unfortunately. I think the EPA tried to do what they 
thought was appropriate and were overruled, to some extent.
    But when you look at the September 18th statement that the 
air was safe to breathe and realize it was not supported by the 
data available at the time; and that the White House directed 
changes in a number of September 2001 press releases, I think 
that is a concern. Because it does fit into this pattern that 
we have that we are not getting accurate information that not 
only we can rely on, but more importantly, the American people 
can rely on; especially when we need to trust our Government 
the most, as we do in these times of challenge.
    So I had asked the White House for an explanation; and as I 
think I said to you in our meeting, I can fully understand why 
the White House might have over-reacted or worried about panic 
at the time. But enough time has now passed that I think it 
would be appropriate for the White House to try to rebuild that 
confidence that we should be able to have in the highest levels 
of our Government when it comes to health and safety.
    But specifically with respect to your nomination, Governor, 
I am sure you are going to have conflicts with the White House 
and with other Administration officials about policy matters, 
and on every decision, you may not always prevail; although I 
certainly hope you prevail on more than less. But can I ask 
you, do you agree that regardless of the policy decisions, the 
EPA has a mandate to provide accurate data?
    Governor Leavitt. Senator, it seems clear to me that the 
Environmental Protection Agency has the role of being able to 
assure the air is clean and to be able to provide the best 
available data.
    Senator Clinton. Can you assure me that if you are 
confirmed, you will fulfill this mandate to provide the public 
with accurate data, regardless of what pressures you may face 
from the White House or the Administration?
    Governor Leavitt. As I mentioned in our private meeting, 
Senator, I have no first-hand knowledge of any of the things 
that happened with respect to 9/11 or in Manhattan.
    I have watched closely to see what I can learn from the 
circumstance; and as I indicated earlier today, one of the 
things I draw from this is, in my own mind, if I am faced with 
a circumstance, to make sure that people have the data, and 
that we do the best we can to inform people of risks that are 
there. I feel some confidence that those at the White House 
have every intention of being able to meet that mandate.
    I recognize that there is a controversy going on over this 
right now, but I will do my best not to find myself in any kind 
of similar circumstance.
    Senator Clinton. Governor, I want to ask you also about the 
Clean Water Act. We have a lot of water in New York. The 
proposed rulemaking that is now underway concerning the Clean 
Water Act, do you support the proposed rulemaking to limit the 
types of streams and wetlands, ponds, and other waters that are 
covered by the Federal Clean Water Act at this time?
    Governor Leavitt. Senator, are you referencing specifically 
wetlands?
    Senator Clinton. Not only wetlands; it is the broader set 
of issues concerning the scope of the Clean Water Act, which 
would remove Federal protection; not just from millions of 
acres of wetlands, but also steams and lakes.
    Governor Leavitt. I am aware of these issues, but only in a 
most general fashion. One of the areas that our State has 
worked hard on is in doing the studies necessary to establish 
the total maximum daily load, for example.
    There are certain indentations in the land where there is 
no water, but periodically there will be water. There is work 
to try to figure out how to treat those indentations that have 
no water. I know that is an issue, for example.
    But fundamentally, our objective is to have clean water and 
to find ways in which to gain compliance. But in the final 
analysis, when all of the discussion has been held, if the 
water was cleaner, I will feel as though we have succeeded. My 
objective is not to do anything to weaken the law to do that. 
My objective is to find compliance and to find ways of 
collaborating to that end.
    Senator Clinton. Well, Governor, I have heard several of my 
colleagues refer to the fact that the latest trend report from 
the EPA demonstrates the increasing good news about the air and 
the water. I would only remind us that that is something that 
has happened over 20 to 30 years.
    What we are seeing now, and part of the reason why we are 
pressing this so hard on some many fronts, is a reversal of 
those trends. No one argues that we have had some very good 
news over the last several years, and I think it is due to the 
hard work of Members of Congress, Administrations of both 
parties, that have remained committed to the underlying 
fundamental mission of enforcing both the Clean Air and the 
Clean Water Acts. What we see now are disturbing trends in the 
other direction. So I think that has to be put into a larger 
context.
    Finally, I think that you have a tremendous opportunity, 
should you be confirmed. I am not lifting my hold, yet, but 
should you be confirmed----
    Governor Leavitt. There was some optimism.
    Senator Clinton. Yes, I know; I could see it.
    [Laughter.]
    Senator Clinton. I hope to. I hope that we get the answers 
and the actions that I think the people I represent deserve to 
have, so that I could consider doing that.
    But in any event, let me just quickly conclude, Mr. 
Chairman. You have a tremendous opportunity, Governor, because 
of this continuing debate about carbon debate, because of the 
continuing concern about the changes in the New Source Review, 
to try to get people at the table.
    You know, I have spoken with a number of my colleagues on 
the other side of the aisle. I think there are opportunities 
for us to come to some resolution of these issues, but we have 
to have some real leadership and not just proposals that 
frankly do not stand up to any kind of scientific or expert 
analysis. Thank you.
    Senator Inhofe. Thank you, Senator Clinton.
    Senator Bond, did you say you would yield to Senator Boxer?
    Senator Bond. I would accommodate my colleague from 
California.
    Senator Inhofe. Senator Boxer?
    Senator Boxer. Thank you; I am going to speak very fast, 
because I only have 4 minutes. I am going to lay out these 
questions, and I am going to look forward to your answers.
    There is an article in the ``High Country News'' about a 
situation where people are claiming that the Fisheries Chief 
who assisted in the case of this Wild Trout Disease was fired, 
along with 18 people in his department. I would like you to 
respond to that in writing; because I will tell you, it is so 
crucial. We do not want a message to go out that employees who 
do their work are under some jeopardy. I just wanted to get 
your side of it, in writing.
    Also, on mercury, which you probably are aware I was going 
to ask you about this, it is a terrible toxin. Most at risk are 
children and the unborn. According to the CDC, one in 12 women 
of child-bearing age have blood mercury levels exceeding EPA 
safe levels; and according to the New York Times, EPA canceled 
and slowed down the rulemaking. I want to know if you will 
ensure that the Agency moves forward and gets the rule this 
year; so if you can write me about that.
    Then I know you are a strong supporter of States' rights. I 
wanted you to know that what is happening to us in California 
is there may be a move to preempt us in terms of air pollution. 
So I wanted to get your view of preemption issues.
    Then Superfund, you mentioned you were very proud that you 
had a site voluntary cleaned and you said it was collaborative. 
I just want to make a very strong point to you, because 
Superfund is very near and dear to my heart because I happen to 
have 100 sites in my State and we have 1,200 sites nationwide. 
There has been a slow-down of clean-up to half of what it was 
under the Clinton Administration.
    Now I strongly believe Superfund is a collaborative effort. 
Yes, at the end of the day, if the people who are causing the 
pollution will not cooperate, there is a right to go to court.
    But I wanted you to know, I think with your leadership and 
being a leader and bringing people together, we could move some 
of this forward between the States, the local communities, the 
responsible parties, and get Superfund moving again.
    So I think it is really important, and I would like your 
opinion on the Superfund fee that Senator Chafee and I are 
trying to reinstate. I will put all this in writing for you. 
You do not have to take copious notes on it.
    I want to know if you think carbon dioxide should be 
regulated, because I am a little concerned about that issue, 
since the National Governor's Association opposes the Kyoto 
protocol and favors voluntary measures.
    I wonder if you feel it is time we had some law, as Senator 
Jeffords has proposed and, I think, Senator Carper, as well, to 
actually clean-up carbon dioxide. It does kill people. It does 
hurt people. It is causing our children to have higher levels 
of asthma.
    Also, just in closing, I have a point that I talked to you 
about when we had our one-on-one meeting. I have never had such 
a time just getting information, and you pledged to me that you 
would make sure that we did. So if you could just perhaps give 
that answer before my time runs out.
    I will be asking you for information, because it is the 
only way I can do my job. I represent 35 million people. That 
is a lot of people. I represent the fifth largest economy in 
the world. I have to have information for my industries, for 
activists, for my community leaders, for my nonprofits.
    So will you pledge that even if we do not agree at the end 
of the day, that we will not have to resort to subpoenas, which 
we almost did twice here, because we could not get information 
on NSR or Superfund. So could you assure us that you will try 
to do your best to make information available to us on a timely 
basis?
    Governor Leavitt. Senator, it is my desire to work in a 
collaborative, straight-forward and transparent way with you. 
As I have indicated a couple of times today, there are historic 
tensions between branches of Government that I will have to 
learn to navigate, and I will do my best within those confines.
    Senator Boxer. Well, I look forward to answers before our 
mark-up, Mr. Chairman, because they are important.
    Governor Leavitt. I will be happy to respond.
    Senator Boxer. I did not get a chance to show the 50 roll-
backs, but I am going to send them over to you. I have got 
them. We are going to send them to you, to see the 50 roll-
backs. Thank you so much.
    Governor Leavitt. Thank you, Senator Boxer.
    Senator Cornyn. Mr. Chairman, parliamentary inquiry. The 
record remains open for questions that we might want to submit 
to Governor Leavitt in writing, does it not?
    Senator Inhofe. It will remain open, and we are going to 
have a business meeting a week from tomorrow, at which time we 
will report Governor Leavitt. The record will remain open until 
that time.
    Senator Cornyn. Thanks very much.
    Senator Inhofe. I am sorry, follow-up questions, is that 
what you are asking? That will remain open until noon tomorrow.
    Senator Cornyn. Noon tomorrow?
    Senator Inhofe. Yes.
    Senator Bond, you have been very patient and you have not 
been heard, yet. You are recognized at this time.
    Senator Bond. Thank you very much, Mr. Chairman; my 
apologies to you and the members of the committee and the 
others. I found myself in a natural disaster this morning, 
trying to get to work, as several people may have. We have 
certainly cured the drought problem, at least in this part of 
the United States. I have spent more than enough time on the 
road.
    I apologize for not being here earlier, and also we had a 
very important intelligence hearing. But this is an extremely 
important hearing, and I thank you, Mr. Chairman, for holding 
this hearing and being ready to move the nomination of Governor 
Leavitt to head the Environmental Protection Agency.
    I think the President has nominated an excellent candidate 
for EPA. As a former Governor myself, I look forward to the 
leadership, management skill, and State perspective that the 
Nation's longest-serving Governor will bring EPA. I will warn 
you, Governor, that things will change. It is a lot different 
from running a manageable State to running a Federal agency.
    But from what I have seen of Governor Leavitt's record, he 
stands for the Environmental Principles that we desperately 
need here in Washington: collaboration, not polarization; 
national standards and neighborhood solutions. We should reward 
results, not programs. We should put science at the lead for 
the facts and do the process for priorities, and set markets 
before mandates.
    Governor Leavitt has a record of environmental achievement 
to match his environmental vision. The air in Utah and in the 
West is cleaner and clearer because of the work Governor 
Leavitt has done.
    All of Utah now meets all Federal air quality standards. 
Visibility over the Grand Canyon has improved after the 
Governor's role with the Western Regional Air Partnership. Utah 
is among the Nation's cleanest watersheds. I did not know you 
had any water; no, excuse me.
    [Laughter.]
    Senator Bond. But the watershed is clean. I know there were 
real problems in Utah, seriously, and it has improved 
dramatically during the Leavitt administration.
    Seventy-three percent of Utah's streams currently meet 
Federal water quality standards, compared to 59 percent 10 
years ago and 60 percent, nationwide. That is a pretty good 
record.
    Utah's most environmentally sensitive land is better 
protected because of Governor Leavitt's service. Governor 
Leavitt helped protect 500,000 acres of land in national parks, 
monuments, recreation areas, and wilderness areas.
    Unfortunately, Governor Leavitt, you are entering a job in 
a city where political opponents try to use the environment for 
political gains. Environmental and health benefits from 
drastically reduced levels of nitrous oxide and sulfur oxide, 
dioxide, and mercury pollution in the President's Clear Skies 
proposal are being held hostage by those who want to use global 
warming as a political issue against the President.
    I would remind my colleagues, as I recall, I and 94 other 
Senators voted unanimously to oppose the so-called Kyoto 
Agreement. That agreement would have put stringent economic 
burdens on the United States, while leaving major polluters 
like China and India uncovered by the terms.
    Environmental benefits, improved energy security, more 
efficient and reliable electricity protection, and New Source 
Review improvements are being attacked by the President's 
political opponents.
    Even some of my own modest, incremental suggestions for 
improved environmental collaboration and process in the 
Transportation Bill to get the environmental concerns into the 
bill earlier were mis-characterized and leaked to the press and 
criticized by stakeholders with whom we were trying to work, 
resulting in significant delays in moving forward on the 
Surface Transportation Bill.
    In addition, there has been reference made to the Clean Air 
Act and California's efforts. For the record, the Clean Air Act 
has an exemption and says that States cannot regulate small 
engines under 175 horsepower used for off-road, for 
construction and agriculture.
    The proposal, which leads down the road requiring catalytic 
converters on everything from lawnmowers to leaf blowers to 
chain saws has tremendous fire dangers. It also would ship 
roughly 22,000 American jobs off-shore, and require that these 
snow blowers and leaf blowers and chain saws with catalytic 
converters be made in China.
    We believe that there is a much better way to do that, to 
help California meet its clean air goals. We will provide that 
to the State of California, the Air Regulation Board, and we 
will hope that they would not impose the tremendous burden on 
workers in the United States and dangers when there are better 
means of achieving the environmental goals.
    But President Bush is maintaining a strong commitment to 
the environment and the Environmental Protection Agency. In the 
face of funding a war on terrorism, growing deficits, and 
record tax cuts, President Bush has requested more money for 
EPA.
    I happen to know a little bit about that, chairing the 
Appropriations subcommittee. President Bush's $7.6 billion 
request for EPA is more than the previous President requested 
for EPA in his last budget.
    Each year, President Bush has sent us larger requests for 
EPA. President Bush's $431 million request for EPA enforcement 
is the largest request for Federal environmental enforcement 
funds in our Nation's history.
    The President is doing good things for the EPA and the 
environment. I look forward to your good leadership in EPA. I 
know that we can continue to make progress working together, 
using the collaborative processes, the market processes that 
you have emphasized, enforcing the law where people refuse to 
take opportunities to move forward. I urge my colleagues to 
allow a vote on your nomination without delay.
    Senator Inhofe. Thank you, Senator Bond.
    I think perhaps as is often the case, we overlook the most 
significant parts of hearings. I think we did this time. I do 
not believe you have introduced your wife, yet.
    Governor Leavitt. That would be a pleasure for me to do, 
and it would probably keep me out of trouble at home, too, 
thank you. I am very pleased to have my wife, Jackie, with me 
today. She has been heroic through all of this.
    Senator Inhofe. It is nice to have you here, Jackie; and it 
will not always be this way.
    [Laughter.]
    Senator Inhofe. Now I have to have a unanimous consent 
request. If there is no objection, I would ask that the staff 
have time and authority to make conforming and technical 
corrections to the Highway Extension Bill.
    Let us do this; we will wrap this up. As I say, we will go 
ahead and have a business meeting a week from tomorrow.
    Senator Jeffords, if you would like to have some time, feel 
free to do so for questions.
    Senator Jeffords. Yes, I certainly do. Governor, it is 
great to be here with you. I am a great States-righter. I had 
to take the State of New York to the United States Supreme 
Court to make them obey the environmental laws in Lake 
Champlain. So we are very sensitive in Vermont about making 
sure that we are not imposed upon.
    Do you believe that the States should be allowed to have 
and enforce environmental laws that are more stringent than the 
Federal laws?
    Governor Leavitt. I do, and in most cases, many cases, they 
do now.
    Senator Jeffords. Will you ensure that the water quality 
impacts are fully evaluated for regulations that are issued 
under the Clean Water Act?
    Governor Leavitt. I am not sure I understand fully, 
Senator, the impact of that question. Obviously, the goal for 
me, if I am confirmed by the Senate, is to assure that not just 
the water is cleaner, but the air is cleaner, as well; and that 
we make substantial progress in the environment during the 
course of my service.
    Senator Jeffords. I will take that. One of the critical 
issues you will face as EPA Administrator is securing the 
Nation's chemical plants. This is one I am deeply concerned 
about. The stakes are very high.
    In March of 2002, the U.S. Army Surgeon General warned that 
a terrorist attack on a chemical plant in an intensively 
populated area could kill up to 2.4 million people.
    Although this committee unanimously passed the bill last 
Congress, and although the Administration has called for 
legislation, the issue languishes due to the influence of 
relatively few plant owners who fear regulation. So the 
Administration has not pushed for us. As Administrator, will I 
have your commitment to press for legislation in this area?
    Governor Leavitt. Senator, I currently serve as a member of 
the Homeland Security Advisory Council, which was previously 
the President's Homeland Security Advisory Council. Much of 
that came as a result of my experience as the Governor of Utah 
during the 2002 Winter Olympic Games.
    That was the first gathering of the world after 9/11, and 
it became very clear at that moment that Homeland Security was 
everyone's second job. It is going to be part of virtually 
every industry. It is going to be part of every Government 
agency, State and local, and they have to be coordinated. It 
would be my intent to assure that the Environmental Protection 
Agency played its role in meeting that obligation.
    There was a moment during the 2002 games when for about 3 
hours, we thought that the Salt Lake International Airport had 
been infected with anthrax. I had sitting at my table some of 
the best professionals in the world. That was a day I was glad 
to have the EPA there.
    We were able to make a decision that needed to be made in a 
short period of time as to whether to close the international 
airport and throw the Olympics into a much different event than 
it turned out to be.
    I pledge to you that if I am confirmed that kind of 
experience will be loaned, whenever necessary, whenever 
possible, to local officials, to State officials, and to 
others, as we contemplate that very important part of our 
future.
    Senator Jeffords. I would like to work forward with you on 
pursuing legislation in this area, to make sure that we do have 
the security in our chemical plants and things. I look forward 
to working with you.
    Governor Leavitt. Thank you.
    Senator Jeffords. EPA Administrator Whitman said that the 
Federal Government should be ``held to the same standards of 
environmental clean-up as the private sector.'' Do you agree 
with this statement; and if so, do you also agree that the 
military should be held to the same standard as the rest of the 
Nation, with respect to complying with environmental laws?
    Governor Leavitt. Senator, I do believe that the Federal 
Government and Federal agencies need to do their part and need 
to be held to the same standards.
    I have had substantial experience in working with various 
defense-related facilities. For example, Hill Field is a large 
maintenance depot that is in my State. We have a number of test 
and training ranges, and I am quite familiar with those 
military missions, and the task of assuring that they can 
complete those missions.
    The bottom line is, we all need to keep the law. I have 
found that they are willing and, in many cases, exemplary in 
the approach that they have taken to help us meet our various 
State environmental commitments.
    Senator Jeffords. It seems very unlikely that the 
Administration's multi-pollutant legislation will ever gain the 
kind of support that other bipartisan bills have gathered. This 
is largely due to the significant shortcomings in the Clear 
Skies.
    In 2001 and in 2002, there were bipartisan discussions to 
achieve a compromise, but we did not succeed, due to the White 
House intervention. Would you be interested in putting the 
resources of EPA to work and help us get a compromise bill that 
could pass a committee in the Senate?
    Governor Leavitt. As I indicated earlier to you, I know 
that the President currently has three legislative priorities; 
one of them being the Clear Skies. Frankly, it is something 
that I have some passion for, because I have seen it work.
    I am very hopeful that Clear Skies can pass, so that we can 
move forward as a Nation in being able to achieve more 
environmental progress at a faster rate, but do it in a way 
that is not going to compromise our ability to be competitive 
in the world economically.
    Senator Jeffords. May I ask unanimous consent to place 
Senator Lieberman's opening statement in the record?
    Senator Inhofe. Without objection, so ordered.
    [The prepared statement of Senator Lieberman follows:]
      
    Thank you, Senator Jeffords.
    I am going to conclude this, but before I do, I would ask 
Senator Bond, since he was not here for the round of 
questioning, if you had any other remarks that you wanted to 
make before I do so.
    Senator Bond. Thank you very much, Mr. Chairman. I have had 
the opportunity to discuss many of these issues with the 
Governor. I found his responses to be both knowledgeable and 
encouraging for his work on the environment, so I have no 
further questions for him; thank you.
    Senator Inhofe. Thank you, Senator Bond.
    Senator Jeffords. I have just one request, Mr. Chairman.
    Senator Inhofe. All right, yes, sir.
    Senator Jeffords. In addition to the questions that my 
staff will draft for submission by our deadline for the hearing 
follow-up, I now ask unanimous consent to include in the record 
the following documents addressed to me that contain questions 
for Governor Leavitt from Senators Corzine, Stabenow, 
Congressman Stupak, the People for Ethical Treatment of 
Animals, and the Center for Progressive Regulation. I also 
expect, as is our usual practice, that the record will remain 
open until such questions are answered.
    Senator Inhofe. First, you said statements that were made 
as a part of the record, which there would be no objection to. 
But then when you have questions, you are talking about 
Congressman Stupak and other people. I might find objection to 
that. What is your intent?
    Senator Jeffords. Well, we want to make sure that there are 
opportunities for people to be able to get information to make 
their judgment on how to support or non-support.
    Senator Inhofe. Would it be your intention not to have a 
business meeting until these questions are answered?
    Senator Jeffords. No, I do not believe so. I do not intend 
to have any delay. It was just to make sure that these 
questions get answered and can be made a part of the record.
    Senator Inhofe. The chair would object to those that are 
not members of the committee, because it is the tradition of 
the committee only to have questions responded to from the 
members of the committee. Most of yours are not, and I have no 
objection to that. But as far as some of the other 
organizations, that is not a part of this hearing, and I 
believe it is legitimate.
    Senator Jeffords. Governor Whitman, I know, she did allow 
that; but I will not pursue this, other than to expect that we 
can cooperate with Governor Leavitt.
    Senator Inhofe. I am sure we will, Senator Jeffords.
    Senator Jeffords. We will provide them to him and he will 
make his discretion.
    Senator Inhofe. For my final comments, let me just mention, 
it has been brought up a few times today about the World Trade 
Center. There has been, and I am at this time releasing, the 
Majority staff report on the I.G. investigation into the World 
Trade Center air quality issues. I ask that it be made a part 
of the record.
    Senator Jeffords. Without objection.
    [The referenced document follows.]
    Senator Inhofe. One of those statements in there is quoting 
the Inspector General, and he said, ``In regard to the 
monitoring data, we found no evidence that EPA attempted to 
conceal data results from the public.'' The OIG also stated 
that was neither a conspiracy nor an attempt to suppress 
information.
    The reason I asked the last question, Governor, of you was 
that sound science is something that is so important. It is to 
this committee; it is to me, anyway, and I know that it is to 
this Administration. You have been asked several questions 
about CO2, about the fourth pollutant, as some would like to 
refer to it as.
    I would only like to say that this is a huge issue, and it 
is one that I am going to ask you to look at all of the 
impacts, while you are thinking about this issue.
    Horton Econometrics Forecasting Associates, and that is 
Horton School of Economics, came out with an analysis as to 
what would happen in America if the Kyoto Treaty were complied 
with. It would cost 2.4 million U.S. jobs, and it would reduce 
GDP by 3.2 percent, or around $300 billion, which is more than 
we spend on primary and secondary education, combined.
    They said because of Kyoto, American consumers would face 
higher goods, medical, and housing costs, and then it went on 
to quantify. They said, at the same time, an average American 
household of four would see its real income drop by $2,710 in 
2001 and each year thereafter. Under Kyoto, energy and 
electricity prices would nearly double, and gasoline prices 
would go up an additional $.65 a gallon.
    Now it goes into a lot more detail than that, and I think 
you are probably aware that the American Black Chamber of 
Commerce and the Hispanic Chamber of Commerce have come out and 
quantified the number of jobs that would be lost, some 511,000 
jobs that would be Hispanic workers; 864,000 jobs of black 
workers; and they are very concerned about this issue.
    So it gets down to looking at the science. I would suggest 
to you that recently, James Schleschinger, former Energy 
Secretary for the Carter Administration, came out with very 
strong statements that the science is certainly not settled.
    Dr. Richard Lindsen, an MIT scientist, and he was a former 
member of the National Academy of Sciences, said there is a 
definitive disconnect between Kyoto and science.
    Should a catastrophic scenario prove correct, Kyoto would 
not prevent it. Dr. Frederick Sites, a past-president of the 
National Academy of Sciences, and he is a Professor Emeritus at 
the Rockefeller University., compiled the Oregon petition, 
which reads as follows:
    ``There is no scientific evidence that human release of 
carbon dioxide, methane, and other greenhouse is causing, or 
will in the foreseeable future, cause catastrophic heating of 
the earth's atmosphere and disruption of the Earth's climate.''
    This goes on and on; and, in fact, over 4,000 scientists, 
70 of whom are Nobel Prize winners, signed the Heidelberg 
appeal, which says there is no compelling evidence that exists 
to justify controls on greenhouse gases.
    Finally, the Harvard/Smithsonian study compiled and 
examined results at more than 240 peer reviewed papers, 
published by thousands of researchers over the past four 
decades. This is the most comprehensive study of climate change 
ever, and they say that there is no convincing evidence.
    I would just say that we are dealing with something that is 
highly emotional, and very likely, this could be maybe the 
greatest hoax ever perpetrated.
    That is why it is important, Governor, in the position that 
you will be taking, that you look at the scientific evidence on 
all these decisions, as well as this one.
    I appreciate very much your patience and your wife's 
patience, and we will now adjourn our meeting.
    [Whereupon, at 12:30 p.m., the committee was adjourned, to 
reconvene at the call of the chair.]
    [Additionals statements submitted for the record follow:]
  Statement of Hon. Bob Graham, U.S. Senator from the State of Florida
    Mr. Chairman, thank you for calling this hearing today on what I 
consider to be one of the most important jobs in the executive branch. 
I have reviewed Governor Leavitt's record of accomplishments in his 
current role as Governor of Utah. I am pleased that he places strong 
emphasis on coalition building and consensus seeking. I think these are 
the kinds of leadership skills that a successful EPA Administrator must 
possess.
    That said, I would like to express my concerns over what I deem an 
inherent conflict associated with the position of EPA Administrator in 
this Administration. We have seen evidence that White House politics 
take precedence over the formulation of data and the distribution of 
information. I strongly believe that this kind of political 
manipulation of scientific information is diametrically opposed to the 
mission of EPA--to protect the public health and human environment. How 
can EPA protect American's and the environment in which we live if EPA 
cannot make decisions based on sound scientific data?
    I am encouraged by Governor Leavitt's enthusiasm for his nomination 
to this position, and I hope that he will demonstrate to this committee 
that he will be the voice for science over politics and full disclosure 
of facts over secrecy.
    Finally, I hope that Governor Leavitt will provide this committee 
with real answers to the questions posed on all of the important issues 
before the EPA. While I recognize that the Governor has a steep 
learning curve, I must state clearly that answers that promise only to 
investigate and learn about the issues will not satisfy me. Nor should 
these kinds of answers satisfy this committee. Furthermore, I hope that 
you, Mr. Chairman, will respect the rights of committee members to get 
full answers to our questions before we are expected to vote on 
Governor Leavitt's nomination.
    Governor Leavitt, I look forward to your testimony. I plan to 
submit the majority of my questions to the record, and I will look 
forward to your answers.
    Thank you, Mr. Chairman.
                               __________
 Statement of Hon. Joseph I. Lieberman, U.S. Senator from the State of 
                              Connecticut
    Mr. Chairman, in considering Governor Leavitt's nomination to serve 
as Administrator of the EPA, I seek answers to questions not only about 
his qualifications, but also about his commitment to the Agency's 
independence and his allegiance to President Bush's failed 
environmental agenda.
    I posed many of these questions in a letter to the Governor weeks 
ago, and I was deeply disappointed to learn last Tuesday that he 
refuses to answer them. Donald Rumsfeld answered my questions prior to 
his confirmation hearing. Tom Ridge did the same. Why will Governor 
Leavitt not answer them?
    I suspect the White House issued the gag order. It would certainly 
be consistent with its pattern of information control on the 
environment. In-a practice reminiscent of the Soviet Union, the Bush 
Administration has systematically suppressed scientific and public 
health information that conflicts with its polluter-friendly 
environmental agenda. It has routinely dodged, ducked and denied 
legitimating questioning--and has shown nothing but favoritism for 
private interests and nothing but contempt for the public interest on 
the environment.
    Why does the White House reject clear evidence that global warming 
is a real and growing threat to the environment? Senator McCain and I, 
who are sponsoring legislation on this matter, demand to know.
    Why did the White House delete the EPA's warnings about air quality 
and public health at and around Ground Zero in the aftermath of 
September 11th, endangering the lives of thousands of survivors? 
Senator Clinton and I, who have pressed the White House for answers, 
demand to know.
    Why will the White House not disclose information regarding the 
public health impacts of its recent rollback of Clean Air standards? 
Senator Jeffords and I, who raised these concerns over 2 years ago, 
demand to know.
    To each of the pressing questions, we have gotten nothing but 
silence.
    This systematic stonewalling by the President has not only 
destroyed his credibility on the environment, it has covered-up 
policies that destroy the environment itself. It is time the 
Administration come clean on its environmental record--and cleanup its 
act.
    And it is time the EPA assert its independence and resist the White 
House's efforts to control it. I cannot in good conscience support 
Governor Leavitt's nomination until I am convinced that he will uphold 
the EPA's mandate to be an independent advocate for protecting the 
environment. And I will block Senate consideration of his nomination 
unless I am given assurances that he will do this.
    America's elected leaders and public officials have a moral 
responsibility to protect public health, to preserve our environment, 
and to provide future generations with a world better and cleaner than 
we . found it. I am committed to meeting this responsibility; President 
Bush is not. The question before is where Governor Leavitt stands.
                               __________
 Statement of Governor Michael Leavitt, Nominated to be Administrator, 
                  U.S. Environmental Protection Agency
    Mr. Chairman, I am honored that President Bush has nominated me as 
Administrator of the United States Environmental Protection Agency. I 
sit before you today, respectful of your role and ready for your 
assessment of my fitness to serve.
    In the weeks leading up to this hearing, I have had the opportunity 
to visit with nearly all of you. You have been candid and generous with 
your time and insights. Thank you and the committee staff for the 
courtesies extended.
    Our conversation today will likely have two components: my fitness 
to serve as Administrator of the United States Environmental Protection 
Agency, and the policy differences that exist on environmental issues. 
As a Governor who has served for more than a decade, I understand the 
complexities, emotions, fears and conflicting values that are 
fundamental to environmental issues. I'll do my best to be responsive 
to your questions and sensitive to our differences.
    When President Bush announced my nomination, I described an 
experience I had at the Grand Canyon at age eight. My family arrived at 
the south rim at twilight, just in time to see a giant shadow creep 
across the canyon.
    Thirty-six years later, I stood at nearly the same spot, but as the 
Governor of Utah. This time, a brown haze stretched across the sky that 
had once been so clear. I was there to co-lead a commission, charged 
with rescuing that view.
    The Grand Canyon Visibility Transport Commission was created under 
the Clean Air Act. We were to convene States, tribal nations, Federal 
agencies, local governments, private industries and environmental 
groups to protect the air over this international treasure. If we 
failed in 5 years, the law made clear the Federal Government would take 
on the task.
    Four years passed and nobody budged. Every State, tribe and local 
government protected its turf. Industry and environmental groups traded 
barbs; it looked to me like the whole thing would implode.
    As the 5-year deadline approached, slowly the group began to unite. 
Serious problem solving and collaboration began to occur, and, 
ultimately, a 20-year plan was developed. We developed a way for every 
State to design its own plan that met national standards. Importantly, 
we agreed that if a State failed to meet the standard, a mandatory 
market-trading system would kick in.
    This experience taught me that enforceable national standards can 
be a catalyst to bring parties together, but national standards work 
best if participants are allowed to use innovative neighborhood 
strategies.
    The Grand Canyon effort changed environmental problem solving in 
the West and led to the creation of the Western Regional Air 
Partnership, a collaboration of three Federal agencies, 13 States and 
13 tribal nations. We now have a region-wide plan for SO2 and we're 
closing in on a NOX agreement.
    The Western Regional Air Partnership has taught me that 
environmental solutions (just like environmental problems) transcend 
political boundaries.
    These experiences in cleaning up the air in the West, and many 
experiences since, have caused a well-defined environmental philosophy 
to crystallize in me. The philosophy is called ``Enlibra.'' The word is 
derived from Latin roots and means ``to move toward balance.'' Balance, 
in this context doesn't mean splitting the difference, but rather to 
apply the collective wisdom of the productive middle ground to make 
environmental progress.
    Former Governor John Kitzhaber (D-Ore) and I, coined the word 
Enlibra as we compared experiences. We were in different political 
parties and dealt with different environmental problems, yet both of us 
saw environmental disputes dividing our communities, diminishing our 
nation's economic competitiveness, costing the public millions of 
dollars in legal battles and taking decades to resolve. We concluded 
there has to be a better way.
    The two of us were joined by another dozen Governors and invited 
hundreds of environmental practitioners of every persuasion to help 
capture the principles that lead to balance: balance between this 
generation and the next, balance between sustainable environments and 
sustainable economies and balance among regions.
    The outcome was a simple set of beliefs, a philosophy, a shared 
doctrine of environmental management.
    For example, one of the principles is ``Markets before Mandates''--
a belief that people move farther and faster when they move willingly. 
Another is ``Reward Results, Not Programs''--we should value and 
measure improvement, not the rote adherence to regimen.
    A story illustrates another principle of Enlibra: ``Collaboration, 
Not Polarization.''
    I've been party to hundreds of environmental cleanups, including 
dozens of Superfund and Brownfield projects. One I'm especially proud 
of occurred in the Salt Lake metropolitan area and is the largest mine-
related water reclamation project in the history of the United States.
    Groundwater contamination from the Kennecott Copper Mine threatened 
the water supply of Utah's population center. The State of Utah worked 
with Kennecott, the local water district and the EPA to organize a 
remediation plan that will cleanup the groundwater and provide 8,000 
acre-feet of drinking water per year. It was accomplished without a 
dime of Superfund money and in a fraction of the time it would have 
taken if it had become a Superfund site. It was a great collaboration, 
and it occurred because well-meaning people (industry and regulators 
alike), joined together to solve a problem in a cost-effective and 
timely way. This was Enlibra in action.
    Every significant step of environmental progress I've been involved 
in has been a product of collaboration. Collaboration does not 
eliminate litigation, but it can minimize it. Collaboration doesn't 
take away hard decisions, but it improves acceptance. Collaboration 
doesn't lead to instant solutions, but it does accelerate progress. 
Most importantly, first-rate collaborations are more than compromise; 
they are problem-solving expeditions that penetrate the fortress of 
polarized extremes.
    Collaborations always have critics, cynics and saboteurs. They 
regularly break down and often fail, but those that break through 
become beachheads of innovation, staging areas for progress, launching 
pads for new technology.
    Moreover, successful collaborations restore people's confidence in 
their government. They show we can do more than fight, that we can find 
common ground to serve the common good.
    I would like to share one more story that illustrates a principle 
of Enlibra. In February of 2002 it was the privilege of our country and 
my State to host the 2002 Olympic Winter Games. Working with Federal 
and State agencies and volunteers, the Salt Lake Organizing Committee 
set four environmental goals:
    <bullet>  Net zero air emissions,
    <bullet>  Zero waste,
    <bullet>  Complete compliance with all Federal, State and local 
environmental standards, and,
    <bullet>  The planting of 100,000 trees.
    These became more than Olympic goals, they were national goals. 
Federal, State and local environmental officials spent 7 years 
planning, preparing and training. In the final execution we 
accomplished everything we set out to do.
    What is the explanation for this success? I like to think it had 
something to do with a largely emblematic, but meaningful symbol. A 
worker assigned to the Olympic environmental effort explained it to me:
    Everyone on our team wore those funky purple Olympic coats. We had 
people from the EPA and other Federal agencies working along side 
workers from State and local government, private sector professionals 
and volunteers. We all looked the same. Once we all wore the same color 
jacket nobody said, ``that's not my job.'' It was about getting the job 
done. We were Americans unified in a goal that enlisted every 
spectator, every athlete and every vendor. We did it.
    The Enlibra principle employed here is simple: Change a Heart, 
Change a Nation. The key to environmental progress is not the Federal 
code alone; it's our ethical code. It is the aggregate of our 
individual commitment to care for this planet, to protect our natural 
assets, to ensure that our citizens' health and safety are protected.
    In closing, I would like to express my admiration for the dedicated 
professionals who work for the United States Environmental Protection 
Agency. Many in the Agency have devoted their career to the noble 
pursuit of protecting our environment. In my nearly 11 years as 
Governor, I have observed their expertise and my first priority, should 
you confirm me, would be to reach out and learn from these dedicated 
employees and earn their trust.
    Mr. Chairman, if confirmed, I pledge to you, the Senate and the 
American people my full commitment that I will give this aspiration the 
full measure of my heart. There will always be genuine disagreement, 
but my aspiration is to achieve unity in our beliefs, so we can attain 
harmony in our purpose. I will listen to the views of all stakeholders 
and all points of view. I will work to make environmental protection 
more than an Agency; I will make it an ethic.
    Thank you.


    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    
 Responses of Governor Michael O. Leavitt to Additional Questions from 
                             Senator Inhofe

    Question 1. Governor Leavitt, I want to thank you for you 
assurances in our meetings that Tar Creek will receive the highest 
level of attention from the EPA. As we have had many discussions to 
date and will have many more once you are confirmed, I would just like 
to get you on record to committing your highest level of attention and 
involvement with the cleanup of the Tar Creek Superfund site in 
Oklahoma.
    Will you commit to ensuring the health and safety of every resident 
in Tar Creek is the top priority when making decision regarding Tar 
Creek?
    Response. If confirmed, I can assure you that protecting the health 
and the surrounding environment of the residents of Tar Creek is a 
priority of the EPA.

    Question 2. Will you commit to making the remediation of a Tar 
Creek a top priority for the EPA?
    Response. If confirmed, I can assure you that the Tar Creek site 
will remain a top priority for EPA.

    Question 3. Will you commit to an open, honest dialogue with all 
residents and officials involving EPA decisions and actions with regard 
to Tar Creek?
    Response. If confirmed, I can assure you that EPA will continue its 
efforts to maintain an open and honest dialogue with the residents and 
officials of Tar Creek.

    Question 4. Over the last few years their have been innovative 
settlements in Superfund that have used environmental insurance to 
expedited cleanup and protect trust fund resources. The Agency and DOJ 
have been reluctant to embrace these innovative concepts. Will you 
direct Agency Enforcement staff to vigorously explore these options and 
develop approaches that will enable this and other innovative tools to 
be used when it will expedite cleanups and protect the taxpayer?
    Response. I am not familiar with the specifics of the environmental 
insurance settlements in the Superfund program. If confirmed, I commit 
to examining this issue and to vigorously explore innovative tools to 
expedite cleanups.

    Question 5. EPA had cited several aviation fuel providers for not 
having secondary containment for their trucks. Aviation fuel providers 
were shocked at the application of these regulations to their vehicles. 
It had long been the understanding of the industry that the secondary 
containment requirement of the SPCC rules did not apply to aviation 
fuel trucks used on airports. This had been confirmed by approval of 
many airport SPCC plans that do not address this requirement for 
aviation fuel trucks. The aviation industry has sought to work with the 
EPA to provide the Agency with an understanding of the 
inappropriateness of imposing this requirement on aviation fuel trucks, 
yet the Agency has been slow to respond to these concerns and seems 
little interested in recognizing the unique nature of airport fueling 
operations. What steps will the EPA take to ensure that aviation fuel 
providers, particularly those at smaller non-commercial airports, are 
not unduly burdened by imposing secondary containment requirements on 
fuel trucks used only to transport and deliver such products?
    Response. I am not familiar with the specifics of the secondary 
containment requirements of the SPCC rules. If confirmed, I commit to 
examining this issue.
                                 ______
                                 
 Responses of Governor Michael O. Leavitt to Additional Questions from 
                           Senator Voinovich
    Question 1. The 2000 Clean Water Needs Survey identifies $181.2 
billion worth of wastewater infrastructure needs nationwide, including 
over $8 billion worth of needs in Ohio. Communities in Ohio and across 
the Nation are struggling to comply with the mandates of the Clean 
Water Act. For example, the city of Akron has developed a $377 million 
Combined Sewer Overflow Long Term Control Plan. Unfortunately, there 
simply is not enough money available at the Federal level to help 
communities like Akron make the improvements necessary to protect 
public health and the environment. Moreover, wastewater infrastructure 
investment would create thousands of jobs nationwide. That is why I 
have joined many of my colleagues in calling for increased funding for 
the Clean Water State Revolving Loan Fund program, which provides low-
interest loans to communities for wastewater infrastructure projects.
    Governor Leavitt, do you agree that we have a water infrastructure 
crisis in this country? As EPA Administrator, what would you do to 
address this crisis?
    Do you support increased funding for water infrastructure projects, 
including loans and grants? Will you push the Bush Administration to 
include higher levels of funding in its budget requests?
    Will you work with the State of Ohio and cities like Akron to 
develop reasonable, locally driven plans to address their unique water 
infrastructure needs?
    Response. I know from first hand experience that our drinking water 
and wastewater infrastructure is aging and that local communities have 
significant needs. I recognize the importance of the revolving loan 
fund and how valuable those funds have been to local communities. I 
look forward to being briefed in detail on this issue and to finding 
innovative ways to help address this problem.

    Question 2. The city of Akron and the Ohio EPA have worked in good 
faith to produce a conceptual agreement for Akron's Combined Sewer 
Overflow-(CSO) Long-Term Control Plan. The Ohio EPA has spent 
significant time and resources to reach agreement with the City. That 
agreement will result in $377 million being invested by Akron to 
correct its CSO problems. The City and Ohio EPA have agreed to a 30-
year implementation plan, with most of the projects producing the most 
water quality benefit being completed in the first 15 years. The City 
is moving forward with its plan, and is designing the first major 
project.
    U.S. EPA Region 5 has indicated that it may want to pursue a 
Federal consent decree and require that the City complete the work in a 
shorter timeframe of 10-15 years. The City does not want this to go to 
court. Ohio EPA would ask that the Region give proper deference to the 
State of Ohio and not re-open this settlement. Opening up the agreement 
and re-negotiating would not be fair to Akron and is not an efficient 
use of resources. Ohio EPA would like to do a State consent decree 
rather than a Federal consent decree.
    Governor Leavitt, do I have your commitment to work with the State 
of Ohio and the city of Akron to resolve this matter in a manner 
acceptable to all involved parties?
    Response. I am not familiar with the agreement you mention between 
the city of Akron and the EPA, but if confirmed, I will certainly look 
into this matter.
                                 ______
                                 
 Responses of Governor Michael O. Leavitt to Additional Questions from 
                             Senator Chafee
    Question 1. In the coming months, the EPW committee will once again 
turn to the issue of reauthorizing funding for wastewater and drinking 
water infrastructure. This year, EPA's budget included a drop in 
funding for water infrastructure assistance. What are your thoughts on 
the role of the Federal Government in addressing the nation's multi-
billion dollar backlog in water infrastructure projects?
    Response. I know from first hand experience that our drinking water 
and wastewater infrastructure is aging and that local communities have 
significant needs. I recognize the importance of the revolving loan 
fund and how valuable those funds have been to local communities. I 
look forward to being briefed in detail on this issue and to finding 
innovative ways to help address this problem.

    Question 2. Environmental insurance products have proven to be 
extremely effective tools in facilitating faster and less costly 
cleanups of contaminated properties, such as brownfield and Superfund 
sites.
    a) How do you envision environmental insurance products being 
utilized to promote cleanups in the future?
    Response. If confirmed, I am committed to an effective and 
efficient EPA Superfund and Brownfields program. I support the use of 
innovative tools to leverage Federal and private resources to clean up 
contaminated sites.
    b) Are there impediments to the utilization of environmental 
insurance products in the context of the Superfund program that would 
require new legislation?
    Response. I cannot speak for the Agency on whether there is a need 
for Federal legislation to address the use of environmental insurance 
in the context of the Superfund program.

    Question 3. In March 2003, the Phase II Storm Water Rule went into 
effect, requiring States and municipalities to begin developing and 
implementing management plans and general permits for stormwater runoff 
in urbanized areas. Last year, this committee approved an amendment, 
signed into law as part of the Great Lakes and Lake Champlain Act of 
2002, that provided a 1-year fix for States to retain maximum 
flexibility in utilizing Section 319 funding for addressing stormwater 
concerns.
    a) What is the current status of a State's ability to utilize 319 
funds for Phase II programs and activities? What will the status be at 
the start of the fiscal year 2004 budget cycle?
    b) If Congress does not provide another temporary extension 
providing States with flexibility to utilize 319 funds for Phase II 
activities, will 319 funds be eligible for use in a Phase II geographic 
jurisdiction in the future?
    c) During an EPA briefing with committee staff, the Agency 
indicated a list of stormwater activities that would be eligible to 
receive Section 319 funding, including ``monitoring and evaluation,'' 
``information and education,'' and ``development of enforceable 
policies''. As many of these items are specifically required to be 
included in Phase II NPDES permits under the rule's six minimum control 
measures, would you identify what guidance the Agency is providing to 
States to clarify 319 uses as they proceed with development and 
implementation of their Phase II programs?
    Response. I have not been fully briefed on the Clean Water Act's 
319 program. In general, I believe that States should be given 
significant flexibility to solve difficult environmental problems.
                                 ______
                                 
 Responses of Governor Michael O. Leavitt to Additional Questions from 
                           Senator Murkowski
    Question 1. Wetlands.--As my opening statement noted, 40 percent of 
Alaska--some 174 million acres-is classified as wetlands, yet many of 
the areas are isolated and not by any stretch of the imagination can 
they be called navigable. Despite the opportunity created by the 
Northern Cook County case to address the jurisdictional status of these 
areas, there has been no movement on the issue. Governor, can you give 
us your views oh the appropriate role of the EPA in resolving this 
issue?
    Response. Over the past 11 years, I have had many opportunities to 
work on issues related to wetlands. I believe EPA has an important role 
in determining the jurisdictional reach of the Clean Water Act. I have 
not been fully briefed on this specific issue, but I will consider the 
input of States and others before determining how to proceed.

    Question 2. Metals and mining.--As I understand it, research under 
the auspices of the EPA suggests that it may be more appropriate to use 
a dissolved concentration standard for metals found in the effluent 
from permitted mining operations, rather than the current standard 
where the metals content is expressed in terms of ``total recoverable 
metals.'' However, the EPA has yet to implement such a change in NPDES 
permits. This is a serious issue in certain operations where river 
water with naturally occurring mineral particles is added during 
treatment. Suspended particles in river water may artificially inflate 
the effluent numbers unless the more accurate standard is used. Isn't 
this an area where sound science and common sense should come together, 
and if so, what should be done to ensure that they do?
    Response. It is my intention to ensure that Clean Water Act 
standards are based on sound science and are translated into effective 
and enforceable permitting requirements. I am not familiar with the 
details of this issue, but I look forward to learning more.

    Question 3. EPA's approach to tribal governments.--Alaska has 228 
federally recognized tribes--one half of the nation's total. Yet only 
one Alaska tribe has a reservation providing it with a land base, and 
most consist of isolated and remote villages. This is distinctly 
different from the situation with tribes in the Lower 48 States with 
large land bases. EPA is currently forming policies and providing 
substantial amounts of grant funds directly to tribes in a manner that 
may be appropriate in the other States, but is not the best way to 
accomplish the desired results in Alaska. For example, one standardized 
effort was to collect and recycle batteries and other household 
hazardous materials. However, in at least one Alaska community, once 
such materials were collected, there was no way to recycle them onsite 
and there was no way to pay the cost of moving them to another 
location, so they were simply put into the local landfill--already 
substandard and in the process of being closed. The result was 
groundwater contamination that was a greater threat than leaving the 
materials alone. This could have been avoided had the Agency worked 
more closely with State authorities and others, rather than applied a 
one-size-fits-all solution. How can this kind of situation be avoided 
in the future?
    Response. I strongly believe that there needs to be continuous 
dialogue between EPA, regions, States, and Tribes because a one-size-
fits-all solution frequently is not the best way to protect human 
health and the environment.

    Question 4. Water quality/coastal waters.--One of EPA's charges is 
to monitor the state of the nation's water resources. It has made it a 
priority to pursue an Environmental Monitoring Assessment Program which 
will characterize the state of freshwater resources in 14 western 
States. However, Alaska, with 40 percent of the nation's surface water 
resources, has been excluded, and so has Hawaii. The Agency has also 
funded a National Coastal Survey to examine the state of the coastline. 
Alaska has close to 50,000 miles of tidal shoreline--well over twice 
what the ``contiguous'' States have in all. And yet EPA's survey has 
been funded for only a small part of the Alaska shoreline. What, in 
your view, is the best way to ensure that Agency activities provide all 
States with equal treatment.
    Response. I am not aware of the specifics of this issue, but if 
confirmed, I commit to looking into the details.
                                 ______
                                 
 Responses of Governor Michael O. Leavitt to Additional Questions from 
                            Senator Jeffords
    Question 1. According to Environmental Protection Agency (EPA) 
reports and records, the State of Utah does not compare favorably to 
other States with regard to certain aspects of its environmental 
record. For instance:

    <bullet>   according to a 2003 EPA report on Clean Water Act 
enforcement, Utah tied for last place for performance in six key 
environmental indicators, and;
    <bullet>  according to the 2001 Toxic Release Inventory, Utah has 
the second highest volume of toxic chemical releases in the country.

    Are you satisfied with this performance? Would you expect to have a 
higher standard for the nation's environmental record?
Response Regarding Clean Water Act Enforcement
    I inquired of the Utah Department of Environmental Quality and was 
supplied with the following information. At the time the reports were 
pulled from the EPA PCS data base, our data entry were incomplete; the 
missing data were flagged as violations. Other data was incorrect. The 
data are now current, and Utah's low rate of noncompliance ranks with 
the 10 best States in the Nation.
    I am informed that of the Kennecott violations cited in the report, 
five of the six were not actual violations. Three of the reported 
violations were due to data entry errors in PCS, one was a reporting 
error by the permittee, and one appears to be a problem with the PCS 
system itself. The data base has been corrected. One item which is 
flagged as a violation is for a compliance schedule being missed on a 
supplemental environmental project done by a third party. This 
information should not have been coded into PCS in the first place and 
is not a Kennecott violation. The reported 900 percent exceedance of 
mercury was due to an error in the coding of the effluent limits. Their 
actual discharge did not exceed permit limits.
    I am not satisfied with the difficulties in utilizing the data 
base, but I do support the resulting information and the value of 
access to this information.
Response Regarding Toxic Release Inventory
    It is important to remember that the releases identified in the 
toxic release inventory for Utah are releases that are approved under 
permits issued in compliance with environmental laws. These releases 
are not violations of environmental law. It is recognized that some 
industries, such as mining, must sometimes remove large volumes of 
waste rock in order to reach the ore body. Since TRI requires reporting 
of this removal of waste rock, the TRI will by law include large 
volumes of releases. These are not measures of violations of 
environmental law or damage to the environment. They are a reflection, 
for example, of the actions necessary to conduct mining operations.
    I am satisfied if the reporting is used in the context of TRI, not 
as a reflection of perceived environmental violations.

    Question 2. Governor, can you think of any reason why EPA should 
not provide me and the 19 bipartisan cosponsors of the Clean Power Act 
with an estimate of the benefits of our legislation, which we requested 
in May 2001, using the same methodology used for the Administration 
proposal?
    Response. As I stated at the hearing, if confirmed, it is my 
intention to work with you directly, straightforwardly, and in a way 
that would supply us both with information needed to meet our common 
goal of clean air.

    Question 3. In 2001, the Agency told industry that a ``transport'' 
rule would be necessary to achieve attainment with the fine particle 
standard if multi-pollutant legislation didn't pass. Very little work 
has occurred since then to issue that rule and multi-pollutant 
legislation is not moving. Will you use the Clean Air Act's authority 
to propose a ``transport'' rule next spring?
    Response. I am not familiar with the issues associated with EPA's 
authority to propose a ``transport'' rule. I look forward to learning 
more about this matter if confirmed as EPA Administrator.

    Question 4. In June 2003, reports surfaced that Clean Water Act 
enforcement was faltering under the Bush Administration. An internal 
analysis performed by the EPA documented extensive non-compliance with 
discharge permits and a decline in enforcement activities. For example, 
there was a forty-five percent decrease in EPA formal enforcement 
actions between 1999 and 2001. Enforcement personnel have been reduced 
by 100. What priority will you give enforcement at the Agency? What 
specific changes will you seek, and how will you articulate the need 
for those changes to the White House?
    Response. I am not familiar with the statistics you are citing. I 
look forward to being briefed on the specifics of EPA's enforcement 
program and what steps, if any, may be necessary to strengthen that 
important program. Ensuring compliance with the Nation's environmental 
laws will be one of my highest priorities. It is my view that 
enforcement is an important tool that can and should be used to promote 
compliance.
    Do agree with current EPA policy that the general measures for the 
selection of cases for criminal enforcement are the presence of 
significant environmental harm and culpable conduct?
    Response. If confirmed, I look forward to being briefed on the 
specifics of EPA's enforcement program and on what changes, if any, are 
appropriate.

    Question 5. I understand that the American Trucking Association 
would like EPA to delay the heavy-duty diesel engine rule for on-
highway vehicles. The final rule, which Governor Whitman affirmed in 
her first few months in office, has benefits that significantly 
outweigh its costs. Would you commit to not delaying the implementation 
of that rule?
    Response. I understand that there are tremendous health benefits 
associated with this rule, and I look forward to learning more about it 
if I am confirmed as Administrator. I will review the heavy-duty diesel 
engine rule to ensure that it is being implemented in accordance with 
the requirements of the Clean Air Act.

    Question 6. As you may know, the National Academy of Sciences has 
criticized the Agency's representation of uncertainty associated with 
environmental hazards. The National Academy of Sciences has suggested 
that this representation should be broader and include high and low 
levels of uncertainly. It seems logical that this principle should 
extend to consideration of costs and benefits in Agency rulemaking and 
when the Administration proposes legislation. And it should include a 
discussion of non-quantifiable costs and benefits. Would you agree?
    Response. I am not familiar with the National Academy of Sciences' 
evaluation that you reference. If confirmed, I welcome the opportunity 
to learn more about the Academy's work and EPA's current practices.

    Question 7. There is a serious nationwide health threat posed by 
emissions of toxic air pollution, specifically by those compounds 
characterized as ``hazardous air pollutants'' (HAPs) under the Clean 
Air Act. EPA's latest estimates of the exposure and health risks 
associated with only 32 of the 188 HAPs identified by the Clean Air Act 
provide some sobering figures. For example, EPA has established one in 
one million as the generally acceptable level of risk for cancer. Yet 
more than 200 million people in the U.S. live in areas where the 
lifetime cancer risk from exposure to HAPs exceeds 1 in 100,000. 
Approximately 3 million face a lifetime ``cancer risk of 1 in 10,000. 
These numbers are startling. As EPA Administrator, what action do you 
expect to take to address this problem?
    Response. If confirmed, I am committed to ensuring that EPA 
undertakes the actions necessary to protect human health and the 
environment from the risks posed by hazardous air pollutants. Although 
I have not been briefed in detail about this issue, I look forward to 
learning more.

    Question 8. If confirmed, would you proceed with closed 
negotiations with the oil industry on the definition of waters of the 
Untied States as part of the settlement talks with the industry lawsuit 
on the Spill Prevention Control and Countermeasures Plan lawsuit?
    Response. I am not familiar with this issue or with the settlement 
talks, and I would need to know more about them to formulate an 
opinion.

    Question 9. EPA's data indicates that one in four people in 
America, including ten million children, live within four miles of a 
Superfund site. Yet this Administration has broken with the Reagan, 
Bush and Clinton Administrations in opposing the Superfund polluter 
fees that pay for cleaning up abandoned sites. At the same time, the 
pace of cleanups has plummeted during this Administration, from' an 
average of 87 annually during the last Clinton Administration, to only 
40 over the last several years. What will you do to increase the pace 
of Superfund cleanups?
    Response. If confirmed, I am committed to the effective and 
efficient use of funding for the cleanup of Superfund toxic waste sites 
to protect human health and the environment.

    Question 10. A recent GAO report confirmed that the Superfund trust 
fund, which once contained over $3.6 billion, will be entirely 
exhausted in just a few weeks. The full costs of cleaning up abandoned 
sites and for program administration--roughly $1.5 billion--will now 
need to be borne by the general treasury Do you agree with the 
Administration that polluters should not pay the cost of cleaning up 
abandoned sites, and that instead such costs should be foisted on the 
average taxpayer?
    Response. I support the polluter pays principle, which I understand 
is the Administration's position. Parties responsible for the toxic 
waste at Superfund sites are responsible for cleaning them up. If 
confirmed, I commit to continuing a strong EPA Superfund enforcement 
program.

    Question 11. Because of the expiration of the Superfund fees, the 
President has asked Congress to appropriate $1.1 billion dollars for 
the Superfund out of general revenues in fiscal year 2004. Not only 
does this squeeze funding for other priorities, but it makes it 
impossible for Superfund appropriations to keep up with inflation, let 
alone what EPA has described as the ``larger and more complex'' sites 
that the Agency is confronted with today. The inevitable result is a 
program that lacks adequate resources for site assessments, cleanup and 
administration, and that instead relies on band-aid solutions. Without 
reauthorization of the fees, what specific steps would you take as EPA 
Administrator to ensure that all stages of the Superfund pipeline have 
adequate resources to fully safeguard communities?
    Response. I am committed to getting the highest possible benefit 
for Superfund expenditures. I will ensure that Superfund resources are 
used in an efficient manner for managing the ``pipeline'' of sites, and 
that the Agency uses the best science and expert advice to identify and 
address priorities based on risks to human health and the environment.

    Question 12. EPA is reportedly considering creating a new Superfund 
milestone to highlight the extent to which a cleanup improves ``the 
potential land uses of a Superfund site'' for commercial or residential 
redevelopment. This raises concerns that redevelopment' pressures could 
compromise the protectiveness of a cleanup. As Administrator, would you 
support the use of such economic criteria in Superfund, a public health 
statute?
    Response. I am unfamiliar with the issue referenced in your 
question, but I look forward to learning more if confirmed. However, I 
can assure you that I strongly support the Superfund program's 
statutory mandate to protect human health and the environment.

    Question 13. The Superfund statute has an explicit preference for 
permanent cleanups. Increasingly, however, cleanups are relying on 
``natural attenuation'' and zoning and other ``institutional controls'' 
to minimize exposure. This focus on short-term costs leaves dangerous 
toxic waste in our communities and places the health of future 
generations at risk. Do you agree with Superfund's preference for 
permanent cleanups?
    Response. I am unfamiliar with the issue referenced in your 
question. If confirmed, I commit that EPA will continue to follow the 
statutory requirements in the Superfund law.

    Question 14. Concerns have been raised that EPA, in implementing 
the new brownfields legislation, is not requiring cleanups to be 
subject to any governmental oversight, or to comply with established 
cleanup standards. Do you feel that this is an appropriate use of 
Federal funds?
    Response. I am unfamiliar with the issue referenced in your 
question. If confirmed, I am committed to the effective and efficient 
use of funds to clean up and redevelop Brownfields properties.

    Question 15. What type of advisory role to Congress do you believe 
the EPA has as the nation's in-house experts on environmental policy, 
and does that advisory role apply to all Members of Congress and 
committees?
    Response. I look forward to working with the committee and, within 
the context of normal separation of powers constraints, will make every 
effort to provide you with advice in a timely and comprehensive manner.

    Question 16. In your decisionmaking at the Agency, what deference 
do you plan to give to Agency legal interpretations and policies that 
have been in place for decades?
    Response. As a general matter, I will consult with EPA's staff with 
respect to prior legal interpretations and policy positions taken by 
the Agency. I will take earlier decisions into account and consider 
them seriously when addressing new issues.

    Question 17. Can you describe the manner in which the Agency uses 
section 309(c)(1) as a part of your enforcement program?
    Response. My enforcement philosophy is that the first goal should 
be compliance. It is our responsibility to move people toward this 
goal, and if there are those who avoid or evade the law, the full 
weight of the EPA and the law should be used to assure their 
compliance.

    Question 18. During your confirmation hearing, you stated that 
every American deserves clean water. EPA's own gap analysis identifies 
a wastewater infrastructure spending gap of $270 billion over 20 years 
and a drinking water infrastructure spending gap of $265 billion over 
20 years. Please specify what you will do to address this gap. For 
example, will you ensure that the President's budget for the next 
fiscal year does not include the 40 percent cut in water infrastructure 
that we saw in fiscal year 2004?
    Response. I know from first hand experience that our drinking water 
and wastewater infrastructure is aging and that local communities have 
significant needs. I recognize the importance of the revolving loan 
fund and how valuable those funds have been to local communities. I 
look forward to being briefed in detail on this issue and to finding 
innovative ways to help address this challenge.

    Question 19. During your confirmation hearing, you spoke about the 
cleanup of the Kennecott Copper Mine as an example of the Enlibra 
philosophy encouraging cooperation. That cleanup has not begun yet, and 
the public had no role in the ``technical review committee'' that 
selected the proposed cleanup. Concerns have been raised that the 
cleanup will result in pollutants being dumped into the Jordan River 
and that the Great Salt Lake ecosystem may be threatened. How does the 
public process at Kennecott compare to that required under Superfund?
    Response. The public process for the Kennecott cleanup is very 
significant. Many government and public representatives were involved 
in the Technical Review Committee. The proposed cleanup plan is the 
subject of extensive public hearings and comment periods extending over 
several months. These are still ongoing. The discharge permit was also 
subject to a 30-day comment period for the public and to review by EPA. 
The discharge permit is in full compliance with the Clean Water Act and 
will protect the river and the lake.

    Question 20. It is my understanding that today's technologies are 
able to achieve greater than a ninety percent reduction in mercury 
emission from some types of coal. As Administrator, would you commit to 
finalizing, on schedule, a mercury MACT standard that matches today's 
maximum achievable control technologies?
    Response. I am not familiar with all of the issues associated with 
this question and, if confirmed, I would welcome the opportunity to 
learn more about the technologies available to reduce mercury.

    Question 21. The Emergency Planning and Community Right to Know Act 
explicitly states that each toxic chemical that was ``manufactured, 
processed, or otherwise used'' by a facility is subject to the 
reporting requirements of the Toxic Release Inventory program. EPA is 
developing a rule to clarify the extent to which toxic releases from 
mining activities, such as arsenic, lead and mercury, are subject to 
the disclosure requirements of the TRI program. As Administrator, will 
you uphold the law and require the mining industry to report all toxic 
chemicals that are ``manufactured, processed or otherwise used"-
including the billions of pounds of toxics extracted as waste rock that 
often cause acid mine drainage and metal leaching?
    Response. I am aware of the arguments regarding the listing of 
mining wastes as part of the TRI and that EPA intends to clarify the 
rules. I am not familiar with all the issues surrounding this specific 
topic.

    Question 22. The Outdoor Industry Association is strongly 
considering moving the Outdoor Retailer trade show out of Utah. The 
industry's concern was Utah's legal settlement with the Department of 
Interior over wilderness inventory areas across the West, and the 
settlement's potentially negative impact both on ensuring the full 
spectrum of quality recreation experiences for the 149 million 
Americans who participate in active outdoor activities, and outdoor 
recreation's contribution to Utah's economy. The industry issued a 
statement in August saying they were ``cautiously encouraged'' about 
your proposals to both protect Utah's recreation gems and to work to 
build a stronger recreation economy in Utah, but waiting to see if the 
proposals will be backed up with action and policy. Have there been any 
new developments on this issue since August? If so, what are they? Will 
your Administration implement policies to back up your statements 
before you leave office if you become EPA Administrator?
    Response. The State of Utah desires to develop Utah as an outdoor 
recreation capital, protect access to premier outdoor recreation 
destinations and protect wilderness-quality lands in Utah. To this end, 
I have made a commitment to make the outdoor industry in Utah a high 
priority industry (called an economic ecosystem in Utah) and utilize 
the resources of the State to develop the industry. One component of 
this development is the protection of outstanding natural areas that 
form the backbone of the outdoor recreation industry. Part of this 
commitment includes formalizing the State's interest by creating a task 
force to identify Utah's premier outdoor recreation destinations, 
inventory the current land protections and recommend changes to these 
protections, if necessary, to preserve Utah's scenic assets. I have 
also made it clear that the State of Utah desires to protect 
wilderness-quality lands in our State.

    Question 23. Government projections expect carbon dioxide emissions 
from the power plant sector to increase by about 46 percent by 2020. Do 
you support increasing emissions of greenhouse gases?
    Response. A passive approach to address climate change is 
insufficient. The President has proposed a series of immediate, 
deliberate actions that I fully support: establishment of a national 
goal on the reduction of greenhouse gas intensity, substantial 
increases in research, partnerships within the international and 
industrial sectors, new agriculture sequestration projects, and focus 
on new technologies.

    Question 24. Clear Skies would allows nonattainment areas to extend 
their attainment deadline beyond what is permitted under the current 
Clean Air Act. Do you think that is prudent in terms of public health?
    Response. I am committed to working with you to ensure that clean 
air legislation includes aggressive goals to reduce air pollution so we 
can meet air quality standards. I believe the President's Clear Skies 
proposal, in combination with his other air quality initiatives, will 
achieve these goals. This approach includes incentives to reduce 
pollution earlier in the next decade than the current Clean Air Act. If 
confirmed, I will work with States to ensure our public health based 
standards are met.

    Question 25. On April 28, 2003, I asked Governor Whitman in writing 
when the Agency would deliver the economic analysis of various levels 
of the standards to control power plant mercury and air toxics 
emissions. This was requested repeatedly in 2002 by the Federal 
advisory committee working with EPA on these standards and repeatedly 
promised by the Agency. EPA last committed to a delivery date of April 
11, 2003. Last week, 4 months after my request was submitted, I 
received the following answer--``that work group finished its report to 
EPA on October 30, 2002.'' That was it, no analysis. Obviously, EPA 
never intended to keep its promise.
    Do you think EPA should keep its promise, rather than give such an 
answer to Congress and the Federal advisory committee and the public?
    Response. I am not familiar with the specifics about the FACA 
report and delivery date. As I have stated in my testimony, it is my 
intention to work with Congress directly, straightforwardly, and in a 
way that would supply us both with information to meet our common goal, 
which is clean air.

    Question 26. The EPA Staff Draft on the fine particle standard, 
which is done as part of the 5-year review requirement in the Clean Air 
Act for all air quality standards, suggests that the current annual and 
the 24-hour standard should be more stringent. If you become the 
Administrator, will you commit to expediting the Agency's review and 
final determination using all the latest public health information?
    Response. I have not had an opportunity to be briefed in detail on 
this issue. If confirmed, I welcome the opportunity to learn more about 
it and am committed to ensuring that the review is undertaken in 
accordance with the Clean Air Act and that the best available public 
health information is considered as part of the review.

    Question 27. Will you keep to the schedule in the attached list of 
air quality-related deadlines as announced by or required of the 
Agency, and alert the committee in advance of any changes to this 
schedule? See EPA deadlines document.
    Response. Whenever possible, it will be my goal to meet the 
scheduled deadlines for all rules and regulations at the EPA.

    Question 28. As you may know, the Executive Order on regulatory 
review (No. 12866), says that EPA must do an assessment of costs and 
benefits of potentially effective and reasonably feasible alternatives 
to a regulation, identified by agencies or the public. Given that 
directive, can you commit to us that if you become the Administrator, 
the Agency will provide an assessment of alternatives suggested by the 
public for the utility air toxics/mercury MACT rule?
    Response. I am not familiar with the specifics of this issue, but 
if I am confirmed I intend to fully comply with all legal requirements.

    Question 29. The Resource Conservation and Recovery Act requires 
that the Federal Government and all political subdivisions using 
appropriated funds must give a preference to the procurement of 
products made with recovered content, with certain limitations. Should 
the Federal Government extend its procurement power further to 
encourage the development of ``greener'' products and services that 
emit less harmful pollution?
    Response. I will need more information on the Federal Government's 
procurement rules and regulations and voluntary initiatives before 
forming an opinion. If confirmed, I would continue EPA's strong 
commitment to green purchasing, its compliance with the appropriate 
procurement requirements and its efforts to assist other Federal 
agencies in this area.

    Question 30. EPA recently proposed a settlement agreement that 
would require the Agency to re-issue a proposed rule on Regional Haze 
and BART (Best Available Retrofit Technology) by April 15, 2004. Do you 
see any reason that rule should not still include a 90-95 percent 
reduction in Particulate Matter emissions from uncontrolled sources?
    Response. Through my work as co-chair of the Western Regional Air 
Partnership (WRAP), I am aware of discussions regarding the re-issuance 
of the proposed rule. However, I have not had the opportunity to 
discuss specifics of the settlement agreement or evaluate any potential 
conflict of interest due to my involvement in WRAP. Therefore, I will 
defer comment at this time.

    Question 31. Do you think it is wise for the White House to tell 
EPA and other agencies to analyze regulations using the so-called 
``senior discount'' where the lives of older people are valued at about 
2/3 of the average persons?
    Response. I am only generally familiar with the use of cost and 
benefit analysis but, if confirmed, I look forward to learning more.

    Question 32. Although the Administration has acknowledged the 
importance of limiting power plant NOx emissions, it has not yet issued 
the final rule necessary to complete power plant emissions reductions 
required by the NOx SIP Call. Will you commit to finishing up Phase II 
of the NOx SIP Call by the end of this year?
    Response. One of my primary goals is to ensure cleaner air for all 
Americans, and power plant emission reductions play an important part 
in achieving this goal. If confirmed, I look forward to understanding 
more about this important matter and will ensure that EPA's actions are 
consistent with the requirements and goals of the Clean Air Act.

    Question 33. A number of States and localities are concerned about 
the impacts of climate change and global warming on their citizens 
health and welfare, the economies of their States, and their natural 
resources. They are thus moving forward to address greenhouse gas 
emissions, either by adopting or exploring mandatory reduction 
measures, or by taking other steps to reduce these emissions. Do you 
support the role of States and localities in being laboratories for 
innovation with respect to emission reductions or do you think that 
such innovation should be squelched in favor of one national policy 
that is not sufficient in the view of those States and localities?
    Response. State and local governments have been leading innovators 
in the environmental arena for decades. I look forward to working 
cooperatively with States and local governments to help them continue 
to develop creative approaches to address environmental problems.

    Question 35. . What are the possible effects of global warming on 
Utah?
    Response. Climate change science is complex and projections based 
on hypothetical models vary widely.

    Question 36. . If the State of Utah has conducted an analysis of 
the impacts and costs and benefits of Clear Skies on the State, please 
share it with the committee.
    Response. No, the State of Utah has not conducted an analysis of 
the impacts and costs and benefits of the Clear Skies legislation.

    Question 37. . As was discussed briefly in the hearing, your State 
air director represented Utah's position in April 2003 on the 
Administration's final and proposed New Source Review rules as ``making 
the situation worse.'' You suggested that his concerns were met or 
addressed in the final rule issued on August 27, 2003. However, since 
the final rule on routine equipment replacement was not much different 
from the proposal, it is not clear how those concerns were address. 
Please explain how Utah's stated concerns were satisfactorily addressed 
in the final rule.
    Response. The Utah Department of Environmental Quality's (DEQ) 
primary concern was that New Source Review needed to be improved. DEQ's 
March 2003 suggestions were all directed to the Annual Maintenance, 
Repair and Replacement Allowance (AMRRA) proposal. The comments were 
received and properly weighed; all were addressed.

    Question 38. . Federal studies tell us that school buildings are in 
such bad shape that one-third have serious problems with indoor air 
pollution, which EPA has found is much worse than outdoor pollution. 
EPA has worked hard to help local schools understand how to prevent or 
fix Indoor Air Quality (IAQ) problems. It has also published guidelines 
on how to design ``healthy and high performance school'' that promote 
good indoor air, energy efficiency, and environmentally preferable 
materials. As Administrator, will you ensure that these initiatives at 
EPA's offices of Indoor Environments and Child Health Protection are 
expanded?
    Do you believe that EPA should invest more in basic indoor air 
research, invest more in working with State agencies and pediatricians 
so they can work with local schools, and begin to develop indoor air 
quality standards that will protect children's health, safety and 
learning ability?
    Response. If confirmed, I look forward to learning more about the 
issue of indoor air quality. I will ensure that healthy environments 
for children at school are a high priority at EPA.

    Question 39. . The committee is aware of press accounts which span 
several years and relate to allegations of impropriety by former 
members of the Salt Lake City Bid Committee for the 2002 Winter Games. 
We are also aware of the March 1999 report of the U.S. Olympic 
Committee on this matter. Is there anything pertaining to this matter 
that you would like to share at this time?
    Response. No.

    Question 40. . A study has been commissioned to the National 
Academy of Sciences to assess the impacts of the NSR rule changes. By 
what scientific method will the study measure the NSR rule changes 
effects on human health? Specifically, how will the study collect, 
measure and evaluate incidence rates of lung disease, asthma, and 
hospital visits?
    Response. I am not familiar with the NAS study that you reference.

    Question 41. . In the past, the EPA has relied on anecdotal 
evidence and selected case studies to draw conclusions about the 
potential effects of NSR rule changes. How will you ensure that the NAS 
study does not rely on such anecdotal case studies?
    Response. I am not familiar with the NAS study that you reference.

    Question 42. . The EPA has consistently delayed conducting a 
scientific analysis of the effects of NSR rule changes. By law, the NAS 
has until March 3, 2004 to publish an interim report. If the NAS is 
unable to complete a thorough analysis by the deadline, what steps will 
you take to assure that additional resources will be provided for them 
to complete the study?
    Response. I am not familiar with this issue, if confirmed, I look 
forward to learning more.
                                 ______
                                 
 Responses of Governor Michael O. Leavitt to Additional Questions from 
             Senator Jeffords on behalf of Senator Corzine
    Question 1. Do you believe the EPA's mission includes protecting 
citizens from noise pollution, including noise from airplanes and 
airports? Was the EPA given exclusive Federal authority to coordinate 
Federal Agency programs that relate to noise research and control under 
the Noise Control Act of 1972, 42 U.S.C. 4901 et seq., and the Quiet 
Communities Act of 1978, 42 U.S.C. 4913, as amended by Pub. L. 95-609, 
2? And isn't an important aspect of EPA's authority its mandate to aid 
the FAA in its regulation of airport noise and to suggest noise 
measures that are necessary to protect public health and welfare? [See 
49 U.S.C. 44715 (b)-(d))
    Response. I appreciate the concern you raise. If confirmed, I 
expect to learn more about this issue and about EPA's authority to 
address noise pollution.

    Question 2. Given that authority, shouldn't the EPA provide an 
independent scientific and technical review of noise impact studies 
performed by the FAA and in particular the 65 dNL standard used by the 
FAA?
    Response. I appreciate the concern you raise. If confirmed, I 
expect to learn more about this issue and about EPA's role in helping 
to address noise pollution.

    Question 3. Shouldn't the EPA provide comments and assistance to 
the FAA during the EIS process for redesign of flight routes into and 
out of Newark, LaGuardia, Kennedy, and Philadelphia International 
Airports to ensure that the FAA properly and fully considers reducing 
noise as a goal of the redesign?
    Response. I appreciate the concern you raise. If confirmed, I 
expect to learn more about this issue and about EPA's role in helping 
to address noise pollution.
                                 ______
                                 
 Responses of Governor Michael O. Leavitt to Additional Questions from 
   Senator Jeffords on behalf of People for the Ethical Treatment of 
                             Animals (PETA)
    Question 1. As you know, the Environmental Protection Agency (EPA) 
requires chemical toxicity tests involving animals. You may not know, 
however, that the EPA uses more animals in chemical toxicity tests than 
any other Federal agency. Animal protection advocates contend that they 
have met with resistance by the EPA when proposing reforms and the 
adoption of more sophisticated non-animal tests. Replacing animal test 
with non-animal tests is appealing from a humane standpoint, as well as 
from a scientific standpoint, since there can be no question, for 
example, that a human cell culture test is relevant to humans in a way 
that a test on rat or dogs will never be. Non-animal test are also 
often faster and less expensive than animal methods. In 1999, the EPA 
published a proposed rule for skin absorption testing using a non-
animal method, but the proposed rule has never been finalized. What 
priority will you place on changing the EPA's policies so that methods 
such as those above are accepted preferentially over their old-
fashioned animal-based counterparts?
    Response. I have not been briefed on the technical and scientific 
issues related to animal and nonanimal testing in relation to 
policymaking. If confirmed, I will make every effort to ensure EPA's 
policymaking is based on the strongest possible scientific basis.

    Question 2. The EPA uses virtually none of its more than $600 
million annual research budget to research, develop, or validate 
sophisticated in vitro test methods. Frequently, in vitro test methods 
are more economical, more reliable, more relevant than animal tests, 
and are also more humane. What portion of EPA's research budget are you 
prepared to devote to developing in vitro test methods?
    Response. If confirmed, I look forward to being briefed on the 
Agency's research priorities and plans. Until I am briefed and have had 
a chance to explore this question in greater depth, I am unable to take 
a position.

    Question 3. Questions have been raised concerning the lack of 
transparency and openness of the EPA's decisionmaking process. The fact 
that representatives from the animal protection community are not 
invited to participate in the initial planning stages of EPA testing 
programs is a continuing source of concern. What changes would you make 
to EPA policy in order to prevent this from happening in the future EPA 
programs involving animal testing?
    Response. As Governor, I have a long record of supporting 
collaborative processes. In making important policy decisions, I 
encourage processes that provide an avenue for a broad range of 
perspectives to be heard and considered.
                                 ______
                                 
 Responses of Governor Michael O. Leavitt to Additional Questions from 
             Senator Jeffords on behalf of Senator Stabenow
    Question 1. Last year, Michigan received almost 3.5 million tons of 
municipal solid waste (MSW) from outside the State, more than double 
the amount that was imported in 1999. This waste accounts for about 
one-fifth of Michigan's total trash, and makes Michigan the third 
largest importer of waste in the United States. More than 57 percent of 
the waste that is imported into Michigan in 2002 was from Ontario, 
Canada and these imports are growing rapidly. On January 1, 2003, the 
city of Toronto switched from sending two-thirds of its trash, to 
sending all of its trash--1.1 million tons-to Michigan landfills, 
resulting in 180 truckloads of waste coming into Michigan each day.
    As Governor of Utah, you sponsored resolution 00-026 regarding out-
of-State waste that was adopted by the Western Governors Association on 
June 13, 2000. The resolution stated that, ``The Western Governors 
believe each State should do everything it possible can to deal with 
its own solid waste in-State, including making those hard siting 
decisions when no one wants it Din their backyard.''
    a) Do you still support this statement?
    Response: Yes.
    b) Do you believe that Ontario has a responsibility to deal with 
its own waste instead of exporting it all to the State of Michigan?
    Response. I do not know the specifics of the Michigan-Ontario 
arrangement, so it would be inappropriate for me to make a judgment on 
the issue at this time. I would like to clarify the question with 
respect to the policy resolution. WGA Policy Resolution 00-026, now 
Policy Resolution 03-12, was renewed in September 2003 by western 
Governors. The policy deals with interstate management of wastes, and 
does not specifically address Canadian waste management. In addition to 
the statement you have identified, the resolution also makes the 
following policy statement: ``The Governors do not support an outright 
ban on waste shipments between States because there are many examples 
of safe, effective and efficient cross-border waste management 
arrangements.'' (WGA Policy Resolution 03-12)
    2) Under the Agreement Concerning the Transboundary Movement of 
Hazardous Waste (Agreement), which was entered into in 1986, MSW 
shipments across the Canadian-US border require government-to-
government notification. The EPA as the designated authority for the US 
would receive the notification and then would have 30 days to consent 
or object to the shipment, however the EPA has never enforced these 
notification provisions.
    a) Do you believe as a matter of public policy that this Agreement 
should be enforced?
    Response. I am not aware of EPA's response with respect to the U.S. 
and Canada Bilateral Agreement. If confirmed, I look forward to being 
briefed about this Agreement and EPA's responsibility.
    b) As EPA Administrator would you enforce these notification 
provisions in regards to Canadian MSW shipments?
    Response. I am not aware of EPA's response with respect to the U.S. 
and Canada Bilateral Agreement. If confirmed, I look forward to being 
briefed about this Agreement and EPA's responsibility.
    c) If so, what factors would you consider in objecting or 
consenting to these MSW shipments?
    Response. I am only partially familiar with the cross-border waste 
shipment issue; I do not have a position on what factors to consider. 
If confirmed, I look forward to learning more about the Agreement and 
potential factors to be considered.
    d) How much weight would you give to the following factors?
    <bullet>  Impacts to homeland security;
    <bullet>  Impacts on landfill capacity;
    <bullet>  Road deterioration resulting from increased traffic;
    <bullet>  Air emission resulting from increased traffic;
    <bullet>  Continued public support and adherence to the State's 
recycling laws/efforts; and
    <bullet>  Impacts on public health and the environment.
    Response. I am only partially familiar with the cross-border waste 
shipment issue; I do not have a position on what factors to consider. 
If confirmed, I look forward to learning more about the Agreement and 
potential factors to be considered.
    e) Are there other factors that you would consider? If so, what 
would they be?
    Response. I do not have sufficient information to respond but, if 
confirmed, look forward to examining this matter.
    f) As a former Governor what weight would you give to a State's 
objections to receiving Canadian MSW shipments when objecting or 
consenting under the Agreement?
    Response. I do not have sufficient information to respond but, if 
confirmed, look forward to examining this matter.
    g) Would you seek the receiving State's consent before consenting 
to the MSW shipment?
    Response. I do not have sufficient information to respond but, if 
confirmed, look forward to examining this matter.
    h) Would you consider the State's objections to the MSW shipment 
dispositive as a basis to object?
    Response. I do not have sufficient information to respond but, if 
confirmed, look forward to examining this matter.

    Question 3. In an August 26, 2003 letter Robert Springer, Director 
of EPA's Office of Solid Waste, stated that the EPA is moving forward 
on a legislative proposal to implement the Agreement.
    a) At what stage in the drafting and approval process is the 
aforementioned legislative proposal?
    Response. At this time, I am not aware of the status of the 
legislative proposal.
    b) As EPA Administrator would you make drafting and presenting this 
proposal to Congress a priority?
    Response. At this time, I am not aware of the status of the 
legislative proposal.
    c) What would you include in this legislative proposal?
    Response. At this time, I am not aware of the status of the 
legislative proposal.

    Question 4. As EPA Administrator would you support S. 199/H.R. 411, 
which provides the implementation language for the Agreement? Why or 
why not?
    Response. I am unfamiliar with the provisions in S. 199/H.R. 411, 
therefore, I have no opinion on the bills.

    Question 5. As EPA Administrator would you support S. 383, The 
Canadian Waste Import Ban Act of 2003? Why or why not?
    Response. I am unfamiliar with the provisions in S. 383, therefore, 
I have no opinion on the bill.

    Question 6. As EPA Administrator what other action would you take 
to address the Canadian trash problem?
    Response. I have not had the opportunity to understand the facts 
regarding the cross-border waste issues, nor to identify problems 
associated with this issue.

    Question 7. A September 8, 2003 Detroit News article revealed that 
2-3 truckloads of Canadian MSW shipments are being turned back at the 
Michigan-Canadian border for containing radioactive materials such as 
untreated medical waste.
    a) Do you believe that the deception of radioactive materials 
should be a basis for the EPA to object to a MSW shipment?
    Response. I support enforcement of prohibitions on the disposal of 
hazardous waste in landfills not licensed for hazardous waste disposal.
    b) What steps would you take to ensure that the MSW shipments do 
not contain radioactive materials?
    Response. I support enforcement of prohibitions on the disposal of 
hazardous waste in landfills not licensed for hazardous waste disposal.
                                 ______
                                 
 Responses of Governor Michael O. Leavitt to Additional Questions from 
            Senator Jeffords on behalf of Congressman Stupak
    Question 1. The Great Lakes Restoration Financing Act was 
introduced this year and would create a Great Lakes Advisory Board to 
develop a Comprehensive Lakes Management Plan and provides funding for 
Great Lakes clean-up efforts. Under this legislation, the EPA 
Administrator would determine which States qualify for Great Lakes 
clean-up funding. If enacted, what would you do to ensure the effective 
distribution and management of Great Lakes clean-up funding among the 
eight Great Lakes States?
    Response. The Great Lakes are indeed a national treasure. If 
confirmed, I will administer faithfully existing programs and any 
legislation that may pass Congress and is signed into law by the 
President.

    Question 2. Canada allows offshore drilling in the Great Lakes. As 
EPA Administrator, what would you do to prevent this practice from 
expanding--or ban the practice--in our shared resource, the Great 
Lakes?
    Response. I am not familiar with this issue.

    Question 3. For more than 10 years the US and Canada have had an 
agreement on reporting standards for importation and exports of 
municipal solid waste, yet EPA has never implemented these provisions. 
Can you assure us that implementing these provisions will occur 
immediately under your leadership? Why or why not?
    Response. I am not familiar with the provisions of the U.S. and 
Canada bilateral agreement. However, if confirmed, I commit to learn 
more about this issue.
                                 ______
                                 
 Responses of Governor Michael O. Leavitt to Additional Questions from 
  Senator Jeffords on behalf of the Center for Progressive Regulation
Clean Science
    There has been criticism of EPA's peer review practices over the 
years by the GAO and National Academies of Sciences, some of it 
concerning EPA's conflict of interest requirements. Please describe 
what you believe the conflict of interest requirements should be for 
the peer review of scientific research used by EPA in developing 
regulations.
    When should a peer reviewer be excluded from reviewing regulatory 
science because their objectivity has been compromised?
    The EPA has had a full year of experience with the Request for 
Correction procedure established under the Agency's Information Quality 
Guidelines. Twelve formal requests have been filed, resulting in eight 
EPA responses thus far. None of the completed RFC's has resulted in 
anything other than non-substantive, ministerial changes to published 
EPA information, yet each has consumed considerable EPA staff time and 
effort. What changes, if any, would you adopt to the EPA Information 
Quality Guidelines to reduce this kind of wasteful government activity?
    Should relevant, peer-reviewed research ever by excluded from the 
EPA's effort to identify a science-based protective standard under the 
Clean Air Act, Safe Drinking Water Act, etc? If so, under what 
circumstances?
    Are there dangers in having a political body review scientific 
quality?
    Response. I believe it is a priority to use the best available 
science and data to support policy decisions and that all major 
scientific work products should undergo peer review. I am not familiar 
with EPA's current peer-review process or the Information Quality 
Guidelines. If confirmed, I look forward to exploring the issues you 
raise with the process, but cannot articulate a position at this time.
Enlibra
    You are identified as one of the originators of the Enlibra 
principles adopted by the Western Governors' Association, can we look 
to those principles to identify your position on issues addressed 
there?
    Response. The Enlibra Principles express well the core beliefs of 
my environmental philosophy.
    Are there any of the Enlibra principles that you would like to 
disavow in your position as Administrator of EPA?
    Response, No.
Changes in Leadership Goals
    Please identify any decisions of national significance made by 
Administrator Whitman with which you disagreed and explain the basis 
for your disagreement with her approach? How would you resolve the same 
issue if confronted with it as Administrator?
    Response. I have known Governor Whitman for quite some time, and I 
have a tremendous amount of respect for her and the work that she did 
as Administrator of the EPA.
Regulatory Reform
    Did you support regulatory reform legislation in the 104' Congress? 
How would you respond if a bill similar to S. 343 (mandating 
substantial new analytical and cost-benefit analysis requirements) were 
proposed today? Even if you believe cost-benefit analysis can serve a 
useful function, do you see any downsides for EPA as an Agency if it 
were subject to such new statutory requirements?
    Response. I agree that cost-benefit analysis can serve a useful 
purpose. Until I have been briefed in detail on EPA's cost-benefit 
policies, however, I am not prepared to take a position on any 
legislative proposals.
White House Oversight
    How would you respond if a White House employee or senior officer 
sought to convince you as Administrator to modify actions from what you 
and your staff had recommended about a pressing health issue?
    Response. I believe it is EPA's duty to provide important health 
information to the public that is reliable and accurate.
    Do you believe that OMB has the authority to instruct you to submit 
cost/benefit analysis of rules promulgated under statutes that prohibit 
the consideration of costs?
    Response. I intend to comply fully will all legal requirements.
Cost/Benefit Analysis
    What changes or additional initiatives would you advocate to 
improve the quantification of the benefits of environmental policies?
    Response. I am not familiar enough with EPA's current practices to 
comment. If confirmed, I look forward to spending more time on this 
issue.
Market-Based Remedies
    Under what circumstances would you favor the adoption of market-
based approaches such as trading of emission credits? Do you believe 
that such trading is every appropriate for toxic emissions or 
discharges? Do you support such programs when it is difficult to 
measure the effect of emission or discharge reductions or when it is 
impossible to determine the actual emissions or discharges from an 
individual source?
    Response. As I mentioned at the hearing, one of the reasons I 
support the President's Clear Skies initiative is that I believe that, 
through the use of market-based trading, we will see reductions of all 
the pollutants subject to the legislation. In this context, the market-
based approach is the best tool we can use. As to other situations, we 
need to evaluate whether a market-based approach is appropriate or 
whether other tools are more appropriate.
Regulatory Toolbox
    Do you favor the continued use of a technology-based approach to 
controlling emissions of 29 pollutants from sources like point sources 
of water pollution?
    Response. Yes, as required by the Clean Water Act.
Climate Change
    As Administrator, what steps would you take to reduce the threat 
the United States faces from global warming?
    Response. A passive approach to address climate change is 
insufficient. The President has proposed a series of immediate, 
deliberate actions that I fully support: establishment of a national 
goal on the reduction of greenhouse gas intensity, substantial 
increases in research, partnerships within the international and 
industrial sectors, new agriculture sequestration projects, and focus 
on new technologies.
    What evidence can you point to that such steps will reduce the 
threat and by how much?
    Response. These steps will enable us to see reductions in 
greenhouse gas intensity from the work of the international, industry, 
and agriculture sectors in the short term, while increasing research 
and developing new technologies for the intermediate to long term. By 
initiating this work, we will be better able to inventory reductions 
from sectors and technologies.
    Do you think that the United States has obligations to address 
pollution from its territory that harms other countries?
    Response. The United States has a responsibility to protect the 
air, water and land at home and to work through bilateral and 
multilateral agreements to reduce pollution globally. If confirmed, I 
will work to implement policies that protect the global environment.
Enforcement
    The Clinton Administration undertook several initiatives in the 
area of enforcement, including the Policy of State Audit Privilege & 
Immunity Laws; Compliance Incentives for Small Businesses Policy; 
Supplemental Environmental Projects (SEP) policy; Performance Track; 
National Environmental Performance Partnership Systems (NEPPS); 
establishment of compliance assistance centers; coordinated enforcement 
against utilities for NSR violations, etc. Thus far there have been 
very few if any new enforcement initiatives from the Bush 
Administration.
    If you were Administrator, what specific steps would you take to 
address this problem? Can you pledge to this committee that enforcement 
levels--number of civil and criminal cases filed, and size of 
penalties-would be restored to previous levels? Would you supporting 
bringing the number of EPA enforcement staff back to previous (FY 2001) 
levels?
    Response. I am not familiar with the statistics you are citing. I 
look forward to being briefed on the specifics of EPA's enforcement 
program and what steps, if any, may be necessary to strengthen that 
important program. Ensuring compliance with the Nation's environmental 
laws will be one of my highest priorities. It is my view that 
enforcement is an important tool that can and should be used to promote 
compliance.
States' Rights
    The Department of Justice has filed an amicus brief in the U.S. 
Supreme Court in a case in which manufacturers of mobile-source engines 
(engines for cars, trucks, etc.) argue that southern California may not 
adopt its own requirements for large fleets of buses and other mobile 
sources, and that its requirements are preempted by the Federal Clean 
Air Act. The case thus threatens States' authority to control air 
pollution in the way they think best. Do you agree with the Department 
of Justice's position in this case?
    Response. I am not aware of the details of the U.S. Supreme Court 
case referred to in the question, so I cannot comment on the position 
taken by the Department of Justice.
Devolution
    The National Academies of Public Administration and other 
influential think tanks have called on EPA to embraces a system of 
differential oversight, in which it varies its level of oversight based 
on the relative competence and performance of States administering 
Federal environmental programs. Differential oversight is an element of 
NEPPS, the new performance partnership system agreed to by EPA and the 
States in 1995. In the face of resistance from the States in the late 
1990's, however, EPA has dropped the idea of differential oversight. 
Does he support this idea?
    Under what circumstances would you threaten to withdraw delegated 
program authority?
    If you discovered that a State operating a delegated program under 
a Federal environmental law was initiating few enforcement actions and 
was failing to provide meaningful opportunities for public 
participation in enforcement actions, how would you as Administrator 
respond?
    Response. If confirmed as Administrator, I would work with States 
to determine how EPA can best support their programs, which may, in 
some cases, result in sharing certain responsibilities and finding 
other creative solutions. I firmly believe the best environmental 
results will be achieved through a partnership with the States, and 
keeping that partnership strong will be one of my top goals.
EPA From a State Perspective
    As Governor of Utah what were three specific complaints you had 
with EPA, and as Administrator of EPA how would you respond to such 
complaints?
    Response. It has been my practice as Governor, if there is a 
complaint or disagreement, to discuss the matter, gain an understanding 
of the issue and concerns, and attempt to solve the problem. I will 
continue to use that approach if confirmed as Administrator of EPA.
Environmental Justice
    Consistent with the existing executive order on environmental 
justice, would you commit to perform a detailed environmental justice 
analysis of proposed agency initiatives, one that would be included in 
all significant guidance documents and proposed rules?
    Response. I believe that all communities should benefit from 
environmental protection laws. Until I learn more about EPA's 
environmental justice program and how they incorporate environmental 
justice concerns into Agency actions, I am not in a position to propose 
any changes.
    Generally, to what extent should environmental justice be 
considered in permit proceedings? Should EPA provide guidance to 
delegated State programs in this regard?
    Response. I believe that all communities should benefit from 
environmental protection laws. In addition, I believe that potentially 
affected community residents should have an opportunity to participate 
in decisions that will affect their environment and/or health. I look 
forward to learning more about EPA's efforts in this area.
Superfund and Brownfields
    Do you support the reauthorization of the industry taxes that 
support the Superfund program?
    Response. The first priority should be for polluters to pay, using 
Superfund's liability system. Beyond that, I support funding for the 
cleanup of Superfund sites, but do not have sufficient information to 
declare an opinion on the sources of funding.
    Do you support a broader reauthorization of the Superfund statute? 
What changes would you propose?
    Response. If confirmed, I am committed to the effective and 
efficient use of funding for the cleanup of Superfund toxic waste sites 
to protect human health and the environment.
    Do you believe the Superfund program should be provided additional 
funding? Would you argue to the President and before Congress for 
additional funding?
    Response. If confirmed, I will continue the strong EPA commitment 
to clean up toxic waste sites based on their risk to human health and 
environment.
    Should companies remediating contaminated sites be permitted to 
clean to a reduced extent if they set up institutional controls 
relating to future uses? Do you see any risks in such arrangements? How 
should they be addressed?
    Response. I do not have sufficient information to articulate policy 
inclinations to this level of detail.
Mountaintop Mining
    What is your view on the mountain top mining cases? Do you believe 
mining companies should be permitted to put mining waste into valleys 
where they will block rivers and streams?
    Response. I am not familiar with the mountain top mining cases. I 
look forward to learning more about this issue, if confirmed.
Clean Water Act Jurisdiction
    Do you believe it is an appropriate responsibility of the Federal 
Government to protect against the unregulated destruction of wetland 
breeding, nesting, and feeding areas for migratory fowl in the United 
States? Do you believe the Clean Water Act provides that protection? If 
not, how do you believe that protection might be afforded?
    Response. Over the last 11 years, I have had many opportunities to 
work on wetland issues. I am not sufficiently familiar with the 
specifics related to destruction of wetland breeding, nesting, and 
feeding areas for migratory fowl. I look forward to learning more about 
this issue, if confirmed.
Air Toxics
    Do you believe that air toxins are posing threats to the public 
health in urban areas in the United States? If so, what are the 
problems and what do you plan to do about it? If not, what is your 
opinion based on?
    Response. Air toxics can pose a threat to public health. I look 
forward to learning more about the various programs that EPA is 
implementing to control and provide incentives for limiting and 
reducing air toxins.
Clean Air Act Attainment
    Are you prepared to withhold highway funds to States that do not 
reach their attainment?
    Response. I am not fully familiar with the complexities that 
surround this issue.
Polychlorinated Biphenyls
    This month, through an internal memo, the EPA ended a 25-year-old 
ban on the sale of land polluted with PCBs, or polychlorinated 
biphenyls. The ban was intended to prevent hundreds of polluted sites 
from being redeveloped in ways that spread this toxin and raise public 
health risks. Indeed, it was PCB pollution that forced the abandonment 
25 years ago of the Love Canal community in Niagara Falls, New York. As 
EPA Administrator, would you continue this practice of allowing the 
sale of PCB-contaminated land?
    Response. I would like to learn more about this specific issue 
before offering an opinion on the substance of the memo.
                                 ______
                                 
Responses by Governor Michael O. Leavitt to Pre-Hearing Questions from 
                            Senator Jeffords

    Question 1. In 1987, the EPA released a, report entitled 
``Unfinished Business: A Comparative Assessment of Environmental 
Problems.'' The Agency and other partners, including the National 
Governors Association, participated in subsequent similar efforts in 
1990 and 1992 to rank the involuntary risks facing public health and 
welfare and the environment. Based on your current knowledge of 
environmental problems, what do you perceive as the top five 
involuntary environmental health risks faced by the American public?
    Response. I believe that EPA should rely upon sound science, as 
well as risk assessment, to establish priorities for environmental 
protection. If confirmed, I look forward to hearing what EPA's 
scientists and experts advise in this regard before articulating any 
preconceived list of priorities for the Agency.

    Question 2. In 2001, the National Academy of Sciences reported to 
the President that, ``Greenhouse gases are accumulating in Earth's 
atmosphere as a result of human activities, causing surface air 
temperatures and subsurface ocean temperatures to rise. Temperatures 
are, in fact, rising. The changes observed over the last several 
decades are likely mostly due to human activities, but we cannot rule 
out that some significant part of these changes is also a reflection of 
natural variability.'' Do you believe that voluntary measures alone, 
which have failed to reduce total U.S. emissions, are a prudent 
approach to the threat of global warming?
    Response. A passive approach to address climate change is 
insufficient. The President has proposed a series of immediate, 
deliberate actions that I fully support: establishment of a national 
goal on the reduction of greenhouse gas intensity, substantial 
increases in research, partnerships within the international and 
industrial sectors, new agriculture sequestration projects, and focus 
on new technologies.

    Question 3. Prior to any final changes to the NSR regulations, EPA 
referred 8 cases of violations of NSR regulations to the Department of 
Justice for prosecution since the beginning of this Administration. 
Should DOJ prosecute those cases to the fullest extent?
    Response. I do not have knowledge of the 8 cases referred to in 
your question. Until I am confirmed I am not privy to the details of 
any ongoing enforcement actions or the government's position on those 
matters.

    Question 4. Will you respond to majority and minority committee 
inquiries for technical assistance and information in a timely and 
comprehensive fashion. What would you consider to be timely?
    Response. I look forward to working with the committee and will 
make every effort to provide technical assistance in a timely and 
comprehensive manner. Without knowing the specific nature of the 
assistance you may request, I cannot commit to a specific timeframe for 
responding to requests for technical assistance. I expect there will be 
some variability depending on the complexity of your requests and the 
resources needed to provide a response.

    Question 5. Will you commit to answering in full all outstanding 
information requests from minority members of this committee no later 
than 30 days, after being confirmed, if the outstanding requests have 
still not been satisfied?
    Response. If confirmed, I will make every effort to provide 
information to the committee in a timely and comprehensive manner.

    Question 6. According to the General Accounting Office, the 
Administration's conclusion that their recent changes environment are 
based on anecdotes and not on statistically significant, scientifically 
to the New Source Review program will be beneficial to the sound data. 
Do you believe that deregulating sources of air pollution requires 
valid evidence that there will be no harm to public health or the 
environment before deregulating? If so, will you postpone the effective 
date of the New Source Review changes pending development of 
statistically significant, scientifically sound data?
    Response. I am aware that there are differing perspectives 
concerning the recent changes made by EPA to the New Source Review 
program. If confirmed, I would like to understand in greater depth and 
detail the data, issues, and perspectives associated with this complex 
subject. I look forward to the opportunity to be briefed in detail on 
the NSR changes.

    Question 7. Do you think it would make sense to extend the 
attainment deadlines for areas that will be designated as nonattainment 
for the new 8-hour ozone standard for some time beyond the current 
attainment deadline for areas that have not yet attained the 1-hour 
ozone standard?
    Response. I am not familiar with all of the issues that may need to 
be considered in responding to the question of whether or not it is 
appropriate to extend the deadline. If confirmed, I would welcome the 
opportunity to learn more on this topic.

    Question 8. You have been intimately involved with the Western 
Regional Air Partnership. What are your views on the proposed Federal 
Regional Haze rule and Best Available Retrofit Technology (BART) 
requirements and the timing and source coverage of those rules?
    Response. The Regional Haze Rule provides appropriate tools to 
improve visibility in our treasured parks and monuments and throughout 
the West. It recognizes the need for reduced emissions, which can be 
accomplished through mandated utilization of Best Available Retrofit 
Technology (BART), as well as through a set of milestones and backstop 
cap-and-trade program to achieve reductions that are better than BART.

    Question 9. What effect will the WRAP have on mobile source 
emissions controls, either through individual vehicles or land used 
changes?
    Response. The Clean Air Act authorizes only EPA and the State of 
California to set emission control standards for individual vehicles, 
so such measures are not addressed in the Regional Haze Rule and are 
beyond the authority of the Western Regional Air Partnership. The 
Regional Haze Rule does not address or require an analysis of land use, 
so this has not been an activity undertaken by the WRAP.

    Question 10. You have supported long-term planning efforts in Utah 
to ensure quality of life and sustainable economic development. Do you 
believe that infrastructure development, including highway and 
transportation investments, should be closely coordinated with long-
term air and water quality protection and planning efforts?
    Response: Yes.

    Question 11. What should the United States do to ensure that 
foreign manufacturers in countries with less stringent environmental 
requirements do not have an unfair advantage over domestic 
manufacturers?
    Response. I have not spent a lot of time dealing with this issue, 
but this is a serious concern. If I am confirmed, I would work with the 
U.S. Trade Representative, the State Department, and other agencies on 
policies that will implement Congress' direction in recent trade 
promotion authority legislation that will help create a more ``level 
playing field'' for environmental regulation between us and our trading 
partners.

    Question 12. Do you believe that the EPA should be formally 
elevated to Cabinet/Department status?
    Response: Yes.

    Question 13. Should EPA have the power to ban fuels and fuel 
additives, such as MTBE, that cause water quality and resource 
contamination, as well as those that cause harmful air pollution?
    Response. I am not familiar with the issues surrounding the banning 
of fuel and fuel additives, such as MTBE, and would need to have more 
information before forming an opinion on this matter.

    Question 14. As you may know, studies, indicate that toxic air 
pollutants from mobile sources increase the risk of cancer and other 
adverse health effects of those people living within close proximity to 
high volume traffic roads. Do you believe that such studies and these 
potential effects should be considered by Federal and State 
transportation planners before major construction occurs increasing 
capacity or building new roads?
    Response. I would like to be more fully briefed on the details of 
these studies or the potential effects of toxic air pollutants from 
mobile sources on people living within close proximity to high traffic 
volume roads before expressing an opinion.

    Question 15. The National Environmental Policy Act includes section 
102 reprinted below. If confirmed, will you comply with the 
requirements of this section?
    SEC. 102. The Congress authorizes and directs that, to the fullest 
extent possible: (1) the policies, regulations, and public laws of the 
United States shall be interpreted and administered in accordance with 
the policies set forth in this Act, and (2) all agencies of the Federal 
Government shall
    (A) utilize a systematic, interdisciplinary approach which will 
insure the integrated use of the natural and social sciences and the 
environmental design arts in planning and in decisionmaking which may 
have an impact on man's environment;
    (B) identify and develop methods and procedures, in consultation 
with the Council on Environmental Quality established by title II of 
this Act, which will insure that presently unquantified environmental 
amenities and values may be given appropriate consideration in 
decisionmaking along with economic and technical considerations;
    (C) include in every recommendation or report on proposals for 
legislation and other major Federal actions significantly affecting the 
quality of the human environment, a detailed statement by the 
responsible official on
    (i) the environmental impact of the proposed action,
    (ii) any adverse environmental effect which cannot be avoided 
should the proposal be implemented,
    (iii) alternatives to the proposed action,
    (iv) the relationship between local short-term uses of man's 
environment and the maintenance and enhancement of long-term 
productivity, and
    (v) any irreversible and irretrievable commitments of resources 
which would be involved in the proposed action should it be 
implemented.
    Response. I support EPA's important role in implementing the 
National Environmental Policy Act, along with other Federal and State 
partners, and if confirmed, I will comply with all applicable laws.

    Question 16. Do you believe that NEPA section 102(C) requires the 
consideration of the potential impacts of greenhouse gas emissions on 
global climate change?
    Response. I have not been briefed on this matter. Consequently, I 
do not have a position on this issue at this time.

    Question 17. Can you describe how the Environmental Protection 
Agency currently cooperates and coordinates with the National 
Transportation Safety Board on safety investigations and your plans to 
continue with or modify that approach?
    Response. As I understand it, the National Transportation Safety 
Board investigates significant accidents involving hazardous materials 
and then issues recommendations to EPA aimed at preventing future 
accidents.

    Question 18. Will you agree to provide ?the General Accounting 
Office with adequate and timely access to documents and personnel 
necessary for GAO to compile information and investigate matters at the 
request of Congress?
    Response. If confirmed, I will ensure that the Agency cooperates on 
GAO investigations.
                               __________
 Responses of Governor Michael O. Leavitt to Additional Questions from 
                             Senator Baucus
    Question 1. Mr. Leavitt, do you commit to putting the cleanup of 
Libby, Montana at the very top of your priority list at EPA, if you are 
confirmed? Do you commit to completing the clean-up in Libby as soon as 
possible?
    Response. While I do not know the details of EPA's Superfund 
priorities yet, my understanding is that the Libby cleanup is a high 
priority for EPA. I support continued priority attention to an 
effective and efficient cleanup.

    Question 2. Mr. Leavitt, will you promise to come to Libby as soon 
as possible after you are confirmed, preferably this fall? Will you 
promise to sit down with Libby residents, with EPA staff on the ground 
and hopefully, even Paul Peronard, so that you will understand 
personally what is needed to finish EPA's job in Libby?
    Response. I hope to visit many of the priority Superfund sites 
around the Nation, as I have those in Utah. There is no better way to 
learn the issues than to sit down with the people most concerned at the 
local level.

    Question 3. This project rounds out the short list of Region 8 
priorities and is a priority for me too. Milltown Dam needs to go, and 
the contaminated sediment sitting behind that dam needs to be removed. 
The contaminated sediment should be removed to the Opportunity ponds. 
Montana Rail Link will build the lines to the ponds and EPA owns the 
ponds. This is a good common sense solution for environmental cleanup 
and for economic development opportunities. Will you commit to taking, 
a hard look at this option?
    Response. I believe all options need to be fairly evaluated prior 
to an Agency decision. Those options that are supported by local 
communities definitely deserve consideration.

    Question 4. Environmental contamination harms the health of 
communities like Libby in many ways, including its economic health. As 
a Governor who fully leveraged his role to benefit economic development 
for his State, Utah, I look forward to working with you to leverage 
Brownfields and EPA economic development programs within Montana for 
rural communities that struggle with the burden of environmental 
contamination. I ask for your commitment that you will work with me to 
make this a priority for communities like Libby, too.
    Response. The Brownfields program has been an effective and 
valuable tool in Utah, and I fully support its goals. I am a strong 
believer in strengthening our local economies and providing for a clean 
environment using programs, like the Brownfields program, that can 
optimize both.

    Question 5. Maintaining the integrity of the Superfund program is 
clearly an important issue for Montana. From the new ``mini'' sites 
caused by abandoned meth labs, to the many NPL sites in Montana, 
Montana relies heavily on the Superfund program to protect the public 
health of its citizens and to restore its environment.
    Libby is an excellent example of the need for a stable and solvent 
Superfund program. Although the EPA has won its latest court case 
against W.R. Grace, and was awarded more than $50 million, that amount 
doesn't cover all of EPA's costs nor is it likely that EPA will 
actually recover anything close to what W.R. Grace actually owes the 
Agency.
    Through no fault of its own, Libby has suffered a terrible 
environmental and public health disaster. The appropriate State agency 
has no resources to deal with the problem, and limited authority. The 
only real back-stop to make things right and help the community back on 
its feet is the EPA--only the EPA has the necessary resources and 
expertise. That's the whole point of Superfund and it's an appropriate 
role for the Federal Government--the folks in Libby are, after all, 
U.S. citizens.
    Mr. Leavitt, what are you views on the Superfund program in general 
and what are your thoughts on how Congress and the EPA should maintain 
the integrity of the Superfund program? How can we maintain the fund's 
integrity by relying solely on appropriations from the General Fund?
    Response. I support the goals and objectives of the Superfund 
program, as I have during my tenure as Governor of Utah. Funding for 
the program is important, and I will support efforts to provide needed 
resources, as well as to explore creative new ways to solve 
environmental problems by working closely with our State, Local, and 
Tribal partners.

    Question 6. Methamphetamine (meth) use and production is an issue 
of rising importance, as you are likely aware from your role as 
Governor of Utah. In Montana, as in much of the West, it's reaching 
crisis proportions. In addition to public health and law enforcement 
challenges, exploding meth production poses significant environmental 
contamination problems due to the hazardous chemicals used to produce 
meth.
    Each one of these abandoned meth sites is potentially mini-
Superfund site, with no real potentially responsible party. 
Increasingly the responsibility for clean-up of these sites is falling 
on EPA--there is no clear authority for the appropriate State agency, 
the Montana Department of Environmental Quality, to do the work.
    Abandoned meth labs are also becoming an issue on Forest Service 
lands in Montana.
    Do you have any thoughts on how we--the States and the Federal 
Government--can collaboratively address these meth clean-up issues, in 
terms of resources, expertise and authority?
    Response. Methamphetamine use is indeed a serious problem. 
Unfortunately, we have not been spared from the problem in Utah. 
Disposal of the waste is covered under existing Federal and State 
environmental laws. However, like many States, Utah has recognized the 
need for additional authority regarding testing and clean-up of the 
residences and building contaminated by meth labs. If confirmed, I will 
consider whether EPA can play a larger role in these clean-up efforts.
                                 ______
                                 
 Responses of Governor Michael O. Leavitt to Additional Questions from 
                             Senator Graham
    Question 1. On your official website as Governor of Utah, you say 
it is appropriate for the Federal Government to establish national 
environmental standards, but ``States, tribes and local governments 
should have the flexibility to develop their own plans to achieve the 
national standards and to provide accountability.'' As you know many of 
EPA's programs do not have enforceable standards. To name a few, the 
Superfund program does not have standards for soil contamination, the 
water program does not have standards for microorganisms in sewage 
effluent, for individual or aggregate industrial discharges, or for 
agricultural runoff. How can States and neighborhoods take effective 
action on environmental issues when there are no standards, and what 
would you do to establish standards where they are missing? In other 
cases EPA has issued standards for individual products, but those 
products can still cause problems (e.g., there are standards for auto 
emissions, but auto emissions are still a significant source of 
pollution, especially in high density areas). How should States, tribes 
and local governments address such problems?
    Response. In situations where the Federal Government has not 
established national environmental standards, I believe States, Tribes, 
and local governments should work collaboratively with our Federal 
partners to determine the appropriate course of action. In Utah, for 
instance, there is a State groundwater protection law, although there 
is no equivalent Federal law.

    Question 2. As you know, many pollutants cross jurisdictional 
boundaries. Under your principles, how would States, tribes and local 
governments prevent pollution that originates outside their boundaries?
    Response. The Western Regional Air Partnership is addressing the 
issue of pollution crossing political boundaries through a 
collaborative process. I strongly believe the Enlibra principle of 
``Collaboration, Not Polarization'' can be effective in helping to 
address this issue.

    Question 3. Many of the largest polluters are interstate entities. 
How will these businesses conduct operations efficiently if 
environmental monitoring and regulation is being managed differently by 
each of the States, tribes, and local governments in which the 
businesses operate? How can tribes or local governments that are 
significantly dependent on one or two major employers avoid being held 
hostage by those businesses with respect to environmental compliance?
    Response. I strongly believe that there needs to be continuous 
dialogue between EPA, regions, States, and Tribal Governments because a 
one-size-fits-all solution frequently is not the best way to protect 
human health and the environment. As I stated above, I strongly believe 
the Enlibra principle of ``Collaboration, Not Polarization'' can be 
effective in helping to address this issue.

    Question 4. On your official website as Governor of Utah, you say 
environmental solutions should be implemented locally, that most 
environmental challenges transcend political boundaries, and that 
voluntary interstate strategies and other partnerships should be the 
preferred approach to dealing with environmental issues. Can you 
clarify what these means? How do you resolve conflicts with a voluntary 
approach when trans-boundary pollution generally moves west-to-east 
with the dominant wind, or downstream in rivers, or down-gradient in 
groundwater? What are the incentives that will induce an ``up-stream'' 
polluter to enter into ``voluntary'' agreements with their down-stream 
States, tribes, or local governments, especially if those jurisdictions 
are not adjacent to the political entity where the polluters are 
located?
    Response. Acknowledging that these are problems that transcend 
political boundaries is an important first step. The Western Regional 
Air Partnership is a good example where a collaborative process 
resulted in an outcome with an agreed upon non-voluntary solution.

    Question 5. On your official website as Governor of Utah, you say 
we should reward results, not programs. As noted earlier, many of EPA's 
programs are operating without meaningful standards. In light of this, 
how would you measure results? How would you set goals?
    Response. Results must be tied to the quality of our environment. 
If the air is cleaner, the water purer, the land better protected, then 
we have made progress. I believe we must continue to improve our 
ability to measure environmental results.

    Question 6. On your official website as Governor of Utah, you say 
collaboration is needed to break down barriers and find environmental 
solutions.. However, when you proposed making the San Rafael Swell a 
National Monument it appears you did it unilaterally, without the 
participation of either the affected localities or the environmental 
community. How do you square your principles with your actions on this 
matter, and how do you propose to ensure that actions taken at EPA 
would be inclusive?
    Response. Actually, the San Rafael National Monument proposal came 
from the local community. Public participation is a fundamental 
component of our nation's environmental laws. If confirmed, I am 
committed to the effective implementation of these laws, and I will 
carefully consider the views of all interested parties.

    Question 7. On your official website as Governor of Utah, you say 
environmental progress, and public confidence, improve where there is 
agreement on the underlying facts, but that policy decisions can still 
be made if agreement cannot be reached on those facts. This 
Administration has repeatedly omitted, prevented the collection of, or 
skewed data that should be part of the environmental debate (e.g., 
buried research on the Senate's clean air plan, sanitized EPA's report 
on the environment, prevented EPA from discussing perchlorate 
pollution, etc.) What steps will you take to ensure that data 
collections are not manipulated or curtailed for political purposes, 
and data is widely shared after it is collected?
    Response. I believe it is EPA's duty to provide the public with 
critical health information that is reliable and accurate as soon as 
that information is gathered and validated.

    Question 8. As you know, on environmental issues the data is never 
complete, and there is rarely agreement on how it should be 
interpreted. What weight will you attach to protecting public health 
and the environment, and how will you balance those needs against the 
goal of reducing the costs of environmental action? How do you propose 
to break through the data-debate log jams that have delayed meaningful 
action on a host of environmental issues?
    Response. I believe it is EPA's duty to provide the public with 
critical health information that is reliable and accurate. I am not 
familiar with the specifics of the data log jam you mention but I will 
look into it, if confirmed.

    Question 9. On your official website as Governor of Utah, you say 
environmental protection should use market mechanisms rather than 
mandates. Would you endorse the use of market mechanisms for discharges 
of toxic substances, and if so, what would you say to the neighborhoods 
impacted by plants that choose to purchase their compliance rather than 
reduce their emissions?
    Response. I understand that EPA currently implements some programs 
with market mechanisms, Those would be a starting point for assessing 
any further use of those mechanisms.

    Question 10. On your official website as Governor of Utah, you say 
decisions on infrastructure, development and environment should be 
informed by recognition of all benefits and costs. Does this mean that 
your EPA would attempt to recognize all of the so-called ``negative 
externalities'' associated with pollution?
    Response. It is my understanding that at the Federal level, the use 
of cost-benefit analysis is addressed by both statute and Executive 
Orders. If confirmed, I expect to be fully briefed on this process.

    Question 11. I would like to get some further information regarding 
your involvement with the Legacy Highway in Davis County, Utah. It is 
undisputed that the wetlands that the highway would affect have 
national if not international importance to wildlife, being the most 
significant refuge for migratory birds in the interior west. Throughout 
the process of proposing the highway, and up to the present as far as I 
can tell, you were at odds with the EPA concerning your compliance with 
Federal law, including the Clean Water Act. While the EPA focused on 
legal deficiencies, you focused on pitching the Legacy Nature Preserve. 
The EPA's prior positions and the Federal courts have agreed, that 
proposals should first avoid wetlands, then minimize impacts to 
wetlands, and as a last case resort, mitigate if necessary. This 
interpretation of the law seems very different from your desired 
result, justification of the impacts of your project based on its 
mitigation package. In fact, your rationale that a project is 
acceptable if the mitigation is acceptable turns the Clean Water Act on 
its head. It puts mitigation ahead of avoiding impacts to wetlands and 
minimizing impacts. During every phase of the highway's permitting 
process, the EPA was at odds with your position and you attempts to 
justify impacts based on mitigation.
    They rated it environmentally unsatisfactory (which is the EPA's 
lowest rating of a study) and constantly requested compliance with the 
law. Just prior to the State of Utah receiving a 404 permit, documents 
show that Bill Yellowtail, a regional administrator with the EPA, 
warned you about the ``legal liability'' of your proposal. The Tenth 
Circuit indeed concluded that your highway proposal failed to consider 
a less damaging route and failed to minimize impacts. Instead, it found 
that you violated the Clean Water Act with your proposal that would put 
a four lane highway with a large right-of-way-the length of an entire 
football field-right through some of the nation's most important 
wetlands. How can the public trust that you will uphold the Clean Water 
Act as EPA's Administrator when your past behavior shows a disregard 
for that law and that is at odds with EPA's own interpretation of the 
law?
    Response. It is and has always been my intention to ensure that the 
Clean Water Act is enforced fairly and equitably.

    Question 12. You may have heard of the ``pre-cautionary 
principle.'' In short, this principle says that extreme caution is 
warranted when an action, or proposed action, involves potential harm 
that is either very large or permanent. The threat of global warming 
seems to be the type of effect that would fall within the precautionary 
principle, because of the vast potential costs and human suffering that 
might occur. How should that affect the debate about reducing 
atmospheric carbon emissions?
    Response. In general, my view is that even though our scientific 
understanding is constantly evolving, decisions must be made based upon 
the strongest science available at the time. If confirmed, I would make 
sure that the Agency's human health and ecological risk assessment 
methodologies will continue to incorporate methods and assumptions that 
reflect our approach to environmental policy, as defined by 
environmental statutes and other public health and risk management 
orders.

    Question 13. According to EPA's draft report, since EPA was created 
there have been dramatic reductions in most pollutants. During this 
same period the economy has generally been growing and generally 
created jobs. What is your plan to continue to make environmental 
improvements while simultaneously growing the economy?
    Response. As I indicated during the hearing, I believe that this 
Nation deserves to have a clean, safe, and healthy environment. I also 
believe that the United States can increase the velocity of its 
environmental progress without compromising its competitive position 
economically in the world. For example, in Utah, we wrote a new energy 
policy that called for the development of nearly 5,000 megawatts each 
year, while still reducing air pollution. We have been able to do that 
by following a balanced policy for the past 2 years. It is my intent, 
if confirmed, to continue to work toward balanced environmental policy.

    Question 14. On January 15 of this year, EPA announced that it 
would consider a proposed rule that would limit the scope of the Clean 
Water Act. By the EPA's own estimates some 20 million wetlands across 
the country--an area as large as Maine--have already lost Clean Water 
Act protection under the guidelines they issued to field staff in 
January. Countless numbers of wetlands, streams, ponds and other 
waterbodies could be severely impacted if this rulemaking goes forward. 
In fact, during an initial public comment period 39 out of 42 State 
agencies that filed comments made clear they oppose proceeding with 
such a rulemaking. Given your advocacy for giving the States more 
environmental authority where possible, how would you handle a 
situation such as this where a strong majority has stated it does not 
want to lose existing Federal protections? What actions would you take 
in regard to this rule?
    Response. Over the last 11 years, I have had many opportunities to 
work on issues related to wetlands. Wetlands are a very important part 
of a natural heritage that we must protect. I have not been fully 
briefed on the issue, but if confirmed, I commit to you to consider the 
input from States and others in determining how to proceed on this 
issue.

    Question 15. There have been a number of incidents of what some 
have construed as White House intrusion into the affairs of EPA. 
Russell Train wrote the New York Times and said: ``Having served as EPA 
Administrator under both Presidents Nixon and Ford, I can state 
categorically that there never was such White House intrusion into the 
business of the EPA during my tenure. The EPA was established as an 
independent agency in the executive branch, and so it should remain. 
There appears today to be a steady erosion in its independent status.'' 
Please describe what you think should be the role of the White House in 
EPA's actions to provide unbiased scientific analysis, fully 
environmental information, and enforce the nation's environmental laws. 
What would be your course of action if you thought EPA was unable to 
carry out these duties?
    Response. My job, if confirmed, would be to act in full accord with 
the statutes the Agency implements, and to make sure that my actions, 
and actions taken by the Administration, are informed by the best 
science and environmental information that the Agency can provide. As I 
stated in my testimony, I expect to run the Agency and to elevate 
matters when, in my judgment, the President needs to be involved.

    Question 16. There is a significant backlog of congressional 
requests from the past 2 years where EPA has failed to be sufficiently 
responsive. EPA has abandoned its long-standing practice of providing 
non-partisan, unbiased analysis for Congress, particularly committee 
chairman and ranking members. Will you pledge to work with Congress and 
honor our requests for information?
    Response. I believe we should use best available science and allow 
a disciplined process to help sort out differences in scientific views. 
I look forward to working with the committee and will make every effort 
to provide responses to congressional requests in a timely manner.

    Question 17. I am troubled by reports that EPA has withheld EPA 
analysis from my colleagues, Senators McCain and Lieberman, pertaining 
to their climate bill, and selectively withheld information from 
Senators Carper and Chafee on the impacts of their power plant 
legislation. I am further troubled by allegations that the reason for 
withholding the information may be that the results don't fit the 
Administrations political and policy goals. Bill Ruckelshaus, the first 
EPA Administrator who served again under Reagan, noted the following to 
the New York Times: ``Whether or not analysis is released is based on 
at least two factors. Is the analysis flawed? That is a legitimate 
reason for not releasing it. But if you don't like the outcome that 
might result from the analysis, that is not a legitimate reason.'' Do 
you agree with Mr. Ruckelshaus' assessment that politics should not 
dictate EPA's analytical functions and duty to share this information 
with Congress and the public? What steps will you take to ensure that 
Congress has the most up-to-date information available by which to make 
policy decisions?
    Response. If confirmed, I look forward to working with the 
committee and will make every effort to be responsive to your requests 
in a timely manner.

    Question 18. According to an investigative report by the Sacramento 
Bee, several EPA enforcement officials say they have been pressured by 
management to pad their enforcement statistics and make it look like 
they are pursuing more violations of environmental laws than they 
really are. Will you look into this matter and ensure us that EPA will 
be completely forthcoming and transparent when reporting to Congress 
and the public on its environmental reporting?
    Response. I am not aware of the allegations, but I will certainly 
look into this matter if I am confirmed.

    Question 19. One of EPA's principal responsibilities is 
implementing laws passed by Congress as interpreted by the courts. 
Several recent decisions in the Federal Courts, including two strongly 
worded decisions in the conservative 4th Circuit, have overwhelmingly 
affirmed that the Clean Water Act applies broadly to protect our 
nation's wetlands, streams and other waters. These recent Court rulings 
plainly demonstrate that no such roll-back of Federal regulations is 
required under the law. Will you, as Administrator, ensure that current 
regulations are kept in place and that the Clean Water Act is fully 
enforced under current regulations?
    Response. One of the reasons that I offered myself for this 
position is because I want to ensure that the air is cleaner, water 
purer, land better cared for and a healthy environment exists. To that 
end, if confirmed, I intend to fully enforce with the Clean Water Act.

    Question 20. EPA is under a court order to enforce the Clean Air 
Act and issue a rule by December 31 of this year to reduce toxic 
mercury emissions from coal-fired power plants, which are the largest 
unregulated source in the Nation. Because mercury is a potent toxin 
that, like lead, causes developmental delays in children at even tiny 
quantities, the Clean Air Act requires EPA to set standards based on 
the maximum amount that can be technologically reduced. According to a 
New York Times report, EPA canceled the technical analysis needed to 
produce a credible mercury rule after EPA's top air official consulted 
with the White House on how to proceed. What will you do to ensure that 
EPA moves forward with the necessary analysis in time to produce the 
rule this year?
    Response. I am not familiar with all of the issues associated with 
this question, and, if confirmed, I would welcome the opportunity to 
learn more about the issue.

    Question 21. In 2000, Congress passed and then-President Clinton 
signed into law the Estuary Habitat Restoration Partnership Act, S. 835 
(public law 106-457). Title VI of this bill is entitled ``Alternative 
Water Sources'' and consists of the text of a bill that has been a 
priority for me and other members of the Florida delegation for some 
years. As a Western Governor, I am sure you can appreciate the 
importance of investigating technologies for alternative water supply. 
The pilot program authorized under Title VI has never received funding, 
largely because EPA has yet to promulgate regulations for the program. 
Unfortunately, we are now faced with an expiring authorization for the 
pilot program (funding was authorized from fiscal years 2002-2004). If 
you are confirmed, will you pledge to work with this committee to 
reauthorize and execute the alternative water sources program?
    Response. I am not familiar with the Alternative Water Sources 
pilot program, but I do appreciate the importance of working to assure 
adequate water supplies. I look forward to learning more about this 
particular program.

    Question 22. As you may know, Florida has 51 Superfund sites. The 
GAO recently released a report that concluded that the Superfund Trust 
Fund would be out of money by the end of October. In addition, in July 
2001, Resources for the Future (RFF), as directed by Congress in the 
fiscal year 2000 VA-HUD Appropriations bill, released a report to 
Congress identifying the needs and future costs of the Superfund 
program for fiscal years 2000-2009. The report estimated needs in 2004 
at over $1.6 billion. The President's fiscal year 04 budget request 
includes only $1.4 billion for Superfund cleanups.
    Response. I am aware that the President's Fiscal Year 2004 budget 
requested an additional $150 million for Superfund cleanup 
construction.

    Question 23. Do you support increasing the Superfund budget to $1.6 
billion to meet the ongoing and ever increasing needs of not only the 
51 Superfund sites in Florida, but also the 1200 Superfund sites 
throughout the country?
    Response. I support the President's Fiscal Year 2004 budget that 
requested an additional $150 million for Superfund cleanup 
construction.

    Question 24. Do you support reinstating the assessment on chemical 
and oil companies that funded the Superfund Trust fund? If not, why 
not? How do you intend to meet the monetary demands of these toxic 
waste sites without any contribution from the trust fund?
    Response. The first priority is for polluters to pay, using 
Superfund's liability system. I support funding the cleanup of 
Superfund sites, but I do not have sufficient information to articulate 
a position on the source of funding at this time.

    Question 25. The Escambia Treating Company Superfund site in 
Pensacola, Florida remains a threat to the health of the residents of 
Pensacola. For more than 10 years, the EPA has acknowledged that 
threat, but the risk to the residential health remains. To EPA's 
credit, 358 residents were relocated away from the site due to the 
dangers posed by the site. However, a mountain of dioxin remains on the 
site. The Pensacola Chamber of Commerce passed a resolution in June 
2003 which recognized the ongoing public health threat posed by the 
Superfund site and the need to remediate the mountain of dioxin that 
remains on the site. As EPA Administrator will you commit to providing 
the Pensacola community with a detailed remediation plan within 3 
months of taking office that includes the excavation and treatment of 
the mountain of dioxin at the site and the completion of the sampling 
of the groundwater and soil to resolve the human and ecological risks 
posed?
    Response. I am unfamiliar with the Escambia Treating Company 
Superfund site. If confirmed, I commit to having the appropriate EPA 
officials examine the issues you have raised.

    Question 26. Agrico Chemical Co, also a Superfund site in 
Pensacola, Florida remains a danger to the health of the residents of 
Pensacola. The Escambia County Utilities Authority recently 
acknowledged the existence of a toxic plume contaminating the 
communities public drinking wells as a result of contamination from 
Agrico. The community needs the expertise and support of the EPA to 
address and resolve this problem. As EPA Administrator will you commit 
the personnel and resources necessary to resolve this drinking water 
danger that may have contaminated the drinking water of 10,000 
residents? Assuming that you make this commitment, will you agree to a 
meeting between the local health and environmental officials and the 
EPA within 3 months of taking office to find a solution to the problems 
posed by the toxic plume, including water supply well replacement or 
wellhead treatment with filtration, reverse osmosis (RO) with RO reject 
evaporation pond, offsite disposal of RO reject sludge from pond; 
onsite deed restrictions, groundwater use restrictions; and extensive 
groundwater monitoring as contemplated by the Record of Decision?
    Response. I am unfamiliar with this particular site and do not have 
enough information at this time to answer your question. If confirmed, 
I commit to having the appropriate EPA officials examine the issues you 
have raised.

    Question 27. In the 2002 EPA Inspector General's report, 5 Florida 
Superfund sites were identified as needing and not receiving adequate 
funding: Solitron Microwave, Southern Solvents, Trans Circuit, American 
Creosote and Tower Chemical. Will you commit to providing detailed 
funding and remediation plans for each site to determine the progress 
and needs of those sites to ensure that each sites cleanup is on track 
within 3 months of taking office?
    Response. I am unfamiliar with the Superfund sites identified in 
your question. If confirmed, I commit to having the appropriate EPA 
officials examine the issues you have raised.

    Question 28. The Coronet Industries plant in Plant City, Florida is 
now under investigation by local and State health and environmental 
issues for possible environmental contamination of the soil, 
groundwater and air. The residents near the plant have reported high 
incidences of cancer and other illnesses. The local officials plan to 
complete a health assessment in 9 months. The level of concern in the 
community and the health risks involved necessitate an expedited 
completion of the health assessment. If you are confirmed as EPA 
Administrator will you commit to assisting the local officials to 
complete the health assessment by the end of the year? Will you provide 
the technical resources and equipment necessary to assist the local 
officials in completing the expedited health assessment?
    Response. I am unfamiliar with the Coronet Industries plant. If 
confirmed, I commit to examining the issues you have raised.

    Question 29. For more than 2 years, I have been seeking the 
completion of the risk assessment regarding chromated copper arsenate 
(CCA)-treated wood. If you are confirmed as Administrator of the EPA, 
will you commit to the completion of that risk-assessment by November 
2003? Do you further commit to conducting a public information campaign 
regarding the findings of the risk assessments to provide local 
officials and school administrators with guidelines as to how to ensure 
the safety of children using CCA-treated playground equipment? In 
addition, do you commit to the inclusion in the risk assessment of the 
dangers posed by mulching CCA-treated wood?
    Response. As I understand it, the industry is phasing out use of 
CCA treated lumber by the end of 2003 in favor of new alternative wood 
preservatives. I am not familiar with the specifics of EPA's risk 
assessment. If confirmed, I will need to be briefed in detail on this 
issue before making any decisions.
                                 ______
                                 
Responses by Governor Michael O. Leavitt to Pre-Hearing Questions from 
                             Senator Graham

    Question 1. The core principles of Enlibra are focused around 
consensus seeking to develop common sense approaches to environmental 
policies. While it is admirable to bring all of the stakeholders on a 
given issue to the table, as Administrator of the EPA you will likely 
encounter situations that require you to make a final decision in order 
to make progress. How will you implement our nation's laws and carry 
out the missions of EPA as you apply the principles of Enlibra?
    Response. I have served nearly three terms as Governor of Utah and 
have made countless final decisions on critical issues facing my State. 
The Enlibra Principles express well the core beliefs of my 
environmental philosophy. It is a philosophy, not a process.

    Question 2. In recent months, there have been some disturbing 
examples of politics overriding EPA's duty to provide accurate 
environmental assessments. What is your view of EPA's responsibility to 
the American people to provide full disclosure of reliable, accurate 
information?
    Response. I strongly believe it is EPA's duty to provide critical 
health information to the public that is reliable and accurate as soon 
as that information is gathered and validated.
                               __________
 Responses of Governor Michael O. Leavitt to Additional Questions from 
                           Senator Lieberman
Clean Air Act

    Question 1. Do you support full implementation of the Clean Air Act 
Amendments of 1990, as signed by the first President Bush?
    Response: Yes.

    Question 2. As you know, EPA is in the process of implementing the 
new 8-hour ozone standard. But some cities still haven't met all of the 
requirements for implementing the pre-existing 1-hour standard. Do you 
favor requiring these areas to promptly comply with all of their unmet 
obligations under the 1-hour standard?
    Response. I am not familiar with all the issues that may need to be 
considered in responding to the question. If confirmed, I would welcome 
the opportunity to learn more about this issue.

    Question 3. In the last several years EPA has used a ``downwind 
extension'' policy to weaken clean air requirements in cities like 
Washington, Atlanta, Baton Rouge, Beaumont-Port Arthur and Dallas 
Texas. As a result, these cities have missed clean air deadlines and 
have less protective pollution controls than in cities that actually 
receive more transported pollution--cities like Baltimore, 
Philadelphia, New York, and Chicago. Four U.S. Courts of Appeal have 
declared the policy illegal. Will you pledge that you will not seek to 
resurrect this policy?
    Response. I understand the complications of the transport of air 
pollution across city borders and look forward to learning more about 
this important topic. I will work to promote clean air policies that 
protect public health in all U.S. cities and to ensure that EPA's 
policies are consistent with applicable legal requirements.

    Question 4. According to the National Park Service, air pollution 
causes impaired visibility in most national parks virtually all of the 
time--and in many parks the problem is worsening. Will you oppose any 
further delays in the deadlines for States to adopt regional haze plans 
to address this problem, as required by the Clean Air Act. Do you agree 
with EPA's 1999 assessment that all States need to require best 
available retrofit technology for large, aging factories and power 
plants, in order to meet visibility protection goals?
    Response. The Regional Haze Rule provides appropriate tools to 
improve visibility in our treasured parks and monuments throughout the 
West. It recognizes the need for reduced emissions, which can be 
accomplished through mandated utilization of Best Available Retrofit 
Technology (BART), as well as through a set of milestones and backstop 
cap-and-trade program to achieve reductions that are better than BART.

    Question 5. The Administration's energy policy stresses increased 
oil and gas production on public lands, and is working diligently on 
all fronts to accomplish that goal. However, Federal law seeks to 
prevent significant deterioration of air quality, in part by 
designating areas, which were national parks, and wilderness areas in 
1977 as ``Class 1'' areas to be afforded a higher degree of protection 
from degradation of the air quality. EPA reviews Environmental Impact 
Statements--a current example is a draft regarding oil and gas 
development on the Roan Plateau in Colorado, which I understand shows 
that the air quality at the Maroon Bells Wilderness Area will be 
further degraded by such production. In your view, is it acceptable to 
allow further deterioration of Class 1 park and wilderness areas? As 
EPA Administrator, what will you do about it, both in reviewing these 
environmental impact statements and taking enforcement action?
    Response. As a result of the western energy crisis, I believe it is 
fundamental that we increase our Nation's energy supply, but that we do 
so in a way that is environmentally responsible. In Utah, we drafted a 
new energy policy that increases our energy supply while reducing air 
pollution. I intend to continue to use this balanced approach.

    Question 6. EPA is under a court order to enforce the Clean Air Act 
and issue a rule by December 31 of this year to reduce toxic mercury 
emissions from coal-fired power plants, which are the largest 
unregulated source in the Nation. Because mercury is a potent toxin 
that, like lead, causes developmental delays in children at even tiny 
quantities, the Clean Air Act requires EPA to set standards based on 
the maximum amount that can be technologically reduced. According to a 
New York Times report, EPA canceled the technical analysis needed to 
produce a credible mercury rule after EPA's top air official consulted 
with the White House on how to proceed. Will you ensure that the Agency 
moves with all necessary speed to do the necessary analysis in time to 
produce the rule this year?
    Response. I am not familiar with all of the issues associated with 
this question, and, if confirmed, I would welcome the opportunity to 
learn more about the issue.
Environmental Enforcement
    Question 7. I'd like to bring to your attention some recent 
enforcement data:
    In fiscal year 2002--the first full year, of the Bush 
Administration--Agency data suggests that the number of penalties 
recovered from polluters in civil cases that were settled in Federal 
court declined by half compared to the previous 3-year average. 
Defendants paid over $130 million, $84 million, and $94 million, 
respectively, in fiscal years 1999, 2000, and 2001 to settle judicial 
actions. In fiscal year 2002, the U.S. Government was able to recover 
only $51 million in civil penalties.
    EPA is able to reduce penalties somewhat for those companies 
willing to undertake ``supplemental environmental projects'' that bind 
them to do work that is beyond what is required to comply with the law. 
Agency data shows that the value of these SEPs declined from a 3-year 
average of $106 million between fiscal years 1999 and 2001 to only $43 
million in 2002. Does such a drastic drop in Federal enforcement 
concern you? Will you pledge to investigate what has occurred here?
    Response. Traditional enforcement measures such as number of 
inspections conducted, number of cases filed, and penalties collected 
are useful management tools. It is also useful to look at 
``environmental results.'' If confirmed, I will support a strong 
enforcement program while continuing to refine approaches for measuring 
environmental compliance and progress.
CAFOs
    Question 8. I would imagine that as Governor of a State with a 
major concentrated animal feeding operation you are familiar with the 
public health problems associated. with CAFO's. Circle 4 Farms has had 
a variety of problems: 80,000 gallons of waste water have polluted the 
area's groundwater, employees have gotten sick from the fumes, 
residents complain about the smell and worry they too will be sickened 
by toxic fumes. Here in Washington, we've seen news reports of CAFO 
industry representatives meeting secretly with EPA to negotiate an 
exemption from the Clean Air Act and CERCLA for CAFO's. As 
Administrator, would you support curtailed enforcement of the Clean Air 
Act or CERCLA for CAFO's? Would you support an exemption from these 
laws for CAFO's?
    Response. I have not been involved in or briefed on any efforts 
that you reference. However, Utah has been a leader in the design of 
the On-Farm Assessment program for the hog industry which addresses all 
environmental media. Utah also has developed an aggressive program to 
implement the EPA CAFO rules in our State, which includes inspecting 
nearly every animal feeding operation (approximately 3000). This 
program has been touted as an effective model for other States. 
Regarding Circle 4 Farms, there have been no Clean Water Act violations 
and no discharges to surface waters at any time. Our State also 
regulates Circle 4 through a State groundwater permit to insure that 
groundwater is protected. There have been three formal enforcement 
actions taken of this permit resulting in a total fine of $48,564. 
Groundwater at the site is maintained at high quality.

    Question 9. Utah's Department of Environmental Quality, Division of 
Water Quality, submitted comments in opposition to EPA's new rules 
regulating CAFO's, asserting that the ``Utah Strategy'' is the 
preferred approach. As I understand it, the Utah Strategy provides for 
``voluntary'' compliance for 5 years, with enforcement action to be 
taken only after the 5 years have passed. Do you concur that years of 
``voluntary compliance is the preferred approach?
    Response. Utah has not opposed EPA's new CAFO rules, but did make 
comments during rule development to ensure that our effective strategy 
to quickly and completely address these operations was not preempted. 
As a result of our strategy, we are far down the road in implementing 
the new CAFO rule. Nearly every animal feeding operation in the State 
has been inspected (almost 3000) to identify every CAFO. All large 
CAFOs have already been permitted as a result. Small animal feeding 
operations with runoff problems are tracked and allowed time to 
voluntarily correct deficiencies. If continuous progress is not made 
over a defined period of time, enforcement actions or permits will be 
initiated. The Utah strategy has been very comprehensive in identifying 
problems and results in permitting or corrective action much sooner 
than what would be achieved by a traditional Federal approach.

    Question 10. With this background, what assurance can you provide 
us that as EPA Administrator you will insure that EPA aggressively 
oversees the States to insure compliance with the new regulations and 
will take enforcement action when necessary?
    Response. As I have mentioned in my previous response, Utah has not 
hesitated to take enforcement actions where warranted and required 
under either Utah or Federal law. Similarly, I understand and support 
the need for reasonable and effective oversight of State programs while 
providing States the flexibility granted under Federal law to tailor 
programs to most effectively achieve environmental results.

    Question 11. I understand that you signed legislation prohibiting 
Utah residents from suing CAM's on nuisance grounds. If you are not 
aggressive about enforcing the requirements of the law, what recourse 
do members of the public have to protect their health?
    Response. I have included the text of law (UC 73-38-7) to which you 
refer below. This statute was enacted in 1995 and is a result of urban 
encroachment on existing agricultural activities. It is an unfortunate 
phenomena that people often build new residences near existing 
agricultural operations, to enjoy the open space and rural setting, 
only to eventually complain about normal farm smells. This statute does 
protect public health and safety. It also requires agricultural 
operations to comply with Federal, State and local laws.
78-38-7. Agricultural operations--Nuisance liability.
    (1) Agricultural operations that are consistent with sound 
agricultural practices are presumed to be reasonable and do not 
constitute a nuisance unless the agricultural operation has a 
substantial adverse effect on the public health and safety.
    (2) Agricultural operations undertaken in conformity with Federal, 
State, and local laws and regulations, including zoning ordinances, are 
presumed to be operating within sound agricultural practices.

    Question 12. This Administration does not have a strong record of 
enforcement of CAFO's. For example, I understand that the Bush EPA has 
filed only one Clean Water Act case in court and 30 administrative 
actions against CAFO's. As EPA Administrator do you intend to 
reinvigorate the enforcement of the Clean Water Act and the Clean Air 
Act against CAFO's (and indeed other sources of pollution) or will you 
continue on the course set to date by the Administration?
    Response. The objective is compliance with environmental laws. I am 
aware of national concerns regarding CAFOs. I am also aware that EPA 
has recently issued revised regulations to better address water 
pollution from these operations. I am not familiar with enforcement 
issues regarding CAFOs. If confirmed I look forward to being briefed on 
CAFO compliance, including State and Federal enforcement.

    Question 13. Just recently, there has been leaked to the press an 
amnesty deal, in which EPA ``covenants not to sue'' huge animal 
factories for violations of the Clean Air Act the Comprehensive 
Environmental Response, Compensation, and Liability Act (``CERCLA'' or 
``Superfund'' law). In exchange for EPA's commitment not to sue, CAFOs 
will pay $500 in penalties and will contribute $2,500 toward a 
monitoring fund. Any CAFO (or smaller animal feeding operation) may 
achieve immunity from EPA prosecution by paying these moneys. Will you 
support this amnesty deal?
    Response. I am .not familiar with the specifics of these 
negotiations. If confirmed, I will review them and decide based upon 
the merits of the issues.
Global Warming

    Question 14. According to the National Academy of Sciences report 
in June 2001--a report requested by the Bush White House:
    ``Greenhouse gases are accumulating in Earth's atmosphere as a 
result of human activities, causing surface air temperatures and 
subsurface ocean temperatures to rise. Temperatures are, in fact 
rising. The changes observed over the last several decades are likely 
mostly due to human activities, but we cannot rule out that some 
significant part of these changes are also a reflection of natural 
variability.''
    (A) Do you agree that global warming is occurring?
    (B) Do you agree that the 1990's were the hottest decade on record?
    (C) Do you agree that most of the warming that has occurred over 
the last 50 years is due to human activities?
    (D) Do you agree that global warming threatens water resources?
    (E) Do you agree that global warming threatens vulnerable 
ecosystems, such as alpine meadows?
    Are you aware that the concentration of CO<INF>2</INF> in the 
atmosphere has risen more than 30 percent since the beginning of the 
industrial revolution?
    Are you aware that CO<INF>2</INF> and other greenhouse gases remain 
in the atmosphere for decades to centuries, and that as a result, we 
will be stuck with elevated concentrations of these gases for hundreds 
of years?
    Even if there are uncertainties about the precise impacts from 
continued emissions growth, isn't it dangerous to let CO<INF>2</INF> 
concentrations keep rising to levels that haven't been seen in the 
whole history of the human race?
    (I) Are you aware that power plants are the largest source of 
CO<INF>2</INF> emissions in the U.S., responsible for 40 percent of 
U.S. CO<INF>2</INF> emissions?
    (J) Are you aware that automobiles are the second largest source of 
CO<INF>2</INF> emissions in the U.S., responsible for about 20 percent 
of U.S. CO<INF>2</INF> emissions?
    Are you aware that the Administration's voluntary ``goal'' for 
CO<INF>2</INF> emissions would allow emissions to continue rising by 14 
percent over the next decade--the same rate that they increased during 
the last decade?
    Response. I am aware of the June 2001 National Academy of Sciences 
report, but I do not have sufficient knowledge of the science to 
provide definitive answers to this series of questions. The President 
has proposed a series of immediate, deliberate actions that I fully 
support: establishment of a national goal on the reduction of 
greenhouse gas intensity, substantial increases in research, 
partnerships within the international and industrial sectors, new 
agriculture sequestration projects, and focus on new technologies. 
These steps will enable us to see reductions in greenhouse gas 
intensity from the work of the international, industry, and agriculture 
sectors in the short term, while increasing research and developing new 
technologies for the intermediate to long term. By initiating this 
work, we will be better able to inventory reductions from sectors and 
technologies.
Protection of the Ozone Layer
    A very disturbing scientific report last week indicates that the 
Antarctic ozone hole is larger this year than it ever has been before. 
This raises serious questions about whether we have yet turned the 
corner on recovery of the earth's fragile ozone shield.

    Question 15. Governor Leavitt, do you think the United States is 
doing enough to protect the ozone layer from ozone-destroying 
chemicals?
    Response. I am aware that the U.S. has been a partner in the 
Montreal Protocol--the international agreement to phaseout harmful 
ozone-depleting chemicals. I look forward to learning more about what 
can be done to further protect the ozone layer.

    Question 16. The report on this year's ozone hole is particularly 
disturbing in light of the Bush Administration's slackening efforts to 
protect the ozone layer. The U.S. is seeking huge exemptions from the 
Montreal Protocol--a Senate-ratified treaty that the U.S. helped 
negotiate--for methyl bromide, the most dangerous ozone-destroying 
chemical still in widespread use. Are you aware that the U.S. exemption 
request for methyl bromide would reverse the phase-out of this chemical 
and increase the amount produced in the United States?
    Response. I am not familiar with all of the issues associated with 
the use of methyl bromide. I look forward to learning more about this 
area and the United States' efforts to implement the requirements of 
the Montreal Protocol. I will work to uphold all international 
agreements and protect the ozone layer.

    Question 17. Why should the U.S. Government reverse the phase-out 
of methyl bromide and allow production of this very dangerous chemical 
to increase again?
    Response. I am not familiar with all of the issues associated with 
the use of methyl bromide. I understand the phase-out of methyl bromide 
is an important issue, and I will work to find alternatives to 
chemicals such as methyl bromide.

    Question 18. Methyl bromide is also an extremely toxic chemical--
capable of killing large numbers of people who inhale only small 
amounts. Are you aware that the Department of Homeland Security has 
expressed concern over the risk that terrorists could kill thousands of 
people by hijack and releasing supplies of methyl bromide that are in 
everyday commerce?
    Response. I understand there are concerns with the use of methyl 
bromide and will work to find alternatives to such chemicals. I will 
look into the issue of terrorist usage of such chemicals and coordinate 
with the Department of Homeland Security to see what EPA can do to help 
ensure that such chemicals do not get into the hands of terrorists.
``Whirling Disease"

    Question 19. You have characterized science as often ambiguous and 
reflecting the underlying values of the scientists who make assumptions 
in the scientific process. During your tenure as Governor of Utah, 
there was a ``realignment'' of the Division of Wildlife Resources (DWR) 
in which more than 70 employees lost their jobs and which also resulted 
in the creation of a new.board for the control of aquaculture, 
according to news and subsequent reports. Among the jobs eliminated 
were those held by a herpatologist whose honesty about the decline of 
the frog population in Utah was reportedly unacceptable to Utah 
developers and by several staff throughout the DWR who had been 
involved in the investigation of ``whirling'' disease at the Leavitt 
family fishery and the illegal transfer of fish from there to other 
waters.
    (A) How do you respond to critics who assert that EPA employees who 
do not make ``politically correct'' assumptions during the scientific 
process, or who pursue investigations based on the facts, will, like 
those employees in Utah, be reorganized out of their jobs?
    Response. This question is based on inaccurate information. I 
support the use of science for facts and recognize the capabilities of 
EPA staff to bring the best science to solving problems. The 
reorganization of Utah Wildlife Division. responsibilities and 
employees was not in response to actions of individual employees. The 
reorganizations were conducted within the Department of Natural 
Resources when a new Department Executive Director was appointed at the 
beginning of my administration; I had no role in the reorganization. 
The former Chief of Fisheries, Bruce Schmidt, made it clear in a public 
forum letter published in the Salt Lake Tribune that, ``throughout the 
attempt to clean up whirling disease, the Governor had no direct 
involvement in the decisions made regarding the investigation or the 
negotiations on actions required to eliminate and/or contain the 
disease.'' (Salt Lake Tribune, 9/13, 2003.)
    (B) In response to concerns expressed regarding the current state 
of morale at the EPA, you have stated that you would work to gain the 
confidence of the employees, spend time listening to them, and try to 
understand the source of the problem. In light of this history at the 
DWR, how do you propose to gain the confidence of EPA's employees?
    Response. The organizational change referred to occurred more than 
a decade ago and ultimately resulted in both improved efficiency and 
morale. I look forward to meeting with EPA employees to listen to them, 
understand the issues, and discuss the options and recommendations on 
environmental issues. I hope to earn their trust through working 
together, solving problems, and leading by example.
Clean Water Act

    Question 20. As EPA Administrator you would have responsibilities 
as a custodian of the nation's wetland resources. The EPA has the power 
to veto permits issued by the Army Corps of Engineers for the dredging 
or filling of wetlands, an authority seldom exercised. Are there any 
circumstances under which you, as EPA Administrator, would veto a 
proposed permit in order to protect wetlands? If so, please describe 
the principles that would guide your veto decision.
    Response. As I mentioned during my confirmation hearing, as a 
Governor over the course of the last 11 years I have worked on many 
different occasions on issues related to wetlands. Wetlands are a very 
important part of a natural heritage that we want to protect. If 
confirmed, I would look at the facts of any particular case and the 
options available to me to determine a course of action.

    Question 21. A key protection for wetlands is contained in the 
Section 404(b)(1) Guidelines and prohibits issuance of a permit for any 
non-water-dependent project with impact to wetlands if a practicable 
alternative with less impact is available. This rule, in essence says, 
that because wetlands are so valuable, they should not be built in if 
there is a sensible way to avoid doing so. However, this protection is 
not fully complied with. What would you do to insure compliance with 
this requirement?
    Response. I am not familiar with the specifics regarding this 
particular issue and, if confirmed, would ask to be briefed and then 
make an informed decision on how to advance protection of wetlands.

    Question 22. The American taxpayers are spending approximately $8 
billion to restore the Everglades which has been damaged by sprawling 
development during the past fifty years. Now there are reports that the 
Federal agencies, including the Environmental Protection Agency, are 
allowing similar sprawling developments in Southwest Florida in an area 
referred to as the Western Everglades. As a result, there is a loss of 
watershed and wetland function, of critical habitat for threatened and 
endangered species, and of clean water in an area which is a valuable 
national resource. I have written to the acting Administrator asking 
what steps the EPA is taking to protect the Western Everglades. What 
assurances can you provide that we will not continue the same 
development mistakes that we made in Southeast Florida in Southwest 
Florida? What steps are you prepared to take to protect the Western 
Everglades?
    Response. Although I am not familiar with the particulars of the 
impact of development during the past 50 years on the Everglades, I do 
know that this Administration recognizes the importance of working to 
protect the sensitive aquatic resources of the Everglades. If 
confirmed, I intend to learn more about this issue and the appropriate 
role for EPA in this important work.
                                 ______
                                 
Responses by Governor Michael O. Leavitt to Pre-Hearing Questions from 
                           Senator Lieberman
New Source Review

    Question 1. The Utah Department of Environmental Quality, Division 
of Air Quality (DAQ), wrote a letter to the U.S. Environmental 
Protection Agency on March 21, 2003 (on letterhead with your name). DAQ 
criticized the proposed routine maintenance, ``repair and replacement'' 
rule that EPA had proposed on December 31, 202. The Division wrote that 
the proposed rule ``adds an additional complex regulatory program to 
the existing case-by-case RMRR exclusion procedure.

    Question 1(A). Did that specific criticism refer, at least in part, 
to the proposed rule's ``equipment replacement'' provision which EPA 
then promulgated on August 27, 2003? If you believe it did not, please 
explain why not.
    Response. I do not know but am told that the specific suggestion 
did not refer to ``equipment replacement.'' The Division expressed nine 
concerns that were all directed to the Annual Maintenance, Repair and 
Replacement Allowance (AMRRA) proposal and not the Equipment 
Replacement Provision (ERP) that was adopted in the final rule.

    Question 1(B). If you believe it did, please state whether or not 
you agree or disagree, with the criticism and the reasons for your 
agreement or disagreement.
    Response. The Utah Department of Environmental Quality's primary 
concern was that New Source Review needed to be improved. Our 
suggestions were received and properly weighed; all were addressed.

    Question 2. On March 31, 2003, the Director of the Utah Division of 
Air Quality testified at a public hearing about the proposed ``routine 
maintenance, ``repair and replacement'' rule that EPA had published on 
December 31, 2002. His testimony identified four flaws in the proposed 
rule and concluded by stating: ``The Utah Division of Air Quality 
thinks that the proposal will only create more bureaucracy, cost, and 
uncertainty with no proven environmental benefit.''

    Question 2(A). Were the four specific criticisms meant to apply, at 
least in part, to the proposed rule's equipment replacement'' 
provision, which EPA then promulgated on August 27, 2003? If your 
answer is ``no'' with respect to any of the four specific criticisms, 
identify the criticism and please provide the basis for your answer.
    Response. I am not aware of the intent, but as I read the letter, 
it appeared to be advancing the view that further simplicity could be 
achieved, plus a concern that adequate records may not be available in 
some situations.

    Question 2(B). For each of the four specific criticisms that were 
meant in your view, to apply to the ``equipment replacement'' 
provision, please state whether you agree or disagree with the 
criticism. In the instances in which you disagree, please provide the 
factual basis for the disagreement.
    Response. None of the four specific comments appear to reference 
equipment replacement.

    Question 2(C). Was the concluding statement quoted above meant to 
apply, at least in part, to the ``equipment replacement'' provision? If 
no, please provide the basis for your answer. If the answer is ``yes,'' 
please state whether you agree or disagree with the criticism. If you 
disagree with the criticism, please provide the factual basis, if any, 
for your disagreement.
    Response. I did not preview Mr. Sprott's comments and cannot be 
sure what he meant.

    Question 3. The General Accounting Office has reported that the 
recent rules amending the exceptions to the New Source Review program 
were based on only anecdotal evidence provided by industry groups. 
(United States General Accounting Office, Clean Air Act: EPA Should Use 
Available Data to Monitor the Effects of Its Revisions to the New 
Source Review Program (GAO-03-947 August 2003)). Even Assistant 
Administrator Jeffrey Hohnstead acknowledged this fact. Do you support 
a rulemaking such as this that is not based on any empirical analysis? 
Would you support a rulemaking under your supervision that was based 
only on anecdotal evidence?
    Response. As noted previously in response to Senator Jeffords' 
question #6, I am aware that there are differing perspectives 
concerning the recent changes made by EPA to the New Source Review 
program. If confirmed, I would like to understand in greater depth and 
detail the data, issues, and perspectives associated with this complex 
subject. I look forward to the opportunity to be briefed in detail on 
the NSR changes.

    Question 4. The reforms to the New Source Review program have been 
criticized by the General Accounting Office, the Nation 1 Academy of 
Public Administration, and State and local air regulators (STAPPA/
ALAPCO). Would you be willing to delay the finalization of the rules to 
account for these critiques? If not, do you believe that the GAO, NAPA, 
and STAPPA/ALAPCO are all incorrect in their criticism?
    Response. Please see the response to Senator Lieberman's question 
#3, above.

    Question 5. In the fiscal year 2003 Omnibus Appropriations 
legislation, the EPA was instructed to commission a study regarding the 
environmental and public health impacts of the New Source Review 
reforms that were finalized on December 31, 2002. If this study shows 
that the rule will increase pollution and/or have negative 
environmental and public health impacts, will you rescind the rule?
    Response. Please see the response to Senator Lieberman's question 
#3, above.

    Question 6. If emissions are demonstrated to increase as a result 
of either the New Source Review rulemaking or through some other 
credible source, would you rescind the rule in question?
    Response. Please see the response to Senator Lieberman's question 
#3, above.

    Question 7. Under the New Source Review reforms, States are 
permitted to implement their own rules if they are more stringent than 
the Federal rule. How would you define ``more stringent than the 
Federal rule?'' What burden would the States need to satisfy to 
implement their own rules?
    Response. Please see the response to Senator Lieberman's question 
#3, above.

    Question 8. The August 27, 2003 final New Source Review rules 
regarding the definition of ``equipment replacement'' are thought to be 
legally suspect by many legal commentators. If these rules are struck 
down by the courts, would you enforce the previous rules against any 
emitters that undertake offending projects that were permitted under 
the new definition of ``equipment replacement?"
    Response. Please see the response to Senator Lieberman's question 
#3, above.

    Question 9. Currently, some 13 States plus local air districts in 
California have petitioned the court to overturn the New Source Review 
rule finalized on December 31, 2002. In addition, various States have 
vowed to or have already filed legal challenges against the August 27, 
2003, final New Source Review rule on ``equipment replacement. Should 
the States succeed, and the rules be deemed invalid, will you vow to 
reform New Source Review by requiring all grandfathered facilities to 
install modern pollution controls within the next 10 years as 
recommended by NAPA?
    Response. Please see the response to Senator Lieberman's question 
#3, above.

    Question 10. Since the summer of 2002, Senator Jeffords and I have 
repeatedly asked for documents pertaining to EPA's internal analysis of 
the New Source Review rulemakings, including analysis of the 
enforcement cases and the emissions impacts of the rules that have now 
been finalized.
    Will you request of EPA that this information be provided to us 
prior to your confirmation hearing?
    Response. It is my intention to work with you in a way that would 
supply us both with information needed to meet our common goal, which 
is clean air. If confirmed, I will look into this request for 
information.
Application of Enlibra Principles
    Question 11. You took the lead in developing the ``Enlibra'' 
principles which were adopted by the Western Governor's Association for 
the management of environmental issues. You have also stated that you 
will use the Enlibra principles as a model at the Environmental 
Protection Agency if promoting collaboration among stakeholders.
    One of these principles is the following:
    ``Collaboration, Not Polarization--Use Collaborative Processes to 
Break Down Barriers and Find Solutions.''
    Yet in April, you participated in two nationally significant public 
land policy decisions--the April 9 Memorandum of Understanding between 
Utah and the Department of Interior on processing RS2477 rights of way 
claims under the new disclaimer rule and the April 11 settlement 
agreement with Utah prohibiting the designation of new wilderness study 
areas on our public lands. These agreements were reached through a 
secret, non-public process and affected not only the public lands 
located in Utah, but public lands throughout the Western United States. 
With regard to the MOU, critics assert that you refused to involve 
several stakeholder groups in the MOU negotiations despite--epeated 
requests to do so and further, that you have continued to withhold all 
information on the negotiations.
    (A) Explain how the process for negotiating these two significant 
agreements with the Department of the Interior was consistent with the 
Enlibra principle of collaboration.
    (B) Public participation is a fundamental tenant of public land 
decisionmaking. Please explain why you believed it was appropriate to 
reach these agreements behind closed doors in contradiction of the 
principle of public participation.
    (C) What assurances can you provide to skeptics that your 
application of the Enlibra principle of collaboration and inclusion 
will be different in your role as Administrator of the EPA than it was 
in the development of the April agreements?
    Response to A, B & C. The MOU is an agreement to open a 
collaborative public administrative process in which every American can 
participate. The MOU itself does not decide the ownership of a single 
road. The April 11 agreement was the settlement of 7 years of 
litigation. During that period, any stakeholder could have intervened, 
but chose not to.
    The RS2477 agreement establishes a classic collaborative process 
that will avert decades of polarization and expensive litigation. The 
wilderness lawsuit occurred because collaboration broke down. I have 
engaged. in numerous attempts to resolve wilderness disputes, including 
a collaboration where former Interior Secretary Babbitt and I were able 
to reach agreement, but the extremes on both sides of the discussion 
killed the proposal.
    My record as Governor includes many notable examples of successful 
problem solving on a large scale issues: Envisions Utah, Partnership 
For Quality Growth, Western Regional Air Partnership, and the Grand 
Canyon Visibility Transport Commission are all examples.

    Question 12. You have advocated the principles of Enlibra for 
problem-solving instead of politics, litigation and obstructionism. Yet 
your administration as Governor of Utah has successfully utilized 
litigation or the threat of litigation to influence national public 
policy; notably, the agreements described above were reached after Utah 
threatened or filed lawsuits. The current Administration has made use 
of the settlement of lawsuits as a device for establishing significant 
public policy to the exclusion of members of the public. What 
assurances can you provide to critics who are concerned that as EPA 
Administrator you would profess a model of ``collaboration'' under the 
Enlibra principles but at the same time welcome lawsuits which provide 
an opportunity for additional closed door policymaking in settlement 
agreements like that which occurred in the Department of the Interior 
agreements?
    Response. The wilderness litigation was not a welcome lawsuit for 
either side. Again, I strongly believe in the principle of 
collaboration and will apply it whenever and wherever conditions are 
appropriate. Collaboration rather than polarization or litigation will 
always be my preferred method of doing business, and I commit to 
deploying it the best of my ability.
Adherence to Precedent
    Question 13. The settlement agreement between the State of Utah and 
the Department of the Interior which prohibits the Bureau of Land 
Management from inventorying wilderness-quality lands and designating 
new wilderness study areas adopted an interpretation of the Federal 
Land Policy and Management Act which contradicts all previous 
administrations dating back to President Jimmy Carter and including 
Presidents Reagan and George H.W. Bush. What re-interpretations of the 
clean air and water laws can we expect from you as EPA Administrator?
    Response. I enthusiastically support the creation of more 
wilderness in Utah. I have engaged in repeated attempts, dating from 
before my election as Governor, to get Congress to pass a wilderness 
bill for Utah. Secretary Babbitt and I jointly put forward a bill 
resolving the wilderness issue for half of the State, but without 
success. Long experience has taught me that there is a lot of 
wilderness to be made down the middle, but no wilderness to be made on 
the extremes.
    I understand the Congress often provides flexibility in 
implementing environmental policy. I intend to faithfully implement the 
Clean Air Act and Clean Water Act administered by EPA to ensure 
protection of human health and the environment.
Concentrated Animal Feeding Operations
    Question 14. Large animal feeding operations or, CAFOs, have been 
identified as major point sources of water pollution and air pollution. 
EPA, however, has taken few steps to regulate these pollution sources, 
although they are clearly subject to Federal environmental pollution 
control laws.
    (A) What actions will you take to control these sources?
    Response. I am aware of national concerns regarding CAFOs. I am 
also aware that EPA has recently issued revised regulations to better 
address water pollution from these operations. In my State, we have 
completed inspections of essentially every animal feeding operation 
(about 3000). Every large CAFO has been permitted and the medium and 
small ones have been identified and targeted for compliance assistance 
or regulatory permitting.

    Question 14(B). Since 2002, EPA has imposed a moratorium on 
enforcement against air emissions from CAFOs. What act on will you take 
to reverse that moratorium?
    Response. I am not personally familiar with this enforcement 
moratorium. If confirmed, I will request a briefing on this issue.

    Question 14(C). The Environmental Protection Agency has privately 
negotiated with CAFOs regarding potential amnesty from the Clean Air 
Act in exchange for limited monitoring of pollution at some CAFOs. Will 
you end the so-called settlement discussions with industry and act to 
collect data regarding air emissions?
    Response. I am not familiar with the specifics of these 
negotiations. If confirmed, I will review them and decide based upon 
the merits of the issues.

    Question 15. The General Accounting Office recently issued a report 
finding that EPA and the States are ill prepared for implementation of 
EPA's new rule for regulating wastewater discharges; Livestock 
Agriculture: Increased EPA Oversight Will Improve Environmental Program 
for Concentrated Animal Feeding Operations. (C-AO-03-285, January 
2003). The States have failed to provide for the additional staff 
required to process permits, conduct inspections and take enforcement 
actions. In addition, EPA has not provided for additional resources to 
carry its oversight responsibilities.
    (A) What actions will you take to insure the ability of the States 
to implement this program?
    Response. I am not familiar with the NAS report or the status of 
permitting and enforcement actions in other States. If confirmed I will 
have an opportunity to become more knowledgeable about other State 
programs. The success of the Utah CAFO program may prove useful. 
Through a partnership of the DEQ Division of Water Quality, the 
Department of Agriculture and Food, EPA, the U.S. Natural Resource 
Conservation Service, and the Utah Farm Bureau, all of Utah's CAFOs 
(over 3000) have been inventoried in the last 18 months. All large 
CAFOs requiring permits have been permitted. Where groundwater 
protection is of concern, permits have also been issued under the 
State's groundwater protection program. Small CAFOs are implementing 
best management practices; operations with problems are being monitored 
and will be required to be permitted if conditions do not improve to 
meet standards. All of this work has been accomplished without 
additional Federal or State funding, utilizing 1/3 of a scientist's 
time within the DEQ Division of Water Quality to manage the program.

    Question 15(B). The GAO report was also critical of EPA's failure 
to exercise adequate oversight of the States which, in some cases, have 
failed to issue permits for operations that may threaten water quality. 
Describe your philosophy regarding oversight of this important program 
and the action that you will take to improve EPA's oversight.
    Response. I am neither familiar with EPA's oversight of other State 
programs nor aware of the comments in the GAO report regarding EPA's 
oversight. If confirmed as Administrator of the EPA, I expect to be 
briefed on this matter.

    Question 16. The EPA is currently conducting a variety of studies 
of the impact of the constituents of CAFO wastes on public health What 
assurance can you provide that these studies will continue? What 
actions will you take to ensure a thorough and accurate scientific 
review, without improper bias, so that the investigators may 
objectively focus on the issues at hand?
    Response. I am not aware of the specific studies that EPA is 
currently conducting related to CAFO wastes. If confirmed, I would need 
to assess what ongoing efforts the Agency is conducting in this 
respect. Overall, I do believe it is a priority to use the best 
available science and data to support policy decisions and that all 
major scientific work products should undergo peer review.
Toxic Release Inventory
    Question 17. Do you support the public's right to know through the 
EPA's Toxic Release Inventory Program (TRI) about toxic, chemicals 
released into their air and water?
    Response. Yes. The public needs information about the environment 
in their area. This type of information allows people to make informed 
decisions that affect their individual lives and communities. The Toxic 
Release Inventory can provide useful information for individuals and 
community planning, as long as the report is used in the context of 
TRI, not as a reflection of perceived environmental violations.

    Question 18. The EPA has consistently supported a strong Toxic 
Release Inventory Program, in order to protect the public's right to 
know about toxic pollution, including pollution from the mining 
industry. According to an August 26, 2003 letter from Marianne Horinko, 
Acting Administrator, the EPA intends to engage in a rulemaking to 
clarify how mining pollution must be reported under the program. Given 
the agency's past strong support for the public's right to know, will 
you commit to ensuring that this rulemaking will continue to allow the 
public to get information about all toxic releases from mining 
operations, such as arsenic, lead and mercury, regardless of what form 
those toxic releases take--waste rock or other material?
    Response. I am aware of the arguments regarding the listing of 
mining wastes as part of the TRI and that the EPA intends to clarify 
the rules. However, I am not familiar with all of the issues 
surrounding the specific topic that you mention. I look forward to 
learning more about this specific issue, if confirmed.
Hardrock Mining
    Question 19. In a February, 2003 internal report prepared by EPA's 
Office of Enforcement and Compliance, Utah was identified as one of 14 
States which had significant non-compliance with discharge requirements 
under the Clean Water Act.\1\ In the past 2 years, according to EPA's 
Enforcement and Compliance history, Kennecott Mining in Utah has 
exceeded the discharges allowed under its Clean Water Act permit, 6 
times, including mercury releases which exceeded its NPDES permit by 
900 percent. Given the record of significant non-compliance in Utah, 
what assurance can you give that you will act to ensure full 
enforcement of the Clean Water Act, especially with regard to hardrock 
mining operations?
---------------------------------------------------------------------------
     \1\Gugliotta, ``Study Documents Failure to Enforce Clean Water 
Act,'' The Salt Lake Tribune, June 6, 2003.
---------------------------------------------------------------------------
    Response. It is my intention to ensure that the Clean Water Act is 
enforced fairly and equitably. I inquired of the Utah Department of 
Environmental Quality and was supplied with the following. At the time 
the reports were pulled from PCS, our data entry was incomplete, and 
the missing data was flagged as violations. The data are now current, 
and Utah's rate of noncompliance ranks with the 10 best States in the 
Nation.
    I am informed that the Kennecott violations cited in the report, 
five of the six were not actual violations. Three of the reported 
violations were due to data entry errors in PCS, one was a reporting 
error by the permittee, and one appears to be a problem with the PCS 
system itself. The data base has been corrected. One item which is 
flagged as a violation is for a compliance schedule being missed on a 
special environmental project done by a third party. This information 
should not have been coded into PCS in the first place and is not a 
Kennecott violation. The reported 900 percent exceedance of mercury was 
due to an error in coding of the effluent limits. Their actual 
discharge did not exceed permit limits.

    Question 20. EPA has been criticized for inadequate oversight of 
permitting programs. What will you do improve EPA oversight of the 
NPDES program?
    Response. It is my understanding that EPA staff have already begun 
productive discussions with the States about a number of options to 
improve oversight of the NPDES program. I look forward to hearing the 
results of those discussions and promoting efforts to improve both 
Federal and State performance in this area.

    Question 21. An August 2003 EPA Inspector General's report 
evaluating the EPA's Hardrock Mining Framework recommends that the EPA 
should determine the estimated financial, human health and 
environmental impacts associated with hardrock mining sites where the 
EPA currently has primary responsibility for handling cleanup as well 
as hardrock mining sites where there is future likelihood that EPA may 
have lead cleanup responsibility. (IG Report No.2003--P-00010, August 
7,2003).
    (A) Do you agree that this is an important task?
    Response. I am not familiar with the specific findings. or 
conclusions of the August 2003 EPA Inspector General report on hardrock 
mining. Generally, as Administrator, I will seriously consider the 
findings of the Inspector General and seek the advice of Agency experts 
in responding to such findings.

    Question 21(B). How would you go about gathering this information?
    Response. Please see response to Senator Lieberman's question #21-
A, above.

    Question 22. The 2003 IG Hardrock Mining report found that State 
permitting and enforcement programs are often not effective for the 
various environmental problems related to hardrock mining pollution.
    (A) Will you commit to giving mining States adequate oversight to 
help effectively implement Clean Water Act permitting at hardrock 
mines?
    (B) The 2003 IG Hardrock Mining report also found that the EPA is 
not fulfilling its commitment to implementing the Mining Framework, the 
goal of which is to protect human health and the environment at 
proposed, active, and abandoned mine sites on both Federal and non-
federally managed land though appropriate and timely pollution 
prevention, control and remediation.
    Response to A and B. While I am not familiar with the specific 
findings or conclusions of the August 2003 EPA Inspector General report 
on hardrock mining, I agree that there needs to be an effective 
partnership between EPA and States in implementing the Clean Water Act 
to protect human health and the environment.

    Question 23. What commitments will you make to strengthen the role 
of the EPA in assuring the cleanup of toxic mining waste?
    Response. If confirmed, I will continue the strong EPA commitment 
to clean up toxic waste sites based on their risk to human health and 
the environment.

    Question 24. A June 1997 IG report found that EPA has not pursued 
mining regulatory opportunities under the Resource Conservation and 
Recovery Act to mitigate the environmental damage from mining waste. 
(EIDMF6-08-0016-7100223, June 1997). Will you commit to pursuing the 
regulatory options which are available to EPA under RCRA?
    Response. I am not familiar with the specific findings or 
conclusions of the June 1997 EPA Inspector General report on regulatory 
opportunities under the Resource Conservation and Recovery Act (RCRA). 
If confirmed, I am committed to the effective implementation of EPA's 
RCRA program.

    Question 25. Currently, mining sites make up 87 of the sites on the 
National Priority List for the Superfund program; demonstrating that 
the Superfund program is critical for ensuring the cleanup of mining 
sites. Will you commit to ensuring that the resources of the Superfund 
program are used to clean up mining sites?
    Response. If confirmed, I am committed to the effective and 
efficient use of funds for all sites listed on the Superfund National 
Priorities List (NPL), including those that are mining sites.

    Question 26. Will you commit to ensuring that the resources are 
sufficient to ensure cleanup that will protect the environment and 
human health at all NPL sites?
    Response. If confirmed, I am committed to the effective and 
efficient use of funds for the cleanup of Superfund toxic waste sites 
to protect human health and the environment.
Cost Benefit Analysis
    Question 27. What is your view about the appropriate role and 
methodology of cost-benefit analysis in establishing pollution-control 
requirements and in other environmental regulatory decisionmaking? What 
is your view about the appropriate role of comparative risk assessments 
that make judgments about allocation of agency resources and priorities 
based on the comparative risks of different regulated activities and 
costs of controlling those risks?
    Response. If confirmed, I am committed to efficient use of funds 
for the cleanup of Superfund toxic waste sites to protect the health 
and the environment.
    In my experience on the State level, agencies consider, among other 
things, the costs and benefits of potential regulations. It is my 
understanding that at the Federal level, the use of cost-benefit 
analysis is dictated by both statute and Executive Orders. If 
confirmed, I expect to be fully briefed on this process including the 
potential role of comparative risk assessment.

    Question 28(A). In so far as you support the application of cost-
benefit analysis and comparative risk analysis in environmental 
decisionmaking generally, what methodology and standards will you apply 
in developing and approving regulations under environmental statutes 
that require ``technology standards'' or protection of public health 
with an adequate margin of safety, or ``feasibility'' standards, or 
protection of the environment?
    Response. If confirmed, I intend to-full) comply with all 
environmental statutes.
    Question 28(B) If an environmental technology standard, for 
example, satisfies the statutory criteria mandating such a standard, 
what assurance can you provide that you will not reject or delay the 
standard because you conclude that it fails a cost benefit test or is 
low priority under a comparative-risk test?
    Response. If confirmed, I intend to comply with all of our 
environmental statutes.

    Question 29. Some of the goods involved in environmental policy--
e.g., aesthetic values, the quality of life in a community, ecological 
values, health values, and distributional concerns--are qualitatively 
diverse, and are difficult or impossible to monetize, or even quantify. 
Do you agree? How do you believe such values should be characterized 
and taken into account in regulatory decisionmaking?
    Response. I am not familiar enough with EPA's current practices to 
comment. If confirmed, I look forward to spending more time on this 
issue.

    Question 30. A decision to discount the value of future benefits, 
and, if so, the decision to apply a steep discount rate, can very 
significantly reduce the estimated benefits of certain regulations, 
like many environmental regulations, that prevent long-term ecological 
harm and long-latency diseases like cancer. Discounting generally has 
much less downward effect on the calculated benefits of safety 
regulations, which tend to prevent more immediate injuries.
    (A) Do you agree?
    (B) What are your views about whether to discount and what discount 
rate to use?
    (C) How would you apply discounting to regulations that protect 
future generations?
    (D) Should we apply a method for calculating benefits under which 
the preservation of the lives of our children counts for less than 
preserving our own lives?
    Response to A-D. If confirmed, I will review EPA's current policy 
regarding discounting before making a decision. This is a very complex 
issue, and I look forward to learning more about it.

    Question 31. EPA has traditionally placed an equal value on all 
lives saved by environmental protection. However, in connection with 
its ``Clear Skies'' initiative and other recent regulatory proposals, 
the administration applied the so-called ``senior discount'' factor, an 
alternative valuation . methodology under which the lives of Americans 
seventy and over were calculated to be worth 37 percent less--than the 
level at which all other, younger Americans were valued. Using this 
cynical tool, the Administration was able to diminish the apparent 
benefit of life-saving environmental regulations. After a firestorm of 
criticism from angry seniors, Christine Todd Whitman announced on May 
7, 2003, that EPA would no longer use this valuation method.
    ``The senior discount factor has been stopped,'' Administrator 
Whitman was quoted as saying. ``It has been discontinued, EPA will not, 
I repeat, not, use an age-adjusted analysis in decisionmaking. 
(Katharine A, Seelye and John Tiemey, ``EPA Drops Age-Based Cost 
Studies,'' The New York Times, May 8, 2003)
    (A) Will you likewise ?commit that, if you are confirmed as EPA 
Administrator, EPA will not use an age-adjusted analysis in 
decisionmaking?
    Response. I am not familiar with Governor Whitman's basis for that 
statement, but I will review the policy, if confirmed.
    Question 31(B). What is your opinion of the use of the Quality-
Adjusted-Life-Year (QALY) to measure the benefits of air pollution 
controls?
    Response. I am only generally familiar with cost-benefit analysis 
and therefore, I am not familiar with the particulars of this issue. I 
look forward to learning more before articulating a position.
Clean Water Act
    Question 32. Currently, the EPA is considering a rulemaking that 
would redefine waters over which the Federal Government has 
jurisdiction. (See January 15, 2003 Federal Register Advance Notice of 
Proposed Rulemaking (48 Fed, Reg. 1991)).
    (A) What is your position on this role?
    (B) Are you aware that it would significantly diminish Federal 
jurisdiction over water pollution?
    (C) How do you respond to the recent analysis prepared by U.S. EPA 
Region 3, which purportedly finds that the rulemaking change being 
considered could result in more than one-half the streams an one-third 
of all the wetlands in the mid-Atlantic region losing Federal Clean 
Water A t protections, according to an article in the September 5, 2003 
Washington Post?
    Response to A, B, and C. I have not reviewed the advance notice of 
proposed rulemaking. If confirmed, I will have an opportunity to review 
the notice, including the analysis to which you refer.

    Question 33. Thirty States have now commented against this rule, 
arguing, among other things, that it is an over-expansive reading of 
the case law and that it would create an inordinate regulatory burden 
on the States. Given these comments, would you agree to narrow the 
rule?
    Response. If confirmed as EPA Administrator, I will carefully 
consider the views of all interested parties, including States, which 
have a critical role in the protection of our nation's waters.

    Question 34. How would you act to assure that sources of polluted 
runoff are appropriately controlled?
    Response. If confirmed, I would work with States under their own 
water protection laws and with other Federal agencies, such as the 
Department of Agriculture to assure that sources of polluted runoff are 
appropriately controlled.

    Question 35. Do you believe additional investment in our nation's 
drinking water and wastewater infrastructure is needed? How much? How 
would you propose to finance it?
    Response. I know from first hand experience that our drinking water 
and wastewater infrastructure is aging and that local communities have 
significant needs. I am not yet prepared to articulate policy 
inclinations' at this level of detail.
Additional Matters

    Question 36. There have been many instances over the past 2 years 
where EPA analysis and science have not been made available or 
congressional scrutiny.
    (A) Under your leadership, will you cooperate with both parties in 
Congress to provide complete transparency of the EPA decisionmaking 
process?
    Response to A & B. If confirmed, I intend to provide you with EPA's 
best professional advice and analysis.
    I am personally committed to cooperating with the Congress and its 
committees and making progress on the many important and complex 
environmental issues facing EPA and the States. I understand and 
respect Congress's role in oversight, and if confirmed, I will 
cooperate with Congress and its committees to the fullest extent 
possible.

    Question 37. A point of contention in the debate surrounding multi-
pollutant legislation is whether such an approach should regulate 
emissions of CO<INF>2</INF> from power plants. In the absence of 
Federal action, many States have now begun to regulate CO<INF>2</INF> 
emissions themselves. Would you support the inclusion of mandatory 
reductions in CO<INF>2</INF> emissions in multi-pollutant Legislation?
    Response. I support the President's Clear Skies Initiative, and I 
recognize the value of market-based approaches, such as the acid rain 
training program, to reduce emissions. However, if legislation 
requiring EPA to establish mandatory reductions of CO<INF>2</INF> is 
enacted, as Administrator, I would implement the law.

    Question 38. EPA is under court ordered deadlines for many 
rulemakings, including rulemakings under the Clean Air Act related to 
Maximum Available Control Technology (MACT) and to the NOx State 
Implementation Plans. Will you commit to finalizing all of these 
rulemakings pursuant to the deadline?
    Response. I am not familiar with the current status of EPA's 
efforts to meet these specific court ordered deadlines. If confirmed, I 
will strive to ensure that EPA addresses these deadlines in a timely 
manner.

    Question 39. One of the important functions that the EPA performs 
is to review and comment on Environmental Impact Statements, which are 
prepared by Federal agencies in compliance with the National 
Environmental Policy Act. Last year, a high ranking official of the 
Department of the Interior challenged EPA's comments regarding an EIS 
for a large energy exploration project. What assurances can you provide 
that EPA professionals will be allowed to provide their expert 
technical advice on EIS without improper influence from officials who 
seek a pre-determined outcome in agency decisions?
    Response. I support EPA's important role in implementing NEPA, and 
can assure you that, if confirmed, the advice of EPA's professionals 
will guide my decisionmaking.

    Question 40. Would you support legislation increasing fuel economy 
standards for cars, SUVs, mini-vans, and other light trucks? What goals 
and timetables would you set?
    Response. Whether or not fuel economy legislation is appropriate is 
not a topic with which I am familiar. I do not have a position on this 
matter at this time.

    Question 41. Do you support full implementation of the Food Quality 
Act to assure that America's food supply is safe from dangerous 
pollutants?
    Response. If confirmed, I will review the current implementation 
efforts under the Food Quality Protection Act of the EPA. I can assure 
that I fully support protection of America's food supply.

    Question 42. Do you believe that chemical plants should be required 
to conduct vulnerability assessments and implement security measures 
following the terrorist attacks of 9/11? Should such measure be 
voluntary? Should the measures require pollutant source reduction 
measures?
    Response?. I have not been briefed on these proposals, and do not 
have a position at this time.

    Question 43. Do you believe the public has the right to know about 
the full range of toxic chemicals in food, drinking water, and consumer 
products? Do you support legislation to require manufacturers to 
disclose the potential health effects of chemicals that they expose to 
the public?
    Response. I am not familiar with the legislation that you 
reference.

    Question 44. Do you support reinstating the Superfund taxes?
    Response. First priority is for polluters to pay, using Superfund's 
liability system. Beyond that, I support funding the cleanup of 
Superfund sites, but I do not have sufficient information to declare an 
opinion on the source of funding.

    Question 45. Please explain your view of the role in the Federal 
Government in environmental protection. Include in particular, the role 
of the Federal Government in the enforcement of environmental 
protection laws.
    Response. The Federal Government, through EPA, has the 
responsibility for implementing nondelegated programs or portions of 
programs. Where a program has been delegated to a State, the State is 
responsible for enforcement, and EPA's role is one of oversight of the 
State program. Establishing national environmental standards is an 
appropriate role for EPA. However, States and local governments need 
the flexibility of ``neighborhood solutions'' in order to effectively 
and efficiently implement the standards.

    Question 46. Please explain your view of the role of State and 
local government in environmental protection.
    Response. Where State and local governments implement environmental 
laws that have been delegated by EPA, they have the primary 
responsibility for implementation, the State has ultimate 
responsibility for meeting the responsibilities of primacy, and the 
State and EPA work as co-regulators in meeting the objectives of 
environmental programs. Where State and local governments implement 
laws, such as local planning and zoning or State groundwater 
protection, the State and local governments have sole regulatory 
authority. Many times, a project will require various permits or 
approvals from all three levels of government. It has been our 
experience in Utah that, when local, State, and Federal entities and 
stakeholders come to the, table with their individual authorities and 
capabilities to work together in partnership, and collaboration, they 
accomplish more environmental progress than they could individually.

    Question 47. The States have been taking a much more active role in 
the enforcement of environmental law in recent years, but some States 
the institutional capability (sic) possessed by the Federal Government 
to support these efforts. How do you plan to provide support to the 
States for their environmental enforcement an compliance tracking? What 
is your position on cooperating with the States in their enforcement 
efforts?
    Response. As a Governor, I am committed to a strong State-Federal 
partnership to protect the environment. If confirmed, I will seek the 
input of the States in determining how to best support their efforts 
and how to appropriately tailor our support to address their most 
pressing needs.

    Question 48. Many State environmental--protection budgets have been 
severely cut in the past several years, with a corresponding effect on 
their ability to administer delegated or authorized Federal 
environmental programs. For example, it has been reported that the 
State of California may have to cut the budget for. its environmental 
protection programs by nearly 50 percent over its budget of 2 years 
ago. As EPA Administrator, how do you purpose to address this problem 
to ensure the continued effectiveness of the ration's environmental 
programs?
    Response. I know that many States face budget difficulties. If 
confirmed as EPA Administrator, I believe EPA will need to work with 
individual States to identify creative solutions that address their 
circumstances. Both EPA and States will need to work hard to meet the 
challenge of tight budgets.

    Question 49. The Department of Defense has proposed exemptions from 
the Clean Air Act, the Superfund Law, and the Resource Conservation and 
Recovery Act for military readiness and training activities. Do you 
support these exemptions? Why?
    Response. I am not familiar with the specific details of this 
legislation. I support the efforts of the Department of Defense in 
training our military men and women to do their job, and I am sensitive 
to the training needs of the military at training ranges. There are, 
however, many operational and cleanup activities ongoing at Utah 
military installations that require regulatory oversight in order to 
assure appropriate protection of public health and the environment.

    Question 50. What is your view of the government's obligation to 
the public health of all Americans practically low income families in 
economically distressed communities, who are exposed to a 
disproportionate amount of toxic pollutants; and senior citizens?
    Response. I believe all Americans deserve to benefit equally from 
the Federal Government's environmental protection efforts.

    Question 51. Do you believe local officials have the ability to 
choose to disregard Federal environmental law within their 
jurisdictions? What if a local or State official was not following or 
enforcing the Clean Water Act? As EPA Administrator, what would you do 
in such circumstances?
    Response. Quite simply, I believe everyone should follow the law.

    Question 52. Do you acknowledge the pressing problem of global 
warming is being established by scientific fact? Are you committed to 
reducing the greenhouse gas emissions that cause it? Do you view 
voluntary measures t reduce greenhouse gas emissions to be sufficient?
    Response. A passive approach to address climate change is 
insufficient. The President has proposed a series of immediate, 
deliberate actions that I fully support: establishment of a national 
goal on the reduction of greenhouse gas intensity, substantial 
increases in research, partnerships within the international and 
industrial sectors, new agriculture sequestration projects, and focus 
on new technologies.

    Question 53. Some critics assert that while you say you have 
protected the environment, your actions appear not to be consistent 
with this claim. One example involves the DOI/State of Utah MOU on 
RS2477 claims. These critics point out that after the RS2477 MOU was 
released, you stated: ``If a road is in a national park, wilderness 
area or even a wilderness study area, we are not claiming it.''\2\ Yet, 
according to an August 11, 2003 Federal Register notice proposing 
closure of a road in the Canyonlands National Park in Utah, the State 
of Utah and San Juan County assert that they have a RS2477 right of way 
for the road, the use of which the National Park Service believes is 
impairing park values. It appears that this assertion of a claim for an 
RS2477 road is inconsistent with your statements that Utah would not 
make claims in national parks. Critics fear that as EPA Administrator 
your actions will continue to be inconsistent with your statements. 
What assurances can you provide to such critics that your actions will 
be faithful to your statements regarding protecting the environment?
---------------------------------------------------------------------------
     \2\ Leavitt, ``Searching for a Map to Navigate Roads Debate,'' The 
Salt Lake Tribune, April 20, 2003
---------------------------------------------------------------------------
    Response. There is no inconsistency. The State of Utah does not 
assert a claim to the Salt Creek Road in Canyonlands National Park. 
National Parks are explicitly excluded from the RS2477 resolution 
process set forth in the DOI/Utah agreement of April 2003. I stand by 
that agreement. The erroneous statement in the Federal Register 
reflects facts that predate the agreement by two to 3 years. At that 
time, the State intervened in a lawsuit over Salt Creek Road in order 
to preserve important legal precedents then being challenged.
                               __________
 Responses of Governor Michael O. Leavitt to Additional Questions from 
                             Senator Boxer
Question Regarding EPA Rollbacks
    Question 1. Governor Leavitt, the EPA's charge is to protect public 
health and the environment. However. during this Administration's 
tenure there have been over 300 environmental and public health 
rollbacks, more than 40 of them originating from the EPA. I attached a 
list of all of the EPA rollbacks.
    Are you aware of all of these rollbacks?
    Please comment on each separate rollback--whether you view it as 
protecting public health and the environment and why or why not--prior 
to this committee's voting on your nomination.
    Response. The list of actions you have provided covers a wide range 
of Agency actions taken and statements made over the past 2 years. Many 
relate to complex issues on which I have not been fully briefed. I 
regret that I cannot at this time assess your characterization of these 
as ``rollbacks.'' I reiterate that, if confirmed, I intend to fully 
enforce the laws enacted by Congress and to protect the health, safety 
and environment of the American people.
        transparency and public participation in decision-making
Friday Night Rollbacks
    Question 2. Governor Leavitt, I strongly believe that one of the 
cornerstones of a democracy is the openness and transparency of our 
government and its decisionmaking. Do you agree with me on this?
    I also believe strongly that part of openness and transparency in a 
democracy requires that a democratic government inform the public of 
its policy decisions and the rational for them? Do you agree with me on 
this?
    I also believe that a key part of informing the public in a 
democracy is ensuring that the government provides the public and its 
representatives with sufficient information to evaluate a decision, or 
a policy. Do you agree with me on this?
    Governor Leavitt, are you aware are you aware that this 
Administration has a pattern of issuing environmental and public health 
rollbacks late in the afternoon on a Friday or on the eve of a holiday? 
Are you familiar with the 5 late Friday EPA rollbacks from 2003?
    Are you aware that when this Administration does issue these 
rollbacks, it is invariably to the media and it is hours or days later 
before elected representatives are provided with the details of the 
rollback? Do you think that such behavior reflects a respect for 
Democratic principles?
    Are you aware that the EPA changed a 25-year old policy prohibiting 
transfers of land contaminated with PCBs until it the PCBs were cleaned 
up? Are you aware that the EPA did not notify the public about this 
policy, and that it is known only because it was leaked to a reporter? 
Governor Leavitt, is that good democratic governing in your mind?
    Are you aware that this Administration frequently refuses to 
provide back up documentation for the public health benefits it claims 
in these rollbacks, such as its New Source Review decisions? Do you 
think that such behavior reflects a respect for Democratic principles?
    Governor Leavitt, will you commit to us here and now that you will 
stop the pattern of announcing rollbacks late on Fridays and on the eve 
of holidays?
    Governor Leavitt, will you commit to us here and now that elected 
representatives will be provided with information on regulatory 
decisions on a time scale that allows us to meaningfully assess Sand 
inquire into the meaning and the rationale of the decision prior to the 
close of business?
    Governor Leavitt, will you commit to providing this information to 
all Senators and Representatives at the same time, regardless of their 
party affiliation?
    Response. Like you, I believe that it is important to have an open 
and transparent government. I am not familiar with the past practice 
that you reference, but I look forward to working with the committee 
and will make every effort to provide assistance and information in a 
timely and comprehensive manner.
Answering congressional Requests
    Question 3. There is a large backlog of congressional requests from 
the past 2 years where EPA has failed to be sufficiently responsive. 
Most notably, EPA has refused to provide information on the 
environmental impacts of the proposed and finalized changes to the New 
Source Review program under the Clean Air Act and information on its 
Superfund program. The NSR changes made by the Bush Administration in 
December and August alone put thousands of lives at risk. The Superfund 
slowdown has also placed untold numbers of people needlessly at risk. 
Clearly, this EPA has abandoned its long-standing practice of providing 
non-partisan, unbiased analysis for Congress, particularly committee 
chairman and ranking members.
    Governor Leavitt, are you aware that this committee was twice on 
the verge of subpoenaing EPA for information; once on Superfund issues 
and once on NSR issues?
    Governor Leavitt, will you pledge to work with Congress and honor 
our requests for information?
    Will you pledge to present to the pubic and its representatives all 
of the analysis underlying EPA's decisions during your tenure?
    Response. It is my desire to have a very straightforward, candid 
and open relationship with the committee and other Members of Congress, 
as I indicated during the hearing and in our private meetings. There 
have always been tensions between branches of government, but my record 
as Governor in working hard to communicate is solid, and it will be my 
objective to be as responsive to you and to the people of this country 
as possible.
Superfund
    Question 4. Superfund sites are the most hazardous waste sites in 
our Nation. The Superfund law was born out of the Love Canal 
experience, where a school ground was built on top of an old industrial 
site contaminated with a variety of toxic pollutants, including PCBs. A 
key part of Superfund has long been the Superfund Trust Fund, a fund 
into which polluters pay to ensure the cleanup of orphaned sites, or 
sites where the responsible parties are refusing to accept 
responsibility.
    Governor Leavitt, the Administration's fiscal year budget for 
Superfund shifts funding for the cleanup of our nations most hazardous 
waste sites from the polluters to the taxpayers. President Bush is the 
first President since passage of the Superfund law in 1980 who has not 
supported the polluter pays principle.
    Governor Leavitt, do you believe that polluters should pay for the 
pollution they cause, or do you believe that the innocent taxpayers, 
who are already bearing the public health and environmental costs of 
this pollution, should be the ones to pay to clean up this pollution?
    Response. I support the polluter pays principle, which I understand 
is the Administration's position. Parties responsible for the toxic 
waste at Superfund sites are responsible for cleaning them up. If 
confirmed, I commit to continuing a strong EPA Superfund enforcement 
program.

    Question 5. According to a Resources for the Future Report to 
Congress, EPA has catalogued more than 43,000 potentially contaminated 
sited in its Comprehensive Environmental Response, Compensation, and 
Liability Information System (CERCLIS). More than 41,000 of these sites 
have had a preliminary assessment to determine whether cleanup is 
necessary. However, only a small number, approximately 1200 have been 
placed on the National Priorities List (NPL), which was intended to be 
the official register of the nation's most hazardous waste sites. NPL 
sites are the focus of the Superfund program as they are the only sites 
that EPA can fund under the Trust Fund.
    From 1998--2001, EPA proposed listing an average of 38 sites each 
year and actually listed an average of 32. In 2002, EPA proposed 9 
sites and listed 19, and in 2003, EPA proposed 14 sites, and listed 
only 8.
    Governor Leavitt, what will you do to ensure that the tens of 
thousands of sites not on the Superfund NPL are cleaned up?
    Response. In my experience, the States cleanup far more 
contaminated sites than does the Federal Government under the Superfund 
program. I support the continued partnership between the Federal 
Government and State and local governments in addressing the cleanup of 
contaminated sites.
    Question 6. Governor Leavitt, the Administration has repeatedly 
asserted that it has ``long-standing commitment to clean-up 
contaminated sites.'' However, the Administration's 2004 budget 
proposes to flat line cleanups at 40 per year, down significantly from 
its estimate of 75 for 2001, and less than half the average of 87 
cleanups completed per year in the last 2 years of the Clinton 
Administration.
    Governor Leavitt, do you think that cutting in half the number of 
clean-ups completed translates into a commitment to cleaning up 
contaminated sites?
    Response. I do not have sufficient information to evaluate whether 
the number of cleanups alone demonstrates the Administration's 
commitment to clean up sites. If confirmed, I would assure that the 
Agency makes the best use of the funds available and would target funds 
based on risk to human health and the environment.

    Question 7. Governor Leavitt, the Administration frequently asserts 
that site cleanups underway are more complex sites than previous site 
cleanups. However, EPA has been cleaning up extremely complex sites for 
decades and I am unaware. of any evidence indicating that the 
complexity of sites has changed radically over the last 2 years. After 
the EPW hearing on the President's budget request for 2004, I asked the 
following questions, which have yet to be fully answered by the Bush 
Administration:
    <bullet>  Please provide a detailed explanation of what constitutes 
a more complex site.
    <bullet>  In addition, please summarize the information that your 
Agency has received that indicates such a radical change in site 
characteristics over the last 2 years and provide that documentation to 
this committee.
    Governor Leavitt, please provide me with a full and complete 
response to these questions, along with data to back up your response.
    Response. I am not familiar with the specific findings of the 
Agency on the complexity of site clean-ups, nor am I privy to the 
information EPA has received over the last 2 years on this matter. If 
confirmed, however, I commit to looking into your data request.

    Question 8. Governor Leavitt, in April 2002, Marianne Horinko, 
Assistant Administrator for the Office of Solid Waste and Emergency 
Response, testified before this committee under oath. During that 
testimony she indicated that if the Fund were not ``robust'', the 
Administration would revisit reinstating the polluter fees. Her exact 
quote was:
    ``I'm certainly not ruling out the tax. The Administration this 
fiscal year felt that in the 2003 budget we still had a relatively 
robust funding source in the remaining trust funds, that we did not 
have to propose the Superfund tax, but we will look at that again in 
2004 and see if we need to revisit that position.''
    The Trust Fund will be broke as of October 1, 2003, with the full 
costs of cleanups shifting to taxpayers. As you know, this was exactly 
reversed in 1995, when taxpayers paid 18 percent of the costs and 
polluters 82 percent.
    Governor Leavitt, as the Trust Fund clearly is no longer 
``robust'', do you believe that the Administration should reinstate the 
polluter fees? If not, please explain why not.
    Response. I support the polluter pays principle, which I understand 
is the Administration's position.
    Parties responsible for the toxic waste at Superfund sites are 
responsible for cleaning them up. If confirmed, I commit to continuing 
a strong EPA Superfund enforcement program.

    Question 9. EPA's data indicates that one in four people in 
America, including ten million children, live within four miles of a 
Superfund site. Yet this Administration has broken with the Reagan, 
Bush and Clinton Administrations by opposing the Superfund polluter 
fees that pay for cleaning up abandoned sites. At the same time, the 
pace of cleanups has plummeted during this Administration, from an 
average of 87 annually during the last Clinton Administration, to only 
40 over the last couple of years. What will you do to increase the pace 
of Superfund cleanups?
    Response. If confirmed, I am committed to the effective and 
efficient use of funding for sites listed on the National Priority List 
(NPL) to protect human health and the environment. I do not at this 
time have sufficient information to articulate a policy for Superfund 
Cleanups at this level of detail.

    Question 10. A recent GAO report confirmed that the Superfund trust 
fund, which once contained over $3.6 billion, will be entirely 
exhausted in just a few weeks. The full costs of cleaning up abandoned 
sites and for program administration--roughly $1.5 billion--will now 
need to be borne by the general treasury. Do you agree with the 
Administration that polluters should not pay the cost of cleaning up 
abandoned sites, and that instead such costs should be foisted on the 
average taxpayer?
    Response. As I have stated above, I am committed to the effective 
and efficient use of funds for sites listed on the NPL to protect human 
health and the environment. My first priority is for polluters to pay, 
using Superfund's liability system. I support the President's proposal 
to increase funding for Superfund, but I do not at this time have a 
position on any pending or proposed legislation concerning the source 
of funds.
Governor Leavitt's Past Record

    Question 11. On April 9, 2003, you developed a ``Memorandum of 
Understanding'' (MOU) with the Department of the Interior affecting 
rights of ways across Federal lands. This MOU sets up a process for 
counties to make rights of way claims across Federal lands in Utah, 
including lands proposed for wilderness designation.
    On April 11, 2003, you reached a settlement with the Department of 
Interior over the management of public lands in the State of Utah. This 
settlement stemmed from a lawsuit where the State of Utah sued the 
Bureau of Land Management, challenging former Interior Secretary Bruce 
Babbitt's authority to have additional acres considered for wilderness 
designation. In exchange for dropping the lawsuit, the Interior 
Department overturned temporary wilderness protection for nearly 6 
million acres in Utah.
    In both instances, the public was unable to provide input, even 
though these decisions had significant impacts on their public lands. 
This lack of public participation is in direct conflict with your 
stated support for collaboration in environmental management.
    Can you explain why the public was left out of these decisions 
affecting their public lands?
    Response. The public was not left out of these decisions. In the 
case of the RS2477 roads, the MOU is an agreement to open a 
collaborative public administrative process in which every American can 
participate. The MOU itself does not decide the ownership of a single 
road. The April 11 agreement was the settlement of 7 years of 
litigation. During that period, any stakeholder could have intervened, 
but chose not to. The wilderness lawsuit occurred because collaboration 
broke down. I have engaged in numerous attempts to resolve wilderness 
disputes, including a collaboration where former Interior Secretary 
Babbitt and I were able to reach agreement, but the extremes on both 
sides of the discussion killed the proposal.

    Question 12. Can you assure the committee that you will have 
transparency and public participation in decisionmaking?
    Response. I commit to public participation and transparency in 
accordance with Federal laws in the decisionmaking process.

    Question 13. Can you envision similar circumstances as EPA 
Administrator where you will feel it necessary to cut out the public 
and key stakeholders from decisions affecting environmental laws and 
their enforcement?
    Response. My record as Governor includes many notable examples of 
successful problem solving on a large scale issues with the 
collaboration of the public and stakeholders; Envisions Utah, 
Partnership For Quality Growth, Western Regional Air Partnership, and 
the Grand Canyon Visibility Transport Commission are all examples.

    Question 14. According to an article in the ``High Country News'' 
(May 27, 1996) and statements made in ``Science Under Siege'' by Todd 
Wilkinson, when scientists in the Utah Division of Wildlife Resources 
offered information or positions that sought to encourage protection 
for endangered species, they were reassigned or pressured to leave.
    Will EPA employees be permitted to provide scientific information--
including information that challenges or questions existing policies--
without fear of losing their jobs or other retaliatory actions?
    Response. Yes.

    Question 15. According to an article in ``High Country News'' (May 
27, 1996), outbreaks across the West in wild trout streams of whirling 
disease--a parasitic infection of trout and salmon that can deform the 
skeletal systems of wild fish species--was traced to a hatchery owned 
in part by you, Governor Leavitt, and two of your brothers. Since the 
State of Utah prohibited the release of hatchery-raised fish unless 
they are disease-free, your family was charged with 30 violations of 
State aquaculture laws. The article states that the fisheries chief who 
assisted in the case, Bruce Schmidt, was fired, along with 18 other 
mid-and upper-level management jobs in his department.
    As Administrator of the EPA, will you fire those responsible for 
enforcing environmental regulations, if the regulated party is a family 
member or a colleague?
    Response. This question and the article that is referenced are 
based on inaccurate information. As Governor, I have scrupulously 
avoided making statements or taking actions that could influence State 
regulations of the aquaculture industry. Personnel changes at the State 
Division of Wildlife Resources were unrelated to whirling disease and 
based on recommendations from a national consultant. They occurred as 
part of a statewide restructuring that impacted every State agency as I 
began my public service. The former Chief of Fisheries, Bruce Schmidt, 
made it clear in a public forum letter published in the Salt Lake 
Tribune that, ``throughout the attempt to clean up whirling disease, 
the Governor had no direct involvement in the decisions made regarding 
the investigation or the negotiations on actions required to eliminate 
and/or contain the disease.'' (Salt Lake Tribune, 9/13, 2003.)
September 11 and White House Interference in EPA Decisionmaking

    Question 16. There have been a number of incidents regarding 
inappropriate White House interference in EPA decisionmaking. The two 
most notable insights of White House interference come from a leaked 
memo regarding the June 2003 ``Draft Report on the Environment,'' where 
the Administration pressured the EPA to remove all references to 
climate change, and a recent EPA Inspector General report that 
concluded that White House staff directed EPA to alter its press 
releases about environmental safety in New York City following the 
September 11 tragedy.
    In contrast, Russell Train, former EPA Administrator, wrote the New 
York Times and said: ``Having served as EPA Administrator under both 
Presidents Nixon and Ford, I can state categorically that there never 
was such White House intrusion into the business of the EPA during my 
tenure. The EPA was established as an independent agency in the 
executive branch, and so it should remain. There appears today to be a 
steady erosion in its independent status.''
    Governor Leavitt, do you agree with Mr. Train's view of the EPA? 
Will you stand up to the White House if they continue to interfere with 
EPA's responsibilities to provide unbiased scientific analysis, fully 
disclose environmental information, and enforce the nation's 
environmental laws?
    Response. I will commit to you that the President will always know 
where I stand on issues. When presenting the President with an issue I 
will provide him with the facts as I understand them, the best 
available science and the opinions of EPA's staff.
PCB's Land Transfer

    Question 17. Governor Leavitt, do you believe that government has 
an obligation to inform the public and its representatives when it 
changes its positions on issues critical to public health and the 
environment?
    Response. I strongly believe it is EPA's duty to provide critical 
health information to the public that is reliable and accurate as soon 
as that information is gathered and validated.

    Question 18. Governor Leavitt, do you believe that EPA should 
inform the public and its representatives of a decision to dramatically 
ease land reuse of parcels contaminated with polychlorinated biphenyls 
(PCBs), one of the most dangerous and persistent chemicals known to 
man, and a decision which overturns a 25-year understanding of 
statutory language, or should EPA make such a decision with no public 
participation, no announcement, and no data?
    Response. I strongly believe it is EPA's duty to provide critical 
health information to the public that is reliable and accurate as soon 
as that information is gathered and validated.
Perchlorate

    Question 19. Governor Leavitt, so you believe that it is EPA's 
responsibility to regulate contaminants in drinking water that threaten 
public health and the environment?
    Response. I believe it is EPA's responsibility to take appropriate 
action to address threats to public health and the environment. That 
responsibility must be carried out based on sound science and a 
consideration of all the relevant factors at issue within established 
statutory frameworks.

    Question 20. Governor Leavitt, would you find it acceptable to 
delay issuing such a standard after decades, and hundreds, of studies 
confirming the dangerousness of a chemical?
    Response. I am not familiar with the specific circumstances to 
which you allude. Every American deserves to have clean drinking water 
and, if confirmed, I will work to address drinking water issues as 
expeditiously as appropriate under the circumstances.

    Question 21. Based on your responses above, will you commit to 
immediately finalizing a safe drinking water standard for perchlorate 
that is protective of the most vulnerable populations, specifically 
newborns, children and pregnant mothers?
    Response. I will commit to working with the dedicated professionals 
at EPA to take appropriate action.

    Question 22. As you may know, the State of California has what 
could be described as one of the most serious groundwater pollution 
problems caused by the rocket-fuel chemical perchlorate. The 
perchlorate pollution, which is impacting tens of thousands of my 
constituents in the San Bernardino County area, has forced several 
water providers to shut down or restrict use of approximately 20 
groundwater production wells. More recently, several water emergencies 
have been declared in the area because of the pollution. The 
perchlorate pollution is located in an area formerly occupied by, among 
others, a Department of Defense weapons storage facility. The 
perchlorate contamination is causing severe water supply problems and 
is having serious negative consequences on economic growth and 
development in San Bernardino County.
    A delegation of representatives from some of the impacted water 
providers will be coming to Washington on October 8, 2003, to meet with 
DOD Assistant Secretary John Woodley to develop solutions to this water 
crisis.
    Governor Leavitt, I believe it is important for the new EPA 
Administrator to play a key role in developing a solution to the 
emerging perchlorate crisis. If you are confirmed, would you be willing 
to meet with representatives of the affected water providers on October 
8, 2003, to assist in the review of the conditions associated with the 
perchlorate pollution and to develop solutions to this water crisis?
    Response. I will commit to working with the dedicated professionals 
at EPA to take appropriate action.
Mercury

    Question 23. Mercury is a potent neurotoxin that has made its way 
into the food supply, contaminating fish and posing a risk to people 
and wildlife that consume fish. Most at risk are children and the 
unborn. According to the Centers for Disease Control and Prevention 
(CDC), one in 12 women of childbearing age (8 percent) has blood 
mercury levels exceeding the EPA safe level for protection of the 
fetus. This translates into approximately 320,000 babies born annually 
in the United States at-risk for neuro-developmental delays. 44 States 
nationwide have issued advisories warning people to limit consumption 
of fish caught from inland lakes, streams and coastal waters.
    EPA is under a court order to enforce the Clean Air Act and issue a 
rule by December 31 of this year to reduce toxic mercury emissions from 
coal-fired power plants, which are the largest unregulated source in 
the Nation. Because mercury is a potent toxin that, like lead, causes 
developmental delays in children at even tiny quantities, the Clean Air 
Act requires EPA to set standards based on the maximum amount that can 
be technologically reduced. The analysis was promised to be delivered 
to an advisory committee made up of industry, conservation groups, and 
others, but the meeting to review the data was canceled and they still 
haven't received it.
    According to a New York Times report, EPA canceled the technical 
analysis needed to produce a credible mercury rule after EPA's top air 
official consulted with the White House on how to proceed.
    Governor Leavitt, will you ensure that the Agency moves with all 
necessary speed to do this necessary analysis in time to produce the 
rule this year? Will you ensure that EPA shares this analysis with its 
advisory group in a timely manner to solicit their input?
    Response. I am not familiar with all of the issues associated with 
this question, and, if confirmed, I would welcome the opportunity to 
learn more about the issue.

    Question 23. As you know, the EPA has been aggressively promoting 
the Administration's ``Clear Skies'' legislation in Congress. Clear 
Skies would eliminate the mercury rule that EPA must propose by the end 
of the year and replace it with a standard that was picked by the White 
House. The standard that the White House picked is far weaker than what 
EPA had recommended to the White House, according to press reports. No 
analysis was provided to justify using the weaker mercury numbers, and 
pointed out about, EPA is now refusing to complete its analysis. The 
major polluters in the electric utility industry are likely hoping that 
EPA will ``cook the books'' to justify a mercury rule that is as weak 
as the President's ``Clear Skies'' proposal.
    The Clear Skies proposal is far weaker than faithful enforcement of 
the current Clean Air Act requirements. Environmental groups have 
obtained a secret briefing that EPA staff provided to electric 
utilities during this Administration. The briefing demonstrates that 
the Clear Skies proposal could allow as much as five times more mercury 
pollution than the current Clean Air Act in 2010.
    Governor Leavitt, how do you intend to assure Congress and the 
public that the mercury standard in the Clear Skies proposal is at 
least what the Clean Air Act requires today?
    Response. I am not familiar with the differing mercury standards. 
However, I am committed to implement the Clean Air Act. I expect to be 
briefed on the issue, if confirmed.
Enforcement

    Question 24. According to an investigative report by the 
``Sacramento Bee'', several EPA enforcement officials say they have 
been pressured by management to pad their enforcement statistics and 
make it look like they are pursuing more violations of environmental 
laws than they really are.
    The statements by EPA officials and the information they provide 
appear to suggest an orchestrated effort to disguise the fact that EPA 
is pursuing fewer investigations than in the past. For instance, the 
``Bee'' reported that EPA has lumped 190 counterterrorism-related 
investigations into its annual performance report to Congress that 
year, identifying them as EPA-initiated ``criminal investigations.'' 
One senior EPA agent said: ``I called the FBI and said, ``If you need 
us, give us a call.'' That warranted a (criminal) case number. There 
was no investigation.''
    The ``Bee'' also reported that EPA agents said headquarters 
pressured them to open criminal investigations on weak leads and on 
pollution violations they knew had little or no chance of prosecution. 
``We were encouraged to do that--find anything that's got any breath to 
it and put a case number on it,'' one senior agent said. ``We were 
approaching the end of a fiscal year. They wanted to make it look like 
a good year.''
    Governor Leavitt, will you commit to investigate this matter and 
ensure us that EPA will be completely forthcoming and transparent when 
reporting to Congress and the public on its environmental reporting?
    Response. I am not familiar with the details of this issue, but if 
confirmed I commit to looking into it.
Clean Water

    Question 25. Last year marked the 30th anniversary of the passage 
of the Clean Water Act. This law is one of the nation's great success 
stories. When the bipartisan legislation was passed, the Cuyahoga River 
was so polluted it burst into flames and the Great Lakes were nearly 
``dead.'' This sad state of affairs was due to reliance on weaker laws 
that failed to provide a strong Federal backstop providing protection 
for our waters. Over the past 30 years, the CWA has helped to clean up 
our waterways, ensure habitat for millions of bird .and other wildlife, 
and restore some of our most cherished waterways. While much progress 
has been made, about 40 percent of our waters are still not fit for 
swimming, fishing and other basic uses. There is still clearly much 
work to be done. And the States cannot do it alone.
    Governor Leavitt, do you support a strong Federal role in enforcing 
the Clean Water Act so that all of our waters are fishable, swimmable 
and drinkable?
    Response. Yes, I support a strong Federal role in enforcing the 
Clean Water Act.

    Question 26. This year, the EPA announced that it would consider a 
proposed rule that would limit the scope of the Clean Water Act. By the 
EPA's own estimates some 20 million wetlands across the country--an 
area as large as Maine--have already lost Clean Water Act protection 
under the guidelines they issued to field staff in January. Countless 
numbers of wetlands, streams, ponds and other water bodies could be 
severely impacted if this rulemaking goes forward. In fact, during an 
initial public comment period 39 out of 42 State agencies that filed 
comments made clear they oppose proceeding with such a rulemaking.
    Governor Leavitt, given your advocacy for giving the States more 
environmental authority where possible, how would you handle a 
situation such as this where a strong majority has stated it does not 
want to lose existing Federal protections?
    Response. Over the last 11 years, I have had many opportunities to 
work on issues related to wetlands. Wetlands are a very important part 
of a natural heritage that we must protect. I have not been fully 
briefed on the issue, but if confirmed, 1 commit to you to consider the 
input from States and others in determining how to proceed on this 
issue.

    Question 27. One of EPA principal responsibilities is implementing 
laws passed by Congress as interpreted by the courts. Several recent 
decisions in the Federal Courts, including two strongly worded 
decisions in the conservative 4th Circuit, have overwhelmingly affirmed 
that the Clean Water Act applies broadly to protect our nation's 
wetlands, streams and other waters. These recent Court rulings plainly 
demonstrate that no such rollback of Federal regulations is required 
under the law.
    Governor Leavitt, will you, as Administrator, ensure that current 
regulations are kept in place and that the Clean Water Act is fully 
enforced under current regulations?
    Response. If confirmed, I intend to fully comply with and enforce 
the Clean Water Act.
                             states' rights
Air Quality

    Question 28. Governor Leavitt, are you a supporter of States' 
rights?
    Governor Leavitt, under the Clean Air Act, California has been 
granted the right to regulate air pollution in many areas, as long as 
its regulations are at least as stringent as the Federal Governments'. 
The Clean Air Act also allows other States to opt into California's 
regulations. As EPA Administrator, would you strongly support this 
aspect of the Clean Air Act?
    Governor Leavitt, would you as EPA Administrator support a rider 
that preempted States' rights under the Clean Air Act to more 
stringently regulate air pollution?
    Response. As a Governor for 11 years, I respect the role of States. 
I recognize that, as Administrator of the EPA, my perspective would be 
somewhat different in that my new role would be a national one. I 
believe that we need National standards, but understand very well that 
you have to have room for ``neighborhood'' solutions.
California's Oxygenate Waiver

    Question 28. Governor Leavitt, would you as EPA Administrator 
support or oppose a State's efforts to regulate air quality as long as 
it complied with the Clean Air Standards?
    Response. If confirmed as Administrator, I would review the legal 
authority for a State to regulate air quality under the Clean Air Act, 
and work with the State to meet their goals within the parameters of 
the law.

    Question 29. Governor Leavitt, California has applied for a waiver 
from the oxygenate standard as allowed by the Clean Air Act. Under the 
Clean Air Act, a State may be granted a waiver as long as it can 
demonstrate that air quality will be maintained. Would you support of 
oppose a waiver in this instance?
    Response. I am not familiar with this particular issue but look 
forward to learning more about it, if I am confirmed as EPA 
Administrator.
Safe Drinking Water

    Question 30. Governor Leavitt, under the Safe Drinking Water Act, 
States have the right to regulate drinking water standards more 
stringently than does the Federal Government. Do you support this 
principle?
    Response: Yes.

    Question 31. Governor Leavitt, would you as EPA Administrator 
support or oppose another agency's attempts to circumvent State safe 
drinking water standards?
    Response. If confirmed, I intend to fully implement SDWA,
Right-to-Know

    Question 31. Do you support the public's right to know through the 
EPA's Toxic Release Inventory Program (TRI) about toxic chemicals 
released into their air and water?
    Response. Yes. The public needs information about the environment 
in their area. This type of information allows people to make informed 
decisions that affect their individual lives and communities. The Toxic 
Release Inventory, considered in context, can provide useful 
information for individuals and community planning.

    Question 32. Unlike any other industry required to report under the 
TRI, the hardrock mining industry has been suing the Environmental 
Protection Agency in order to be exempted from these reporting 
requirements. The EPA has, to date, been defending against the hardrock 
industry's attempts to weaken the public's right to know. You, however, 
sponsored a Western Governor's Association policy resolution siding 
with the industry to push for the weakening of the TRI program.
    As EPA Administrator, would you support giving the hardrock mining 
industry a special break or continuing to ensure the public's right-to-
know about toxics releases?
    Response. As I stated at my confirmation hearing, you are referring 
to the TRI resolution that is regularly offered. That resolution, put 
forward at the Western Governor's Association, makes a very simple 
point: the public does have a right-to-know, but we should also make 
certain there is a context given to TRI reports.

    Question 33. Administrator Whitman called the Toxic Release 
Inventory ``a powerful tool to help citizens access local environmental 
conditions and to help them make decisions about protecting the local 
environment.'' As Administrator, will you fully support the public's 
right to know about pollution in their communities and oppose any 
rollback of current reporting requirements?
    Response. The public needs information about the environment in 
their area. This information allows people to make informed decisions 
that affect their individual lives and communities. The TRI, considered 
in context, can provide useful information for individuals and 
community planning.
Global Warming

    Question 34. You have expressed your support for the National 
Governors Association (NGA) policies on global warming. The NGA opposes 
the Kyoto Protocol and favors voluntary measures to reduce carbon 
dioxide and other greenhouse gas emissions.
    The current Administration has failed to address carbon dioxide 
emissions that contribute to global warming. In June 2003, the EPA and 
the White House decided to delete information on global warming in its 
``State of the Environment'' report. In July 2003, the Bush 
Administration released its 10-year Climate Change Science Program. 
Rather than direct funds on ways to address global warming, this plan 
calls for more studies and no action on this important issue. Most 
recently, the EPA announced that it lacks authority under the Clean Air 
Act to regulate carbon dioxide and other greenhouse gas emissions from 
automobiles. Therefore, the EPA will not force automakers to reduce 
greenhouse gas emissions from automobiles.
    Do you believe carbon dioxide should be regulated?
    As EPA Administrator, what actions would you take to address the 
problem of carbon dioxide emissions and global warming?
    Response. A passive approach to address climate change is 
insufficient. The President has proposed a series of immediate, 
deliberate actions that I fully support: establishment of a national 
goal on the reduction of greenhouse gas intensity, substantial 
increases in research, partnerships within the international and 
industrial sectors, new agriculture sequestration projects, and focus 
on new technologies.
Standards in Decision-Making

    Question 35. Governor Leavitt, this EPA has frequently relied on 
anecdotes when rolling back environmental regulations, such as New 
Source Review and PCB-land transfers, but requires years, if not 
decades, of rigorous scientific study when considering whether or not 
to regulate to protect public health and the environment, such as a 
safe drinking water standard for perchlorate and the regulation of 
carbon dioxide emissions.
    Do you believe that regulations rolling back public health and 
regulations protective of public health should be subject to the same 
rigorous scientific standards? What do you believe these standards 
should be? If you do not believe that the same standards should be 
applied in both types of cases, please explain why not.
    Response. The quality of science that underlies EPA's regulations 
is vital to the credibility of EPA's decisions and ultimately the 
Agency's effectiveness in protecting human health and the environment. 
I am committed to ensuring that sound science plays a prominent role in 
all EPA regulatory decisions.
PBDEs

    Question 36. Recently, studies show elevated levels of PBDEs in 
breast milk. Other studies have shown that human exposure to PBDEs 
comes mainly from the ingestion of dietary products such as fish and 
cow's milk or through air borne contaminants. What measures should be 
taken to prevent ingestion and lower PBDE levels found in the human 
body?
    Response. I fully support EPA's mission to protect human health and 
the environment. I am not familiar with the specific scientific 
findings or studies on PBDEs. If confirmed, I would need to have more 
information before forming an opinion on this matter.

    Question 37. PBDEs are used in only one-fourth of flame-retardants. 
There are over 200-plus different commercial flame retardant chemicals 
in use today. According to the Environment California Research and 
Policy Center, the best alternatives have no acute or chronic effects 
on health or the environment, have a minimum release during production 
and are able to suppress the formation of smoke and hazardous fumes 
during fire. Since PBDEs do not meet all of these and other necessary 
standards and have been shown to be harmful, should the EPA recommend 
that manufacturers cease the use of PBDEs?
    Response. I would like to be more fully briefed on the effects of 
PBDEs and their alternatives before expressing an opinion. I do believe 
that EPA should continue to use high quality science to guide its 
decisions.

    Question 38. PBDEs have repeatedly been said to cause neuro-
developmental damage, especially in fetuses and small children. How 
much information does the EPA need before the Agency will take steps to 
completely eliminate the use of PBDEs?
    Response. I fully support EPA's mission to protect human health and 
the environment, including the initiative to protect children's health. 
I firmly believe that public policy decisions should be based on the 
best available science and data. If confirmed, I would like to 
understand in greater depth and detail the data, issues, and 
perspectives associated with this complex subject before forming an 
opinion on this matter.
Santa Susana Field Laboratory Cleanup

    Question 39. There is a contaminated nuclear facility in Southern 
California called the Santa Susana Field Laboratory (SSFL). For a 
decade, at the bipartisan urging of the relevant legislators, EPA has 
been deeply involved in overseeing the cleanup of the site. If 
confirmed, will you continue to maintain the same, or greater, level of 
EPA commitment, resources, and activity regarding the cleanup of SSFL?
    Response. I am not familiar with the Santa Susana Field Laboratory. 
However, if confirmed, I am committed to EPA's efforts to protect human 
health and the environment through the cleanup of contaminated sites.

    Question 40. A DOE-EPA Joint Policy in 1995 requires all DOE sites, 
irrespective of whether they are on the NPL, to be cleaned up 
consistent with EPA's CERCLA guidance. EPA repeatedly committed to me, 
in the words of the previous Administrator, that EPA would ``ensure 
that the cleanup is consistent with Superfund cleanup standards.'' Will 
you, if confirmed, maintain that commitment?
    Response. I am unfamiliar with the policy document referenced in 
your question. However, If confirmed, I am committed to EPA's efforts 
to work with other Federal and State agencies to clean up contaminated 
sites.

    Question 41. EPA also previously committed that it would conduct an 
independent radiation survey at the site, to its CERCLA cleanup levels. 
Will you, if confirmed, maintain that commitment? And, if DOE balks at 
funding the survey, will you request sufficient funds in EPA's budget?
    Response. I am unfamiliar with the radiation survey referenced in 
your question. If confirmed, I commit to learning more about this 
issue.
                                 ______
                                 
 Responses of Governor Michael O. Leavitt to Additional Questions from 
                             Senator Wyden
    Question 1. There are 15 communities in Region 10 that have 
combined sewers. Knowing that all the communities in Oregon have 
enforceable orders with the State to control combined sewer overflows 
(CSOs), why was the city of Portland targeted for investigation?

    Question 2. The U.S. Environmental Protection Agency (EPA) received 
copies of the agreements entered into between the City and the State of 
Oregon back in 1991 and again when the agreement was amended in 1994. 
EPA began looking into Portland's efforts in February 2001, 10 years 
after the City had first signed an enforceable order with the Oregon 
Department of Environmental Quality. Why did the Agency wait for 10 
years to ask questions about the city of Portland's program?

    Question 3. The city of Portland is more than halfway toward 
meeting its goal of a 96 percent reduction in combined sewer overflow 
volumes. This is a more stringent reduction level than many communities 
around the country are committed to achieve, and more stringent than 
EPA guidance. Why would EPA spend scarce resources to pursue a 
community already on schedule to go beyond what EPA has approved 
elsewhere?

    Question 4. The city of Portland has spent over $100,000 in 
expenses and staff time to respond to your requests for information, 
visits, tours, and meetings. How much money has EPA spent on staff 
time, travel and the use of consultants to undertake this two and a 
half year effort?

    Question 5. The July 7, 2003 letter from Department of Justice 
claims EPA finds the City to have violated the Clean Water Act because 
they have had hundreds of CSO events during the past 5 years. How is it 
possible given that the order signed by the State and the City 
expressly contemplates CSOs will continue until the abatement program 
is completed in 2011? Does this mean that the Federal Government does 
not recognize the CSO abatement orders issued by the State of Oregon?

    Question 6. The July 7, 2003 letter discusses the need for the 
Federal Government to collect penalties from the City. The Portland 
community has already spent over $500,000,000 of local ratepayer money 
since 1991 to attack the CSO problem. They will undoubtedly spend at 
least that much during the next 8 years to finish the job they have 
already begun. What purpose would a financial penalty serve? What is 
the economic benefit the City has enjoyed during the past 10 years when 
sewer rates have tripled to address the very problems all of us are 
interested in solving?
    Response 1-6. As we discussed in our earlier meeting, I am not 
familiar with the facts of this case. Until confirmed, I am not privy 
to the details of ongoing enforcement actions or of the government's 
position, but look forward to being briefed on the subject.

    Question 7. In order to evaluate EPA's actions in connection with 
the city of Portland's Combined Sewer Overflow program, I am requesting 
the following documents concerning this matter:

    <bullet>  All correspondence, including electronic mail, regarding 
the Environmental Protection Agency's and your consultants' 2001-2003 
inquiry into the city of Portland's Bureau of Environmental Services 
operation of its wastewater treatment and collection system; compliance 
with the Combined Sewer Overflow and Separate Sewer Overflow provisions 
of the City's National Pollution Discharge Elimination System (NPDES) 
permits (Columbia Boulevard and Tryon Creek Wastewater Treatment 
Plants); and compliance with Department of Environmental Quality (DEQ) 
Amended Stipulation and Final Order, No. WQ-NWR-91-75, dated August 11, 
1994 regarding the city of Portland's combined sewer system.
    <bullet>  All notes, summaries, communications, meeting schedules, 
requests for information and documents regarding Portland's compliance 
with requirements for combined sewer overflow control.
    <bullet>  All correspondence, guidance, initiatives, memoranda, 
enforcement initiatives or other materials related to EPA's request of 
the city of Portland for information regarding operation of wastewater 
treatment and collection systems and compliance with the Combined Sewer 
Overflow and Separate Sewer Overflow provisions of NPDES permits, 
within the past 3 years.
    <bullet>  All correspondence, including electronic mail, guidance, 
initiative, memoranda, and documents or other materials relating to 
national, regional or local policies regarding the administration of 
the Underground Injection Control (UIC) program within the State of 
Oregon within the past 3 years.
    Response. Because this is an ongoing enforcement action, I do not 
have access to any documents.

    Question 8. Recently, when Oregon Governor Ted Kulongoski spoke 
with the President, he made funding the cleanup of the Portland Harbor 
Superfund site a top priority. If confirmed as EPA Administrator, will 
you support additional funding for Superfund cleanup projects, 
including the cleanup of one of the core pieces of transportation 
infrastructure in the Pacific Northwest--the Portland Harbor? 
Specifically, will you support the full funding of the McCormick & 
Baxter cleanup currently estimated at $10 million and for cleanup of 
the larger Portland Harbor site estimated at $200 million plus?
    Response. I am aware of but not fully familiar with the Portland 
Harbor Superfund site. If confirmed, I am committed to the effective 
and efficient use of the Superfund.

    Question 9. In your written testimony to the committee, you 
described a successful collaboration to clean up groundwater 
contamination from the Kennecott Copper Mine that threatened the water 
supply of Utah's population that was done outside the Superfund 
program. Aside from the dollars Oregon is seeking to aid in cleanup, 
would you be willing to work with the State, the local community and 
other interested parties to move forward to clean up the Portland 
Harbor site as quickly as possible, including alternatives outside the 
Superfund program?
    Response. As a Governor, I am committed to a strong State-Federal 
partnership to protect the environment and public health. If confirmed, 
I will seek the input of the States in determining how best to support 
their efforts and how to tailor our support to address their most 
pressing needs. With regard to Portland specifically, I am not privy to 
the details and therefore cannot comment at that level of detail.
                                 ______
                                 
Responses by Governor Michael O. Leavitt to Pre-Hearing Questions from 
                             Senator Wyden

    Question 1. There are 15 communities in Region 10 that have 
combined sewers. Knowing that all the communities in Oregon have 
enforceable orders with the State to control combined sewer overflows 
(CSOs), why was the city of Poland targeted for investigation?

    Question 2. The U.S. Environmental Protection Agency (EPA) received 
copies of the agreements entered into between the City and the State of 
Oregon back in 1991 and again when the agreement was amended in 1994. 
Your agency began looking into Portland's efforts in February 2001, 10 
years after the City had first signed enforceable order with the Oregon 
Department of Environmental Quality. Why did the agency wait for 10 
years to ask questions about the city of Portland's program?

    Question 3. The city of Portland is more than halfway toward 
meeting its goal of a 96 percent reduction in combined sewer overflow 
volumes. This is a more stringent reduction level than many communities 
around the country are committed to achieve, and more stringent than 
EPA guidance. Why would EPA spend scarce resources to pursue a 
community already on schedule to go beyond what EPA has approved 
elsewhere?

    Question 4. The city of Portland has spent over $100,000 in 
expenses and staff time to respond to your requests for information, 
visits, tours, and meetings. How much money has EPA spent on staff 
time, travel and the use of consultants to undertake this two-and-a-
half-year effort?

    Question 5. The July 7, 2003 letter from Department of Justice 
claims EPA finds the City to have violated the Clean Water Act because 
they have had hundreds of CSO events during the past 5 years. How is it 
possible given that the order signed by the State and the City 
expressly contemplates CSOs will continue until the abatement program 
is completed in 2011. Does this mean that the Federal Government will 
recognize the CSO abatement orders issued by the State of Oregon?

    Question 6. The July 7, 2003 letter discusses the need for the 
Federal Government to collect penalties from the City. The Portland 
community has already spent over $500,000,000 of local ratepayer money 
since 1991 to attack the CSO problem. They will undoubtedly spend at 
least that much during the next 8 years to finish the job they have 
already begun. What purpose would a financial penalty serve? What is 
the economic benefit the City has enjoyed during the last 10 years when 
sewer rates have tripled to address the very problems all of us are 
interested in solving?
    Response to Questions 1-6. I am not familiar with the facts of that 
case. Until confirmed, I am not privy to the details of ongoing 
enforcement actions or of the government's position.
                               __________
 Responses of Governor Michael O. Leavitt to Additional Questions from 
                             Senator Carper
Motiva Oil Refinery and Consent Decree
    Question 1. The nation's largest single source of airborne sulfur 
dioxide emissions is located in Delaware. The Motiva refinery, in 
Delaware City, has been a source of problems for decades and a major 
contributor to the air quality problems in Delaware and New Jersey. In 
2001, the EPA, DNREC, and Motiva finally entered into a consent decree 
to reduce sulfur emissions by installing modern pollution controls on 
the two major sources of pollutions--the coker and the cracker by the 
end of 2003 and 2004 respectively. Unfortunately those deadlines will 
not be met because earlier this year discussions about what type of 
emissions control should be used led to delays and eventually a revised 
consent decree proposal. I asked Governor Whitman, who was 
Administrator at the time, to become personally involved and not allow 
the elements of the original consent decree to be weakened in any way. 
She agreed to that and I think was working in good faith with us in 
Delaware until her departure this summer.
    Are you familiar with this consent decree?
    Response. I became aware of this situation through our discussions. 
However, I am not familiar with the details of this consent decree. If 
confirmed, I look forward to the opportunity to learn about this matter 
and others undertaken by EPA to ensure that the health and environment 
of our citizens are protected.

    Question 2. Will you commit to work with me, with Senator Biden, 
and with the people of Delaware to do all that is necessary to reduce 
emissions at the refinery as soon as possible?
    Response. If confirmed, I commit to working with you, Senator Biden 
and the community to address your concerns. I look forward to learning 
more about this and other environmental issues in Delaware.

    Question 3. Will you personally review the proposed amendment to 
the consent decree to determine the delays and changes it includes are 
appropriate and if they are not, will you block it from taking effect?
    Response. If confirmed as EPA Administrator, I would welcome the 
opportunity to learn more about the consent decree to understand 
whether the changes it includes are appropriate.
CO<INF>2</INF> and Global Warming
    Question 4. The committee is currently considering several 
legislative proposals that would place, for the first time, mandatory 
controls on the emissions of CO<INF>2</INF> and some other greenhouse 
gases. Senator Jeffords and I have both offered proposals addressing 
electric power plants, and Senator Lieberman has an even broader bill 
addressing CO<INF>2</INF> emissions economy-wide. The President, during 
his campaign, even supported controlling CO<INF>2</INF>. However since 
he took office his position has changed, although the facts have not. I 
have several questions on this topic:
    1. What is your position on global warming?
    2. Do you believe the science to date indicates global warming is 
happening?.
    3. Do you believe emissions of greenhouse gases can continue 
uncontrolled indefinitely without any negative impact?
    Response. A passive approach to address climate change is 
insufficient. The President has proposed a series of immediate, 
deliberate actions that I fully support: establishment of a national 
goal on the reduction of greenhouse gas intensity, substantial 
increases in research, partnerships within the international and 
industrial sectors, new agriculture sequestration projects, and focus 
on new technologies.
Draft Report on the Environment
    Question 4. Apparently internal documents at the EPA, which were 
released to the press earlier this year, suggest that staff at the 
White House attempted to force the Agency to rewrite information on 
global warming in its ``Draft Report on the Environment''. 
Administrator Whitman made the decision to delete the global warming 
chapter from the report rather than print false information, but the 
net result is that the White House has placed what amounts to a gag 
order on the EPA when it come to discussing global warming and climate 
change.
    Since the report is officially still in draft form, will you agree 
to review the data, and the edits that occurred including those made by 
the White House, and consider reinserting the global warming chapter as 
originally written by the staff at the EPA?
    Response. I applaud Administrator Whitman for this valuable report 
on a wide range of topics relating to the environment. I am not 
familiar with all of the issues you have raised but, if confirmed, I 
welcome the opportunity to learn more on this topic.
Clean Air
    Question 5. Following up on a point I made in my opening statement, 
one of the expectations members of the Senate have of the EPA is that 
it provide reliable, unbiased, information on the various proposals we 
are asked to consider. Unfortunately during the past 2 years that has 
not occurred as much as it should. As I think Senator Jeffords 
mentioned, there is a large backlog of requests that members of this 
committee have made of EPA which remained unfilled. I am concerned 
about all of those, however I am particularly concerned about a request 
I discussed with Governor Whitman earlier this year to provide 
comprehensive analysis of the Clean Air Planning Act. Given the fact 
that the President has asked this committee to consider the Clear Skies 
Act, and we have been provided substantial analysis from EPA of that 
bill, it seems only fair that we also be provided comparable analysis 
of the alternatives including my bill and that of Senator Jeffords.
    I am concerned that the analysis EPA is planning to conduct of my 
bill will not provide what I asked for--which is a complete analysis of 
the bill with the concept of 4-P (four pollutants) included from the 
beginning, rather than a 3-P bill with carbon tacked onto the end.
    Will you agree to have EPA conduct a rigorous, comprehensive 
analysis of both the costs and benefits of these two other proposals?
    And will you see that such an analysis does not use the results of 
the Clear Skies analysis and simply modify them to fit the dates and 
rates of our bills, but rather starts the analysis with fresh 
assumptions and criteria appropriate to the scenarios described in 
those two bills, including their requirement for mandatory carbon 
controls?
    Response. As I stated at the hearing, if confirmed, it is my 
intention to work with you directly, straightforwardly, and in a way 
that would supply us both with information needed to meet our common 
goal of clean air.
Changes to Definition of a Wetland
    Question 6. This year, the EPA announced that it would consider a 
proposed rule that would limit the scope of the Clean Water Act and the 
wetlands that it has traditionally been applied to. By the EPA's own 
estimates some 20 million acres of wetlands--an area the size of 
Maine--lost Clean Water Act protection under the guidelines issued to 
EPA field staff in January. Additional wetlands, streams, and ponds, 
and other waterbodies could be severely impacted if the proposed 
rulemaking goes forward. During the initial public comment period on 
the rule, 39 out of 42 State agencies that filed comments made it clear 
that they oppose the rule as drafted. Delaware was one of those 39 who 
asked that the rules not--be changed, particularly because it will 
leave isolated freshwater wetlands--common in Delaware--with no 
protections because the State has relied upon Federal law to date, and 
no comparable State authority exists to prevent loss of these important 
wetlands.
    Given your position of encouraging the States to have more 
environmental authority where possible, how would you approach a 
situation such as this where a strong majority has stated it does not 
want to lose existing Federal protections?
    Response. Over the past 11 years, I have had many opportunities to 
work on issues related to wetlands. Wetlands are a very important part 
of a natural heritage that we must protect. I have not been fully 
briefed on this issue, but I commit to you to consider the input from 
States, and others in determining how to proceed.
Total Maximum Daily Load Rules
    Question 7. The EPA has been subject to numerous lawsuits regarding 
its Total Maximum Daily Load rules over the past decade. As a result, 
the Agency has compiled a list of the lawsuits. However, do you know, 
or can you find out, if the Agency has compiled a list of waters that 
have been successfully cleaned up and removed from the program? If not, 
would you create such a data base?
    Response. I am not privy to such information and do not presently 
understand the nuances of the issue well enough to commit to creating 
such a data base.
Mercury MACT Process
    Question 8. Under the Clean Air Act and a court-approved settlement 
agreement, EPA is required to propose regulations by December 15, 2003 
limiting mercury emissions from power plants. The Clean Air Act 
requires those regulations to reflect the limitations achieved by the 
best-controlled sources in the source category. (The actual Clean Air 
Act language is ``the average emission limitation achieved by the best 
performing 12 percent of the existing sources. . . .'')
    EPA established a stakeholder group that met once a month from mid-
2001 to early 2003. At EPA's request, the various stakeholders within 
the group generated numeric recommendations for a standard. Throughout 
the lifetime of the stakeholder group, EPA indicated repeatedly that it 
would use the recommendations to run IPM models of possible approaches 
to a standard. At least four meetings of the group were scheduled with 
the explicit commitment by EPA that IPM results would be presented--but 
they never were. Ultimately, the group was disbanded without its 
recommendations being modeled.
    EPA also committed to the stakeholder group repeatedly to having a 
draft of the rule by June 2003, but this did not happen either. In 
light of the fact that the Office of Management and Budget typically 
takes 90 days to review a proposed rule before its release, and given 
that the proposal is required by December 15, the Administration is 
clearly way behind schedule.
    The reason for this situation is obvious: The Administration claims 
that Clear Skies will result in a 70 percent reduction in mercury 
emissions from power plants. The problem with this figure is that it 
refers to reductions from CURRENT emission levels. A much more 
meaningful comparison is between Clear Skies emission levels and 
business-as-usual levels. If EPA were to model the stakeholder 
recommendations or to come out with a draft rule that was fairly based 
on the recommendations, it would be clear that under Clear Skies 
mercury emissions from power plants in the 2008/2010 timeframe would 
far exceed what they would likely be under the Clean Air Act.
    As Administrator of EPA, would you assure that regulations limiting 
mercury emissions from power plants are promulgated by the December 15, 
2003 deadline?
    Response. I am aware that this situation exists, but I am not 
familiar with all of the issues associated with this question, and, if 
confirmed, I would welcome the opportunity to learn more about the 
issue.

    Question 9. EPA solicited recommendations for a mercury emissions 
standard for power plants from the stakeholder group that it 
established, and made repeated commitments to the group to run IPM 
models based on the recommendations. Further, in recent years the 
Agency has used the IPM model in developing major rules. As 
Administrator, would you use the IPM model in arriving at a proposed 
mercury rule? If not, why not?
    Response. As Governor of Utah, one of my major tenets was the use 
of sound science and analysis in making informed public policy 
decisions. If confirmed, scientific and economic analysis will be 
continue to play a major role in EPA policy.

    Question 10. The Clean Air Act requires that regulations for 
mercury emissions from power plants reflect the limitations achieved by 
the best-controlled sources. If the Administration promulgates a 
standard that fairly reflects that requirement, it will be obvious that 
Clear Skies would be much weaker than the Clean Air Act in dealing with 
mercury emissions from power plants. As Administrator, how would you 
deal with this dilemma?
    Response. I am still learning about this issue, but if confirmed I 
intend to comply with all legal requirements.
Request for Updates on the Status of Several Rules/Regulations/Actions
    Question 10. Governor Leavitt, As is always the case the EPA is 
working on a number of rules and proposals.
    To name just a few, they include the new 8-Hour Ozone Standard, the 
PM 2.5 Standard, the Non-Road Heavy Duty Diesel Rule, Air Toxics from 
Mobile Sources. Attached is a list of 11 rules or regulations that I 
understand are forthcoming from the Agency.
    1. Please provide an update on the status of each of these 11 
items.
    2. Will you commit to seeing that each of these proceed forward 
without delay?
    I suspect a new EPA Administrator would get an update on these as 
part of your ``orientation'' to the job, and I ask that you share that 
information with us on the committee.
    Response. The status of each of the deadlines for the topics set 
forth in your request is not known to me. If confirmed, I look forward 
to learning more about each of these important areas and the actions 
EPA is undertaking to ensure its obligations under the Clean Air Act 
are met in a timely manner. I am committed to providing cleaner air for 
the public and will make every effort to ensure that EPA meets 
applicable deadlines.
                                 ______
                                 
 Responses of Governor Michael O. Leavitt to Additional Questions from 
                            Senator Clinton
    Question 1. On Wednesday, January 15, the Environmental Protection 
Agency (EPA) and the U.S. Army Corps of Engineers (Corps) published in 
the Federal Register an Advance Notice of Proposed Rulemaking (ANPRM) 
raising questions about the jurisdiction of the Clean Water Act (CWA). 
Simultaneously, they released guidance to their field staff regarding 
Clean Water Act jurisdiction over certain non-navigable, intrastate, 
isolated waters.
    Both the ANPRM and guidance represent attempts to remove Federal 
protection from many waters (including many creeks, streams, small 
ponds, and wetlands) that have been protected by the Clean Water Act 
for 30 years.
    Do you support the proposed rulemaking to limit the types of 
streams, wetlands, ponds or other waters that are covered by the 
Federal Clean Water Act? If so, which waters do think should not be 
regulated by the EPA or Corps?
    Response. Over the last 11 years, I have had many opportunities to 
work on issues related to wetlands. Wetlands are a very important part 
of a natural heritage that we must protect. I have not been fully 
briefed on the issue, but if confirmed, I commit to you to consider the 
input from States and others in determining how to proceed on this 
issue.

    Question 2. Agencies from 39 States submitted comments to the Bush 
Administration indicating that they oppose the proposal to restrict the 
waters that receive Federal Clean Water Act protection. Many stated 
that they lack either the legal tools or financial resources to protect 
all of the waters in their States without the Clean Water Act. Would 
you support restricting Federal protections even if States opposed such 
a move?
    Response. If confirmed, I intend to utilize a process that takes 
into consideration input from States, tribes, and local government as 
well as other interested parties.

    Question 3. As Governor of Utah, have you supported any proposal to 
restrict the scope of the Clean Water Act's jurisdiction, or allow 
States to determine which waters should be protected by water quality 
standards?
    Response. The State is implementing the Clean Water Act. However, 
this question may be interpreted to apply to numerous actions or 
statements regarding the Clean Water Act. During my tenure as Governor, 
State agencies have made recommendations regarding various aspects of 
the Clean Water Act and its reauthorization. Both Western Governors 
Association and National Governors Association have adopted resolutions 
regarding various aspects of the Clean Water Act and its 
reauthorization. The State of Utah has been involved in plans to 
construct the Legacy Highway and in the judicial challenge to the 
project; aspects of the Clean Water Act are under consideration in this 
matter. The State is from time to time named as a party in a lawsuit, 
based in part on some aspect of implementation of the Clean Water Act.

    Question 4. If you determined at some point that there was a need 
to redefine which waters are covered by the Clean Water Act, would you 
commit to bring such a proposal to this committee and to Congress in 
the form of legislation rather than making changes to the scope of the 
law through regulatory changes?
    Response. Before I could make a determination whether a legislative 
fix was needed, I would need to be briefed fully on the issue.
    One of the earliest and biggest controversies of this 
Administration's environmental policies was the effort to reopen the 
rule that lowered the Safe Drinking Water Act standard for arsenic in 
drinking water from 50 parts per billion to 10 ppb.

    Question 5. If confirmed, would you be aggressive in enforcing the 
Clean Water Act especially in guiding the cleanup of Onondaga Lake and 
the Hudson River? Would you use your authorities under the Clean Water 
Act to regulate ships' ballast discharges in the Great Lakes?
    Response. I will be aggressive in enforcing the Clean Water Act. As 
I said in my confirmation hearing, if there are those who avoid or 
evade the requirements of the law the full weight of the EPA and the 
law will be brought to assure their compliance.
    I am not familiar with the issue of regulating ballast water 
discharges by ships into the Great Lakes, but if I am confirmed I will 
look closely at the issue.

    Question 6. As Governor of Utah, did you (individually or as part 
of the Western Governors Association) or your State agencies take any 
position with respect to the arsenic in drinking water rule?
    Response. Yes, the Utah Division of Drinking Water took a stance 
that 10 ppb was too low a standard and that 20 ppb would have been a 
better standard. The Division of Drinking Water based their position on 
a study that EPA funded in 1997, and published in the Environmental 
Health Perspectives Volume 107, Number 5, May 1999. The study is 
entitled ``Drinking Water Arsenic in Utah: A Cohort Mortality Study''. 
In the concluding paragraph, the statement is made:``. . . cohort 
members contributed many years to the highly exposed group and some 
died at an advanced age with no perceived adverse effects, . . .'' The 
Division staff felt that the old standard of 50 ppb was too high, and 
that additional studies were needed to determine dose/response 
relationships at the lower 3-10 ppb level that was being proposed.

    Question 7. A February 2003 EPA report on Clean Water Act 
enforcement rated Utah dead last--tied with Ohio and Tennessee--on 
Clean Water Act enforcement. The report rated the State using a number 
of factors, and Utah scored very poorly in each category.
    Can you explain why Utah was rated last in this report?
    Response. I inquired of the Utah Department of Environmental 
Quality and was supplied with the following information. At the time 
the reports were pulled from the EPA PCS data base, our data entry was 
incomplete; the missing data were flagged as violations. Other data 
were incorrect. The data are now current, and Utah's low rate of 
noncompliance ranks with the 10 best States in the Nation.
    I am informed that of the Kennecott violations cited in the report, 
five of the six were not actual violations. Three of the reported 
violations were due to data entry errors in PCS, one was a reporting 
error by the permittee, and one appears to be a problem with the PCS 
system itself. The data base has been corrected. One item which is 
flagged as a violation is for a compliance schedule being missed on a 
special environmental project done by a third party. This information 
should not have been coded into PCS in the first place and is not a 
Kennecott violation. The reported 900 percent exceedance of mercury was 
due to an error in the coding of the effluent limits. Their actual 
discharge did not exceed permit limits.

    Question 8. As Governor, did you or your State environmental 
agencies ever oppose US EPA efforts to enforce Federal laws like the 
Clean Air Act, Clean Water Act, hazardous waste laws or other laws 
overseen or administered by EPA? If so, can you provide the committee 
with a list of any such incidents?
    Response. I support implementation of the Clean Air Act, the Clean 
Water Act, and other laws administered by EPA In 1994, the State of 
Utah filed a petition in the Federal 10th Circuit Court of Appeals 
challenging decisions by EPA that 1) Utah's request to redesignate the 
Salt Lake and Davis Counties Area from a nonattainment area for ozone 
to an attainment area was incomplete and 2) Utah had failed to timely 
submit SIP revisions thereby starting a clock that could lead to 
imposition of sanctions to include restrictions on the use of highway 
funds. EPA had also informed the State that the finding of 
incompleteness triggered a ban on conformity findings for new 
transportation projects. Subsequent actions by EPA offered to Utah an 
opportunity to submit a reorganized request for redesignation. Utah 
accepted the offer and EPA withdrew its finding of incompleteness and 
conformity ban. Utah submitted a revised plan and EPA determined it was 
complete. Further, EPA initiated rulemaking and determined the State 
had attained the ozone standard redesignating Salt Lake and Davis 
Counties to attainment. The case was therefore voluntarily dismissed by 
agreement of Utah and EPA in 1995.
    Utah has also filed Amicus Briefs supporting EPA's adoption of 
Clean Air Act regulations.
    There have been hundreds of compliance actions by the State and EPA 
during the last decade conducted cooperatively which reflect the State-
Federal partnership we have tried to create.

    Question 9. Under this Administration, enforcement of many laws 
administered or overseen by EPA has declined.
    If you were Administrator, what specific steps would you take to 
address this problem? Can you pledge to this committee that enforcement 
levels--number of civil and criminal cases filed, and size of 
penalties--would be restored to previous levels? Would you support 
bringing the number of EPA enforcement staff back to previous (FY 2001) 
levels?
    Response. As I said in my confirmation hearing, if there are those 
who avoid or evade the requirements of the law the full weight of the 
EPA will be brought to assure their compliance.

    Question 10. Aquatic invasive species are an enormous problem for 
the Great Lakes which alter the food chain and habitat of native 
species and cause hundreds of thousands of dollars of damage for 
industry each year.
    Are you aware of the problem of aquatic invasive species and do you 
support having the EPA take a more active role in preventing new 
invasions?
    Response. I am not familiar with the particulars of the impact of 
aquatic invasive species on the Great Lakes, but I am interested in 
learning more about this issue and the appropriate role for EPA in 
addressing the problem.

    Question 11. Research over the past decade has demonstrated that 
children and the elderly are more vulnerable to a variety of 
environmental health hazards, and that some populations, particularly 
low-income and minority communities, face greater exposures to such 
hazards.
    How will you assure the protection of the health of those who are 
most vulnerable? How will vulnerable populations be considered as EPA 
sets health and safety standards? What steps will you take to reduce 
health hazards to those who face higher exposure levels?
    Response. I certainly believe it is important to protect sensitive 
populations from exposure to environmental hazards. I am not familiar 
with EPA's specific efforts to consider sensitive populations in its 
rules and policies. If confirmed, I look forward to learning more about 
what the Agency is doing in this regard and in having the Agency play a 
leadership role in protecting children, the elderly, and low income and 
minority communities.

    Question 12. In discussing how the implementation of environmental 
policies and programs should be guided by cost/benefit approaches, the 
``Enlibra Principles'' you promote, as adopted by the Western Governors 
Association, say ``not all benefits and costs can be easily quantified 
or translated into dollars. There may be other non-economic factors 
such as equity within and across generations that should also be fully 
considered and integrated into every assessment of options. The 
assessment of options should consider all of the social, legal, 
economic and political factors while ensuring that neither quantitative 
nor qualitative factors dominate.'' I commend you for acknowledging the 
importance of qualitative as well as quantitative issues, and for 
recognizing the impact of our actions across generations.
    How would you go about incorporating these principles in Federal 
policy? What changes to our current cost/benefit process do you 
espouse?
    Response. Enlibra is a philosophy. One of the principles is to 
recognize benefits and costs. The rationale is simple: we can make 
better decisions if we are fully informed, including quantitative and 
qualitative factors. I do not have sufficient information, and it would 
be premature to recommend specific changes to how benefit-cost analysis 
is done in the EPA.

    Question 13. A strong and effective Office of Children's Health 
Protection (OCHP) is vital to ensure that the EPA's standards and 
regulations protect children from environmental health and safety 
hazards. I believe the OCHP, in collaboration with public health 
agencies such as the Centers for Disease Control and Prevention, can be 
instrumental in improving the EPA's research efforts to evaluate the 
impacts of environmental exposures on children's health and to develop 
the strongest and best protective measures.
    Do you agree with these statements? How do you see the role of OCHP 
in your EPA? Will the OCHP continue to report directly to you? The 
Office has been without a permanent director since March 2002, and 
substantial new responsibilities have been placed in it without 
commensurate increases in staff and resources. How will you address 
these problems?
    Response. I agree that EPA needs to take a leadership role to 
protect children from environmental hazards. I am not familiar with the 
responsibilities of the office you mention or the particular situation 
with its director or staff resources. If confirmed, I look forward to 
learning more about this office and its efforts to protect children's 
health.

    Question 14. There are currently 12 Centers for Children's 
Environmental Health and Disease Prevention Research Centers, two of 
which are based in New York, one at Mt. Sinai Medical Center and 
another at Columbia University. The 12 centers combine a 
multidisciplinary approach to researching, identifying, treating, and 
ultimately preventing health risks posed to children by environmental 
hazards in the communities in which they live, play and attend school. 
The research and outreach that these centers initiate is unparalleled. 
The centers have not only begun important studies into the potential 
impacts of our environment on children's health, but have also 
cultivated invaluable relationships with their surrounding communities.
    As you may know, these Centers are jointly funded by the EPA and 
the National Institute for Environmental Health Sciences (NIEHS). 
However, the EPA cut their portion of the funding by $1.5 million a 
year in the 2004 budget, which would essentially leave funding for only 
10 centers in the next cycle. Withdrawing support for these programs at 
this time would weaken the development of these important studies and 
thwart, rather than foster, the unique community-university 
relationships that have already been established.
    Will you support maintaining funding for these centers in your 
budget requests so they can continue research efforts on behalf of our 
nation's children?
    Response. I agree that research efforts involving children and 
other sensitive populations are very important. I would need to be 
fully briefed before making any decisions on funding of research 
efforts in this area.

    Question 15. The EPA plan to clean up the Hudson River was finally 
completed after 10 years of analysis. This project is essential to 
ensuring environmental and public health safety for New Yorkers. This 
long awaited project gives hope to residents that dredging will cleanup 
the most contaminated parts of the river, and bring the river's 
condition to acceptable health and safety levels.
    If confirmed, will you support implementation of the Hudson River 
plan and do everything within your power to ensure that the cleanup 
proceeds as expeditiously as possible? Further, will you commit to an 
open and transparent process that provides adequate opportunity for 
input from the public and all interested parties?
    Response. I am certainly committed to an open and transparent 
process for information sharing and public input. I look forward to 
learning more about this site and working with communities and other 
interested parties as the project proceeds.

    Question 16. In my time in the Senate, I have witnessed the 
economic and community benefits of the brownfields programs throughout 
New York State. New York has the potential to become a leader in the 
redevelopment of brownfields--thus far it has created jobs, spurred 
economic development and recycled acres of New York lands. I have co-
sponsored the Brownfield Site Redevelopment Assistance Act, and the 
Brownfield Revitalization and Environmental Restoration Act of 2001, 
which was signed into law in January 2002. This law created a 
significant new influx of Federal resources into brownfield 
redevelopment activities. The expansion in Federal resources makes it 
more important than ever that communities across New York State are 
aware of and able to take advantage of available resources.
    Will you support full funding for this important program at its 
authorized levels in your budget requests?
    Response. I am a strong supporter of the cleanup and redevelopment 
of Brownfield properties. If confirmed, I commit to continue EPA's 
efforts to provide funding to help State and local governments cleanup 
and redevelop Brownfield properties.

    Question 17. As you are well aware, the EPA recently issued its 
final rule regarding New Source Review. This new rule which allows 
plants to get out of placing pollution controls when they replace 
equipment, even if the new equipment would increase pollution, would 
have a significant negative effect on New York's environment. As it is, 
medical evidence strongly links air pollution to asthma attacks, heart 
attacks, cardiopulmonary disease, cancer, and premature death. The 
American Lung Association's ``State of the Air 2002'' report notes that 
Staten Island had 37 unhealthy air days due to high ozone levels, while 
Manhattan had 36, Suffolk County on Long Island had 34, and Chautauqua 
County had 28 between 1998 and 2000. This acid deposition has caused 20 
percent of the lakes in New York's Adirondack Park region to become too 
acidic to support fish life. Federal studies conclude that the 
percentage of acidified lakes is expected to increase or even double 
over the next four decades unless upwind emissions of nitrogen oxides 
and sulfur dioxide, primarily from coal-fired power plants, are 
reduced.
    Will you suspend implementation of these rules, pending a thorough 
study of its impacts on human health and the environment?
    Response. I am aware that there are differing perspectives 
concerning the recent changes made by EPA to the New Source Review 
program. If confirmed, I would like to understand in greater depth and 
detail the data, issues and perspectives associated with this complex 
subject.

    Question 18. Prior to becoming Governor, you were part owner in a 
fish hatchery, which reportedly spread the fish pathogen ``whirling 
disease'' by conducting illegal transfers of infected fish throughout 
Utah. The farm's owners were reportedly charged with 33 counts by the 
Utah Attorney General, including the charge of operating a fish-
hatchery without a license. It has been reported that once you took 
office as Governor, 71 employees of the Utah Division of Wildlife 
Resources were fired, demoted or left the Agency, including those 
involved in the investigation of the fish hatchery that you . In 
addition, it has been reported that regulation of commercial fish 
hatcheries was subsequently removed from Utah's Department of Fisheries 
and transferred to an advisory committee comprised primarily of fish 
industry executives.
    Are these reports accurate? Can you explain why you made these 
changes in personnel and the way in which hatcheries are regulated in 
Utah?
    Response. This question and the article that is referenced are 
based on inaccurate information. As Governor, I have scrupulously 
avoided making statements or taking actions that could influence State 
regulations of the aquaculture industry. Personnel changes at the State 
Division of Wildlife Resources were unrelated to whirling disease and 
based on recommendations from a national consultant. They occurred as 
part of a statewide restructuring that impacted every State agency as I 
began my public service. The former Chief of Fisheries, Bruce Schmidt, 
made it clear in a public forum letter published in the Salt Lake 
Tribune that, ``throughout the attempt to clean up whirling disease, 
the Governor had no direct involvement in the decisions made regarding 
the investigation or the negotiations on actions required to eliminate 
and/or contain the disease.'' (Salt Lake Tribune, 9/13, 2003.)

    Question 19. Concerned Utah citizens have brought several 
environmental enforcement cases to my attention that I would like your 
comments on. According to the information provided to me:

    <bullet>  The Phillips Refinery, in the populated Wasatch Front of 
Utah, emitted excessive amounts of sulfur more than 1,000 times between 
September 1994 and November 1997. During the fall of 1994, the 
company's monitoring system was down as much as 39.6 percent of the 
time. EPA took enforcement action against the facility in November 
1997, but said it may not have, had the Utah Department of 
Environmental Quality done its job. DEQ instead defended the Phillips 
Refinery and criticized EPA's action.
    <bullet>  In December 1995, the Utah Department of Environmental 
Quality (DEQ) issued a Notice of Violation to Envirocare for numerous 
problems at its radioactive waste disposal site, including improper 
storage, leaking containers and cracks in storage pads. The State 
assessed a $30,000 fine for these violations. U.S. EPA expressed 
concern over the penalty being too low, and DEQ responded by increasing 
the penalty to $79,000. Convinced that this was still too low given the 
severity of the violations, the EPA issued its own Notice of Violation 
and fined Envirocare over $600,000.
    <bullet>  Your DEQ failed to press US Magnesium (formerly MagCorp), 
a magnesium ore facility listed by EPA as one of the nation's worst 
polluters, to reduce its pollution and end illegal dumping practices 
despite intense local pressure from citizen groups. US Magnesium only 
started to clean up its act after EPA stepped in with a series of 
Federal enforcement actions against the company.

    Are these descriptions accurate? If so, can you explain why DEQ did 
not enforce the law in a timely and meaningful manner in each of these 
situations?
Response Regarding Phillips Refinery
    The Phillips Refinery situation resulted from a difference in 
interpretation of language in the Utah State Implementation Plan (SIP); 
it was not an issue of the Utah Department of Environmental Quality 
(DEQ) not doing its job. The Department and EPA Regional VIII spent 
many months trying to resolve their differences but were ultimately 
unable to agree. The DEQ did state its position on the matter and 
defended its SIP language, but DEQ did not defend Phillips. There were 
no violations of any air quality standards in Davis County during the 
period in question.
Response Regarding Envirocare
    The Notice of Violation (NOV) issued to Envirocare in 1995 was 
resolved through a negotiated settlement agreement. This settlement 
included a $30,000 penalty that was calculated using Utah's penalty 
policy and methodology, both of which are approved by EPA, for 
violation classification. Using its own penalty policy and calculation 
methodologies (which are significantly higher than Utah's policies), 
EPA concluded that Utah's penalty was insufficient. Although the State 
disagreed, attempts were made to negotiate an amendment to the original 
settlement in order to satisfy EPA's concerns. These negotiations were 
never finalized because EPA proceeded to issue its own complaint 
against the company. This complaint was a copy of the State NOV 
reformatted into an EPA document. The complaint also included EPA's 
opinion that Envirocare's potential penalty liability was approximately 
$600,000. Subsequent to the EPA complaint, Envirocare, the State and 
EPA negotiated a three-party agreement to resolve the issue, which 
included an additional penalty of $167,065.20, bringing the total 
penalty to $197,065.20.
Response Regarding US Magnesium
    EPA's involvement in the US Magnesium issue was at the invitation 
of the State. EPA was asked to provide an interpretation of a Federal 
hazardous waste rule to assist the State in defining regulated waste 
streams at the facility. There has been no final resolution of these 
issues; there have been settlement discussions.

    Question 20. Should you be confirmed, would you consider it EPA's 
responsibility to provide an enforcement backstop for the States in 
cases where States decline to enforce the law?
    Response. It is important that EPA and the States work in concert 
to achieve environmental compliance. Each partner brings special 
strengths that support the other. I would ensure that the law is 
enforced, but EPA can achieve our national goals best by finding ways 
to improve State compliance programs that have primary responsibility 
for environmental program implementation in most areas. There are a 
variety of existing mechanisms to effectively respond in an instance 
when a State declines to enforce the law.

    Question 21. Can you please explain your environmental enforcement 
philosophy as Governor of Utah. How will it affect your environmental 
enforcement philosophy as EPA Administrator?
    Response. I have always supported enforcement of environmental 
regulations as Governor of Utah. For example, EPA has given very high 
marks to the Utah Division of Air Quality's Compliance Program for 
several years. Utah has been recognized as a leader in compliance 
assurance and the use of Supplemental Environmental Projects to benefit 
public health and the environment such as dioxin assessments, renewable 
energy, and raptor protection. I would continue that philosophy if my 
nomination is confirmed.
                               __________
Statement of U.S. EPA Labor Unions on Improper White House Influence on 
       EPA'S Response to the Terror Attack of September 11, 2001
    We, the undersigned representatives of the workers who perform 
health and environmental protection duties at the U.S. Environmental 
Protection Agency across America, express our anger and dismay over 
evidence of the White House's improper actions in connection with 
communicating health risk information to emergency workers and 
residents in New York immediately following the terror attacks on that 
city on September 11, 2001.
    EPA's dedicated Civil Service employees performed their duties 
swiftly and competently following the terror attack, assessing as 
accurately as possible the environmental health risks faced by the 
brave rescue workers and nearby residents from toxic substances 
released in the attack. These workers reported to senior EPA officials 
their best estimate of the risks, and they expected those estimates and 
the accompanying recommendations for protective measures to be released 
in a timely manner to those who needed the information.
    The public was not informed of all of these health risks, some of 
which were avoidable. This information was withheld from the public 
under orders from the White House. Instead, the Bush White House had 
information released, drafted by political appointees, that it knew to 
contradict the scientific facts. It misinformed. And many rescue 
workers and citizens suffered. Some citizens now face the long-term 
risk of asbestos-related lung cancer as well as other debilitating 
respiratory ailments as a result.
    Little did the Civil Service expect that their professional work 
would be subverted by political pressure applied by the White House. 
This unwarranted and inexcusable interference with the professional 
work of the Civil Service by politicians reporting directly to 
President Bush caused rescue workers and residents to be exposed to 
health risks that could have been, indeed should have been, avoided.
    We express our solidarity with the rescue workers and residents who 
were affected adversely by this outrageous action of President Bush's 
staff. There is no excuse for White House politicians imposing their 
values and overriding the Civil Service's best advice on protecting 
those still digging in the wreckage and those whose homes and offices 
were covered with toxic debris.
    President Bush owes the rescue workers, residents, dedicated Civil 
Service workers and the American people more than an apology for his 
actions in this matter. President Bush should take steps to compensate 
the rescue workers and residents who were harmed by his 
administration's actions.
    The President's political appointees' interference with the 
professional work of the EPA Civil Service has seriously harmed EPA's 
credibility. Before there is another national emergency, that 
credibility must be restored.
    The President must pledge to never again order EPA to tell less 
than the whole truth about a public health emergency.
            Signed,
                                               Paul Sacker,
                               President AFGE Local 3911, New York.

                                              Dwight Welch,
                        President NTEU Chapter 280, Washington, DC.

                                               Alan Hollis,
                           President AFGE Local 3631, Philadelphia.

                                             Henry Burrell,
                                 President AFGE Local 3428, Boston.

                                              Nancy Barron,
                               President NAGE Local R5-55, Atlanta.

                                             Gretchen Helm,
                         President AFGE Local 3331, Washington, DC.

                                        Charles Orzehoskie,
                                  President AFGE Local 704 Chicago.

                                         Merrit Nicewander,
                                 President AFGE Local 1003, Dallas.

                                          John C. Anderson,
                            President NTEU Chapter 294 Kansas City.

                                            Kevin Orendorf,
                                 President AFGE Local 3607, Denver.

                                             Wendell Smith,
                              President ESC EPA-Unit San Francisco.

                                              Patrick Chan,
                         President NTEU Chapter 295, San Francisco.

                                            Mary St. Peter,
                                President AFGE Local 1110, Seattle.

                                              Mark Coryell,
                              President AFGE Local 3907, Ann Arbor.

                                              Larry Penley,
                            President NTEU Chapter 279, Cincinnati.

                                            Silvia Saracco,
                  President AFGE Local 3347 Research Triangle Park.

                                      Nita Tallent-Halsell,
                                 President NAGE R12-135, Las Vegas.

                                              Lesley Mills,
                               President NAGE R1-240, Narragansett.

                                           Geraldine Cripe,
                                        President NAGE Local R5-95.
                               __________



                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               
         Statement of the Skull Valley Band of Goshute Indians
    On November 8, 1984, Administrator William D. Ruckelshaus 
promulgated an EPA Policy for the Administration of Environmental 
Programs in Indian Reservations. This Policy recognized Tribal 
Governments as sovereign entities with the primary authority and 
responsibility for tribal lands and their residents. It stated: ``EPA 
will work directly with Tribal Governments as the independent authority 
for reservation affairs, and not as political subdivisions of States or 
other local governmental units.''
    The Policy also recognized Tribal Governments as the appropriate 
entities to be making program decisions for Indian reservation lands. 
This longstanding EPA Policy was reaffirmed by Administrator Christine 
Todd Whitman on July 11, 2001.
    Governor Leavitt's actions toward the Skull Valley Band and other 
Utah Tribes bear no resemblance to the EPA Indian Policy, and many 
Tribes share our concern that he will not reaffirm this national 
policy, and that he will undermine tribal governments in their 
decisionmaking relative to the development and environmental protection 
of their own lands.
    Examples of Governor Leavitt's actions as Governor include:

    <bullet>  Supporting State legislation, enacted in 2001, which 
asserts Utah State regulatory jurisdiction over all Indian reservations 
within the State of Utah. That legislation was declared 
unconstitutional by a U.S. District Judge in July 2002, and the 
Governor's appeal is pending in the U.S. Court of Appeals. Among other 
things, the legislation purported to impose State permitting 
requirements on ``any source of air pollution proposed to be located . 
. . within the boundaries of any Indian reservation . . .'' And on 
``any facility which will potentially or actually have a significant 
impact on the State's surface or groundwater resources . . . even if 
located within the boundaries of an Indian reservation.'' U.C.A. 19-3-
302(7)(b) and (c). The ostensible purpose of the legislation was to 
prohibit the Skull Valley Band from hosting a federally licensed 
storage project for spent nuclear fuel rods on its Reservation, but the 
breadth of the legislation was much greater. Neither Governor Leavitt, 
nor any official of the State, made any effort to consult with Utah 
Indian tribes regarding this legislation.
    <bullet>  Failing to take any action to resolve longstanding claims 
against the State by Navajo Indians residing in San Juan County, Utah, 
for whom the State of Utah holds in trust revenues from oil and gas 
leases from Navajo tribal land under a 1933 Act of Congress. Litigation 
has been pending in Federal court for over a decade, but the only 
response of the Governor has been to suggest that the State divest 
itself of this statutory responsibility. No effort has been made to 
account fully to the Navajo beneficiaries.
    <bullet>  Providing State taxpayer funding of over one half million 
dollars to private attorneys to represent various dissident factions of 
Goshutes to oppose their tribal government by:
    <bullet>  Creating an ostensibly ``traditional'' Indian 
organization, made up of Goshutes and non-Goshutes, to speak out 
against the Band's government, including venues in Washington, DC.
    <bullet>  Filing numerous frivolous lawsuits and administrative 
appeals, none of which have been successful, to challenge a tribal 
lease of reservation lands, the Bureau of Indian Affairs' recognition 
of the Band's Executive Committee as the legitimate governing Body of 
the Band, and the actions of various Federal agencies which have been 
supportive of the Band.
    <bullet>  Withdrawing $42,000 from a tribal bank account, using a 
phony court order, and successfully freezing hundreds of thousands of 
dollars of Federal program funds held in Salt Lake City banks. Three 
different sets of attorneys, funded by the State, are now filing briefs 
to prevent the bank from releasing these funds back to the Band.
    <bullet>  Supporting both Federal and State legislation to build a 
``moat'' (Governor Leavitt's chosen words) around the Skull Valley 
Reservation. Federal legislation, passed by the House of 
Representatives last year, but not enacted, would have prevented the 
Secretary of the Interior from issuing rights-of-way for any industrial 
access across public lands in Utah to reach either of the two Goshute 
Reservations in the Utah West Desert--unless the Governor of the State 
of Utah concurred in allowing the land use planning process to begin. 
The Skull Valley Reservation has no industrial development on its 
Reservation, which is surrounded by toxic waste depots, including 
military installations where biological and chemical weapons have been 
developed. Tooele County, Utah, has zoned this region as a toxic waste 
dump. But the Governor wants veto power over any access to the 
Reservation, and has endeavored to build a ``moat'' around the 
Reservations. He has publicly stated that he will not consult with 
Skull Valley leaders on these issues until they give up their multi-
million dollar (and lawful) opportunity to store civilian nuclear fuel 
rods on their Reservation.
    <bullet>  Holding secret meetings with high-ranking Federal 
officials in Washington, DC, asking them to take actions to withdraw or 
suspend approvals of tribal leases, to withdraw recognition of the 
leadership of the Skull Valley Band, to support legislation which would 
build a ``moat'' around the Skull Valley Reservation, and to oppose an 
ad judicatory licensing process at the Nuclear Regulatory Commission.

    Governor Leavitt's approach to the Skull Valley Band is to force it 
to be dependent upon the charity of their non-Indian neighbors, which 
is the historical policy in Utah for dealing with Indian tribes.
 responses to hearing questions for governor leavitt from skull valley 
                                 tribe
    Question 1. If confirmed as the Administrator of the Environmental 
Protection Agency, will you immediately reaffirm the EPA Indian Policy, 
followed by previous Administrators, dating back to 1984?
    Response. The introductory statement provided with these questions 
does not accurately reflect actions taken by the State of Utah.
    The statements regarding the Skull Valley Band of Goshutes, 
individual members of the Band, and the Goshute Reservation are related 
to a proposal by Private Fuel Storage, LLC, a consortium of nuclear 
power companies, to build a privately owned, for-profit, above-ground 
storage facility for high-level nuclear waste on the Skull Valley Band 
of Goshutes Indian Reservation. No other facility of this nature has 
ever been licensed, and the proposal raises several legal, public 
policy, and practical questions. Utah does not itself generate high-
level nuclear waste, and it has been the policy of the State to oppose 
the proposal in a vigorous but legitimate way. Several members of the 
Skull Valley Band have also opposed the waste facility, because, among 
other reasons, they see it as a form of environmental discrimination 
against them. The license application is pending before the U. S. 
Nuclear Regulatory Commission and the State of Utah is an admitted 
party to that administrative process. The State is also a party in two 
judicial appeals, one with the U.S. Court of Appeals, D.C. Circuit, and 
one with the U.S. Court of Appeals, 10th Circuit. Because I have been 
Governor of Utah during the entire period of these matters and have 
taken specific positions on these matters, I will follow Federal 
procedures to avoid a conflict of interest in these matters, if 
confirmed as Administrator of EPA.
    The statements regarding Navajos living in Utah also misrepresent 
the facts. Utah and a class of individual plaintiffs have been engaged 
for several years in a complex lawsuit. The plaintiffs do not represent 
the Navajo Nation, whose interests are, in fact, adverse to those of 
the plaintiffs. The State of Utah has taken many steps to resolve the 
dispute, including by compiling and turning over to the court more than 
40 volumes of financial accounting. The court has not yet determined 
that the State is liable to the plaintiffs. Because this issue concerns 
matters that I have worked on during my terms as Governor of Utah, I 
will follow Federal procedures to avoid a conflict of interest in this 
matter, if confirmed as Administrator of EPA.
    I look forward to working with Tribal Governments to protect the 
environment. If confirmed, I look forward to learning about the policy 
and establishing the appropriate relationship with sovereign Tribal 
Governments.

    Question 2. Will you personally direct employees of EPA to follow 
the policy, by respecting the decisions made by Indian tribal 
governments to develop, regulate, and administer their own Indian 
tribal lands?
    Response. If confirmed, I expect to be briefed on the policy and 
will implement EPA laws and regulations regarding work with Tribal 
Governments. I will also follow Federal procedures to avoid a conflict 
of interest.

    Question 3. Will you direct EPA employees to support the imposition 
of State regulatory and permitting requirements on Indian tribal and 
allotted lands?
    Response. It is my understanding that EPA employees are responsible 
for implementing Federal environmental laws. If confirmed, I expect to 
be briefed on this issue. I will also follow Federal procedures to 
avoid a conflict of interest in this matter.

    Question 4. Will you direct Agency lawyers to take legal positions, 
contrary to prior Agency legal positions, supporting State 
environmental regulation of Indian lands, without the consent of the 
governing Indian tribes?
    Response. If confirmed, I expect to be fully briefed on Agency 
positions. In dealing with all matters, I will follow Federal 
procedures to avoid a conflict of interest.

                                   - 

</pre></body></html>
